APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of the Sixth Circuit
(June 24, 2019)........ .

la

Judgment Entry of the District Court of
Northern District of Ohio
(November 20, 2018).........................

7a

Memorandum Opinion and Order of the District
Court of Northern District of Ohio
(November 20, 2018)...;..................................... 8a
Memorandum Opinion and Order of the District
Court of Northern District of Ohio
(February 15, 2018)..... ..................................... 15a
Docket Details
United States Court of Appeals for the
6th Circuit........................................

32a

United States District Court of
Northern District of Ohio...

35a

Notice of Appeal
Plaintiff Filing, Notice of Appeal
(December 18, 2018).............

51a

APPENDIX TABLE OF CONTENTS (CONT.)
Complaints
Plaintiff Filing, Amended Complaint
(March 9, 2018)............................
Respectful Amended Complaint
(March 9, 2018).... ...............
Plaintiff Filing, Complaint
(July 7, 2017)...... ........

53a
55a
66a

Charges of Discrimination
Respectfully Submitted with Complaint
Charge of Discrimination
(July 20, 2015)..........

76a

Charge of Discrimination
(April 18, 2017).........

88a

Exhibits to Complaint
Exhibit D — EEOC Letters Missing....................... 94a
‘Dismissal and Notice of Rights” Respectfully
Submitted with Complaint (Docket #1, Attach­
ment #5) (Letter Dated: April 18, 2017)........... 94a
“EEOC: FOIA Letter” Respectfully Submitted
with Complaint (Docket #1, Attachment #5)
(Letter Dated: June 2, 2017).............................. 97a
Exhibit E — Emails Respectfully Submitted with
Complaint (Docket #1, Attachment #6)........ 101a

APPENDIX TABLE OF CONTENTS (CONT.)
U.S. Senator’s Response
(July 22, 2015)........

101a

U.S. Congresswoman’s Response
(July 31, 2015).......................

103a

AFA-CWA Senior Staff Attorney’s Response
(February 28, 2017)..............................

105a

Inflight Manager’s Response
(June 7, 2017).................

106a

Follow-Up with Cleveland President of
Association of Flight Attendants
(June 29, 2017).... ............................

108a

Exhibit F — Letters Respectfully Submitted with
Complaint (Docket #1, Attachment #7)....... 110a
U.S. Senator’s Office
(May 25, 2017)...

110a

Federal Aviation Administration (FAA)
(June 2, 2016)...................................

112a

Occupational Safety and Health Administration
(OSHA) (September 19, 2016)
114a
Health and Wages Overview
Respectfully Submitted with Complaint
Health and Wages Overview
(Docket #1, Attachment #10)

117a

APPENDIX TABLE OF CONTENTS (CONT.)
Stricken Evidence from the Court Record
Plaintiff Filing
(Docket 11) (August 21, 2017)

119a

Appeal Letter Request to the EEOC
for Redacted FOIA Information
(August 21, 2017)........................

121a

Plaintiff Filing
(Docket 14) (August 29, 2017)........

127a

Short List of 79 Irregular Operation Reports
with Responses........................................ 129a
Images of Table Pertaining to Irregular
Operations Report.......... ......................... 135a
Plaintiff Filing
(Docket 16) (September 14, 2017)

139a

EEOC^ FOIA Response Letter
(August 29, 2017).............

141a

Plaintiff Filing
(Docket 17) (September 18, 2017)

143a

Email Correspondence Letter of Concern,
With Former President’s Letter of
Response (July 12, 2016)
146a
OSHA Communication Letter
(August 17, 2017).............

150a

Department of Labor Email Correspondence
(September 12, 2017)
152a

APPENDIX TABLE OF CONTENTS (CONT.)
Plaintiff Filing
(Docket 19) (September 26, 2017).......

154a

EEOC: FOIA Appeal Response Letter
(September 20, 2017).....................

157a

Letter to the President
(April 20, 2017)......

159a

Irregular Operations Report
(September 26, 2017).....

161a

Emails Requesting hard copy of Personnel/
Medical Files (September 25, 2017)
163a
Plaintiff Filing
(Docket 20) (October 17, 2017)
EEOC: FOIA Appeal Response Letter
(October 6, 2017).............................
Plaintiff Filing
(Docket 21) (October 25, 2017)

166a
169a
177a

Letter from Defendants Legal Representative
(October 20, 2017)
180a
Letter Response to Defendants Legal
Representative (October 25, 2017)

182a

Image of Medical CD

184a

FedEx Record of Delivery of CDs
(October 25, 2017)..................

185a

Plaintiff Filing
(Docket 22) (November 3, 2017)

187a

Y
l

f
I
i:
i

APPENDIX TABLE OF CONTENTS (CONT.)

i
!
3

Emails Including: Inflight Management and
Cleveland AFA Union President
(November 3, 2017)
190a

5

^MERIGAHTHEVURYi
r

1

First Sequel

197a

Second Sequel

301a

i

Y
i

*

1

«

£■

?

d.

l

i

■

:«

App.la
ORDER OF THE SIXTH CIRCUIT
(JUNE 24, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CHRISTINA ALESSIO,
Plain tiff-Appellan t,
v.
UNITED AIRLINES, INC.,
Defendan t-Appellee.
No. 18-4251
On Appeal from the United States District Court for
the Northern District Of Ohio
Before: SUHRHEINRICH and WHITE, Circuit Judges.
Christina Alessio, a pro se Ohio resident, appeals
a district court judgment dismissing her civil complaint
construed to be filed under the Age Discrimination in
Employment Act (“ADEA”), 29 U.S.C. §§ 621-634; the
Americans with Disabilities Act (“ADA”), 42 U.S.C.
§§ 12101-12213; Title VII of the Civil Rights Act of
1964 (“Title VII”), 42 U.S.C. §§ 2000e-2000e-17; and
the Hazardous Materials Transportation Act (“HMTA”),
49 U.S.C. § 5124. This case has been referred to a
panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R.
App. P. 34(a).

App.2a
Alessio, a flight attendant employed by United
Airlines, Inc. (“United”), sued her employer and several
individual management/supervisory employees, alleging
that United uses hazardous air fresheners and cleaning
materials in the cabin of its aircraft in violation of the
HMTA. She contended that her duties as a flight
attendant require her to ensure safe travel for her co­
workers and the general public and that United’s use
of the allegedly prohibited materials caused unspecified
illness/injury to herself and others. Alessio also
referenced work-related injuries that she suffered on
the job. She claimed that the defendants’ conduct had
“resulted in [unnecessary] injury to a disability with
no accommodation, age discrimination[,] and on­
going continued retaliation and [harassment].” Alessio
attached several documents to her complaint, including
two documents that she identified as “EEOC” discrim­
ination charges, l The defendants moved to dismiss
the complaint pursuant to Federal Rule of Civil Proce­
dure 12(b)(6), and Alessio responded. Subsequently,
Alessio filed several documents, which the district
court struck from the record because Alessio had not
obtained leave of court to file them and because the
filings were not proper responses to the defendants’
motion to dismiss.
Based on the factual allegations contained in
Alessio’s complaint and the “EEOC” attachments, the
district court construed the complaint as asserting
claims that the defendants had: (l) violated the HMTA,
(2) discriminated against her based on her age, (3)
retaliated against her, and (4) failed to accommodate her
1 As the district court correctly noted, a review of the documents
indicate that they were actually filed with the Ohio Civil Rights
Commission.

App.3a
alleged disability. The district court dismissed the
claims against the individual defendants because
Alessio failed to assert any factual allegations against
them, dismissed any claim under the HMTA because
the Act does not provide for a private cause of action,
and dismissed the remaining claims for failure to state
a prima facie case of discrimination. However, the dis­
trict court granted Alessio leave to amend her
complaint to allow her to provide additional facts in
support of a claim that United had failed to
accommodate her disability. Alessio filed an amended
complaint, again focusing on her allegations that United
allegedly used hazardous air fresheners and cleaning
materials in its aircraft. Upon consideration, the dis­
trict court concluded that Alessio failed to state a prima
facie case for failure to accommodate her disability
because she did not identify a “disability” as defined by
the ADA. Therefore, the district court dismissed the
complaint.
Alessio filed a notice of appeal, indicating that she
wished to challenge the district court’s dismissal of her
claims under the ADA and the HMTA on appeal.
However, her appellate brief presents arguments only
in support of her HMTA claim. She continues to argue
that United is illegally using hazardous materials on
its aircraft and that a certificate of compliance is
required to establish that United is complying with
the HMTA. She also argues that United’s continued
use of hazardous materials might qualify as “an ex­
ample of a Civil Conspiracy or [practices of] Inten­
tional Tort.” Finally, she argues that the district court
erred when it struck her filings from the record and
failed to consider the evidence presented in those

App.4a

filings. Alessio has filed two appendices, which United
has moved to have stricken from the appellate record.
Initially, Alessio’s attempt to assert civil-conspiracy
and intentional-tort claims is not properly before us
because she did not raise those claims in the district
court, and we will not address them in the first instance
on appeal. See Vance v. Wade, 546 F.3d 774, 781 (6th
Cir. 2008). In addition, Alessio has abandoned her
claims against the individual defendants and her age
discrimination and retaliation claims because she did
not challenge the district court’s dismissal of those
claims in her appellate brief. See Post v. Bradshaw,
621 F.3d 406, 413-14 (6th Cir. 2010); Grace Cmty.
Church v. Lenox Twp., 544 F.3d 609, 618 n.l (6th Cir.
2008).
Alessio has also abandoned her challenge to the
district court’s dismissal of her failure-to-accommodate
claim. Despite her stated intention in her notice to
appeal to challenge the dismissal of that claim, she
failed to present any developed argument challenging
the district court’s ruling on that issue in her appellate
brief. In fact, Alessio stated in her reply to United’s
appellate brief that United had improperly relied on
the ADA in support of its argument that this court
should affirm the district court’s dismissal of her
complaint. Although Alessio is proceeding pro se and
her filings should be liberally construed, “pro se parties
must still brief the issues advanced and reasonably
comply” with the briefing standards set forth in Federal
Rule of Appellate Procedure 28. Bouyer v. Simon, 22 F.
App’x 611, 612 (6th Cir. 2001) (citing McNeil v. United
States, 508 U.S. 106,113 (1993)); see also Fed. R. App.
P. 28(a)(9). Because Alessio has developed arguments
regarding only her HMTA claim, that is the only claim

App.5a

preserved for appeal. See Dillery v. City of Sandusky,
398 F.3d 562, 569 (6th Cir. 2005) (“It is wellestablished that ‘issues adverted to in a perfunctory
manner, unaccompanied by some effort at developed
argumentation, are deemed waived.’” (quoting United
States v. Layne, 192 F.3d 556, 566 (6th Cir. 1999)))
abrogated on other grounds by Anderson v. City ofBlue
Ash., 798 F.3d 338, 357 n.l (6th Cir. 2015).
We review de novo a district court’s dismissal of a
complaint pursuant to Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim upon which relief
can be granted. Luis v. Zang, 833 F.3d 619, 625 (6th
Cir. 2016). To avoid dismissal, “a complaint must con­
tain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
The district court properly dismissed Alessio’s
HMTA claim because the Act does not provide for a
private cause of action. Section 5124 of the HMTA
provides that a person who knowingly violates the Act
“shall be fined . . . , imprisoned for not more than 5
years, or both.” However, criminal statutes generally do
not create private causes of action. See Cent. Bank of
Denver, N.A. v. First Interstate Bank ofDenver, N.A.,
511 U.S. 164, 190 (1994). As the district court correctly
noted, “the fact that a federal statute has been violated
and some person [has been] harmed does not auto­
matically give rise to a private cause of action in favor
of that person.” Touche Boss & Co. v. Redington, 442
U.S. 560, 568 (1979) (quoting Cannon v. Univ. of Chi.,
441 U.S. 677, 688 (1979)). The district court concluded
that “nothing in the text of [the HMTA], its legislative
history, or any case law” suggests that § 5124 provides

App.6a

for a private cause of action, and Alessio has pointed to
no authority refuting the district court’s conclusion.
Alessio’s appellate argument that the district court
erred when it struck her supplemental filings from the
record is unavailing because any evidence relating to
United’s use of hazardous materials in violation of the
HMTA would not affect the propriety of the district
court’s dismissal of her claim under the HMTA.
Accordingly, we AFFIRM the district court’s judg­
ment and DENY the motion to strike Alessio’s
appendices from the record as moot.

ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Clerk

App.7a
JUDGMENT ENTRY OF THE DISTRICT COURT
OF NORTHERN DISTRICT OF OHIO
(NOVEMBER 20, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES, INC., ET AL.,
Defendants.
Case No. 5:17-cv-01426
Before: Honorable Sara LIOI,
United States District Judge.
For the reasons set forth in the contemporaneously
filed Memorandum Opinion, the motion of defendant
United Airlines, Inc. to dismiss the amended complaint
of plaintiff Christina Alessio (Doc. No. 28) is GRANTED.
This case is closed.
IT IS SO ORDERED.
Is/ Sara Lioi
Honorable Sara Lioi
United States District Judge
Dated: November 20, 2018

App.8a
MEMORANDUM OPINION AND ORDER
OF THE DISTRICT COURT OF NORTHERN
DISTRICT OF OHIO
(NOVEMBER 20, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES, INC., ET AL.,
Defendants.
Case No. 5:17-cv-01426
Before: Honorable Sara LIOI,
United States District Judge.
On February 15, 2018, the Court granted the
motion of defendants to dismiss this action, pursuant
to Rule 12(b)(6) of the Federal Rules of Civil Procedure,
for failure to state a claim upon which relief could be
granted, but afforded pro se plaintiff Christina Alessio
(“Alessio”) leave to amend her complaint to raise factual
allegations that would support a claim against
defendant United Airlines, Inc. (“United”) for failure
to accommodate a disability under the Americans with
Disabilities Act (“ADA”). (Doc. No. 26 (Memorandum

App.9a
Opinion and Order [“MOO”]) at 232-33.!) On March 9,
2018, Alessio timely filed her amended complaint.
(Doc. No. 27 (First Amended Complaint [“FAC”]).)
Now before the Court is United’s motion to dismiss
the FAC for failure to state a claim. (Doc. No. 28
[“Mot.”].) Alessio did not file an opposition, and the
time for filing a response brief has passed. Because the
Court finds that the FAC does not allege fact that, if
believed, would support a claim that United failed to
accommodate Alessio’s disability under the ADA, the
motion to dismiss is GRANTED.
I.

Standard of Review

A complaint must contain “a short and plain
statement of the claim showing that the pleader is
entitled to reliefU” Fed. R. Civ. P. 8(a)(2). Although
this pleading standard does not require great detail,
the factual allegations in the complaint “must be
enough to raise a right to relief above the speculative
levelU” BelAtl. Corp. v. Twombly, 550 U.S. 544, 555,
127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007) (citing author­
ities). In other words, “Rule 8(a)(2) still requires a
‘showing,’ rather than a blanket assertion, of entitle­
ment to relief.” Id. at 556 n.3 (criticizing the Twombly
dissent’s assertion that the pleading standard of Rule 8
“does not require, or even invite, the pleading of facts”).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009) (quoting Twombly, 550 U.S.
1 All page number references are to the page identification number
generated by the Court’s electronic docketing system.

App.lOa

at 570). Rule 8 does not “unlock the doors of discovery
for a plaintiff armed with nothing more than conclu­
sions.” Id. at 678-79. “When there are well-pleaded
factual allegations, a court should assume their veracity
and then determine whether they plausibly give rise
to an entitlement to relief.” Id. at 679 (citation omitted).
“The Court need not, however, accept unwarranted
factual inferences.” Total Benefits Planning Agency,
Inc. v. Anthem Blue Cross & Blue Shield, 552 F.3d 430,
434 (6th Cir. 2008) (citing Morgan v. Church’s Fried
Chicken, 829 F.2d 10, 12 (6th Cir. 1987)).
Further, although pleadings and documents filed
by pro se litigants are “liberally construed” and held
to a less stringent standard than formal pleadings
drafted by lawyers, Erickson v. Pardus, 551 U.S. 89,
94, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007), pro se
plaintiffs must still meet basic pleading requirements
and courts are not required to conjure allegations on
their behalf. Erwin v. Edwards, 22 F. App’x 579, 580
(6th Cir. 2001) (citations omitted); see Beaudett v. City
of Hampton, 775 F.2d 1274, 1277 (4th Cir. 1985)
(District courts are not required to conjure up questions
never squarely presented to them or to construct full
claims from sentence fragments. To do so would
“require . . . [the courts] to explore exhaustively all
potential claims of a pro se plaintiff. . . [and] would
. . . transform the district court from its legitimate
advisory role to the improper role of an advocate
seeking out the strongest arguments and most success­
ful strategies for a party”) (citation omitted); see also
Twombly, 550 U.S. at 555 (The complaint must contain
“more than labels and conclusions, and a formulaic
recitation of a cause of action’s elements will not do.”);
Scheid v. Fanny Farmer Candy Shops, Inc., 859 F.2d

App.lla

434, 437 (6th Cir. 1988) (all complaints must contain
either direct or inferential allegations respecting all
material elements of some viable legal theory to satisfy
federal notice pleading requirements) (citations
omitted).
II.

Background and Discussion

The Court assumes familiarity with its February
15, 2018 Memorandum Opinion and Order and will only
review the factual and procedural background of the
case briefly to give context to the pending motion.
Alessio is a flight attendant employed by United. (MOO
at 220.) While her pleadings in this case have been
consistently incoherent, the clear impetus for the pre­
sent action is Alessio’s belief that United is using
hazardous air fresheners and/or cleaning products in the
cabins of its aircrafts in violation of federal law. (Id)
Affording a liberal construction to her pleading,
the Court interpreted her initial complaint as
attempting to raise claims for violations of 49 U.S.C.
§ 5124, the Age Discrimination in Employment Act
(“ADEA”), and the ADA. Finding that the allegations
in the complaint, even if believed, did not state a claim
under any of these federal statutes, the Court dis­
missed the claims. However, the Court noted that
documents appended to the complaint from certain
agency proceedings indicated that Alessio may have
sought accommodation from United for a possible dis­
ability. In an abundance of caution, and after carefully
reviewing the elements of an ADA failure to
accommodate claim, the Court granted Alessio leave
to attempt to plead such a claim. (Id. at 228-33.)
As the Court explained in its February 15, 2018
decision, in order to set forth a prima face case for a

App.l2a
failure to accommodate under the ADA, a plaintiff
must allege sufficient facts, which if true, establish
that: (l) she is disabled within the meaning of the ADA;
(2) she is otherwise qualified for her position, with or
without reasonable accommodation; (3) her employer
knew or had reason to know about her disability; (4)
she requested an accommodation; and (5) her employer
failed to provide a reasonable accommodation. See
Aldini v. Kroger Co. of Mich., 628 F. App’x 347, 350
(6th Cir. 2015).
Alessio fails to offer factual allegations that, if
believed, would support any of. the elements of an ADA
failure to accommodate claim. Like its predecessor, the
FAC consists largely of her opinions that United is
using dangerous air fresheners in its aircrafts, and
that, as a result, the “Global Air Traveling Public” is
being denied a safe environment. {See, e.g., FAC at
235.) She alleges that air travelers, generally, are being
exposed to harmful chemicals that could result in some
unidentified disability.2 {Id. at 237.) She suggests that
this fact “should raise concern for the need of an
accommodation with respect to the Whole Global Air
Traveling Public being subjected to Chemical Sub­
stance Aircraft Cabin Air.” {Id. at 238.)
While Alessio has expressed concern for the safety
and comfort of the air traveling public at large, she
has failed to allege any facts that, if believed, would
2 Alessio also alleges that “the ‘disability’ develops, because of the
‘inability’ to follow safety protocol communicated in the Chemical
Substance air fresheners and Chemical Substance cleaning
products, Material Safety Data Sheets. With respect and for the
record, the Chemical Substance ingredients to the Aircraft Cabin
‘air fresheners’ state: Not applicable.?” {Id. at 238, alterations
and punctuation in original.)

App.l3a
support her ADA claim. First, she has failed to set
forth factual allegations supporting a finding that she
is an individual with a disability, which is a pre­
requisite to demonstrating that she is qualified for
protection under the ADA. The FAC identified no
“physical or mental impairment” and no factual allega­
tions to support a conclusion that any such impair­
ment “substantially limits one or more major life
activitiesU” 42 U.S.C. § 12102(l)(A). This failure, alone,
is fatal to her claim. See, e.g., Currie v. Cleveland
Metro. Sch. Hist., No. 1:15 CV 262, 2015 WL 4080159,
at *4 (N.D. Ohio July 6, 2015) (dismissing pro se comp­
laint, noting “[a] complaint alleging an ADA violation
is properly dismissed for failure to identify a dis­
ability”). Alessio has also failed to allege that she
requested a reasonable accommodation. Nowhere in
the FAC does she identify any accommodation that she
requested of United, explain how such an accommoda­
tion would afford her the ability to perform the
essential functions of her position, or assert that any
such reasonable accommodation was denied her by
United.
As her amended pleading lacks the factual basis
to satisfy any of the elements of a failure to accom­
modate claim under the ADA, it is subject to dismissal
with prejudice. See, e.g., Lee v. Sony BMG Music
Entm’t, Inc., 557 F. Supp. 2d 418, 426 (S.D.N.Y. 2008)
(dismissing plaintiffs disability discrimination claim
under Rule 12(b)(6) where plaintiff failed to plead that
she could not perform a major life activity and did not
identify her alleged disability); Coleman v. Ford Motor
Co., No. 3:04CV7590, 2005 WL 1459549, at *2 (N.D.
Ohio June 17, 2005) (“Any claim of disability
discrimination that plaintiffs complaint might be read

App.l4a

as asserting is barred due to plaintiffs failure to specify
the allegedly disabling impairment.... Plaintiffs
complaint fails to specify the particular impairment;
indeed, he fails to identify any impairment”).
Moreover, to the extent that the FAC can be inter­
preted as improperly seeking to “appeal” this Court’s
February 15, 2018 ruling, such a request is premature
and addressed to the wrong court. (See FAC at 235.)
Alternatively, if Alessio’s request to “appeal”
represents a request for reconsideration, the request
is denied, as she has failed to identify any reason why
she is entitled to reconsideration of the Court’s
February 15, 2018 decision.
III. Conclusion
For all the foregoing reasons, United’s motion to
dismiss the FAC (Doc. No. 28) is GRANTED. This case
is closed.
IT IS SO ORDERED.
/s/ Sara Lioi
Honorable Sara Lioi
United States District Judge
Dated: November 20, 2018

App.l5a
MEMORANDUM OPINION AND ORDER
OF THE DISTRICT COURT OF NORTHERN
DISTRICT OF OHIO
(FEBRUARY 15, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CHRISTINA ALESSIO
Plaintiff,
v.
UNITED AIRLINES, INC., ET AL.,
Defendants.
Case No. 5:17-cv-01426
Before: Honorable Sara LIOI,
United States District Judge.
On July 7, 2017, pro se plaintiff Christina Alessio
(“Alessio”) filed this action against defendant United
Airlines, Inc. (“United”) and several individual defend­
ants: Oscar Munoz, Scott Kirby, Brett Hart, Robert
Milton, Sam Risoli, Mary Sturchio, Janie DeVito, and
Kim Piszczek (“individual defendants”) (United and
individual defendants collectively referred to as
“defendants”). Now before the Court is defendants’
motion to dismiss, or, in the alternative, for a more

App.l6a
definite statement.! (Doc. No. 8 [“Mot.”].) Alessio op­
poses the motion (Doc. No. 10 [“Opp’n”]), and defendants
have filed a reply. (Doc. No. 12 [“Reply”].) For the
following reasons, defendants’ motion to dismiss is
granted, but Alessio is granted leave to amend her
complaint to state a cause of action against United for
a failure to accommodate a disability.
I.

Background

Alesssio is a flight attendant employed by United.
(Doc. No. 1 (Complaint [“Compl.”]) at 22.) Though largely
incoherent, Alessio’s complaint appears to revolve
around her belief that United is unlawfully using
hazardous air fresheners and/or cleaning products in its
aircraft. According to Alessio, these air fresheners
and/or cleaning products constitute “poison” under
federal law, and the use of these products “is simply
wrong and harmful.” {Id. at 2-3.) Alessio indicates that
she is raising a matter of public health, and underscores
her duty as a flight attendant to ensure a safe and
comfortable environment for passengers. She references
two charges she alleges she filed with the Equal
1 On November 15, 2017, the Court entered an order striking
certain extraneous materials filed by Alessio. (See Doc. No. 25.)
Also on November 15, 2017, United filed a motion to strike
additional extraneous materials filed by Alessio. (Doc. No. 24
[requesting that Doc. Nos. 20, 21, and 23 be stricken].) The Court
finds that the filings referenced by United in its motion to strike
do not represent proper responses to defendants’ dispositive motion.
Accordingly, and to the extent that Alessio’s extraneous filings have
not been already stricken from the docket by the Court’s November
15, 2017 order, the Court grants United’s motion to strike.
2 All page number references are to the page identification
number generated by the Court’s electronic docketing system.

App.l7a

Employment Opportunity Commission (“EEOC”),3 and
appends to her complaint, among other documents,
certain filings associated with those charges. {Id. at 5,
6; Doc. No. 1-5 [“EEOC Docs.”].) She also alludes to
workplace injuries that she or others may have suff­
ered, presumably by United’s use of the cleaning pro­
ducts and air fresheners. (Compl. at 3.) Finally, she
cites generally to 49 U.S.C. § 5124 and various por­
tions of United’s flight attendant’s policy and proce­
dures manual.
II.

Standard of Review

A complaint must contain “a short and plain
statement of the claim showing that the pleader is
entitled to reliefU” Fed. R. Civ. P. 8(a)(2). Although
this pleading standard does not require great detail,
the factual allegations in the complaint “must be
enough to raise a right to relief above the speculative
level[.]” BelAtl. Corp. v. Twombly, 550 U.S. 544, 555,
127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007) (citing author­
ities). In other words, “Rule 8(a)(2) still requires a
‘showing,’ rather than a blanket assertion, of entitle­
ment to relief.” Id. at 556 n.3 (criticizing the Twombly
dissent’s assertion that the pleading standard of Rule 8
“does not require, or even invite, the pleading of facts”).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937,
3 It appears from the filings that the charges were more likely
filed with the Ohio Civil Rights Commission (“OCRC”). (See EEOC
Docs, at 13, 20.) The agency designation is of no consequence to
the Court’s analysis, and, for the sake of clarity, these documents
will continue to be referred to as “EEOC Docs.”

App.l8a

173 L. Ed. 2d 868 (2009) (quoting Twombly; 550 U.S.
at 570). Rule 8 does not “unlock the doors of discovery
for a plaintiff armed with nothing more than conclu­
sions.” Id. at 678-79. “When there are well-pleaded
factual allegations, a court should assume their veracity
and then determine whether they plausibly give rise
to an entitlement to relief.” Id. at 679 (citation omitted).
“The Court need not, however, accept unwarranted
factual inferences.” Total Benefits Planning Agency,
Inc. v. Anthem Blue Cross & Blue Shield, 552 F.3d
430, 434 (6th Cir. 2008) (citing Morgan v. Church's
Fried Chicken, 829 F.2d 10, 12 (6th Cir. 1987)).
Further, although pleadings and documents filed
by pro se litigants are “liberally construed” and held
to a less stringent standard than formal pleadings
drafted by lawyers, Erickson v. Pardus, 551 U.S. 89,
94, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007), pro se
plaintiffs must still meet basic pleading requirements
and courts are not required to conjure allegations on
their behalf. Erwin v. Edwards, 22 F. App’x 579, 580
(6th Cir. 2001) (citations omitted); see Beaudett v.
City ofHampton, 775 F.2d 1274, 1277 (4th Cir. 1985)
(District courts are not required to conjure up questions
never squarely presented to them or to construct full
claims from sentence fragments. To do so would
“require . . . [the courts] to explore exhaustively all
potential claims of a pro se plaintiff. . . [and] would
. . . transform the district court from its legitimate
advisory role to the improper role of an advocate
seeking out the strongest arguments and most success­
ful strategies for a party.”) (citation omitted); see also
Twombly, 550 U.S. at 555 (The complaint must contain
“more than labels and conclusions, and a formulaic
recitation of a cause of action’s elements will not do.”);

App.l9a

Scheid v. Fanny Farmer Candy Shops, Inc., 859 F.2d
434, 437 (6th Cir. 1988) (all complaints must contain
either direct or inferential allegations respecting all
material elements of some viable legal theory to satisfy
federal notice pleading requirements) (citations
omitted).
In ruling on a Rule 12(b)(6) motion, a court “may
consider the [c]omplaint and any exhibits attached
thereto, public records, items appearing in the record
of the case and exhibits attached to [a] motion to dis­
miss so long as they are referred to in the [clomplaint
and are central to the claims contained therein.”
Bassett v. Nat’l College Athletic Assh, 528 F.3d 426,
430 (6th Cir. 2008) (citing Amini v. Oberlin Coll, 259
F.3d 493, 502 (6th Cir. 2001)). The EEOC Docs., appen­
ded to the complaint, meet this standard and can be
considered.
III. Discussion
Alessio’s complaint is difficult to follow. As best
as the Court can surmise, and based upon the labels
and conclusions contained in the pleading, Alessio
appears to be raising the following claims: (l) a vio­
lation of 49 U.S.C. § 5124, (2) age discrimination, (3)
retaliation, and (4) a failure to accommodate her
alleged disability. After liberally construing Alessio’s
complaint, the Court finds that Alessio has failed to
state a claim upon which the Court may grant relief.
Nonetheless, as explained below, the Court shall per­
mit Alessio leave to amend her complaint to set forth
factual allegations that support a claim for a failure to
accommodate a disability against United.

App.20a
A. No Private Cause of Action Under Title 49
Alessio makes repeated reference to 49 U.S.C.
§ 5124, and, indeed, it is the only statute she cites in
her pleading. Section 5124 provides criminal penalties,
including fines and imprisonment, for violations of
certain provisions applicable to the transportation of
hazardous materials. The statute does not expressly
provide for a private cause of action, and the Court is
unaware of any federal court that has recognized one.
It is well settled that “the fact that a federal statute
has been violated and some person has been harmed
does not automatically give rise to a private cause of
action in favor of that person.” Touche Ross & Co. v.
Redington, 442 U.S. 560, 568, 99 S. Ct. 2479, 61 L. Ed.
2d 82 (1979) (quotation marks and citation omitted).
Rather, “[p]rivate rights of action to enforce federal law
must be created by Congress.” Alexander v. Sadoval,
532 U.S. 275, 286, 121 S. Ct. 1511, 149 L. Ed. 2d 517
(2001) (citation omitted). Courts, therefore, are tasked
with determining whether Congress intended to create
a private cause of action, and may perform this duty
by considering “the text and structure of the statute
at issue, the legislative history, and any relevant case
law.” Courtney v. Ivanov, 41 F. Supp. 3d 453, 458
(W.D. Pa. 2014) (citing McGovern v. City ofPhila., 554
F.3d 114, 119 (3d Cir. 2009) (further citation
omitted)). “Statutory intent [as to the existence of a
private cause of action] is determinative. Without it, a
cause of action does not exist and courts may not
create one, no matter how desirable that might be as a
policy matter, or how compatible with the statute.”
Alexander, 532 U.S. at 287 (citations, including inter­
nal citations, omitted).

App.21a

There is nothing in the text of the statute, its
legislative history, or any case law relevant to 49
U.S.C. § 5124 that would suggest that Congress inten­
ded to create a private cause of action for civil viola­
tions of this statute governing criminal penalties.4 In
the absence of any evidence of congressional intent to
create a private cause of action, the Court is without
authority to recognize one. Accordingly, Alessio has
failed to state a cause of action under 49 U.S.C. § 5124,
and this claim is dismissed with prejudice.
B. Individual Liability
Before turning to the remaining claims, the Court
must address the arguments raised by the individual
defendants. Specifically, they argue that Alessio has
failed to allege any factual allegations against them,
and that, even if she had, her claims would fail as
against them because there is no individual liability.
Alessio has identified eight different individuals,
purportedly employed by United in a variety of mana­
gerial positions—from chief executive officer to inflight
supervisor—as defendants in this action. Still, the
complaint does not contain any specific allegations of
any wrongdoing against any of them.5 For this reason

4 49 U.S.C. § 5123 provides for civil penalties, but those penalties
are to be assessed by the government. See § 5123(d) (“The Attorney
General may bring a civil action in an appropriate district court
of the United States to collect a civil penalty under this
section.. . . ”) There is nothing in § 5123 that would indicate that
Congress intended to create a cause of action for private citizens.
5 The EEOC Docs, reference certain supervisors and managers,
but, as discussed supra, no individual liability against these
individuals is available.

App.22a

alone, the individual defendants are entitled to dis­
missal from this action. Moreover, to the extent that
she has attempted to bring claims against the indiv­
idual defendants for age discrimination, retaliation,
and/or ADA® failure to accommodate a disability,
Alessio’s claims would fail as a matter of law as there
is no individual liability under Title VII, 7 the ADA, or
the ADEA.8 See Mayes v. City of Oak Park, 285 F.
App’x 261, 262 (6th Cir. 2008) (affirming dismissal of
individual defendants as to the plaintiffs ADA and
Title VII claims on the ground that the ADA and Title
VII do not provide for individual liability); Wathen v.
Gen. Elec. Co., 115 F.3d 400, 405 (6th Cir. 1997) (Title
VII does not provide for individual liability because the
definition of “employer” does not include individual
supervisors and observing that the supervisor liability
sections of the ADEA and Title VII may be interpreted
interchangeably). The individual defendants are
entitled to dismissal from this action.
C. Age Discrimination
The complaint’s discussion of possible claims
involving age discrimination, retaliation, and a failure
to accommodate a disability are confined to a single
statement that alleges that United’s use of cleaning
products and air fresheners “has resulted in unneces­
sary injury to a disability with no accommodation, age
discrimination and ongoing continued retaliation and

® ADA is an acronym for the Americans with Disabilities Act.
7 Title VII of the Civil Rights Act of 1964.
8 ADEA is an acronym for the Age Discrimination in Employment
Act.

App.23a

harassment.” (Compl. at 2-3.) The use of these labels,
alone, is insufficient to state claims under federal law.
To establish a prima facie case of age discrimina­
tion, Alessio must prove and, therefore, must allege
sufficient facts, which if true would establish that: (l)
she was at least 40 years of age at the time of the
alleged discrimination, (2) she was subjected to an
adverse employment action, (3) she was qualified for
the position, and (4) she was replaced by a person out­
side the protected class or was treated less favorably
than a similarly-situated, non-protected employee for
the same conduct. See Treadway v. Cal. Prods. Corp.,
659 F. App’x 201, 207-08 (6th Cir. 2016) (citations
omitted); Schoonmaker v. Spartan Graphics Leasing;
LLC, 595 F.3d 261, 264 (6th Cir. 2010) (same) (citation
omitted).
Beyond the conclusory statement that she has been
the victim of age discrimination, the complaint is
entirely devoid of any factual allegations that support
an age discrimination claim. Alessio fails to allege in
her complaint that she is over the age of forty, or that
she was subjected to an adverse employment action
because of her age. She also has failed to set forth
factual allegations demonstrating that she was treated
less favorably than a similarly-situated, non-protected
employee for the same conduct, something, as a current
employee, she would have to allege to set forth a prima
facie case.
The only possible basis for such a claim appears
in the EEOC Docs., wherein Alessio claims that her
manager made her aware of United’s “Early-Out
Program” in an email on October 16, 2014. (EEOC Docs,
at 19.) Alessio alleges that her manager’s suggestion
that she was eligible for this early retirement program

App.24a

was evidence of age discrimination. 9 Id. (“Why would
my Manager want me to know I was eligible for the
Company Early-Out Program .. . [other than because
she believed] “ [i] t was time for me to retire from my
career [?]”).
“The terms ‘retire’ and ‘retirement’ alone, without
any evidence that they are being used as a proxy for
age to express discriminatory basis, are not direct
evidence of age discrimination.” Treadway, 659 F. App’x
at 207 (citation omitted). Alessio points to no other facts
that, if believed, would establish that this reference to
her eligibility for United’s early retirement program
represented age-based animus, and Alessio’s “personal
belief to the contrary is not enough to compel a differ­
ent conclusion.” Id. (citing Chappell v. GTE Prods.
Corp., 803 F.2d 261, 268 (6th Cir. 1986)). Moreover, a
“company’s decision to offer [early retirement] incentive
programs does not indicate a policy of age discrimina­
tion, since the programs offer older workers benefits
not available to younger employees.” Wilson v. Firestone
Tire & Rubber Co., 932 F.2d 510, 514 (6th Cir. 1991)
(citation omitted). As a result, the allegation relating
to the email from her manager would be insufficient to
state a plausible claim for age discrimination.
D. Retaliation
To state a prima facie case of retaliation, Alessio
must set forth facts that, if believed, would establish:
(l) she engaged in protected activity, (2) she was sub­
jected to a materially adverse action, and (3) a causal
link existed between the protected activity and the
9 In these same filings, Alessio notes that she is “close to the age
of 55 years.” (EEOC Docs, at 19, underlining omitted.)

App.25a
materially adverse action. See EEOC v. Ford Motor
Co., 782 F.3d 753, 767 (6th Cir. 2015).
As was the case with her purported age claim, the
only facts offered in support of possible retaliation can
be found in the EEOC Docs. According to Alessio, she
was “subjected to a punitive work environment”
shortly after she authored an email comparing ex­
amples of hazardous products used in her work environ­
ment when she was issued a verbal warning. (EEOC
Docs, at 18.) She claimed that she was also issued a
written warning “for inappropriate behavior and ac­
tions.” (Id. at 19.) She represented in these same EEOC
Docs, that she disagreed with both the verbal and
written warnings because she was merely fulfilling her
obligations contained in United’s operations manual in
regard to her work environment. (Id)
The complaint fails to identify any protected
activity for which she could have been subjected to
retaliation. Even assuming the filing of administrative
charges on July 20, 2015 and April 18, 2017 (see EEOC
Docs, at 13, 20) constituted protected activity,10 the
warnings she claims to have received on February 11,
2015 and March 31, 2015 could not have been in
retaliation for the subsequently filed administrative
charges. Further, even if they were, they would not
constitute adverse employment actions. See, e.g.,
Eisenbaum v. Senior Lifestyle Corp., 1:10-CV-701,
2013 WL 3776543, at *6 n.2 (S.D. Ohio July 17, 2013)
(finding that to the extent the plaintiff claimed that
10 In the EEOC Docs., Alessio also points to five unsuccessful work
injury claims she filed between May 19, 2010 and September 19,
2014. (EEOC Docs, at 17.) Alessio does not attempt to connect
these claims to the warnings she received in 2015.

App.26a

the issuance of a performance improvement plan and
three other warnings constituted retaliation, such
claims failed because they did not qualify as adverse
employment actions); see also McGraw v. Ohio Bell
Tel. Co., No. 1:12 CV 1620, 2013 WL 3864585, at *12
(N.D. Ohio July 24, 2013) (“As a matter of law, written
and verbal warnings do not constitute ‘adverse employ­
ment action’ for purposes of establishing a prima facie
case of discrimination or retaliation.”) (collecting Sixth
Circuit authority). Because Alessio cannot establish
the first two necessary elements, she has failed to
state a claim for retaliation.
E. Failure to Accommodate an ADA Disability
With respect to the final claim—a failure to
accommodate a disability recognized under the ADA—
the complaint does not elaborate on the nature of any
disability or even confirm that the alleged failure to
accommodate was associated with her disability. The
ADA prohibits discrimination “against a qualified
individual on the basis of disability in regard to job
application procedures, the hiring, advancement, or
discharge of employees, employee compensation, job
training, and other terms, conditions, and privileges
of employment.” 42 U.S.C. § 12112(a). The ADA defines
“qualified individual” as “an individual who, with or
without reasonable accommodation, can perform the
essential functions of the employment position that
such individual holds or desires.” 42 U.S.C. § 12111(8).
The ADA defines “disability” as “a physical or mental
impairment that substantially limits one or more
major life activities of such individual[.]” 42 U.S.C.
§ 12102(1)(A).

App.27a
In order to set forth a prima face case for a failure
to accommodate under the ADA, a plaintiff must
allege sufficient facts, which if true, establish that: (l)
she is disabled within the meaning of the ADA; (2) she is
otherwise qualified for her position, with or without
reasonable accommodation; (3) her employer knew or
had reason to know about her disability; (4) she
requested an accommodation; and (5) her employer
failed to provide a reasonable accommodation. See
Aldini v. Kroger Co. of Mich., 628 F. App’x 347, 350
(6th Cir. 2015).
The only details relative to Alessio’s purported
failure to accommodate appear in Alessio’s admin­
istrative filings. There, Alessio alleges that she
developed Rheumatoid Arthritis in February 2003.
(EEOC Docs, at 14.) She claims that she is “capable of
performing [her] essential job functions” when she is
“not being forced to breathe the hazardous air
fresheners onboard the aircraft in [her] work environ­
ment.” {Id) In these same documents, she maintains
that her disability has been aggravated by United’s
use of air freshener disks and that, for a period of time,
United refused her doctor’s suggested accommodation of
removing or “sealing” the air freshener disks from
aircraft on which she flies. {Id. at 15, 16.) While she
admits that United eventually changed the air
freshener products it was using, and gave her permis­
sion to throw away any air freshener disk she found in
her work environment, these measures came after she
sustained an aggravation to her existing disability
that caused her to miss work. {Id. at 16-17.) She
complains that she has been denied back pay from
March 17, 2014 to November 4, 2014. {Id. at 17.)

App.28a

United argues that, to the extent that Alessio is
attempting to re-litigate her work injury claims she is
precluded by Ohio law. The Ohio Workers’ Compensa­
tion statute provides that employers “shall not be
liable to respond in damages at common law or by
statute for any injury, or occupational disease, or
bodily condition, received or contracted by any employee
in the course of or arising out of [her] employment [.]”
Ohio Rev. Code § 4123.74. Ohio courts accordingly
recognize the general rule that workers’ compensation
is the exclusive remedy for an employee injured as a
result of negligence. Ritchie v. Bravo Corp., 585 F. Supp.
1455,1456 (S.D. Ohio 1984). Therefore, the Court agrees
that Alessio cannot re-litigate her workers’ compensa­
tion claims in this forum.
Nonetheless, an ADA failure to accommodate claim
is a cause of action available to workers under federal
law that is separate and apart from any workplace
injury claim under state law. United argues that the
complaint fails to set forth such a claim under the
ADA because Alessio has failed “to allege sufficient
facts to establish that she is a qualified individual
with a disability.” (Mot. at 102, citation omitted.) It is
true that “a plaintiffs failure ‘to identify, even in
general terms, [her] disability and failture] to identify
a specific medical condition for which [she] was
regarded as disabled’ does not meet the threshold
pleading requirements” under the ADA. See Currie v.
Cleveland Metro. Sch. Dist., No. 1:15 CV 262, 2015
WL 4080159, at *4 (N.D. Ohio July 6, 2015) (quoting
Thomas v. Dana Commercial Vehicle Prods., LLC, No.
4:13 CV-00041-JHM, 2014 WL 1329948, at *4 (W.D. Ky.
Apr. 1, 2014)). Yet United concedes that Alessio
indicates in the EEOC Docs, that she suffers from

App.29a
Rheumatoid Arthritis. These same documents also
recount—though in a disjointed and incomplete way—
communications with United’s management regarding
her medical condition and possible accommodations,
involvement in a company-sponsored accommodation
program, and steps ultimately taken by United to
address Alessio’s medical concerns.
Ultimately, the Court agrees with United that the
complaint does not set forth factual allegations that, if
believed, would satisfy all of the elements of a prima
facie case of failure to accommodate under the ADA.
Nonetheless, based upon the materials appended to the
complaint, the Court believes that Alessio should be
afforded an opportunity, if she chooses, to amend her
complaint to set forth factual allegations necessary to
state a claim for failure to accommodate under the
ADA against United.!! See Brown v. Matauszak, 415
11 It would appear from these same materials that United did
take certain actions to accommodate Alessio’s claimed disability,
although the timing and the nature of those accommodations are
not entirely clear. As a general rule, an employee “cannot base a
disability discrimination claim upon an employer’s delay in
providing a requested accommodation where the delay is due to
internal processing or to events outside the employer’s control.”
Gerton v. Verizon S. Inc., 145 F. App’x 159, 168 (6th Cir. 2005)
(district court did not err in granting summary judgment on ADA
accommodation claim where the employer placed the employee
in a temporary position while considering her claim) (citations
omitted); Gustavison v. Shinseki, No. 10-12024-BC, 2011 WL
3566417, at *11 (E.D. Mich. Aug. 15, 2011) (‘Delays caused by
administrative procedures for processing a request do not
demonstrate discrimination.”); see, e.g., Edmunds v. Bd. of Control
ofE. Mich. Univ., No. 9-11648, 2009 WL 5171794, at *6 (E.D. Mich.
Dec. 23, 2009) (summary judgment on ADA accommodation claim
granted where university provided accommodation and any delay
was not result of bad faith); but see Jurgess v. Lowe’s Home Ctrs.,
Inc., No. 05-71241, 2006 WL 2909848, at *5-6 (E.D. Mich. Oct. 10,

App.30a

F. App’x 608, 616 (6th Cir. 2011) (leave to amend pro
se complaint should have been given, even without a
request for such relief, where post-judgment motion
revealed that information existed to cure the
complaint deficiencies). The Court grants this leave in
an abundance of caution, recognizing both the unique
challenges facing pro se litigants and the preference
that actions be determined on the merits. By affording
leave, the Court makes no determination as to the
merits of such a claim, nor does it offer a prediction as
to whether the factual allegations in any amended
claim will be sufficient to survive a Rule 12(b)(6)
motion to dismiss.12
IV. Conclusion
For all of the foregoing reasons, defendants’ motion
to dismiss is granted. Alessio’s claims for a violation of
49 U.S.C. § 5124, age discrimination, and retaliation,
as well as any and all claims against the individual
defendants, are dismissed with prejudice. Alessio’s
claim for failure to accommodate a disability under
the ADA against United is also dismissed, with leave
to amend. Alessio is afforded 30 days from the date of
2006) (summary judgment denied where genuine issue of
material fact as to whether the delay in providing accommodation
was reasonable). It also is the case that a disabled employee is
not entitled to the accommodation of her choosing. See Trepka v.
Bd. of Educ., 28 F. App’x 455, 460 (6th Cir. 2002). The Court
cannot determine from Alessio’s EEOC Docs., alone, whether the
accommodations offered or any delay in providing those
accommodations was reasonable or the result of bad faith.
12 Because the Court has found that Alessio’s complaint fails to
state a cause of action for a failure to accommodate, but has
elected to permit Alessio to amend her complaint, the Court
denies defendants’ alternative motion for a more definite statement.

App.31a

this memorandum opinion and order in which to file
an amended complaint raising a claim against United
for failure to accommodate a disability under the
ADA. Leave to amend is limited to this ADA claim
against United, only, as it would be futile to permit
leave to amend the other claims against United or any
claims against the individual defendants. See Riverview Health Inst. LLC v. Med. Mut. of Ohio, 601 F.3d
505, 512 (6th Cir. 2010) (It is futile to allow a party to
amend the complaint if even after amendment, the
complaint could not withstand a Rule 12(b)(6) motion
to dismiss.) (citation omitted). Should Alessio fail to
timely file a fully compliant amended complaint within
30 days of this ruling, the Court will enter judgment
in United’s favor as to the ADA claim as well, and close
this case.
IT IS SO ORDERED.
Is/ Sara Lioi
Honorable Sara Lioi
United States District Judge
Dated: February 15, 2018

App.32a
UNITED STATES COURT OF APPEALS
FOR THE 6TH CIRCUIT DOCKET DETAILS
U.S. Circuit Court of Appeals for the Sixth Circuit
Court of Appeals Docket #: 18-4251
Nature of Suite: 3442 Civil Rights; Jobs
Christina Alessio v. United Airlines, Inc.
Appeal from: Northern District of Ohio at Akron
Fee Status: fee paid
12/21/2018
1

Civil Case Docketed. Notice filed by Appellant
Christina Alessio. Transcript needed: n.
(MMP) [Entered: 12/21/2018 10:11 AM]

12/21/2018
2_

The case manager for this case is: Monica
Page (MMP) [Entered: 12/21/2018 10:30 AM]

01/04/2019
3

BRIEFING LETTER SENT setting pro se
briefing schedule: appellant brief due 02/19/
2019; appellee brief due 03/21/2019. (RLJ)
[Entered: 01/04/2019 08:25 AM]

01/09/2019
4_

APPEARANCE filed for Appellee United
Airlines, Inc. by Kathleen J. Sanz. Certif­
icate of Service: 01/09/2019. [18-4251] (KJS)
[Entered: 01/09/2019 04:01 PM]

01/09/2019
5

CORPORATE DISCLOSURE STATEMENT
filed by Attorney Ms. Kathleen J. Sanz for
Appellee United Airlines, Inc. Certificate of

App.33a

Service: 01/09/2019. [18-4251] (KJS) [Entered:
01/09/2019 04:35 PM]
01/09/2019
6

APPEARANCE filed for Appellee United
Airlines, Inc. by Natalie M. Stevens. Certif­
icate of Service: 01/09/2019. [18-4251] (NMS)
[Entered: 01/09/2019 05:12 PM]

01/10/2019
7

DEFICIENCY NOTICE: The appearance
form, [6], filed by Ms. Natalie Michele Stevens
for United Airlines, Inc. is deficient for the
reason noted on the attached checklist. (MMP)
[Entered: 01/10/2019 09:30 AM]

02/06/2019
8

APPELLANT BRIEF filed by Ms. Christina
Alessio Certificate of Service:02/04/2019. Argu­
ment Request: PRO SE (MMP) [Entered:
02/06/2019 02:33 PM]

02/06/2019
9

APPENDIX filed by Ms. Christina Alessio
Copies: 01-ONE VOLUME. Certificate of
Service: 02/04/2019. (MMP) [Entered: 02/06/
2019 02:47 PM] 02/06/2019

10

SEALED APPENDIX filed by Ms. Christina
Alessio Copies: Personal information-1 Page
Certificate of Service: 02/04/2019. (MMP)
[Entered: 02/06/2019 02:50 PM]

App.34a

02/19/2019
11

FILED: Addendum to Appellant’s brief by
Ms. Christina Alessio.-[Edited 03/04/2019 by
RLJ] (MMP) [Entered: 02/21/2019 04:02 PM]

03/11/2019
12

MOTION filed by Ms. Natalie Michele Stevens
for United Airlines, Inc. to strike appendix.
Certificate of Service: 03/11/2019. [18-4251]
(NMS) [Entered: 03/11/2019 03:57 PM]

03/11/2019
13 APPELLEE BRIEF filed by Ms. Natalie
Michele Stevens for United Airlines, Inc.
Certificate of Service: 03/11/2019. Argument
Request: not requested. [18-4251] (NMS)
[Entered: 03/11/2019 04:01 PM]
03/22/2019
14

REPLY BRIEF filed by Party Ms. Christina
Alessio Certificate of Service: 03/21/2019.
(MMP) [Entered:03/22/2019 12:04 PM]

06/24/2019
15

ORDER filed: We AFFIRM the district court’s
judgment and DENY the motion to strike
Alessio’s appendices from the record as moot
[12]. Richard F. Suhrheinrich, Circuit Judge
and Helene N. White, Circuit Judge. (MMP)
[Entered: 06/24/2019 04:09 PM]

07/16/2019
16

MANDATE ISSUED with no costs taxed.
(MMP) [Entered: 07/16/2019 02:24 PM]

App.35a

UNITED STATES DISTRICT COURT OF
NORTHERN DISTRICT OF OHIO
DOCKET DETAILS
U.S. District Court
Northern District of Ohio (Akron)
CIVIL DOCKET FOR CASE #: 5:17-cv-01426-SL
Internal Use Only
Alessio v. United Airlines, Inc. et al
Assigned to: Judge Sara Lioi
Date Filed: 07/07/2017
Date Terminated: 11/20/2018
Plaintiff
Christina Alessio
Represented by
Christina Alessio
#589
1970 N. Cleveland-Massillon Rd.
Bath, OH 44210
PRO SE
07/07/2017
1

Complaint against all Defendants. Filing fee
paid, $400.00, receipt # 54660006281, filed
by Christina Alessio. (Attachments: # 1 Civil
Cover Sheet, # 2 Index, # 3 Exhibit B-Book“America the Jury”, # 4 Exhibit C-DVD, # 5
Exhibit D-EEOC Letters, # 6 Exhibit E-

App.36a

Emails, # 7 Exhibit F-Letters, # 8 Exhibit GWork Injury Claims, # 9 Exhibit H-Irregular
Operations Reports, # 10 Health & Wages
Overview). DVD and complete book on file in
Clerk’s Office. (M,TL) (Entered: 07/07/2017)
07/7/2017
Judge Sara Lioi assigned to case. (M,TL)
(Entered: 07/07/2017)
07/07/2017
Random Assignment of Magistrate Judge
pursuant to Local Rule 3.1. In the event of a
referral, case will be assigned to Magistrate
Judge Kathleen B. Burke. (M,TL) (Entered:
07/07/2017)
07/7/2017
2

Original Summons and Magistrate Consent
Form issued to plaintiff at counter for service
upon Janie DeVito, Brett Hart, Scott Kirby,
Robert Milton, Oscar Munoz, Kim Piszczek,
Sam Risoli, Mary Sturchio, United Airlines,
Inc. (M,TL) (Entered: 07/07/2017)

07/10/2017
Service by Clerk. Summons and Complaint
addressed to Janie DeVito (receipt #7015
1520 0001 5320 4833), Brett Hart (receipt
#7015 1520 0001 5320 4956), Scott Kirby
(receipt #7015 1520 0001 5320 4963), Robert
Milton (receipt #7015 1520 0001 5320 4857),
Oscar Munoz (receipt #7015 1520 0001 5320
4970), Kim Piszczek (receipt #7015 1520 0001
5320 4932), Sam Risoli (receipt #7015 1520

App.37a

0001 5320 4949), Mary Sturchio (receipt #7015
1520 0001 5320 4840), United Airlines, Inc.
(receipt #7015 1520 0001 5320 5007) placed
in U.S. Mail. Type of service: certified mail.
(M,TL) (Entered: 07/10/2017)
07/10/2017
Copy of Notice of Electronic Filing of Service
by Clerk mailed to Christina Alessio, #589,
1970 N. Cleveland-Massillon Rd., Bath, OH
44210 on 07/10/2017. (M,TL) (Entered:
07/10/2017)
07/17/2017
3

Return of Service by Clerk by certified mail
executed upon Janie DeVito on 7/12/2017;
Kim Piszczek on 7/12/2017, filed on behalf of
Christina Alessio. Related document(s) 2.
(D,JJ) (Entered: 07/17/2017)

07/17/2017
Copy of 3 Return of Service Executed mailed
to Christina Alessio, #589, 1970 N. ClevelandMassillon Rd., Bath, OH 44210 on 7/17/2017.
Related document(s) 3. (D,JJ) (Entered: 07/
17/2017)
07/20/2017
4

Return of Service by Clerk by certified mail
executed upon Mary Sturchio on 7/12/2017,
filed on behalf of Christina Alessio. Related
document(s) 2. (D,JJ) (Entered: 07/20/2017)

07/20/2017
5

Return of Service by Clerk by certified mail
executed upon Brett Hart on 7/13/2017;

App.38a

Robert Milton on 7/13/2017; and Oscar Munoz
on 7/13/2017, no delivery date on green cards,
dates obtained from U.S. Postal Service
website, filed on behalf of Christina Alessio.
Related document(s) 2. (D,JJ) (Entered: 07/
20/2017)
07/20/2017
Copy of 5 Return of Service Executed, and 4
Return of Service Executed mailed to Chris­
tina Alessio, #589, 1970 N. Cleveland-Massillon Rd., Bath, OH 44210 on 7/20/2017. (D,JJ)
(Entered: 07/20/2017)
07/21/2017
6

Return of Service by Clerk by certified mail
executed upon Sam Risoli on 7/13/2017;
United Airlines, Inc. on 7/13/2017, no delivery
date on green card, date obtained from U.S.
Postal Service website, filed on behalf of
Christina Alessio. Related document(s) 2.
(D,JJ) (Entered: 07/21/2017)

07/21/2017
Copy of 6 Return of Service Executed, mailed
to Christina Alessio, #589, 1970 N. ClevelandMassillon Rd., Bath, OH 44210 on 7/21/2017.
(D,JJ) (Entered: 07/21/2017)
07/28/2017
7

Return of Service by Clerk by certified mail
executed upon Scott Kirby on 7/18/2017, filed
on behalf of Christina Alessio. Related docu­
ments) 2. (D,JJ) (Entered: 07/28/2017)

07/28/2017

App.39a

Copy of 7 Return of Service Executed mailed
to Christina Alessio, #589, 1970 N. ClevelandMassillon Rd., Bath, OH 44210 on 7/28/2017.
Related document(s) 7. (D,JJ) (Entered: 07/28/
2017)
08/02/2017
8

Motion to Dismiss Complaint for Failure to
State a Claim or, in the Alternative, Motion
for More Definite Statement filed by Janie
DeVito, Brett Hart, Scott Kirby, Robert Milton,
Oscar Munoz, Kim Piszczek, Sam Risoli,
Mary Sturchio, United Airlines, Inc. Related
document(s) 1. (Stevens, Natalie). Modified to
add motion part (motion for more definite
statement) on 8/4/2017 (T,Je). (Entered: 08/
02/2017)

08/07/2017
9

Initial Standing Order. Judge Sara Lioi on
8/7/2017. (P,J) (Entered: 08/07/2017)

08/07/2017
Copy of 9 Initial Order mailed to Christina
Alessio, #589, 1970 N. Cleveland-Massillon
Rd., Bath, OH 44210 on 8/7/2017. (P,J) (En­
tered: 08/07/2017)
08/15/2017
10

Opposition to 8 Motion to Dismiss Complaint
for Failure to State a Claim or, in the
Alternative, Motion for More Definite State­
ment filed by Christina Alessio. (D,JJ)
(Entered: 08/15/2017)

08/21/2017

App.40a

11

Stricken 11/15/2017: Supplement to 1 Com­
plaint, Attachment # 5, Exhibit D-EEOC Let­
ters, filed by Christina Alessio. (Attachments:
# 1 Letter to Equal Employment Opportunity
Commission). (D,JJ) (Entered: 08/21/2017)

08/28/2017
12

Reply in support of 8 Motion to Dismiss
Complaint for Failure to State a Claim or, in
the Alternative, Motion for More Definite
Statement filed by All Defendants. (Stevens,
Natalie) (Entered: 08/28/2017)

08/28/2017
13 Motion to strike Extraneous Material from
the Record filed by Defendant United Airlines,
Inc.. (Stevens, Natalie) (Entered: 08/28/2017)
08/29/2017
14

Stricken 11/15/2017: Plaintiff Respectfully
Submitting (l) Short List of 79 Irregular Oper­
ation Reports Since 2014, including Defen­
dants’ Validation and Answers to Reports
(Reference Complaint 07/07/17: Exhibit H) (2)
Respectful Response to Answer. Related
Doc(s) 1, filed by Christina Alessio. (Attach­
ments: # 1 Irregular Operation Reports). Modi­
fied text and regenerated electronic notifica­
tion on 8/30/2017 (D,JJ). (Entered: 08/30/2017)

09/05/2017
15 Motion to strike Additional Extraneous
Material From the Record filed by Defendant
United Airlines, Inc.. (Stevens, Natalie) (En­
tered: 09/05/2017)

App.41a

09/14/2017
16

Stricken 11/15/2017: Plaintiff respectfully sub­
mitting Equal Employment Opportunity
Commission’s response to Appeal Letter
requesting redacted FOIA Information filed
by Christina Alessio. (Attachments: # 1 Letter
from U.S. Equal Employment Opportunity
Commission dated August 29, 2017). (D,JJ)
(Entered: 09/14/2017)

09/18/2017
17

Stricken 11/15/2017: Plaintiff respectfully
submitting (l) Email correspondence letter
of concern, with former President’s letter of
response; (2) OSHA’s written communication
letter with email correspondence; and (3)
respectfully requesting my correspondence
letter with our present President, from OSHA,
awaiting the letter from OSHA to respect­
fully submit filed by Christina Alessio.
(Attachments: # 1 Correspondence dated July
12, 2016, # 2 Correspondence dated February
2, 2016, # 3 Correspondence dated August
17, 2017). (D,JJ) (Entered: 09/18/2017)

09/22/2017
18

Motion to strike Additional Extraneous Mat­
erial from the Record and for an Order
Directing Plaintiff to Refrain from Further
Filing of Extraneous Material filed, by Defen­
dant United Airlines, Inc.. Related document(s)
11. 17, 14, 16. (Huffman, Heather) (Entered:
09/22/2017)

App.42a

09/26/2017
19

Stricken 11/15/2017: Plaintiff respectfully
submitting (l) Equal Employment Opportu­
nity Commission’s response letter regarding
the Freedom of Information Act Appeal for
Redacted Information, extended due to
unusual circumstances till October 6, 2017;
(2) Occupational Safety and Health Admin­
istration’s Copy of Plaintiffs Correspondence
Letter written for our Honored Present
President; (3) Irregular Operations Report
dated September 22, 2017; and(4) Emails
requesting a Hard copy of my personal and
medical files with defendant. Request denied,
instead both files were sent to parties
responding to complaint, filed by Christina
Alessio. (Attachments: # 1 Letter from U.S.
Equal Employment Opportunity Commission
dated September 20, 2017, # 2 Correspon­
dence from Plaintiff dated April 20, 2017, # 3
Irregular Operations Report dated September
23, 2017, # 4 Email exchange dated Septem­
ber 25, 2017). (D,JJ) (Entered: 09/26/2017)

10/17/2017
20

Stricken 11/15/2017: Plaintiff respectfully
submitting Equal Employment Opportunity
Commission’s response letter regarding my
freedom of information act appeal for redacted
and withheld information in my EEOC
Administrative files, is dated October 6, 2017,
and again, denied. Respectfully, is this ob­
struction of Justice, seeking the truth, the
whole truth and nothing but the truth? With
respect, I believe a total of 12 pages are being

App.43a
withheld as to the matter and transparency of
my case, filed by Christina Alessio. (Attach­
ments: # 1 Letter from U.S. Equal Employ­
ment Opportunity Commission dated October
6, 2017). (D,JJ) (Entered: 10/17/2017)
10/25/2017
21 Stricken 11/15/2017: Exhibits filed by Chris­
tina Alessio. (Attachments: # 1 Letter from
defense counsel regarding medical and per­
sonal files, # 2 Response to defense counsel
regarding missing information in medical
file, # 3 Manually filed CD containing medical
information, # 4 Manually filed original USB
drive containing past work injury claims
(and CD containing copy of same)). 2 CDs and
USB placed in file in Clerk’s Office. (S,HR)
(Entered: 10/25/2017)
11/03/2017
22 Stricken 11/15/2017: Notice: Plaintiff respect­
fully submitting 1.) Respectful emails to my
inflight management, requesting a copy of
my entire personal file, beginning with date
of hire 8/13/1998. As per my union: the
Association of Flight Attendants, I believe
flight attendants are entitled to a copy of
their personal file. A first respectful request
was made for information in my personal file
before complaint filed 7/7/2017. In specific,
2/24/2016, CPR work injury emails, respect­
fully requesting my entire personal file, for
complete transparency to the matters of my
case, filed by Christina Alessio. (Attachments:

App.44a

# 1 Email exchanges). (D,JJ) (Entered: 11/03/
2017)
11/13/2017
23

Stricken: See Order on 2/15/2018-Notice:
Plaintiff respectfully submitting: 1.) Respect­
ful phone call made November 13, 2017, with
an inquiry to Akron, Ohio Industrial Commis­
sion, for the Aircraft Cabin Cleaning and Air
Freshening Products/Work Injury Claims:
#15-859117, #15-863145 and #15-863147.
Date of Injuries: 11/27, 11/28, and 12/20/
2015. Respectfully requesting work injuries be
heard at the district level, within the 2 year
statutory time frame. Respectfully, a request
will be made for the hearing to be court
reported and of public record, for insight,
clarity and understanding. Respectfully,
there are still products presently with non­
disclosure of ingredients in air fresh­
eners/safety health hazard rating level on
product label, being used inside the aircraft
cabin, filed by Christina Alessio. (D,JJ) Mod­
ified text to mark stricken on 3/2/2018 (T,Je).
(Entered: 11/13/2017)

11/15/2017
24 Motion to strike Additional Extraneous Mate­
rial From the Record and for an Order
Directing Plaintiff to Refrain From Further
Filing of Extraneous Material filed by
Defendant United Airlines, Inc.. (Huffman,
Heather) (Entered: 11/15/2017)

App.45a

11/15/2017
25

Order: The Court has reviewed plaintiffs ex­
traneous filings, and finds that they do not
represent proper responses to defendants’
motion to dismiss. (Doc. No. 8) Further, the
Court notes that plaintiff has filed a timely
response to defendants’ dispositive motion,
and briefing on that motion is now closed.
Defendant United Airline’s motions (Doc.
Nos. 13, 15, and 18) to strike Doc. Nos. 11, 14.
16. and 17 are granted. For the same reasons,
the Court sua sponte strikes Doc. Nos. 19, 20,
21. and 22. The Court shall rule on defen­
dants’ motion to dismiss in due course.
Should the Court require additional briefing
or other material from the parties, it will
request it. In the event that any portion of
plaintiffs case survives the motion to dismiss,
the Court will schedule this matter for a case
management conference. In the interim,
plaintiff is directed to cease filing further ex­
traneous matters on the docket without
leave of Court and is warned that failure to
follow this directive may result in sanctions
up to and including dismissal of this action.
Judge Sara Lioi on 11/15/2017.(P,J) (Entered:
11/15/2017)

11/15/2017
Copy of 25 Order mailed on 11/15/2017 to:
Christina Alessio, #589, 1970 N. ClevelandMassillon Rd., Bath, OH 44210. (P,J) (En­
tered: 11/15/2017)

App.46a
02/15/2017
26 Memorandum Opinion And Order: The Court
finds that the filings referenced by United in
its motion to strike (Doc. No. 24) do not
represent proper responses to defendants’ dis­
positive motion. Accordingly, and to the ex­
tent that Alessio’s extraneous filings have
not been already stricken from the docket by
the Court’s November 15, 2017 order, the
Court grants United’s motion to strike. For
all of the foregoing reasons, defendants’
motion to dismiss (Doc. No. 8) is granted.
Because the Court has found that Alessio’s
complaint fails to state a cause of action for
a failure to accommodate, but has elected to
permit Alessio to amend her complaint, the
Court denies defendants’ alternative motion
for a more definite statement. Alessio’s claims
for a violation of 49 U.S.C. Section 5124, age
discrimination, and retaliation, as well as
any and all claims against the individual
defendants, are dismissed with prejudice.
Alessio’s claim for failure to accommodate a
disability under the Americans with Disab­
ilities Act against United is also dismissed,
with leave to amend. Alessio is afforded 30
days from the date of this memorandum
opinion and order in which to file an amended
complaint raising a claim against United for
failure to accommodate a disability under
the Americans with Disabilities Act. Should
Alessio fail to timely file a fully compliant
amended complaint within 30 days of this
ruling, the Court will enter judgment in

App.47a

United’s favor as to the Americans with Dis­
abilities Act claim as well, and close this case.
Judge Sara Lioi on 2/15/2018. (P,J) (Entered:
02/15/2018)
02/15/2017
Copy of 26 Memorandum Opinion and Order
mailed on 2/15/2018 to: Christina Alessio,
#589, 1970 N. Cleveland-Massillon Rd., Bath,
OH 44210. (P,J) (Entered: 02/15/2018)
03/09/2018
27 Amended Complaint against United Airlines,
Inc., filed by Christina Alessio. (D,JJ) (En­
tered: 03/12/2018)
03/26/2018
28 Motion to dismiss plaintiffs amended com­
plaint for failure to state a claim, with memo­
randum in support, filed by Defendant United
Airlines, Inc. Related document(s) 27. (Huff­
man, Heather) (Entered: 03/26/2018)
08/28/2018
29 Motion for leave to file 3_public court report
documents filed by Plaintiff Christina Ales­
sio. (0,K) (Entered: 08/29/2018)
08/31/2018
30

Opposition to 29 Motion for leave to file 3
public court report documents filed by United
Airlines, Inc. (Huffman, Heather) (Entered:
08/31/2018)

09/05/2018

App.48a

Order [non-document]: Plaintiff has sought
leave to file records that she represents
involved hearings before the Ohio Industrial
Commission that occurred after the filing of
this present federal action. (Doc. No. 29.) The
motion is denied. On March 29, 2018, defen­
dants filed a renewed motion to dismiss (Doc.
No. 28) and briefing on that motion is now
closed. The Court will issue a ruling on
defendants’ motion in due course. Judge
Sara Lioi on 9/5/2018.(P,J) (Entered: 09/05/
2018)
09/06/2018
Copy of Notice of Electronic Filing from 9/5/
2018 Non-Document Order mailed on 9/6/2018
to: Christina Alessio, #589,1970 N. ClevelandMassillonRd., Bath, OH 44210. (P,J) (Entered:
09/06/2018)
11/20/2018
31

Memorandum Opinion And Order: Defendant
United’s motion to dismiss the first amended
complaint (Doc. No. 28) is granted. This case
is closed. Judge Sara Lioi on 11/20/2018.
(P,J) (Entered: 11/20/2018)

11/20/2018
32

Judgment Entry: For the reasons set forth in
the contemporaneously filed Memorandum
Opinion, the motion of defendant United Air­
lines, Inc. to dismiss the amended complaint
of plaintiff Christina Alessio (Doc. No. 28) is
granted. This case is closed. (Related Doc. No.

App.49a

31). Judge Sara Lioi on 11/20/2018. (P,J) (En­
tered: 11/20/2018)
11/21/2018
Copy of 32 Judgment, 31 Memorandum Opin­
ion and Order mailed to Christina Alessio at
#589, 1970 N. Cleveland-Massillon Rd., Bath,
OH 44210 on 11/21/2018. (T,Je) (Entered:
11/21/2018)
12/07/2018
33

Motion for permission for leave of court to re­
open case for clarification filed by Plaintiff
Christina Alessio. (0,K) (Entered: 12/07/2018)

12/11/2018
34

Opposition to 33 Motion for leave to Re-Open
Case for Clarification filed by United Airlines,
Inc.. (Stevens, Natalie) (Entered: 12/11/2018)

12/12/2018
Order [non-document]: The Court construes
plaintiffs pro se filing (Doc. No. 33) as a
request for reconsideration of its decisions
dismissing plaintiffs complaint and first
amended complaint. For all of the reasons
set forth in its memorandum opinions, the
motion is denied. (See Doc. Nos. 26, 32; see
also Doc. No. 25.) Judge Sara Lioi on 12/12/
2018.(P,J) (Entered: 12/12/2018)
12/12/2018
Copy of Notice of Electronic Filing from 12/12/
2018 Non-Document Order mailed on 12/12/
2018 to: Christina Alessio, #589, 1970 N.

App.50a

Cleveland-Massillon Rd., Bath, OH 44210.
(P,J) (Entered: 12/12/2018)
12/18/2018
35

NOTICE OF APPEAL to the Sixth Circuit
Court of Appeals from the Order (non-docu­
ment) of 12/12/2018, filed by Christina Alessio.
Filing fee paid 12/19/18, receipt# 54660006853. (Attachments: # 1 Exhibit D EEOC Dis­
missal and Notice of Rights) (0,K) (Entered:
12/18/2018)

12/19/2018
USCA Appeal Fees received $505.00, receipt
number 54660006853 regarding 35 Notice of
Appeal. (M,TL) (Entered: 12/19/2018)
12/26/2018
Acknowledgment from the USCA for Sixth
Circuit of receipt of 35 Notice of Appeal
(USCA# 18-4251). Date filed in USCA 12/21/
18. (H,SP) (Entered: 12/26/2018)
07/18/2019
37

True copy of mandate from the USCA for the
Sixth Circuit: Affirming the District Court’s
judgment re 35 Notice of Appeal (USCA# 184251). Date issued as mandate 7/16/19, Costs:
None (H,SP) (Entered: 07/18/2019)

App.51a
PLAINTIFF FILING, NOTICE OF APPEAL
(DECEMBER 18, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff, pro se,
v.
UNITED AIRLINES, INC.,
Defendant.
Case No. 5:17-cv-01426
Notice is hereby given that Christina Alessio (pro
se), hereby respectfully appeal to the United States
Court of Appeals for the Sixth Circuit from the final
judgement, Order dated 12/12/2018.
With respect, the U.S. Equal Employment Oppor­
tunity Commission closed its file April 18, 2017, and
issued a “Notice of Rights” letter, unable to verify and
certify that my Employer is in compliance with the
statues.
With respect, the Federal Court ruled for the
defendant on the bases of ADA, however, has not
verified nor certified that my Employer is compliant
with the statues. With respect to this case, I believe a
certification of compliance is required that my
Employer is following the Rule of Law.

App.52a

With respect to my appeal I must then therefore
ask, is my Employer 100% in compliance with Federal
Law 49 U.S. Code 5124, using chemical air-fresheners
and other chemical products inside the aircraft cabin?
Respectfully entered on this day, December 18,
2018.

/s/ Christina Alessio
Christina Alessio
Cleveland-Massillon Rd. #589
Bath, Ohio 44210
CERTIFICATE OF SERVICE
I do hereby certify, on this day of December 18,
2018, a copy of my Notice ofAppeal, has been faxed to
216-357-4733. This fax number is to my Employer’s
Legal Representatives, Ms. Heather Huffman and Ms.
Natalie Stevens.
Sincerely,
Is/ Christina Alessio
Christina Alessio
Plaintiff, pro se

App.53a
PLAINTIFF FILING, AMENDED COMPLAINT
(MARCH 9, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-cv-01426
Before: Sara LIOI, Judge,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff Respectfully submitting:
1)

Respectful Amended Complaint to state a
cause of action with respect to health, safety
and security, that in fact chemical substances
are used for “air-fresheners” and “cleaning”
products, inside the aircraft cabin.

2)

Failure to accommodate a disability, with
respect to Americans with Disabilities Act.
With respect, the injury/illness (disability)
effects not only Americans, but the global air
traveling public, inside the aircraft cabin.

App.54a

3)

Respectful remedy for airline accommodation
relief: safe and transparent products with
the utmost respect to “air-traveler’s” health
and safety, products used to clean and airfreshen the aircraft cabin should be made
transparent, no secrets, with complete list of
ingredients made available for a better air
quality environment, so to avoid any and all
injury/illness.
/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210

App.55a

RESPECTFUL AMENDED COMPLAINT
(MARCH 9, 2018)
INTRODUCTION:
Respectfully, I am complying to respond with
HONORABLE UNITED STATES DISTRICT JUDGE
SARA LIOI and the MEMORANDUM OPINION AND
ORDER, dated February 15, 2018.
YOUR HONOR AND WITH RESPECT, please
accept my written amended complaint.
Respectfully, I am a Flight Attendant with a
sincere duty and obligation to ensure a safe and
comfortable environment in the Aircraft Cabin, for the
Global Air Traveling Public. With great respect, I am not
only required by my Employer to communicate safety,
but encouraged to keep people safe by communicating
with our United States Government: “See Something.
Sav Something”.
Respectfully, as an American Citizen who loves
this Great Country, I truly believe in our United
States Constitution: To Protect the People. With great
respect, this includes the Health and Welfare, Safety
and Security of the People, who are inflight within our
Global Air Traveling Public. With respect, Aircraft
Cabin Air Quality does matter.
Respectfully, on April 18, 2017, I received a
“Notice of Rights” letter from the EEOC. The EEOC
stated in the letter that they could not certify that
my Employer was in compliance with the statues.
This is why on July 7, 2017, I respectfully filed with
the Federal Court. Respectfully, to receive confirmation,

App.56a

verification and certification that infact my Employer
is 100 percent in compliance with the statues.
YOUR HONOR AND WITH RESPECT. I believe
MEMORANDUM OPINION AND ORDER, states and I
quote in part, “Alessio’s claims for a violation of 49
U.S.C. Section 5124, age discrimination, and retaliation,
as well as any and all claims against the individual
defendants, are dismissed with prejudice.”
YOUR HONOR AND WITH RESPECT, please
allow me to apologize. Apologize with respect, that I
am not an Attorney. And with respect, that I am a
Flight Attendant.
I greatly respect your opinions and decisions,
however, I would respectfully like to appeal if that is
an option. Respectfully, if the Rule of Law does not
allow the ability to appeal, I will respectfully concur.
Respectfully, I must say however that I am still
unclear if my Employer is 100 percent in compliance
with the statues. Respectfully and due to this uncer­
tainty, I have reached out to further Government
Agencies for clarification of my Employers certification
and compliance with the statues.
Honorable Leaders of the United States of America
•

Honorable Attorney General, Mr. Jeff Sessions

•

Honorable Director of the Federal Bureau of Inves­
tigation, Mr. Christopher Wray

•

Honorable Administrator of the Environmental
Protection Agency, Mr. Scott Pruitt

•

Honorable Secretary of Transportation, Ms. Elaine
Chao

App.57a

•

Honorable Secretary of Health and Human Services,
Mr. Alex Azar

A respectful notarized letter was addressed to our
Honorable Leaders, requesting assistance, searching
for answers.
Respectfully, I would like to provide for you the
letter which I wrote to our most Honorable Leaders of
the United States of America, as well as further
evidence including a Public Court Report, of which I
was under oath and testified on January 30, 2018.
Respectfully, I do believe I need your permission to
submit further evidence. I am willing to be 100 percent
transparent, if you will allow me.
RESPECTFUL AMENDED COMPLAINT
YOUR HONOR AND WITH RESPECT. I would like
to begin my amended complaint with the focus on a
SET of FACTS, which will include DEFINITIONS and
RULE of LAW.
Respectfully, I am relying on FACTS. DEFINI­
TIONS and RULE of LAW for fairness, righteousness
and justice. Respectfully, I will also give my respectful
opinion, thereafter for thoughtful review.
YOUR HONOR AND WITH RESPECT TO THE
MEMORANDUM OPINION AND ORDER. I believe on
page one, it states and I quote in part:
“Alessio is granted leave to amend her com­
plaint to state a cause of action against United
for a failure to accommodate a disability.”

App.58a
RESPECTFUL FACTS, DEFINITIONS and RULE of
LAW:
1. FACT: Definition of the word “disability”:
Disability is a condition such as an injury/ill­
ness that damages or limits a person’s
physical/mental abilities.
Disability is the condition of being unable to
do things in a normal way.
2. FACT: Definition of Americans With Disabilities
Act “ADA”: Legislation that was passed in 1990 which
prohibits discrimination against people with disabilities.
With respect as I understand, under ADA, discrimination
against disabled people is illegal in employment,
transportation, public accommodations, communications
and government activities.
YOUR HONOR AND WITH RESPECT. Chemical
Substance air fresheners and Chemical substance
cleaning products used in the Aircraft cabin, is a direct
and potential result to the definition of “disability”.
Respectfully, is it possible for Crew Members and
Customers being forced to breathe the Cabin air of
Chemical Substances used in the Aircraft Cabin, with
respect, communicate this as Chemical Substance Abuse?
Respectfully, could the Chemical Substance
practice used in the Aircraft Cabin also be communi­
cated as a form of Human Traffic, with Air Traveler’s
being subjected to exposure and inhalation of Chemical
Substances to which can cause injury/illness (a disa­
bility), hurtful and harmful to peoples Health and
Safety?

App.59a
Respectfully, I believe this is a National Security
lack of concern. With respect, not just the lack of con­
cern to protect Americans from Air Travel injury/ill­
ness (a disability), but respectfully, the lack of concern
for the Whole Global Air Traveling Public. The Global
Air Traveling Public deserves accommodation in trans­
portation with 100 transparency to safe products for air
freshening and cleaning the Aircraft cabin.
Respectfully. I believe this is about: Product Lia­
bility and Accountability with the request and need
for Transparency. With respect, the request and need
for a better Aircraft Cabin Air Quality environment to
avoid any and all injury/illness.
Respectfully, I believe this is about: “Chemical
Substance Use/withheld ingredients: Aircraft Cabin Air”
vs. “Clean/Transparent: Aircraft Cabin Air-Quality”.
3. FACT: To state a cause of action against UnitedRespectfully, I believe a cause of action against
United is to state that in fact there is use and “carriage
of hazardous materials”, conducted inside the Aircraft
Cabin. Chemical Substance air fresheners and Chemical
Substance cleaning products.
4. FACT: For a failure to accommodate a disabilityRespectfullv. I believe for a failure to accommodate
a “disability” is the fact that the “ability” for Crew
Members and Customers, to follow the first aid protocol
from the Employer’s Use of Chemical Substances in
the Aircraft cabin, is Not an option.
YOUR HONOR, the “disability” develops, because
of the “inability” to follow safety protocol communi­
cated in the Chemical Substance air fresheners and
Chemical Substance cleaning product, Material Safety

App.60a

Data Sheets. With respect and for the record, the
Chemical Substance ingredients to the Aircraft Cabin
“air fresheners” state: Not applicable.?
YOUR HONOR AND WITH RESPECT. I believe
the inability to follow first aid protocol to the Chemical
Substance products, used inside the Aircraft Cabin, is
a pure violation of our human rights, civil rights and
with great respect to my Employer, gross negligence
on behalf of the Health and Welfare, Safety and Security
of the Whole Global Air Traveling Public. With respect,
the injury/illness (a disability) effects not only
Americans, but the Whole Global Air Traveling Public.
Respectfully, I believe this should raise concern for the
need of an accommodation with respect to the Whole
Global Air Traveling Public being subjected to Chemical
Substance Aircraft Cabin Air. Respectfully, Aircraft
Cabin Air Quality does matter, it should be made 100
percent safe and transparent.
5. FACT: Opposition Research began in 2014,
when United Flight Attendants were required to
acknowledge a “Hazard Communication Module”, or
were unqualified to fly. With respect, this included the
Chemical Substance Products used for “air freshening”
the aircraft cabin.
YOUR HONOR AND WITH RESPECT. I believe
having a Hazard Communication Module regarding
Chemical Substances used in the Aircraft Cabin is a
pure violation of the Rule of Law.
6. FACT: Federal Law states and I quote in part,
“Federal law forbids the carriage of hazardous materials
aboard aircraft in your luggage or on your person. A
violation can result in 5 years imprisonment and
penalties of $250,000 or more (49 U.S.C 5124),

App.61a

Hazardous materials include”, and I further quote in
part, “poisons”.
YOUR HONOR AND WITH RESPECT. I believe
my Employers use and carriage, of hazardous material
Chemical Substance air fresheners and Chemical Sub­
stance cleaning products aboard the aircraft is a pure
violation of Federal law, posing potential harm to
Crew Members and Customers.
7. FACT: Definition of the word “poison”;
Poison is a substance that can cause harm or injury
to people.
YOUR HONOR AND WITH RESPECT. I believe
there is a potential to cause harm, injury or illness (a
disability) to Crew Members and Customers with the
Employers use of Aircraft Cabin Chemical Substances.
Respectfully, Chemical Substances are poison.
With respect, breathing in Chemical Substances
inside the Aircraft Cabin environment, I believe is
unlawful, extreme carelessness and not normal for the
Health and Welfare, Safety and Security of all Crew
Members and Customers. Respectfully, Crew Members
and Customers simple normal inhalation (breathing)
inflight with the Chemical Substances inside the Aircraft
Cabin, go into their bodily system with every breath,
and unfairly poses injury/illness (a disability) and is
harmful, hurting to the Global Air Traveling Public’s
Health, Welfare, Safety and Security.
8. FACT: Material Safety Data Sheet information
on the Chemical Substance products for the Aircraft
Cabin are communicated, in my Public Court Report
Hearing dated, January 30, 2018. With respect, it is a
simple fact, that the first aid protocol is not an option,

App.62a
which unfairly can cause the action of unnecessary
injury/illness (a disability).
YOUR HONOR AND WITH RESPECT, mav I have
vour permission to respectfully submit to the Federal
Court, mv Public Report Record dated January 30.2018?
9. FACT: UNITED STATES CONSTITUTION:
TO PROTECT THE PEOPLE
IN CONCLUSION:
The Summary of Facts, Definitions and Rule of law:
1.

Definition of “disability”

2.

Definition of American’s with Disabilities
Act (ADA)

3.

Amended Complaint to state a cause of action

4.

Amended Complaint for failure to accommo­
date a disability

5.

Hazard Communication Module—Regarding
Aircraft Cabin Chemical Substance Products

6.

Federal Law 49 U.S.C. 5124

7.

Definition of “poison”

8.

Material Safety Data Sheets—First Aid pro­
tocol, not an option

9.

U.S. CONSTITUTION: To Protect the People

RESOLUTION AND REMEDY FOR RELIEF:
YOUR HONOR AND WITH RESPECT. I believe
in the U.S. Constitution: To protect the People.
YOUR HONOR ANO WITH RESPECT. I believe
in a sincere remedy for relief.

App.63a

1.

Respectfully, 100 percent Transparency with
Certification and Compliance to the Rule of
Law with all Aircraft Cabin air freshening
and cleaning products.

2.

With respect, products to be made safe, trans­
parent and public, for our National Security.

3.

With respect, products to be made safe, trans­
parent and public for the Health, Welfare
and Safety for the Whole Global Air Travel­
ing Public.

IN CLOSING:
With respect, I believe in the United States of
America.
With respect, I believe in the United States Con­
stitution: To Protect the People.
With respect, I believe and trust our Government
will do what is right: To Protect the People.
With respect, I believe and trust in GOD, the
Father Almighty, creator of Heaven and Earth.
With respect, I believe in Faith, Hope and Love.
With respect, I believe with the dignity and respect
the Whole Global Air Traveling Public deserves. that
pure and simple, safe and transparent, Aircraft Cabin
Air Quality products for a more pleasant flying ex­
perience across America and Around the World, will
one day prevail.
This respectful letter was written with care,
concern and kindness.
Thank you for your kind consideration.

App.64a

Sincerely,

/s/ Christina Alessio
Christina Alessio
Flight Attendant
Pro se

CERTIFICATE OF SERVICE
I do hereby certify that on March 9, 2018, the
following respectful amended complaint was submitted
and filed at the Federal Courthouse, United States
District Court Northern District of Ohio, with the
Clerk of Courts.
Respectfully, two copies were also served by
Certified Mail on March 9, 2018, to the nine collective
“Individual” Defendant’s Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr. Sam Risoli

App.65a

Ms. Mary Sturchio
Ms. Janie DeVito
Ms. Kim Piszczek

Respectfully,
/s/ Christina Alessio
Christina Alessio
Plaintiff and Pro se

App.66a
PLAINTIFF FILING, COMPLAINT
(JULY 7, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-cv-1426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
1. Name of the Party Address
United Airlines, Inc.
233 South Wacker Drive Chicago, IL 60606
• Mr. Oscar Munoz-CEO
• Mr. Scott Kirby-President
• Mr. Brett Hart-EVP Chief Administrator Officer
and General Counsel
• Mr. Robert Milton-Chairman of the Board
of Directors of United Continental Holdings
• Mr. Sam Risoli SVP Inflight Services

App.67a
United Airlines, Inc.
Newark’s Liberty International Airport
1 Terminal C EWRSW
Newark, New Jersey 07114
• Ms. Mary Sturchio—Sr. Manager
Human Resources and Employee Relations
United Airlines, Inc.
Cleveland Hopkins International Airport
5300 Riverside Drive Cleveland, Ohio 44135
• Ms. Janie DeVito-Sr. Inflight Manager
• Ms. Kim Piszczek-Inflight Supervisor
2. STATE the BASIS of the COURT’S JURISDICTION
•

49 U.S.C. § 5124

3. FACTS of the CASE
A. FEDERAL LAW
•

49 U.S.C. § 5124—Respectfully in part and in
summary, Federal Law forbids the use of hazar­
dous material onboard Commercial aircraft,
including poisons.

Definition of poison: a substance that can cause
harm and injury to people.
B. EQUAL EMPLOYMENT OPPORTUNITY COM­
MISSION
With respect and based upon the EEOC’s investi­
gation conclusion, the 2 discrimination charges are
with my understanding that the EEOC could not
certify that the Respondent is in compliance with the
Statues. Respectfully, I believe the matter is therefore,
still unresolved.

App.68a

As an American Citizen and a Commercial Airline
Flight Attendant with duties, obligations and respon­
sibilities to uphold, I therefore deem it necessary to
respectfully submit and file a complaint with the Res­
pondent for insight, clarity and understanding.
With respect and in specific, insight, clarity and
understanding as to the Certification of the Respond­
ent’s Compliance with the Statues. Respectfully par­
ticularly to Federal Law, 49 U.S.C. 5124, in part and
with specific definition thereof: poisons.
C. RESPONDENT
1. 2014 HAZARD COMMUNICATION MODULE was
required by all Flight Attendant’s to acknowledge or
not qualified to fly. Respectfully, this is in fact the
matter and evidence I truly believe is not in
Compliance with the Statues, and is in violation of
Federal Law 49 U.S.C. § 5124, in part and with specif­
ic definition thereof: poisons.
Only Flight Attendants (Customers exempt), were
required by the Respondent to acknowledge a Hazard
Communication (HazCom) Module or were not qualified
to fly. I truly believe our Customers are unaware and
uninformed, don’t know to know, that the chemical
(poison) products being used to clean and air freshen
inside the aircraft cabin, are with the inability to
follow the recommended first aid procedures.
With respect, I truly believe our Global Air-Trave­
ling Customers believe, that the United States Global
Airline Carriers, are also required to follow Federal
Law.
Respectfully, the Respondent’s Hazard Commu­
nication Module to chemical (poison) cleaning and air

App.69a

freshening products with no protective measures has
resulted in unnecessary injury to a disability with no
accommodation, age discrimination and ongoing con­
tinued retaliation and harassment. Respectfully, I
have been following the Respondents Policy and Proce­
dures Manual to the best of my ability with regards to
“Safety is Top Priority”, as well as what we have
always been taught, “See something, Say something”.
Respectfully I believe there is “there-there”, for
certain to be reviewed.
•

The Law: There is a Federal Law: 49 U.S.C. § 5124.
With respect, and in specific to poisons.

•

The Fact: There is a Hazard Communication Mod­
ule. With respect, and in specific to the Respond­
ent’s cleaning and air freshening products for the
aircraft. Protective measures are not an option.

With respect, I believe the above, “there-there”, is
a conflict.
With respect, I believe there is need for review of
certification confirmation in Compliance with the
Statues, as well as the approval for such a Module
when it conflicts with Federal Law. Respectfully,
including sources and methods, ways and means for
the reason behind the Respondent’s use of such
chemical (poison) cleaning and air freshening products.
Please note also in part: Substances and Components
are, “Not Applicable”.
With respect, I truly believe the Respondent’s
Hazard Communication Module is a violation of Fed­
eral Law, but also a violation of our human rights to
protective measures, as well as, our dignity and respect.

App.70a

Respectfully, every Customer and Crew Member
partake in this very exact same environment. Article
5: An attack against one is an attack against all.
As an American Citizen to our Constitution, there
is a duty to uphold:
•

To Protect the People
As a Flight Attendant for a Commercial Airline,
there is a duty to uphold:

•

To ensure a Safe and Comfortable Environment
Respectfully, I believe the Hazard Communication
Module to chemical (poison) cleaning and air fresh­
ening products used, at will onboard the aircraft,
is simply wrong and harmful. I truly believe is
goes against Federal Law 49 U.S.C. § 5124.
Please, let’s fix this.
With heart, it’s never too late to do the right thing.

2. May 2nd and 4th, 2017—Current Events. With
great respect, Lawmakers communicated with the
Airline Industry on Capitol Hill, stating to improve
service or Congress will step in.
Respectfully, I believe “service” includes the safety
and welfare, dignity and respect to Customers too. The
change for clean air-quality standards was not men­
tioned.
Respectfully, I believe the Hazard Communication
Module to chemical (poison) cleaning and air freshening
products used at will, inside the aircraft cabin (that
every Customer and Crew Member breathes), was then
and is now, most crucial and necessary for change.
Respectfully, this is about choice. The choice to use
chemical (poison) cleaning and air freshening products

App.71a

with no protective measures, for people to breathe
onboard. With respect, resulting in unnecessary illness
or injury.
With great respect to our Customers and Crew
Member’s, our health and well being should matter.
Respectfully, we deserve pure, clean, transparent, non
toxic aircraft cabin cleaning and air freshening
products in this particular and unique environment,
because our health matters.
3. Respondents “Contract of Carriage”—Respectfully 1
believe, the legal fine print governing Customers
onboard the aircraft is not transparent to the
Substances and Components of the aircraft cabin
cleaning and air freshening products. In specific, the
Hazard Communication Module required to acknow­
ledge by all Inflight Employee Flight Attendant’s, or
were not qualified to fly.
4. WORKING TOGETHER GUIDELINES provided
by the Respondent for Flight Attendant’s to follow in
our Policy and Procedures Manual. With respect and
in specific, the information can be found in Chapter 6.
•

Responsibility: In part, Flight Attendants are res­
ponsible to work safely and promptly report any
concerns up the leadership chain until resolved.

•

Dignity and Respect: In part, we work to achieve a
workplace free of discrimination and harassment
for any protected category under law, and to report
concerns promptly until resolved.

•

Safety Policy: In part, communicates that the
safety, welfare and health of our Employees and
Customers are very important. With respect the
Respondent further states, that we all share in the

App.72a

responsibility of running a safe operation and
maintaining a safe and healthful workplace.
•

Ethics and Compliance: In part, the Ethics and
compliance entails making business decisions,
protecting our assets, complying with laws and
policies, maintaining a commitment to deliver a
clean, safe and reliable product, and treating each
other with dignity and respect.

•

Equal Employment Opportunity Policy: In part the
Respondent states, we provide equal opportunity to
all Employees and applicants without regard to any
protected category under applicable law.

•

Reasonable Accommodation: In part, Respondent
provides equal employment opportunity for individ­
uals, so they may perform safely the essential
functions of their job.

•

Affirmative Action: In part, Respondent states: As
a federal contractor, we comply with the legal
requirements.

•

Harassment and Discrimination: In part the Respon­
dent states, we expect Employees to treat each
other with dignity and respect. The Respondent
further states in part that, we are committed to pro­
viding a work environment free from offensive dis­
crimination, with any protected category under
applicable law.
Respectfully,

As an American citizen to our constitution, there
is a duty to uphold:
•

To Protect the People

App.73a

As a Flight Attendant for a commercial Airline,
there is a duty to uphold:
To ensure a Safe and Comfortable Environment
MOTIONS TO FILE WITH COMPLAINT
With respect to my 2 dismissed EEOC charges
and the EEOC’s conclusion with my right to be heard
in court, 1 would like to file 2 Motions with my Com­
plaint, for Good Cause.
1. Motion for Discovery
Respectfully I would like to request, a Motion for
Discovery for the HazCom Module and the Products.
With respect, the Respondent’s 2014 to date Hazard
Communication Module for Flight Attendants ack­
nowledgement, or not qualified to fly. I believe this to
be the supporting evidence to the matter and my Com­
plaint. With respect to the Hazcom Module, all
products used for the aircraft cabin, including name of
product, its use, and the material safety data sheet, is
respectfully requested for discovery.
2. Motion to File Complaint Under Seal
Respectfully, I would like to request with my Com­
plaint submission today, that any and all documents,
today and/or in the future, from attorney, counsel or
pro-se, plaintiff or defendant, whether filed electronic­
ally or manually, be kept under Document Seal, L.R.,
Rule 3.1.
May it please be known, I will remain open to and
encourage, with the court’s approval, the opportunity
for Alternative Dispute Resolution (ADR), L.R., Rule
16.4.

App.74a
THE RESPECTFUL RELIEF REQUEST:
1. FOR GOOD CAUSE
• U.S. Global Commercial Aircraft Chemical (poison)
Cleaning and Air Freshening Products:
With respect, all products need to be certified and
approved by the FAA and OSHA, as harmless,
transparent, with no secrets. Respectfully, the complete
list of ingredients is made available, including frag­
rance.
Respectfully, the Commercial Airline Industry
will be required to update, out dated chemical (poison)
products, used for cleaning and air freshening the
aircraft cabin.
With great respect, this is about the dignity and
respect to the Global Air-Traveling Public, following
Federal Law, Safety, and the Healthcare and Well
Being of Customers and Crew Members.
2. Income Wage Loss
Aircraft cabin air quality work injuries docu­
mented at the Ohio Industrial Commission, from the
2014 Hazard Communication chemical products, with
no alternate protective measures provided by the Res­
pondent. Exhibit: G.
3. Insult to Injury
With respect to Federal Law and referencing my
2 Equal Employment Opportunity Commission, dis­
crimination charges. Exhibit: A.
• #532-2015-01733 Respectfully submitting The
Particulars (6 pages)

App.75a

•

#532-2017-00265 Respectfully submitting The
Particulars (2 pages)

4. Heartless and unusual discipline
Resulting in unnecessary injury. Exhibits: B, C,
G and H.
5. With Respect to Corporate and Management,
please come fly with me.
/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210

App.76a

CHARGE OF DISCRIMINATION
(JULY 20, 2015)
Charge Presented to: EEOC
Agency(ies) Charge No(s): 532-2015-01733
State or Local Agency, if any:
•

Ohio Civil Rights Commission and EEOC

Name: Miss Christina Alessio
Date of Birth: 1960
Street Address:
1970 N. Cleveland Massillon Rd. #589,
Bath, OH 44210
Named is the Employer, Labor Organization, Employ­
ment Agency, Apprenticeship Committee, or State or
Local Government Agency That I Believe Discrimi­
nated Against Me or Others. (If more than two, list
under PARTICULARS below.)
Name: United Airlines (Based in Cleveland)
Street Address:
Cleveland Hopkins Airport,
Cleveland, OH 44135
No of Employees, Members: 283
Phone No: (216) 501-4087
Discrimination Based On:
•
•
•

Retaliation
Age
Disability

App.77a

Date Discrimination Took Place:
•
•

Earliest 03-06-2014
Latest 07-15-2015

THE PARTICULARS ARE (if additional paper is
needed, attach extra sheet(sj)\
See attachments
Respectfully Submitting 6 Pages
I want this charge filed with both the EEOC and
the State or Local Agency, if any. I will advise the
agencies if I change my address or phone number and
I will cooperate fully with them in the processing of
my charge in accordance with their procedures.
I declare under penalty of perjury that the above
is true and correct.
/s/ Christina Alessio
Charging Party Signature

Date: 7-20-15

App.78a
EEOC ATTACHMENT
CHARGE #532-2015-01733
THE PARTICULARS ARE:
• DISABILITY/RETALIATION/AGE
•

110 pages respectfully submitted to the EEOC,
May 11, 2015

•

133 pages of emails respectfully submitted to the
EEOC, July 7, 2015

• July, 2015: Number of Employees under the Res­
pondent based in Cleveland, Ohio: 283
• I began my employment with the Respondent in
August, 1998.
• I developed a medical Disability of Rheumatoid
Arthritis in February, 2003.
With respect, I am fit for duty and qualified to
perform my essential job functions with my Disability
and have since 2003, when diagnosed with
Rheumatoid Arthritis.
With respect, I am capable of performing my
essential job functions. With respect, I am greater
capable of performing much better and healthier, with
the ability of working more hours in my work
environment, when I’m not being forced to breathe the
hazardous air fresheners onboard the aircraft in my
work environment. With respect, first aid procedures
on the aircraft are not an option in my work
environment and protective measures are not provided
by the Respondent. The Doctors were all in agreement
with me sealing the air freshener as a reasonable

App.79a

accommodation to my Disability. This seemed sensible
to me too.
Respectfully, I was denied the permission from
the Respondent to follow my Doctors recommendation
to my Disability, March 2014 to November 4, 2014.
DISABILITY/RETALIATION:
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent from March 6, 2014 to November 4, 2014.
With respect, I was specifically instructed and
advised in a Mandatory meeting called by my Cleve­
land Inflight Manager, Janie DeVito, on March 6,
2014, not to remove the Air Freshener Disks in my
work environment.
With respect, the Air Freshener Disks in my work
environment are a rated a Health Hazard and aggra­
vate my Disability.
Flight Fresh Deodorant Disk (Aircraft Air Fresh­
ener Disk): Material Safety Data Sheet states: Ingre­
dients withheld/First Aid procedures: seek fresh air.
With respect, I asked Janie in the meeting how I
was to protect my Disability from aggravation in my
work environment to the Air Freshener Disks. With
respect, Janie responded, “I don’t know. You need to
do your research, it needs to pass by Management and
get approved by Corporate.”
No (accommodations) protective measures to the
Air Freshener Disks in my work environment for my
medical Disability (to avoid injury) were given to me
by my Inflight Manager, Janie DeVito.

App.80a

I returned to work fit for duty on March 16, 2014,
for the start of a 4 day trip. I followed my Managers
direction and instructions and did not remove the Air
Freshener Disks in my work environment. My
Disability was becoming more and more aggravated to
the Air Freshener Disks emitting in my work
environment. March 17, 2014, I flew Fort Myers to
Newark and went directly to the Airport Employee
Health Clinic, where I was taken off my trip by the
Health Clinic, due to severe aggravation and injury to
my medical Disability.
On March 19, 2014, the Respondent sent a letter
inviting me to participate in the Reasonable Accom­
modation Program. I graciously accepted.
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent. I respectfully called a meeting with my Inflight
Manager to review the research I was instructed to do
on March 6, 2014. The meeting was held on July 18,
2014. Up to this date, I was denied the ability to follow
my Doctors Recommendation to return to work safely.
With respect, in this meeting I communicated to my
Inflight Manager, Janie DeVito, “You are forcing me to
breathe the Air Freshener Disks in my work
environment.”, Her response was, “I’m not forcing you
to come to work.” I then asked, “What happens when
I get on the aircraft and the Air Freshener Disk is
missing?” This was asked because sometimes for
whatever reason the Air Freshener Disks on the
aircraft were missing. With respect, Janie’s response
was, “Consider that your lucky day.”
With respect, I believe I have been discriminated
because of my Disability and retaliated by the
Respondent. An email from my Inflight Manager,

App.81a
Janie DeVito was sent to me on October 24, 2014. In
the email she states, “The deodorant disks are a
necessary item onboard the aircraft.” With respect,
this was not the communication I received in the
meeting, July 18, 2014. With respect, the Air Fresh­
ener Disks were not an operational “no go” item on the
aircraft. With respect, No accommodation was made to
my Disability to return to work safely, from March 17,
2014 to November 4, 2014.
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent. Respondent’s Reasonable Accommodation Program
continuously denied me from March 2014, to November,
2014, the permission to follow the Doctors Recom­
mendation as a “Reasonable Accommodation”, so I
could return to work safely and quickly as possible.
The Doctors Recommendation was to seal the Air
Freshener Disk when in my work environment to
protect my medical Disability from further aggra­
vation (Doctors include: Rheumatologist, Allergist,
Immunologist, Dermatologist, PCP and Occupational
Medicine).
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent. With respect, the Reasonable Accommodation
Program Administrator, Jennifer Dziepak and my
Inflight Manager, Janie DeVito, never allowed or gave
me the permission to follow the Doctors Recommen­
dation as a Reasonable Accommodation to my
Disability, so I could return to work safely.
Due to an overwhelming financial burden by put­
ting my Health first, I had no choice but to returned to
work without an accommodation (protective meas-

App.82a
ures) to the Air Freshener Disks in my work environ­
ment for my Disability. First Aid Procedures for the
Air Freshener Disks on the Safety Data Sheet are not
an option in my work environment, and no protective
measures are provided by the Respondent. With
respect, how is that allowed or fair to ones Health?
Without an accommodation, or the ability to
follow my Doctors Recommendation (denied to sealing
the Air Freshener in my work environment), I returned
to work September 10, 2014. With respect, I was taken
off working trips, by Airport Employee Health Clinics
in September 2014, as well as in October, 2014, from
substantial aggravation to my Disability from the Air
Fresheners in my work environment.
I received an email from my Manager, Janie
DeVito, on October 2, 2014. In her email she states a
product change to the Air Freshener Disks. The
removal process may take up to 30 days. The email
communication was to prepared me for my next trip,
but never gave me the permission to seal the Air
Freshener Disks for a reasonable accommodation to
my Disability, if still onboard. With respect, I was
given no approval to remove the Air Freshener Disks
in my work environment. Respectfully, I continued to
report to work fit for duty, but then removed from my
work environment by Airport Employee Health Clinics,
due to injury caused from substantial aggravation by
the Air Freshener Disks still onboard. Emails have
been respectfully submitted, for the record.
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent. October, 2014, the Respondent began removing
the Air Freshener Disks from my work environment
that aggravated my medical Disability. With respect,

App.83a
I have requested backpay. The accommodation recom­
mended by the Doctors for my Disability was made by
the Respondent with a product change, after returning
to work fit for duty and becoming re-injured and
disabled to perform my essential job functions due to
the Air Freshener Disks. With respect, I have been
denied March 17, 2014 to November 4, 2014, backpay.
To Note: A further accommodation was also made
after returning to work. On November 5, 2014, an
email from the Respondent (page 96 of information
respectfully submitted). I now have the permission to
throw away the Air Freshener Disk, if ever present in
my work environment. With respect, this was the
simple protective measure I was requesting permis­
sion from my Manager an March 6, 2014, but was
denied.
With respect, I believe I have been discriminated
because of my Disability and retaliated by the Respond­
ent. I should have never missed a day of work, March
6, 2014 to November 4, 2014. With respect to respect­
ing my health, I am now financially burdened. With
respect, I have requested back pay to my Supervisor,
Kim Piszczek, in an email on May 4, 2015. With
respect, I have been denied.
RETALIATION
With respect. I believe I have been retaliated
against to 5 past denied work injury claims from prod­
ucts used in my work environment, providing no
protective measures. Products used are for cleaning
and air freshening my work environment. First Aid
Procedures on the Safety Data Sheets to these prod­
ucts are with respect, not an option in my work

App.84a

environment. Respectfully, no alternate First Aid Pro­
cedures have been provided by the Respondent. With
respect, how is this fair to ones Health?
#10-824071 5/19/10
#14-809315 2/15/14
#14-813103 3/02/14
#14-813107 3/17/14
#14-853863 9/19/14
With respect, I am a simple person. I love people
and I love flying. I come to work fit for duty. My desire
is to simply stay at work and make a simple living.
With respect, I believe the cleaning and air freshening
products used numerous times a day are inappropriate
for the aircraft, due to the fact that First Aid pro­
cedures can not be followed, it is simply not an option
in my work environment. With respect, is this fair?
Because of this fact, I have been unnecessarily injured
in my work environment. With respect. I have invited
and offered the opportunity to show the Respondent
my burden of proof, but I am denied. With respect, is
this fair?
— With respect, I have invited the Respondent to
come fly with me so I can show the injury that
takes place from the product being used in my
work environment. I am denied and refused. With
respect why, is this fair? I am injured in my work
environment.
— With respect, I requested the presence of my
Manager at the Hearing. Respectfully, I also
requested the suspect, Air Freshener Disks for
burden of proof. I am denied and refused. With

App.85a

respect why, is this fair? I am injured in my work
environment.
- With respect, the Respondent requested an Inde­
pendent Medical Examination. I was in full coop­
eration and respectfully requested the Respond­
ent to provide the Air Freshener Disk at the
Doctors office for an Ambient Exposure Challenge
Test. I am denied and refused with a cancellation
of the examination. With respect, why, is this
fair? I am injured in my work environment.
- With respect, I have requested the Air Fresh­
ener Disks and the other cleaning products at the
Meetings of July 18, 2014 and the most recent
Mandatory Meeting July 7, 2015, for insight,
clarity and understanding. Please let me show
you. With respect, I am denied and refused. With
respect, why, is this fair? I am injured in my work
environment.
With respect, I believe I have been retaliated by
my work injury claims.
With respect, I believe I have been retaliated by
email responses from Respondent, or no responses
from Respondent, to respectful emails I have sent,
trying diligently to return to work safely and as
quickly as possible.
With respect, I have submitted Emails for record
of specific details of retaliation.
RETALIATION
With respect, I believe I have been retaliated by
my Supervisor, Kim Piszczek. With respect, I have
been subjected to a punitive work environment, since

App.86a

returning to work. In 17 years, I have never been put
on a Verbal or Written Warning. After returning to
work, I have been put on both warnings.
With respect, I have been issued a Verbal Warning
for 12 months, given to me on February 11, 2015, by
my Supervisor for solicitation in nature. I provided an
email January 23, 2015, in the interest of Health and
Safety, which shared an example of a non hazardous
material product for comparison purposes, to the
hazardous products used in my work environment
with no protective measures provided by the
Respondent. Respectfully, the retaliation discrimi­
nation here is where co-workers business cards are
posted in the employee room at work and products
have been sold at work in uniform with no disciplinary
action enforced. With respect, I was not in uniform,
and I was not at work. I was on my day off from work,
and simply sharing in the interest of Health and
Safety an example. I was not selling.
Respectfully, I never received a response from
anyone with regards to Health and Safety in my work
environment from the email I sent on January 23,
2015. With respect, I only received my Verbal
Warning.
On March 31, 2015, I received a Written Warning
for 12 months, for inappropriate behavior and actions. I
communicated to a Supervisor a Health and Safety
concern I have in my work environment. Documenta­
tion for explanation is provided.
With respect, I disagree with both the Verbal and
Written disciplinary actions as the concern is of
Health and Safety. With respect, I was following my
obligations from my operations manual for my work

App.87a

environment. With respect and regards to the Respond­
ents Corporate Safety Commitment Letter (of which I
have been given the permission to submit by my Super­
visor), health or safety will not be compromise and the
letter supports a non-punitive environment for
addressing any health or safety concern.
AGE
- With Respect, I believe I have been age discrim­
inated by my Manager, Janie DeVito. Janie addressed
me directly, my eligibility to the Company Early-Out
Program, October 16, 2014. This communication was
sent advising me, directly via a personal email. I
believe the Respondents interests are communicated in
emails, respectfully submitted. Respectfully, I wanted
to return to work as quickly as possible, stating with
emails submitted. Respectfully, I wanted to work,
needed to work, I missed my Career dearly. Respect­
fully, I should have never missed a day of work.
With respect, I believe the Respondents interest
was not wanting me back to work at all, and that it
was time for me to retire. I am close to the age of 55
years. With respect, I am not interested in retiring
from my career in any way. Why would my Manager
want me to know I was eligible for the Company
Early-Out Program? With great respect, I love what I
do for a living. It is my career and livelihood. With
respect, I have shared this love of my career with my
Manager time over, in person and in emails. With
respect I believe, on October 16, 2014, my Manager,
Janie DeVito communicated to me directly, “the EarlyOut Program (of which you are eligible)” because of my
age. It was time for me to retire from my career.

App.88a

CHARGE OF DISCRIMINATION
(APRIL 18, 2017)
Charge Presented to: EEOC
Agency(ies) Charge No(s): 532-2017-00265
State or Local Agency, if any:
•

Ohio Civil Rights Commission and EEOC

Name: Ms. Christina M. Alessio
Home Phone (Incl. Area Code): (330) 338-7052
Date of Birth: 1960
Street Address:
1970 N. Cleveland Massillon Rd. #589,
Bath, OH 44210
Named is the Employer, Labor Organization, Employ­
ment Agency, Apprenticeship Committee, or State or
Local Government Agency That I Believe Discriminated
Against Me or Others. (If more than two, list under
Particulars below.)
Name: UNITED AIRLINES
Street Address:
Cleveland Hopkins Airport,
5300 Riverside Drive
Cleveland, OH 44135
No of Employees, Members: 201-500
Phone No: (216) 501-4087
Discrimination Based On:
•

Retaliation

App.89a
DATE(S) DISCRIMINATION TOOK PLACE:
• Earliest 2/24/2016
• Latest: CONTINUING ACTION
THE PARTICULARS are (if additional paper is
needed, attach extra sheet(s)):
With respect, please see 2 page notarized
statement of Particulars, also referencing
EEOC #532-2015-01733.
With respect, this is not a Release Authori­
zation for Work Injury Claims with the Ohio
Industrial Commission.
I want this charge filed with both the EEOC and
the State or Local Agency, if any. I will advise the
agencies if I change my address or phone number and
I will cooperate fully with them in the processing of
my charge in accordance with their procedures.
I declare under penalty of perjury that the above
is true and correct.
Is/ Christina Alessio
Charging Party Signature
Date: April 18, 2017

App.90a

ATTACHMENT
I began working for the above named Respondent
on 8/13/1998, as a Flight Attendant.
On May 11, 2015,1 filed an EEOC Charge of Dis­
crimination #532-2015-01733, based on Retaliation,
Disability and Age.
I believe I have been discriminated with May 11,
2015, EEOC Charge #532-2015-01733, based on Retali­
ation, Disability, in violation of Title I of the Americans
with Disabilities Act of 1990, as amended (ADA) and
the Age Discrimination in Employment Act of 1967, as
amended (ADEA).
On November 30, 2016,1 filed a new EEOC Charge
of Discrimination #532-2017-00265, based upon on­
going and continuing Retahation actions by Respondent,
beginning on 2/24/2016, for participation and relations
with my previously filed, and unresolved, EEOC
Charge #532-2015-01733.
Please reference the 12 page Intake Questionnaire,
for the new EEOC #532-2017-00265. With respect,
further supporting documentation has been continued
to be submitted.
Discrimination and Retaliation Particulars in brief for
#532-2017-00265:
On 2/24/2016 to date, Discrimination actions of
Retaliation by Respondent has been continuing and
ongoing. Respondent has denied multiple reasonable
requests, including sincere accommodations regard­
ing family and work, as well as requested and denied
protective measures at work, to simply avoid injury.

App.91a

1.

3 Emergency Drop Requests Denied by Respond­
ent to be with my Father in Hospice Care. Three
different times, Emergency Drops were requested
and denied by my Supervisor. I had to be flown
home from a working trip August 4, 2016, just
hours before mv Father’s passing on August 5,
2016.

2.

2/24/2016, Injured by the Respondent’s CPR Vali­
dation Requirement Expectation. No Protective
Measures were provided. My Doctor’s request to
avoid injury was denied by Respondent. American
Heart Association concurs that my body weight was
not enough to fulfill my Respondents CPR
expectation. Respondent was present and witnes­
sed my injury of which Respondent then put me
on a Non-Paid Leave of Absence, for 5 months.

3.

Personal Accident Insurance and Life Insurance
Termination (referencing 2/24/16 injury). AIG
Employer Part A, on Insurance form, has been
denied to be completed fully and accurately, by
Respondent.

4.

20 unnecessary Work Injury Claims due to no
protectives measures provided by Respondent.
Doctor recommendations to avoid injury were all
denied, resulting in work injuries.

5.

12/13/2016 Disciplinary Action-Responding to over­
exposure Hazard Communication Module Products
by following First Aid Procedures on the ground.
Put on a Verbal Warning by my Supervisor.

6.

Irregular Operation Reports—Denied by Respond­
ent, from my personal written respectful request
to please, come fly with me. Requests respectfully
communicated on Irregular Operation Reports:

App.92a
from the CEO, VP of Inflight Services, Inflight
Manager, Inflight Supervisor, all invited to please
come fly with me. Respondent has denied my
invitation. Hazard material products for cleaning
and air freshening are still being used onboard
the Aircraft by ground personnel, unknown to the
Customers. With respect, pictures of products
used onboard and continued reports, respectfully
written. Respectfully, my job responsibility is to
ensure a safe and comfortable environment.
7.

Irregular Operation Reports—2014 Discontinued
Hazard Communication Module Product has still
been present in 2017, onboard the Aircraft.

OSHA Standards require Employers to provide
protective measures to hazard materials. No protec­
tive measures are provided. And respectfully, Ingre­
dients are communicated as “N/A” (Not Applicable) on
the Material Safety Data Sheet (classified information
and withheld).
With respect, the Respondent is knowingly using
the hazard material products onboard and inside the
Aircraft by providing a Hazard Communication Module,
which was required to acknowledge. Respectfully, I
believe this not only to be a violation of Federal Law,
but also very discriminating and a pure violation of
human dignity and respect for Customers and Crew
Members. Respectfully, it is the “air”, Customers and
Crew Members are breathing to the Respondents
hazard materials used to clean and air freshen
onboard and inside the Aircraft.
Respectfully, I believe the Respondent is violating
Federal Law, by cleaning and air freshening with
hazard material products used onboard and inside the

App.93a

Aircraft. Respectfully, I believe this to be a continu­
ance of harmful retaliation and discrimination.
Respectful added Burden of Proof: Requested an
Independent Medical Examination by the Respond­
ents Physician, to the hazard material products used
onboard the Aircraft for cleaning and air-freshening.
Respondent declined.

Is/ Christina Alessio
Christina Alessio
State of Ohio
County of Summit
Christina Alessio sworn to and subscribed in my
presence this 17th day of April, 2017.
/s/ Alfredo D. Torres
Alfredo D. Torres
Notary Public
State of Ohio
Comm. Exp. Apr 15, 2018

App.94a
EXHIBIT D — EEOC LETTERS
MISSING “DISMISSAL AND NOTICE OF RIGHTS”
RESPECTFULLY SUBMITTED WITH COMPLAINT
(DOCKET #1, ATTACHMENT #5)
(LETTER DATED: APRIL 18, 2017)
U.S. Equal Employment Opportunity Commission
Dismissal and Notice of Rights
To:

Christina M. Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
From:
Cleveland Field Office
EEOC, AJC Fed Bldg
1240 E 9th St, Ste 3001
Cleveland, OH 44199
•

EEOC Charge No.: 532-2015-01733

•

EEOC Representative:
Denise DeGennaro, Investigator
Telephone No.: (216) 522-4786

THE EEOC IS CLOSING ITS FILE ON THIS
CHARGE FOR THE FOLLOWING REASON:
• The EEOC issues the following determination:
Based upon its investigation, the EEOC is unable
to conclude that the information obtained estab­
lishes violations of the statutes. This does not
certify that the respondent is in compliance with

App.95a

the statutes. No finding is made as to any other
issues that might be construed as having been
raised by this charge.
—NOTICE OF SUIT RIGHTS—
Title VII, the Americans with Disabilities Act, the
Genetic Information Nondiscrimination Act, or the
Age Discrimination in Employment Act: This will be
the only notice of dismissal and of your right to sue
that we will send you. You may file a lawsuit against
the respondent(s) under federal law based on this
charge in federal or state court. Your lawsuit must be
filed WITHIN 90 DAYS of your receipt of this notice; or
your right to sue based on this charge will be lost. (The
time limit for filing suit based on a claim under state
law may be different.)
Equal Pay Act (EPA): EPA suits must be filed in
federal or state court within 2 years (3 years for will
full violations) of the alleged EPA underpayment. This
means that backpay due for any violations that
occurred more than 2 years (3 years) before you file
suit may not be collectible.
On behalf of the commission
Is/ Cheryl Mabry
Cheryl Mabry
Director
April 18, 2017
(Date Mailed)

App.96a
Enclosures(s)
cc: Megan Detzner
Senior Staff Representative
UNITED AIRLINES
1200 E Algonguin Rd.
EIK Grove Village, IL 60007

App.97a

EXHIBIT D — EEOC LETTERS
MISSING “EEOC: FOIA LETTER”
RESPECTFULLY SUBMITTED WITH COMPLAINT
(DOCKET #1, ATTACHMENT #5)
(LETTER DATED: JUNE 2, 2017)
U.S. Equal Employment Opportunity Commission
Philadelphia District Office
801 Market Street, Suite 1300
Philadelphia, PA 19107-3127
Toll Free: (877)-895-1802
TTY (215) 440-2610
Fax (215) 440-2606
Website: www.eeoc.gov
June 2, 2017
VIA:
Ms. Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
Re: FOIA No.: 530-2017-011070
Christina Alessio v. United Airlines,
532-2015-01733
Dear Ms. Alessio:
Your Freedom of Information Act (FOIA) request,
received on May 01, 2017 is processed. Our search
began on May 01, 2017. All agency records in creation
as of May 01, 2017 are within the scope of EEOC’s
search for responsive records. The paragraph(s) checked
below apply.

App.98a
• Your request is granted in part and denied in
part. Portions not released are withheld pursu­
ant to the subsections of the FOIA indicated at
the end of this letter. An attachment to this
letter explains the use of these exemptions in
more detail.
• The disclosed records are enclosed. No fee is
charged because the cost of collecting and proc­
essing the chargeable fee equals or exceeds the
amount of the fee. 29 C.F.R. § 1610.15(d).
• You may contact the EEOC FOIA Public Liai­
son for further assistance or to discuss any
aspect of your request. In addition, you may
contact the Office of Government Information
Services (OGIS) to inquire about the FOIA
mediation services they offer.
The contact information for OGIS is as follows:
Office of Government Information Services,
National Archives and Records Administra­
tion, 8601 Adelphi Road-OGIS, College Park,
Maryland 20740-6001, email at oefis@nara.gov:
telephone at (202) 741-5770; toll free 1-877684-6448; or facsimile at (202) 741-5769.
The contact information for the FOIA Public
Liaison: (see contact information in above letter­
head or under signature line).
• If you are not satisfied with the response to this
request, you may, administratively appeal in
writing. Your appeal must be postmarked or
electronically transmitted in 90 days from
receipt of this letter to the Office of Legal
Counsel, FOIA Programs, Equal Employment
Opportunity Commission, 131 M Street, NE,

App.99a

5NW02E, Washington, D.C. 20507, or by fax to
(202) 653-6034, or by email to FOIA@eeoc.
gov, https://nublicportalfoiapal.eeoc.efov/pal
Main.asnx. Your appeal will be governed by 29
C.F.R. § 1610.11.

Sincerely,
/s/ Spencer H. Lewis. Jr
Spencer H. Lewis, Jr
District Director
PHILFOIA@eeoc.gov
Applicable Sections of the Freedom of Information
Act, 5 U.S.C. § 552(b):
Exemption Codes Used:
(b)(3), Exemption (b)(3), as amended by the FOIA
Improvement Act of 2016, states that disclosure of
information is not required for a matter specifically
prohibited from disclosure by another federal statute.,
ADA, Section 107 of the Americans with Disabilities
Act (ADA) adopts the confidentiality provisions of
sections 706(b) and 709(e) of Title VII.
1. EE0-1 Report, redacted
(b)(5), Exemption (b)(5) permits withholding docu­
ments that reflect the analyses and recommendations
of EEOC personnel generated for the purpose of
advising the agency of possible action. This exemption
protects the agency’s deliberative process, and allows

App.lOOa
nondisclosure of “inter-agency or intra-agency memo­
randums or letters which would not be available to a
party other than an agency in litigation with the
agency.” 5 U.S.C. § 552(b)(5). The exemption covers
internal communications that are deliberative in
nature. National Labor Relations Board v. Sears, Roe­
buck & Co., 421 U.S. 132 (1975); Hinckley v. United
States, 140 F.3d 277 (D.C. Cir. 1998); Mace v. EEOC,
37 F. Supp. 2d 1144 (E.D. Mo. 1999). The purpose of
the deliberative process privilege is to “allow agencies
freely to explore alternative avenues of action and to
engage in internal debates without fear of public
scrutiny.” Missouri ex. rel. Shorr v. United States
Corps of Eng’rs., 147 F.3d 708, 710 (8th Cir. 1998).
1.

Recommendation For Closure, redacted dis­
missal/closure options and specific informa­
tion in support of recommendation/decision

2.

PCHP Assessment Form, redacted assessment
categories, 3 pages, 7/22/15

3.

Charge Detail Inquiry Form, redacted proc­
essing codes and/or attributes; redacted
investigator’s notes 11/22/16 and 1/19/17

For a full description of the exemption codes used
please find them at the following URL: https://publicnortalfoiapal.eeoc.gov/palMain.asnx
This response was prepared by [Sylvia Williams],
[Paralegal Specialist], who may be reached at [215440-2682].

App.lOla

EXHIBIT E — EMAILS
RESPECTFULLY SUBMITTED WITH COMPLAINT
(DOCKET #1, ATTACHMENT #6)
U.S. SENATOR’S RESPONSE
(JULY 22, 2015)
Subject: Reply from Senator Sherrod Brown
From: Sherrod Brown
(SenatorBrown@brown.senate.gov)
To: tinaalessio@yahoo.com;
Date: Wednesday, July 22, 2015 6:12 PM
Dear Ms. Alessio:
Thank you for getting in touch with my office
regarding hazardous materials used in cleaning
supplies upon commercial flights. I appreciate your
bringing this issue to my attention.
I have passed your concerns along to the legislative
assistant in my office who monitors transportation
and health issues. I will keep your thoughts in mind
should this issue come before the Senate.
If you require any other assistance, please call my
office at 202-224-2315. Thank you again for being in
touch with me.

Sincerely,
Sherrod Brown
United States Senator

App.l02a
Stay connected with what’s happening in Congress.
Sign up here for regular updates on the issues you
care about the most: http://brown.senate.gov/newsletter/
landing

App.l03a

U.S. CONGRESSWOMAN’S RESPONSE
(JULY 31, 2015)
Subject: Response from Marcia L. Fudge
From: Rep. Marcia L. Fudge
(oh 11 -wyr@mail .house. gov)
To:
tinaalessio@yahoo.com;
Date: Friday, July 31, 2015 9:49 AM
You are receiving this letter because you recently
wrote to Marcia L. Fudge.
July 31, 2015
Tina Alessio
1970 N. Cleveland-Massillon Rd
#589
Bath, OH 44210-5367
Dear Tina Alessio,
Thank you for contacting me to concerning the
presence of hazardous materials on airlines. As your
Representative, your thoughts are important to me,
and I appreciate the opportunity to respond to your
concerns about this issue.
The Federal Aviation Administration (FAA) has
implemented a program that allows airlines to
voluntarily admit when violations of the Hazardous
Materials Regulations (HMR) occur. Both US airlines
and foreign airlines that operate in the US certified
under 14 CFR parts 119 and 129 respectively have the
option to participate. Under this program airlines may
voluntarily disclose when they have not complied with
hazardous materials standards—without risk of
punishment—and the FAA uses that data to prevent
more non-compliance. The FAA then helps that airline

App.l04a

to correct violations providing guidance, oversight,
and support.
As your Representative, rest assured, as legislation
related to hazardous materials on airlines is considered
by Congress I will be sure to keep your thoughts in
mind.
Your needs and concerns are important to me, and
I thank you again for taking an active role in the legis­
lative process. Democracy works best when we stay in
touch, so I invite you to sign-up for email updates at
fudge.congressnewsletter.net. You can also get latebreaking news at facebook.com/RepMarciaLFudge
and twitter.com/RepMarciaFudge.
If you should need any additional information or
assistance, please do not hesitate to contact my D.C.
office at (202) 225-7032.
Sincerely,
/s/ Marcia L. Fudge
Marcia L. Fudge
Member of Congress

App.l05a

AFA-CWA SENIOR STAFF ATTORNEY’S RESPONSE
(FEBRUARY 28, 2017)
Subject: 2014-2017 Flight Attendant Hazard Commu­
nication Modules
From: Michael Hickey (mchickey@unitedafa.org)
To:
tinaalessio@yahoo.com;
Cc:
lbarnett@unitedafa.org;
Date: Tuesday, February 28, 2017 1:33 PM
Dear Ms. Alessio:
I am responding to your February 24, 2017 email
addressed to Lynn Barnett, CAL-AFA MEC Grievance
Chair. It is my understanding from your email that
you are requesting the assistance of AFA-CWA in
obtaining a copy of what you describe as United’s
2014-2017 Hazard Communication Modules. Any and
all such Modules, documents and materials would be
the property of United and/or United’s vendors and
you need to direct your request to the appropriate
United management personnel. As you seek these
materials in conjunction with work injury claims
pending before the Ohio Industrial Commission, such
matters are outside the scope of AFA-CWA’s represen­
tation of you. If you have a private attorney
representing you regarding your work injury claims, I
would suggest that you have your personal attorney
contact United with your request. However, AFACWA will not be able to assist you in this matter.
Please let me know if you have any further questions.
Regards.
Michael C. Hickey
Senior Staff Attorney AFA-CWA

App.l06a

INFLIGHT MANAGER’S RESPONSE
(JUNE 7, 2017)
Devito, Janie
Sent: Wednesday, June 07, 2017 6:59 AM
To:
Alessio, Tina
Cc:
Piszczek, Kimberly; Stanley, Diane; Sturchio,
Mary
Tina,
Thank you for your e-mail. As we have discussed
previously, the EEOC has dismissed both charges. That
is the final disposition to this matter.
Regards
Janie
---- Original Message----From: Alessio, Tina
Sent: Tuesday, June 06, 2017 8:22 PM
To:
Devito, Janie; Piszczek, Kimberly
Cc:
Jarrell, Jayson; Alessio, Tina
Subject: EEOC Charges Resolution
June 6, 2017
Dear Janie and Kim,
Good day to you.
Respectfully, I have been communicated to do my
reaching out, with you regarding my 2 EEOC charges.
Respectfully, I would like to reach out with you for
the opportunity to work together in a meeting setting
to resolve my 2 EEOC charges.
Respectfully, the EEOC has dismissed both
charges, and is giving me the right to be heard in Court.

App.l07a
With great respect, may I please have the oppor­
tunity to work together in hope of a resolution?
Look forward to hearing from you.
Sincerely,
Christina Alessio
Sent from my iPhone

App.l08a
FOLLOW-UP WITH CLEVELAND PRESIDENT OF
ASSOCIATION OF FLIGHT ATTENDANTS
(JUNE 29, 2017)
Alessio, Tina
Sent: Thusday, June 29, 2017 11:04 AM
To:
jarrell@unitedafa.org
Cc:
Alessio, Tina
June 29, 2017
Dear Jayson,
Thank you for being apart of some topics of concern
yesterday, that I went over with my Supervisor, Kim
Piszczek.
With great respect and to clarify for the record the
following topics were communicated and your notes
were provided. Thank you.
Attendance:
12 Active Months: 2 sick calls
Verbal Warning and conversation, expires
December 13, 2017
1.

Irregular Operations Reports (IOR’s with no
response)
Requesting a response, and inquiring what I
should do about it.
#59384 3/24/17, #60930 4/14/17, #61871 4/29/
17, #63585 5/21/17, #63618 5/22/17, #66479
6/24/17
Kim-I will pull for you, but I can’t respond.

2.

2014 Hazard Communication Module: (Inquiring)
Tina-You had said they are sanction products
Kim—Anything onboard is approved

App.l09a

Kim—Someone does approve them/makes
decision
3.

What is the Company providing the Flight
Attendants to protect against
Kim-We’ve been through this
Kim—You’ve gotten the answers before
Tina-The products are still there
Kim-You’ve been told they aren’t harmful
Kim—I don’t have any further information for
you

4.

Can I print my IOR’S to send to my United email
Kim—yes

5.

The EEOC Reports are not personal, but that I
am following to the best of my ability the Policies
and Procedures to safety and security issues—see
something, say something.

Thank you for your time yesterday, Jayson. Please
verify and confirm when you get a chance.
Sincerely,
Tina

App.llOa
EXHIBIT F — LETTERS
RESPECTFULLY SUBMITTED WITH COMPLAINT
(DOCKET #1, ATTACHMENT #7)

U S. SENATOR
(MAY 25, 2017)
UNITED STATES SENATE
WASHINGTON, DC 20510-3505
Sherrod Brown
Ohio
Committees: Agriculture, Nutrition, And Forestry
Banking, Housing, And Urban Affairs
Finance
Veterans’ Affairs
May 25, 2017
Ms. Christina Alessio
1970 N. Cleveland-Massillon Rd., #:589
Bath, OH 44210
Dear Ms. Alessio:
Your concerns were forwarded to the Federal
Aviation Administration and the Occupational Safety
and Health Administration and both agencies have
responded. Copies of those letters are attached. You
may wish to contact an attorney to determine if there
is a legal avenue within a court of law by which you
may further address these concerns.

App.llla
Please do not hesitate to contact us again if you
are experiencing difficulties with any other federal
matter.
Sincerely,
Office of U.S. Senator Sherrod Brown

App.ll2a

FEDERAL AVIATION ADMINISTRATION (FAA)
(JUNE 2, 2016)

FEDERAL AVIATION ADMINISTRATION
800 Independence Ave. S.W. Washington, D.C. 20591
T 202-2674998 F 202-267-5191
To: John Patterson
Company: Senator Sherrod Brown
Phone: (216) 522-7272
Fax: (216) 522-2239
From: Keisha Rene Dyson
Title: Program and Management Analyst
Date: June 2, 2016
Pages w/cover:
The Federal Aviation Administration (FAA) is in
receipt of your letter dated November 12, 2015 on behalf
of Christina Alessio regarding hazardous materials
aboard aircraft and work injuries due to hazardous
materials.
Unfortunately, this is not an FAA issue. In order
to ensure that your concerns are addressed, I am
forwarding your inquiry to the appropriate agency/office
at the following address:
U.S. Department of Labor
Occupational Safety and Health Administration
200 Constitution Avenue, NW
Room Number N3626
Washington DC 20210

App.ll3a

I am confident you will receive a prompt response
to your inquiry.
If I can be of further assistance, please call me at
the above telephone number.

App.ll4a

OCCUPATIONAL SAFETY AND
HEALTH ADMINISTRATION (OSHA)
(SEPTEMBER 19, 2016)
U.S. DEPARTMENT OF LABOR
Occupational Safety and Health Administration
230 South Dearborn Street, Room 3244
Chicago, Illinois 60604
(312) 353-2220
The Honorable Sherrod Brown
United States Senate
801 West Superior Ave., Suite 1400
Cleveland, Ohio 44113
Senator Brown:
Your letter initially sent to the Federal Aviation
Administration’s Ms. Holly Harris, Acting Assistant
Administrator for Government and Industry Affairs
was forwarded to the Occupational Safety and Health
Administration (OSHA) for a response. Your original
letter provided correspondence from your constituent
Ms. Christina Alessio of Bath, Ohio. Ms. Alessio, a
United Airlines, Inc. (United) flight attendant, is con­
cerned as to the laws forbidding carrying hazardous
materials aboard aircraft and how this is reconciled
with the use of cleaners and air freshener products that
may contain harmful chemicals or irritants onboard
commercial aircraft. Please excuse the delay in the
response.
As you may know, OSHA has limited authority
over the working conditions of cabin crew members
while they are onboard aircraft in operation. Under
this limited authority, a few of OSHA’s standards may

App.ll5a
be applied, including the Hazard Communication
Standard (HCS), 29 CFR 1910.1200, to the working
conditions of cabin crew members (but not flight deck
crew) on aircraft in operation. While OSHA does not
have a standard that regulates general indoor air
quality, workers potentially exposed to cleaning or air
freshener products that were used in the aircraft in a
duration and frequency more than what a typical con­
sumer would use the cleaning or air freshener pro­
ducts, and thus exposed to a potential health hazard,
must be included in their employer’s hazard commu­
nication program. The employer’s hazard communica­
tion program must include maintaining and making
available safety data sheets, training employees on the
hazards of the chemicals to which they are actually or
potentially exposed, as well as identifying any
appropriate protective measures, such as gloves for
hand protection.
OSHA’s Cleveland Area Office has previously
reached out to Ms. Alessio to discuss her concerns
related to her injury claims. OSHA also reviewed
United Airline’s response to a health and safety
complaint which was handled by our phone/fax process,
safety data sheets, and the medical opinion from her
physician. From a review of the materials presented
to OSHA, we could neither substantiate nor disprove
whether her potential exposures to the listed producttypes caused or aggravated her health concerns. In
addition, OSHA does not have a generic medical
surveillance standard, and therefore, cannot require
that her employer provide her with an “independent
medical examination.” OSHA’s medical surveillance
requirements are contained in its substance-specific

App.ll6a

health standards, such as benzene, cadmium, and
formaldehyde.
Ms. Alessio’s employer, United, remains respon­
sible for providing a safe and healthy working environ­
ment for its workers, and the need to take reasonable
steps to find safer alternative products if necessary.
With regard to Ms. Alessio’s concerns relating to her
injury claims, these are outside of OSHA’s jurisdiction
and would need to be addressed by the Ohio Industrial
Commission.
OSHA will now consider this matter closed. Thank
you for your interest in safety and health.
Sincerely,
/s/ Ken Nishivama Atha
Ken Nishiyama Atha
Regional Administrator
cc:

Howard Eberts, Area Director,
Cleveland Area Office
CCU #806339

App.ll7a
HEALTH AND WAGES OVERVIEW
RESPECTFULLY SUBMITTED WITH COMPLAINT
(DOCKET #1, ATTACHMENT #10)
EEOC #532-2015-01733 filed Mav 11. 2015
EEOC #532-2017-00265 filed November 30. 2016
THE FACTS:
1998

Hired in Good Health

2003

Diagnoised [sic “Diagnosed”] with a
Disability

2012

$41.533

2013

$57.975 ($16.442 Increase over 2012)

Protected my Health—From Respondents Air
Freshener Products
(15 Years of Service)
2014

$30,541 ($27.434 Decrease under
2013)

Protective Measures-Hazard Communication
Module: Denied by Respondent protection to
Hazard Communication Material Products
(including Air Freshener Product)
(16 Years of Service)
2015

$50.385 ($19.844 Increase over 2014)

Protected my Health-Solid Air Freshener
Disk discontinued: Permission by Respondent
protection to Hazard Communication Material
Product (Solid Air Freshener Disk)

App.ll8a

(17 Years of Service)
2016

$36.416 ($13,969 Decrease under
2015)

Protective Measures — Denied by Respondent
protection to CPR Expectation Validation with
ability to avoid injury. Resulted in spraining
both hands and both wrists. Denied by
Respondent protection to follow First Aid
Procedures on the ground, to Hazard Clean­
ing Product.
(18 Years of Service. $62.00 hourly pay)

App.ll9a
PLAINTIFF FILING,
APPEAL LETTER REQUEST TO THE
EEOC FOR REDACTED FOIA INFORMATION
(DOCKET 11)
(AUGUST 21, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
1.

Plaintiff Appeal Letter Request to the Equal
Employment Opportunity Commission for
Redacted FOIA Information

2.

Equal Employment Opportunity Commis­
sion Reference Letter Filed July 7, 2017,
with, Complaint: Exhibit D
Is/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210

App.l20a

CERTIFICATE OF SERVICE
I do herby certify that on August 21, 2017, a copy
of the Equal Employment Opportunity Commission,
“Appeal Letter Request”, was filed at the Federal
Courthouse, United States District Court for the
Northern District of Ohio, with the Clerk of Courts.
Respectfully, two copies were also served by
Certified Mail on August 21, 2017, to the nine collec­
tive “Individual” Defendant’s Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr. Sam Risoli
Ms. Mary Sturchio
Ms. Janie DeVito
Ms. Kim Piszczek
Respectfully,

Is/ Christina Alessio
Christina Alessio
Plaintiff and pro se

App.l21a

APPEAL LETTER REQUEST
(AUGUST 21, 2017)
Office of Legal Counsel
FOIA Programs
Equal Employment Opportunity Commission
131 M Street, NE
5NW02E
Washington, D.C. 20507
Re: FOIA No. 530-2017-011070
Christina Alessio v. United Airlines,
532-2015-01733/532-2017-00265
Respectful Appeal Letter Request: Redacted FOIA
Information
August 21, 2017
To whom it may concern,
With respect, the Equal Employment Opportunity
Commission wrote a letter on June 2, 2017, providing
information regarding my respectful request for my
complete FOIA Administrative Files.
Respectfully in the letter, a few statement boxes
were marked with an “X”, which state:
•

“Your request is granted in part and denied in
part. Portions not released are withheld pursu­
ant to the subsections of the FOIA indicated at
the end of this letter. An attachment to this
letter explains the use of these exemptions in
more detail.”

•

“If you are not satisfied with the response to
this request, you may administratively appeal
in writing. Your appeal must be postmarked or

App.l22a

electronically transmitted in 90 days from
receipt of this letter to the Office of Legal
Counsel, FOIA Programs, Equal Employment
Opportunity Commission, 131 M Street, NE,
5NW02E, Washington, D.C. 20507, or by fax to
(202) 653-6034, or by email to FOIA@eeoc.gov.
https://publirportalfoiapal.eeoc.gov/palMain.
aspx. Your appeal will be governed by 29 C.F.R.
1610.11.”
Respectfully upon receipt of this letter, I am
requesting within the 90 day period, an attempt to
receive my complete FOIA Administrative Files. With
respect and in specific to:
“1. EEO-1 Report, redacted”
(Information I believe to be understood as
redacted and withheld from my EEOC
Administrative Files)
1.

Recommendation For Closure, redacted dis­
missal/closure options and specific informa­
tion in support of recommendation/decision

2.

PCHIP Assessment Form, redacted assess­
ment categories, 3 pages, 7/22/15

3.

Charge Detail Inquiry Form, redacted proc­
essing codes and/or attributes; redacted Inves­
tigator’s notes 11/22/16 and 1/19/17

Respectfully, the redacted information is being
requested as evidence necessary to provide the truth,
the whole truth and nothing but the truth.

s'

With respect, a copy of the letter dated June 2,
2017, from the Equal Employment Opportunity Com­
mission (Philadelphia District Office), is enclosed with

App.l23a
my Appeal Letter Request for reference and accuracy
to the record.
Respectfully, the same letter from the EEOC was
need be, respectfully submitted to the United States
District Court for the Northern District of Ohio, in
search for resolution. (Exhibit: D, filed with Complaint)
What has me most concerned with the denial to
receive the redacted information within my FOIA
Administrative Files are the following words:
“redacted dismissal/closure options and spe­
cific information in support of recommenda­
tion/decision” With respect, does this have
anything to do with my 2/24/16, Continuing
Qualification CPR work injury of spraining
both my hands and wrists at the Defendant’s
Training Center, of which could have been
avoided and the work injury claim was
disallowed? (Reference: Claim #16-807292,
Court Reported and of Public Record)
“fear of public scrutiny” Respectfully, I believe
the truth is what the Public only wants to
hear.
With respect, if there is worry or “fear of
public scrutiny”, then with all “ways” and by
all “means”, regarding specific “sources and
methods” present today, please let’s make it
right. Make it right with transparency.
Respectfully in terms of the Aircraft Cabin air
quality, transparency is paramount. With respect, no
more secrets to the products used to clean and air
freshen the aircraft cabin. With respect, why have we
not been transparent all along to the Global Air

App.l24a
Traveling Public? Respectfully, as this letter is written
today the list of ingredients used for air freshening the
aircraft cabin are still kept secret, and not
transparent. And respectfully, the sanitizer spray is a
Health Hazard Level 2 = Moderate. With respect,
what is the reason, motive or intent for this?
Respectfully, I believe the Healthcare and Safety
for all Crew Member’s, is at the highest level of dis­
crimination with respect, to the Equal Employment
Opportunity Commission.
And with respect to air quality, I believe the
Aircraft Cabin treatment with Healthcare and Safety
of the whole Global Air Traveling Public is unfair and
in violation of 49 U.S.C. § 5124. Respectfully, this is
about “chemical cleaning and air freshening products”
treatment, with no preventive measures.
With respect, this should be just the opposite.
Respectfully, all about Healthcare and Safety preven­
tion, not the chemical treatment. Please, can we at
least be transparent with the list of chemicals being
used by choice, in the Aircraft Cabin of which all
Customers and Crew Member’s are breathing?
With the utmost respect, may there be zero toler­
ance for any “ways and means”, “sources and methods”
of reasoning for wrongdoing. “Transparency of all
Products used in the Aircraft Cabin” seem to be the
most logic, common sense, dignified and respectful
“Agreement of Service” to provide for the whole Global
Air Traveling Public, whose Healthcare and Safety
matters.
With respect, might I add the use of Mother Earth’s
God given resources are imminent. With the greatest
respect, the use of “air freshening with chemicals” is a

App.l25a

direct Healthcare and Safety assault on us all, and
Mother Earth.
Respectfully, chemical substance abuse isn’t always
voluntary. And with respect I believe, to intentionally
harm someone is a crime. It is time we changed and
look to Mother Earth and her resources, please.
Respectfully, this is about Healthcare and Safety.
With respect, profit is meant to be made anywhere
and everywhere with Mother Earth’s resources, she is
our outdoor environment. We need to care for her as
much as we should care about our indoor environment,
the Aircraft Cabin.
Respectfully, the Healthcare and Safety decisions
are made by choice to use “chemical cleaning and air
freshening products” in the Aircraft Cabin. With
respect, I believe this is unhealthy and unsafe treat­
ment, with short and long lasting negative effects to
the whole Global Air Traveling Public who resides in
the Aircrafts particular and unique environment.
Respectfully, why are we doing this?
Please accept my request to allow and release any
and all redacted information from my FOIA Adminis­
trative Files with the Equal Employment Opportunity
Commission for open, honest, direct and transparent
communication.

Sincerely,
Is/ Christina Alessio
Christina Alessio

App.l26a

P.S. This letter will be respectfully submitted to the
United States District Court for the Northern District
of Ohio and the Defendant’s Attorneys, for insight,
clarity and understanding, as per my respectful Letter
Appeal Request for the redacted FOIA Information.

App.l27a

PLAINTIFF FILING,
SHORT LIST OF 79 IRREGULAR OPERATION
REPORTS WITH RESPONSES
(DOCKET 14)
(AUGUST 29, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
1.)

Plaintiff Respectfully Submitting Short List
of 79 Irregular Operation Reports since
2014, Including Defendants’ Validation and
Answers to Reports. (Reference Complaint
07/07/17: Exhibit H)

2.) Respectful Response to Answers
/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210

App.l28a

CERTIFICATE OF SERVICE
I do hereby certify that on August 29, 2017, a copy
of l). Short List of 79 Irregular Operation Reports since
2014, including Defendants' validation and answers to
reports. 2). Respectful response to answers", was pled at
the Federal Courthouse, United States District Court
for the Northern District of Ohio, with the Clerk of
Courts.
Respectfully, two copies were also served by Cer­
tified Mall on August 29, 2017, to the nine collective
"Individual" Defendant's Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
"Individual Defendants" are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr. Sam Risoli
Ms. Mary Sturchio
Ms. Janie DeVito
Mr. Kim Piszczek
Respectfully,
Is/ Christina Alessio
Christina Alessio
Plaintiff and pro se

App.l29a

IOR 61871
Action Item Responses
Action Item Number: 86378
Action Item Last Editor: Hoopii Ikaika
Answered Date: Aug 4, 2017
•

Question

At your earliest convenience. Please respond to
this IOR.
•

Action Item Response

With respect the lavatory disk you are referencing
was removed in 2014 because we changed to a more
effective product and process and not due to any proven
harmful properties to passenger or employees. Airport
operations and tech ops have removed this item from
any ordering catalogue and removed it from any tech
ops job cards that required its use. We have also
confirmed with the manufacturer that they no longer
distribute this product to United Airlines any longer.
Attachments
IOR 61871 4/29/17
Respectful Plaintiffs’ Response to Answer:
1. Lavatory disks are a solid chemical air fresh­
ener, and the liquid chemical air freshener spray which
was a part of the 2014 Hazard Communication Module.
is still required to use by ground personnel onboard
the aircraft.

App.l30a

2. Lavatory disks were not completely removed in
2014, please reference short list of Irregular Operation
Reports: 2014-2017.
3. More effective product (replacing the lavatory
disk) is a chemical fragrance hand soap, which still
has list of ingredients, including fragrance: Not
Applicable, with First Aid Procedures not an option.
4. The Manufacturer states with the air freshening
products: ‘This information contained herein is based
on data considered accurate. However, no warranty is
expressed or implied regarding the accuracy of these
data or the results to be obtained from the use thereof.
(Redacted Company Name) assumes no responsibility
for personal injury or property damage to vendors,
users or third parties caused by the material. Such
vendors or users assume all risks associated with the
use of the material.”
5. Please come fly with me.

App.l31a

IOR 63585
Risk Assessment
Risk Rank: 19
Risk Level: IB
Description: Limited Risk
Action Item Responses
Action Item Number: 86379
Action Item Last Editor: Hoopii Ikaika
Answered Date: Aug 15, 2017
•

Question

•

Action Item Response

Respectfully the obsoleted product had been
removed from the cabin cleaning ordering system in 2014
because we moved to a better product and system for
updating the fragrance in the lavatories and not
because it was deemed harmful to passengers or
employees. Unbeknownst to our cabin team this was
not removed from a job card in maintenance. Since
finding that out in early 2016 it has been removed
from the maintenance ordering system as well as the
manufacturer was notified to remove any orders for
United Airlines. Communications have been sent out.
Attachments

App.l32a

IOR 63585 5/21/17
Respectful Plaintiffs’ Response to Answer:
1. Lavatory disks (obsoleted product) are solid
chemical air fresheners. Liquid chemical air freshener
sprays and part of the 2014 Hazard Communication
Module, is still required to spray onboard the aircraft.
With respect, why?
2. Lavatory disk (obsoleted product) was not com­
pletely removed in 2014, please reference short list of
irregular Operation Reports: 2014-2017.
3. The Manufacturer states with air freshening
products: “This Information contained herein is based
on data considered accurate. However, no warranty is
expressed or implied regarding the accuracy of these
data or the results to be obtained from the use thereof.
(Redacted Company Name) assumes no responsibility
for personal injury or property damage to vendors,
users or third parties caused by the material. Such
vendors or users assume all risks associated with the
use of the material.”
4. Please come fly with me.

App.l33a

IOR 63618
Risk Assessment
Risk Rank: 19
Risk Level: IB
Description: Limited Risk
Action Item Responses
Action Item Number: 86380
Action Item Last Editor: Hoopii Ikaika
Answered Date: Aug 8, 2017
•

Question

At your earliest opportunity, please respond to
this IOR.
•

Action Item Response

Thank you for your feedback. Our Cabin cleaner/
disinfectant Matrix #3 (Zip Chem Calla 1452) is EPA
certified and recommended by Boeing for use on board
aircraft. This became very important to all employee’s
and passengers during the last Ebola scare in 2014
where the AFA supported the use of this Cleaner
disinfectant to ensure the safety of all on board. The
chemical is sprayed on and wiped off leaving it virtually
inert by the time the cleaners are done wiping that
surface. In the 9 years we have been using this product
we have not received any complaint or report from any
cleaning company using this chemical on our behalf.
Attachments

App.l34a

IOR 63618 5/22/17
Respectful Plaintiffs’ Response to Answer:
1. #3 Chemical Sanitizer Spray is a Health Hazard
Level 2 = Moderate rating against one health.
Respectfully, I am aware that the EPA does work with
our outdoor environment. However, I am not aware of
any airline indoor air quality standards with the EPA.
To say that the chemical cabin cleaner is EPA certified,
is unclear and concerning. Any Health Hazard chemical
certification to be used for airline commercial aircraft, I
believe would be a violation of 49 U.S.C. § 5124.
2. With respect, I believe the aircraft manufac­
turer, Boeing, would recommend the product for the
aircraft because this chemical product, will not harm
the aircraft. However, the chemical product states on
the label a Health Hazard Level 2 = Moderate. This
information, I believe communicates harm to ones
health in this unique and particular environment.
3. AFA (Association of Flight Attendants) has
supported the Company’s’ use of chemical cleaning and
chemical air freshening products onboard the aircraft.
The AFA, has communicated that the Company has
approved the products for use onboard the aircraft.
4. Rule of Law: With respect, the use of hazard
materials onboard the aircraft is forbidden. How can
there be then, a 2014 Hazard Communication Module,
with the use of Health Hazard chemical cleaning and
chemical air freshening products for the aircraft?
5. Please come fly with me.

App.l35a

IMAGES OF TABLE PERTAINING TO
IRREGULAR OPERATIONS REPORT

in

35

■P

1

App.l36a

&

'.’i

W^SS$3&££& fc'.'o-SS'Kjt- % H- SifE>v' J=s 8*1

•- • ■-

• ••-. >::•

M rk^'

•..-.9 ,-Js:imp$iP

§»8»±Mil!
¥*i
..

lifi

/.
■.. i

■SasSS

■

i" •{ ^===^£^^4- '■a/
s

■-: *“.:-■———1-

•' • ••

*
” !' ifeT'-viT?-.^-1"-:^

:••• -^=-..‘ p ,j

!

I.l I I I:1
2 * I|*:’i
r. | " ; s
* i S : * =
I I 2
i
I; 2 i n
£

r

I

:
!

a
a
»

i

App.l37a
yaireftaasagfaai
5

g

mmI
f;

■;

88BSB8
i®jg§i
jffir S5JL"“

? >7r '*^*3**31
5-4 'r’ -A'l'vi
•••* H...-•:»} .Vvjv&SS

1

K
■!

2

uL

1

2

i
!

I •;
■'i=; • |
.u?-v.(::W,4j

•' 1Z

i
'

•Ml ! ■
7~

LvTir^i!:.

:
?

i

„ g

.1^

:
•

i s i M'

f: n f ri ss
{ ! IS ?

1;

s

2

!i

8

|j2 !£;2 's

App.l38a

“■swaaes

f.

-305e
E*

rs=ir!~-SiiS=
:-T~"•'••
**« •

r

tt

ij—,r

Tui

['TT.*rr:*

:

a^*i« •>

Ljj.1’

FS&:

e~ 'I

i;r

I A-4 ?
^If.lil/ | | i 1
t

i*X

i

:. •

App.l39a
PLAINTIFF FILING,
EEOC: FOIA RESPONSE LETTER (DOCKET 16)
(SEPTEMBER 14, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff Respectfully Submitting Equal Employment
Opportunity Commission’s response to Appeal letter
requesting redacted FOIA Information
Is/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210

App.l40a

CERTIFICATE OF SERVICE
I do hereby certify that on September 14, 2017, a
copy of the Equal Employment Opportunity Commis­
sion’s response letter to my Appeal letter, respectfully
requesting redacted FOIA Information was filed, at
the Federal Courthouse, United States District Court
for the Northern District of Ohio, with the Clerk of
Courts.
EEOC/FOIA APPEAL No. 820-2017-002831A
FOIA No. 530-2017-011070,
Respectfully, two copies were also served by
Certified Mall on September 14, 2017, to the nine
collective “Individual” Defendant’s Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, PC.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr . Sam Risoli
Ms. Mary Sturchio
Ms. Janie DeVito
Ms. Kim Piszczek
Respectfully,
/s/ Christina Alessio
Christina Alessio
Plaintiff and pro se

App.l41a

EEOC: FOIA RESPONSE LETTER
(AUGUST 29, 2017)
U.S. Equal Employment Opportunity Commission
Office of Legal Counsel
131 M St, N.E., Fifth Floor
Washington D.C. 20507
Toll Free: (877) 869-1802
TTY: (202) 663-7026
Fax: (202) 653-6034
August 29, 2017
Via: U.S. Mail
Ms. Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
Re: FOIA Appeal No.: 820-2017-002831A
FOIA No. 530-2017-011070
(Alessio v. United Airlines)
Dear Ms. Alessio:
Your appeal(s) under the Freedom of Information
Act (FOIA). 5 U.S.C. § 552, received by the Office of
Legal Counsel on August 24, 2017, is assigned the
above FOIA tracking number. It will be processed by
Teresa Guerrant who can be reached at (202) 663-4500.
EEOC will issue a determination on your appeal on
or before September 22, 2017. FOIA and EEOC regu­
lations provide 20 working days to issue a determina­
tion on an appeal, not including Saturdays, Sundays
and federal holidays. In unusual circumstances, EEOC
may extend the 20 working days by 10 additional

App.l42a

working days or stop processing your appeal until you
respond to our request for fee or clarifying information.
Should EEOC take an extension or stop processing
your appeal, notice will be issued prior to the expira­
tion of the 20 working days.
You may contact the Requester Service Center for
status updates on your appeal or for FOIA information
toll free, via telephone, to (877) 869-1802, by fax to
(202) 653-6034. by e-mail to FOIA@eeoc.gov. or by
mail to the EEOC, Requester Service Center, 131 M
Street NE, Fifth Floor, Washington, D.C. 20507. Addi­
tionally, you may check the status of your appeal
online at https://publicportalfoiapal.eeoc.gov.
Sincerely,
/s/ { signature not legible }
Stephanie D. Garner
Assistant Legal Counsel
FOIA@eeoc.gov

App.l43a
PLAINTIFF FILING (DOCKET 17)
(SEPTEMBER 18, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff Respectfully Submitting
1.

Email Correspondence Letter of Concern,
With Former President’s Letter of Response

2.

OSHA’s Written Communication Letter with
Email Correspondence.

3.

Respectfully Requesting My Correspondence
Letter with Our Present President, from
OSHA, Awaiting the Letter From OSHA to
respectfully submit.

App.l44a

/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210
CERTIFICATE OF SERVICE
I do hereby certify that on September 18, 2017, a
copy of correspondence letters and emails from the
Former President, OSHA and myself, were with great
respect filed, at the Federal Courthouse, United
States District Court Northern District of Ohio, with
the Clerk of Courts.
Respectfully, two copies were also served by Cer­
tified Mail on September 14, 2017, to the nine collec­
tive “Individual” Defendant's Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr. Sam Risoli
Ms. Mary Sturchio
Ms. Janie DeVltO
Ms. Kim Piszczek

App.l45a

Respectfully,
/s/ Christina Alessio
Christina Alessio
Plaintiff and pro se

App.l46a

EMAIL CORRESPONDENCE LETTER OF
CONCERN, WITH FORMER PRESIDENT’S
LETTER OF RESPONSE
(JULY 12, 2016)
The White House
Washington

July 12, 2016
Ms. Tina Alessio
Bath, Ohio
Dear Tina:
Thank you for writing. We are living in a time of
extraordinary change and possibility, and I appreciate
your perspective.
Through trial and triumph alike, America has
always overcome challenges and emerged stronger
because we’ve come together as one people. This pro­
gress depends on individuals like you who seize the
responsibility of citizenship by speaking out on issues
that matter to them. That is the spirit that built
America, and together we can build a future of even
greater opportunity and security for generations to
come.
Thank you, again, for writing. I will keep messages
like yours in mind, and I wish you all the best.
Sincerely.
/s/ Barack Obama

App.l47a

Write to the President
Whether you’re concerned about education or just
want to thank President Obama, just fill out the form
below and we’ll print and mail a physical copy to the
Oval Office at no cost to you!
Write the President for Free!
Welcome
Think your voice doesn’t have a place in the gov­
ernment? Think again. Now, you can write a letter
directly to President Obama right from your computer.
From your end, It feels just like writing an email. The
difference is that when you hit “send;” well physically
print your letter, stamp it and send it off at zero cost
to you. Participating in our great democracy has never
been easier.
Still have questions? We’ve got answers. Visit our
FAQs (/about.html).
Compose Letter
Thousands of letters sent! Just start typing below
and send your today.
Your Letter
Warning—We print and mail exactly what is displayed
here so be sure to replace or remove the [Placeholder]
data!

App.l48a

Write a Letter to President Obama
February 2, 2016
Dear President Obama:
I am concerned about a few things that I believe
require your attention. In particular, I’m concerned
about.... With respect, the Commercial Airline Indus­
try, with regards to the Health and Safety onboard for
all occupants. Respectfully in specific, to the Employer’s
products used for Aircraft Cabin cleaning and air
freshening.
This is an important issue, as it has a greater
impact on society. For example . . . With great respect,
Federal Law forbids hazardous materials onboard the
Aircraft. Respectfully, the Materials Safety Data
Sheets on these products used on Commercial aircraft,
do not say “FAA approved”. With great respect to you
as our Most Honorable President of the United States
of America, and to the Global air-travelling public (our
wonderful Customers), the health and Safety to all
occupants, I truly believe is an Important Issue.
In closing, I would very much appreciate your
attention to this matter.. . . As with great respect to
my Employer, I am a Flight Attendant for a Commercial
Airline in the United States of America. Respectfully,
I am a simple person trying to make a simple living.
Respectfully, tomorrow, February 3, 2016, I will be
attending 11 Hearings heard altogether at the Ohio
industrial Commission, located at the Oliver Ocasek
Building. With respect, the 11 Hearings are in regards
to injury to overexposure to the Hazcom products used
onboard the aircraft for cleaning and air-freshening.
With great respect, your help in anyway will be
incredibly and greatly appreciated.

App.l49a

Thank you for your time, and with great respect,
“thank you” for being an amazing President of the
United States of America, where I believe hope and
change have been and will continue to be a success.
Thank you for keeping America safe.
Sincerely, and with the upmost respect,

Tina Alessio
330-338-7052
tinaalessio@yahoo.com

Check Out
You will receive an email notification when your
letter ships and you can log into your account to check
the status at any time.
Order Complete!
Your Order ID is
. Please reference this
ID when contacting support.
You will receive an email notification when your
letter is mailed some time in the next 1-3 business
days.
Note: If your mailing failed to process because of
Incomplete Information or some other reason you may
try again and will not need to pay again.

App.l50a
OSHA COMMUNICATION LETTER
(AUGUST 17, 2017)
U.S. Department of Labor
Occupational Safety and Health Administration
230 South Dearborn Street, Room 3244
Chicago, Illinois 60604
(312) 353-2220
August 17, 2017
Christina Alessio
1970 North Cleveland Massillon Road
Akron, Ohio 44333
Dear Ms. Alessio:
Thank you for your correspondence to President
Donald J. Trump. The Department of Labor’s Occupa­
tional Safety and Health Administration (OSHA) has
been assigned to respond to your inquiry regarding
whether customers and crew members have the right
to know the ingredients of the products used with
regard to the air quality in the aircraft.
Please note that OSHA has limited authority over
the working conditions of cabin crew members while
they are on board aircraft in operation and OSHA does
not have jurisdiction over customers or members of
the public. Under this limited authority, a few of
OSHA’s standards may be applied, including the
Hazard Communication Standard (HCS), 29 CFR
1910.1200, to the working conditions of cabin crew
members (but not flight deck crew) on aircraft in
operation. While OSHA does not have a standard that
regulates general indoor air quality, workers potentially

App.l51a

exposed to cleaning or air freshener products that are
used in the aircraft in a duration and frequency more
than what a typical consumer would use the cleaning
or air freshener products, and thus exposed to a
potential health hazard, must be included in their
employer’s hazard communication program. The
employer’s hazard communication program must
include maintaining and making available safety data
sheets, training employees on the hazards of the
chemicals to which they are actually or potentially
exposed, as well as identifying any appropriate pro­
tective measures, such as gloves for hand protection.
Therefore, where an employer does not adequately
train employees on the hazards of the chemicals to
which they are actually or potentially exposed, any
employee may file a complaint with OSHA. I hope this
answers your question regarding crew member’s “right
to know” about hazardous chemicals. With regard to the
safety and health of air-travel customers and aircrew
members not covered by OSHA, they may elect to file a
complaint with the Federal Aviation Administration
(FAA), which also regulates cabin air quality. Thank
you again for your interest in safety and health.
Sincerely,
/s/ Ken Nishivama Atha
Ken Nishiyama Atha
Regional Administrator

App.l52a

DEPARTMENT OF LABOR
EMAIL CORRESPONDENCE
(SEPTEMBER 12, 2017)
Subject: Re: Your Correspondence to President Donald J.
Trump
From: Tina Alessio (tinaalessio@yahoo.com)
To: Lawless.Sonya.dol.com;
Cc: Williams.Ann@dol.gov
Date: Tuesday, September 12, 2017 4:25 PM
Good day to you.
With great respect, I just left a voicemail.
Please mail the attachments to:
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210
Respectfully, I am requesting a response as to the
matter of your email and attachments.
Sincerely,
Christina

On Tuesday, September 12, 2017 11:48 AM, ‘Lawless,
Sonya-OSHA” <Lawless.Sonya@dol.gov> wrote:
Dear Ms. Alessio,
The OSHA Regional Office responded to your cor­
respondence to President Donald J. Trump via U.S.
mail but it was returned to our office as undeliverable

App.l53a

to sender. I’ve attached our response along with the
original addressed envelope.

Respectfully,
Sonya M. Lawless
Enforcement Programs
Region V

App.l54a
PLAINTIFF FILING (DOCKET 19)
(SEPTEMBER 26, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff Respectfully Submitting:
l). Equal Employment Opportunity Commis­
sion’s Response Letter Regarding the Freedom
of Information Act Appeal for Redacted Infor­
mation. Extended Due to “Unusual Circum­
stances’, Till October 6, 2017.
2.) Occupational Safety and Health Administra­
tion’s Copy of Plaintiffs Correspondence
Letter Written for Our Honored Present
President.
3.) Irregular Operations Report Dated Septem­
ber 22, 2017.

App.l55a

4.)

Emails Requesting a Hard Copy of My
Personal and Medical Files with Defendant.
Request Denied, Instead Both Files Were
Sent to Parties Responding to Complaint.
/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland-Massillon Rd. #589
Bath, Ohio 44210
CERTIFICATE OF SERVICE

I do hereby certify that on September 26, 2017, a
copy of EEOC's response letter regarding the FOIA
Appeal for redacted information, Plaintiffs written
correspondence for our present President (provided by
OSHA), a new Irregular Operations Report, and
emails requesting Plaintiffs personal and medical
files, were with great respect filed at the Federal
Courthouse, United States District Court Northern
District of Ohio, with the Clerk of Courts.
Respectfully, two copies were also served by Cer­
tified Mail on September 26, 2017, to the nine collective
"Individual" Defendant's Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman(0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P .C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
"Individual Defendants" are as followed:
United Airlines, Inc.
Mr. Oscar Munoz

App.l56a

Mr.
Mr.
Mr.
Mr.
Ms.
Ms.
Ms.

Scott Kirby
Robert Milton
Brett Hart
Sam Risoli
Mary Sturchio
Janie DeVito
Kim Piszczek

Respectfully,
/s/ Christina Alessio
Christina Alessio
Plaintiff and pro se

App.l57a
EEOC: FOIA APPEAL RESPONSE LETTER
(SEPTEMBER 20, 2017)
U.S. Equal Employment Opportunity Commission
Office of Legal Counsel
131 M St, N.E., Suite 4NW02F
Washington D.C. 20507
Toll Free: (877) 869-1802
TTY: (202) 663-7026
Fax: (202) 653-6034
Website: www.eeoc.gov
September 20, 2017
Ms. Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
Re: FOIA Appeal No.: 820-2017-002831A
Alessio v. United Airlines
Charge No. 532-2015-01733
Dear Ms. Alessio:
This letter is in response to your appeal under the
Freedom of Information Act (FOIA), received on
August 24, 2017. As provided in U.S.C. § 552(a)(6)(B)
(2007), we hereby provide you with the required written
notice that we are extending by ten (10) working days
the time in which we shall respond. Such extension is
necessary because of the following “unusual circum­
stances”:

App.l58a

(ii) the need to search for, collect, and appropri­
ately examine a voluminous amount of
separate and distinct records which are
demanded in a single request;
We will respond to your request by October 06,
2017.
Sincerely,
Stephanie D. Garner
Assistant Legal Counsel
FOIA Programs
Public Liaison Line: (202) 663-4634
Email: FOIA@eeoc.gov

App.l59a

LETTER TO THE PRESIDENT
(APRIL 20, 2017)
White House Agency Liaison Casework
Case: 20170420-11856475
Case Information
Contact Name: Christina Alessio
Case Owner: DOL. Agency Representative
Contact Phone: (330) 338-7052
Status: Assigned to Agency
Contact Email: tinaalessio@yahoo.com
Contact Address:
1970 North Cleveland Massillon Road
Akron, Ohio 44333
Description Information
Who are you trying to contact? The President
Description: April 20, 2017
Re: Public Health and Safety with the Airline
Industry
Dear Mr. President,
Good day to you sir.
This letter comes to you with care, concern and
kindness.
With great respect, I am an American Citizen of
the United States of America and a Commercial Airline
Flight Attendant, with duties and responsibilities of
which I hold dear to my heart: to protect the people
and ensure a safe and comfortable environment.

App.l60a

With great respect to my Employer, beginning in
2014, Flight Attendants were required to acknowledge
a Hazard Communication Module to Company products
used inside the Aircraft Cabin for cleaning and airfreshening. Respectfully, the ingredients are withheld,
and the first aid procedures not an option.
Respectfully, I have communicated with my Em­
ployer and our Government Agencies (OSHA, FAA,
EEOC, State Governor, State Senator, State Congress)
that I believe Federal Law forbids this type of practice
and use of hazards onboard the Aircraft.
Respectfully, at present I truly believe there are
no Commercial Aircraft Cabin Air-Quality Standards.
With respect, do all Air-Traveler Customers and
Crew Members have the right to know the ingredients
of the products used, to the air we are breathing in the
Aircraft Cabin, approved by the Company and Airline
Industry?
Respectfully if so, may the Commercial Airlines
Industry please be held and made accountable to
communicate, with respect to their Customers and Crew
Members, the transparency of their approved products
they are choosing to use to clean and air-freshen the
Aircraft Cabin, including the Material Safety Sheets
and list of ingredients?
Respectfully, I am sincerely interested in your
opinion.
With the utmost respect,

Christina Alessio

App.l61a

IRREGULAR OPERATIONS REPORT
(SEPTEMBER 26, 2017)
Narrative September 22, 2017
Fit 272
MCO-ORD
Aircraft was making a ‘Quick Turn in Chicago.
Respectfully, Aircraft was to be quickly cleaned,
catered, and boarded to go out right away.
Cleaners came onboard before Customers and
Crew Members could even completely deplane.
With great respect, I am communicating a safety
issue because cleaners coming onboard the aircraft
doing their job, were unable to speak English.
Respectfully, the cleaning and Air freshening
products being used and over sprayed are with great
respect, apart of the Flight Attendant Hazard Com­
munication Module, and respectfully, I believe are in
conflict with 49 U.S.C. 5124, for Customer and Crew
Members health and safety onboard. Ingredients are
not transparent and in reference with the air
freshening: not applicable.
Respectfully, protective measures with the Flight
Attendant Hazard Communication Module cleaning and
Air freshening products are not an option, and no
alternative measure is provided by Corporate or
Management.
Respectfully since 2014, I have reached out and
invited corporate and Management to please come fly
with me, and no one has personally accepted my
invitation.

App.l62a

With great respect, 1 am begging all of Corporate
and Management to please come fly with me. With
respect, this is about Safety and Health for our
Customers and Crew Members. As with great respect,
I have been taught that Safety is Top Priority.
With great respect, please come fly with me.
Sincerely,
Christina

Do you have a suggested resolution to the event?
With great respect, Transparency and list of
ingredients for all cleaning and air freshening
products used onboard the aircraft for our Health and
Safety.

App.l63a

EMAILS REQUESTING HARD COPY OF
PERSONNEL/MEDICAL FILES
(SEPTEMBER 25, 2017)
Re: Respectfully requesting a response
Alessio, Tina
Sent: Monday, September 25, 2017 2:15 PM
To: Devito, Janie
Cc: jjarrell@unitedafa.org; Alessio, Tina
Dear Janie,
With respect, can you please ask the Legal
Department with United, if I can please have a copy
of my employee and medical file?
Sincerely,
Tina
Sent from my iPhone

On Sep 25, 2017, at 10:51 AM, Devito, Janie
<janie.devito@united.com> wrote:
Tina,
It means that I do not have your file.

Regards
Janie

App.l64a

—Original Message—
From: Alessio, Tina
Sent: Monday, September 25, 2017 1:51 PM
To: Devito, Janie
Cc: Jarrell, Jayson; Alessio, Tina
Subject: Re: Respectfully requesting a response
Dear Janie,
Thank you for responding.
Does this mean I do not have the right to my
employee and medical files with United?
Sincerely,
Tina
Sent from my iPhone

On Sep 25, 2017, at 10:46 AM, Devito, Janie
<janie.devito@united.com> wrote:

Tina,
I believe that Kim has advised you that we do not
have your file available. You filed a lawsuit in July
and your file was sent to the parties that are
responding to you suit.

Regards
Janie

App.l65a

—Original Message—
From: Alessio, Tina
Sent: Monday, September 25, 2017 1:44 PM
To: Devito, Janie; Jarrell, Jayson
Cc: Alessio, Tina
Subject: Respectfully requesting a response
Dear Janie and Jayson,
Good day to you.
With great respect, Kim is out of the office till
October 4, 2017.
Respectfully, I am in need of a response from my
email I just sent, about my request for a complete copy
of my employee and medical files.
Respectfully, it has been 3 months (June), since
my first request for a copy.
Sincerely,
Tina
Sent from my iPhone

App.l66a
PLAINTIFF FILING (DOCKET 20)
(OCTOBER 17, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff respectfully submitting:
l). Equal Employment Opportunity Commis­
sion’s response letter regarding my Freedom
Of Information Act Appeal for redacted and
withheld information in my EEOC Adminis­
trative Files, is dated October 6, 2017, and
again, denied. Respectfully, is this Obstruc­
tion of Justice, seeking the truth, the whole
truth and nothing but the truth? With
respect, I believe a total of 12 pages are being
withheld as to the matter and transparency
of my case.

App.l67a

/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
\

CERTIFICATE OF SERVICE
I do hereby certify that on October 17, 2017, a
respectful copy of the Equal Employment Opportunity
Commission’s response, from my Appeal letter request­
ing the redacted information withheld in my FOIA
administrative EEOC charge files for transparency,
insight, clarity and understanding, was received on
October 13, 2017, and respectfully submitted and filed
at the Federal Courthouse, United States District
Court Northern District of Ohio, with the Clerk of
Courts, on October 17, 2017.
Respectfully, two copies were also served by Cer­
tified Mail on October 17, 2017, to the nine collective
“Individual” Defendant’s Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart

App.l68a

Mr.
Ms.
Ms.
Ms.

Sam Risoli
Mary Sturchio
Janie DeVito
Kim Piszczek

Respectfully,

/s/ Christina Alessio
Christina Alessio
Plaintiff and Pro Se

App.l69a

EEOC: FOIA APPEAL RESPONSE LETTER
(OCTOBER 6, 2017)
U.S. Equal Employment Opportunity Commission
Office of Legal Counsel
131 M St, N.E., Fifth Floor
Washington D.C. 20507
Toll Free: (877) 869-1802
TTY: (202) 663-7026
Fax: (202) 653-6034
Website: www.eeoc.gov
October 6, 2017
Ms. Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
Re: FOIA Appeal No.: 820-2017-002831A
Alessio v. United Airlines
Charge No. 532-2015-01733
Dear Ms. Alessio:
Your appeal under the Freedom of Information Act
(FOIA) perfected on August 24, 2017 has been proces­
sed. The paragraph(s) checked below apply:
•

The initial determination issued on your request is
affirmed and your appeal is denied.
•

•

Pursuant to the FOIA Exemptions cited in the
initial denial of your request.

If you are dissatisfied with this decision, you may
file a civil action in the United States district court

App.l70a

in the district where you reside or have your prin­
cipal place of business, where the agency records are
situated, or in the District of Columbia.
As part of the 2007 FOIA amendments, the Office
of Government Information Services (OGIS) was
created to offer mediation services to resolve disputes
between FOIA requesters and Federal agencies as a
non-exclusive alternative to litigation. Using OGIS
services does not affect your right to pursue litigation.
You should know that OGIS does not have the author­
ity to handle requests made under the Privacy Act of
1974. You may contact OGIS in any of the following
ways:
Office of Government Information Services
National Archives and Records Administration
Room 2510
8601 Adelphi Road
College Park. MD 20740-600
E-mail: ogis@nara.gov
Telephone: (301) 837-1996
Fax: (301) 837-0348
Toll-free: 1-877-684-6448
Re: FOIA Appeal No.: 820-2017-002831A
•

See the attached Comments page for further infor­
mation.

Sincerely,

App.l71a

/s/ Sdgarner___________
Stephanie D. Garner
Assistant Legal Counsel
FOIA Programs
(202) 663-4634
FOIA@eeoc.gov

Applicable Sections of the Freedom of Information
Act, 5 U.S.C. § 552(b):
Exemption (b)(3)(A)(i), 5 U.S.C. § 552(b)(3)(A)(i).
Exemption (b)(5), 5 U.S.C. § 552(b)(5).
For a full description of the exemption codes, please
find them at the following URL:
https://publicportalfoiapal.eeoc.gov/palMain.aspx.
Re: FOIA Appeal No.: 820-2017-002831A
Alessio v. United Airlines
Charge No. 532-2015-01733
Exemption (b)(3)(A)(i) to the Freedom of Infor­
mation Act (FOIA), 5 U.S.C. § 552(b)(3)(A)(i) (2009),
amended by the FOIA Improvement Act of 2016, Public
Law No. 114-185,130 Stat. 538, states that disclosure
is not required for a matter specifically exempted from
disclosure by statute ... if that statute:
(A)(i) requires that the matters be withheld
from the public in such a manner as to leave
no discretion on the issue:
Sections 706(b) and 709(e) of Title VII of the Civil
Rights Act of 1964, 42 U.S.C. §§ 2000e-5(b), 2000e-8(e)
(1982), are part of such a statute. Section 706(b) pro­
vides that:
Charges shall not be made public by the
Commission . . . Nothing said or done during

App.l72a

and as a part of [the Commission’s informal
endeavors at resolving charges of discrimina­
tion] may be made public ....
Section 709(e) of Title VII provides:
It shall be unlawful for any officer of the
Commission to make public in any manner
whatever any information obtained by the
Commission pursuant to its authority under
this section [to investigate charges of dis­
crimination and to require employers to
maintain and submit records] prior to the
institution of any proceeding under this title
involving such information.
Section 107 of the Americans with Disabilities
Act (ADA) adopts the procedures of Sections 706 and
709 of Title VII.
See Equal Employment Opportunity Commission
v. Associated Thy Goods Co., 449 U.S. 590 (1981);
Frito-Lay v. EEOC, 964 F. Supp. 236, 239-43 (W.D. Ky.
1997); American Centennial Insurance Co. v. United
States Equal Employment Opportunity Commission,
722 F. Supp. 180 (D.N.J. 1989); and EEOC v. City of
Milwaukee, 54 F. Supp. 2d 885, 893 (E.D. Wis. 1999).
Information Withheld Pursuant to the Third Exemp­
tion to the FOIA: Released Documents with Redactions
1.

EEO-1 Report, dated 2013. Employee break­
down redacted. One Page.

App.l73a

Re: FOIA Appeal No.: 820-2017-002831A
Alessio v. United Airlines
Charge No. 532-2015-01733
The Fifth Exemption to the Freedom of Informa­
tion Act (FOIA), 5 U.S.C. § 552(b)(5) (2006), amended
by the FOIA Improvement Act of 2016, Public Law No.
114-185,130 Stat. 538, permits withholding docu­
ments that reflect the analyses and recommendations
of EEOC personnel generated for the purpose of
advising the agency of possible action. This exemption
protects the agency’s deliberative process, and allows
nondisclosure of “inter-agency or intra-agency memo­
randums or letters which would not be available to a
party other than an agency in litigation with the
agency.” 5 U.S.C. § 552(b)(5). The exemption covers
internal communications that are deliberative in
nature. National Labor Relations Board v. Sears,
Roebuck & Co., 421 U.S. 132 (1975); Hinckley v. United
States, 140 F.3d 277 (D.C. Cir. 1998); Mace v. EEOC,
37 F.Supp.2d 1144 (ED. Mo. 1999). The purpose of the
deliberative process privilege is to “allow agencies
freely to explore alternative avenues of action and to
engage in internal debates without fear of public
scrutiny.” Missouri ex. rel. Shorr v. United States
Corps ofEng’rs., 147 F.3d 708, 710 (8th Cir. 1998).
Records may be withheld under this exemption if
they were prepared prior to an agency’s decision,
Wolfe v. Department of Health and Human Services,
839 F.2d 768, 775, 776 (D.C. Cir. 1988) (en banc) and
for the purpose of assisting the agency decision maker.
First Eastern Corp. v. Mainwaring, 21 F.3d 465, 468
(D.C. Cir. 1994). See also, Greyson v. McKenna & Cuneo
and EEOC, 879 F. Supp. 1065, 1068, 1069 (D. Colo.
1995). Records may also be withheld to the extent they

App.l74a

reflect “selective facts” compiled by the agency to
assist in the decision making process. A. Michael’s
Piano, Inc. v. Federal Trade Commission, 18 F.3d 138
(2d Cir. 1994). An agency may also withhold records
to the extent that they contain factual information
already obtained by a requester through prior disclo­
sure. See Mapother, Nevas, etal. v. Dept, ofJustice, 3
F.3d 1533 (D.C. Cir. 1993).
Information Withheld Pursuant to the Fifth Exemption
to the FOIA: Released Documents with Redactions
1.

Recommendation for Closure Form, dated
April 20, 2017. Section on Recommendation
for Dismissal/Closure and the Investigator’s
analysis consisting of 21 lines were redacted.
One Page.

2.

PCHP Assessment Factors Form, dated July
22, 2015. Eight processing selection catego­
ries, “Justification for Assessment,” the Super­
visor’s Review, and two “Reason” boxes were
redacted. Three Pages.

3.

Charge Detail Inquiry Form, dated July 22,
2015. Processing codes and attributes redacted-three lines. Two pages.

4.

Charge Detail Inquiry Form, dated April 19,
2017. Processing codes and attributes redacted-nine lines. Note for 11/22/2016 consisting
of the investigator’s impressions redacted
eight lines. Note for 1/19/2017 consisting of
the
investigator’s
impression/analysis
redacted—one fine. Note for 4/19/2017 consist­
ing of the investigator’s impression/analysis
redacted—one line. Five pages.

App.l75a

Re: FOIA Appeal No.: 820-2017-002831A
Alessio v. United Airlines
Charge No. 532-2015-01733
COMMENTS PAGE
On appeal, we are affirming the withholding of
certain information by the Philadelphia District Office.
Exemption (b)(3) prohibits the EEOC from disclos­
ing any information obtained by the Commission pursu­
ant to its authority to investigate charges of discrimi­
nation and to require employers to maintain and
submit records. The following document was released
to you with the described information redacted.
1.

EEO-1 Report, dated 2013. Respondent’s
employee breakdown redacted. One Page.

Exemption (b)(5) permits withholding information
that reflects the EEOC’s pre-decisional analysis,
impressions, and recommendations on the charge. The
following documents were released to you with the
information described below redacted.
1.

Recommendation for Closure Form, dated
April 20, 2017. Section on Recommendation
for Dismissal/Closure and the Investigator’s
analysis consisting of 21 lines were redacted.
One Page.

2.

PCHP Assessment Factors Form, dated July
22, 2015. Eight processing selection cate­
gories, “Justification for Assessment,” the
Supervisor’s Review, and two “Reason” boxes
were redacted. Three Pages.

App.l76a

3.

Charge Detail Inquiry Form, dated July 22,
2015. Processing codes and attributes redacted-three lines. Two pages.

4.

Charge Detail Inquiry Form, dated April 19,
2017. Processing codes and attributes redacted-nine lines. Notes for 11/22/2016 consisting
of the investigator’s impressions redacted—
eight lines. Note for 1/19/2017 consisting of the
investigator’s impression/analysis redacted
—one line. Note for 4/19/2017 consisting of
the investigator’s impression/analysis redac­
ted one line. Five pages.

We hope that this information is helpful.

App.l77a
PLAINTIFF FILING (DOCKET 21)
(OCTOBER 25, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff respectfully submitting:
1). Letter from Defendants Legal Representative
regarding my medical and personal files.
2). Respectful Letter Response to the Defendants
Legal Representative of missing information
in my medical file.
3). Medical CD file for transparency to my case.
4). Past Work Injury claims on CD for further
transparency and clarity to my case.

App.l78a

/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210

CERTIFICATE OF SERVICE
I do hereby certify that on October 25, 2017, the
following has been respectfully submitted and filed at
the Federal Courthouse, United States District Court
Northern District of Ohio, with the Clerk of Courts, l).
A respectful copy of a letter from the Defendants Legal
Representative regarding my medical and personal
files. 2). A respectful letter to the Defendants Legal
Representative of missing information in my medical
file. 3).Medical CD file for transparency to my case.
My personal file is still being denied for transparency.
4). Past Work Injury Claims on CD, with Legal
Representation.
Respectfully, two copies were also served by
Certified Mail on October 25, 2017, to the nine
collective “Individual” Defendant’s Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman (0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
“Individual Defendants” are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton

App.l79a

Mr.
Mr.
Ms.
Ms.
Ms.

Brett Hart
Sam Risoli
Mary Sturchio
Janie DeVito
Kim Piszczek
/s/ Christina Alessio
Christina Alessio
Plaintiff and Pro Se

App.l80a
LETTER FROM DEFENDANTS
LEGAL REPRESENTATIVE
(OCTOBER 20, 2017)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
Attorneys at Law
Key Tower
127 Public Square, Suite 4100
Cleveland, OH 44114
Telephone: 216.241.6100
Facsimile: 216.357.4733
www.ogletree.com
Heather M. Huffman
216.274.6913
heather.huffman@ogletree.com
October 20, 2017
VIA FEDEX
Christina Alessio
1970 N. Cleveland-Massillon Rd #589
Bath, Ohio 44210
RE: Christina MAlessio v. United Airlines, Inc.
United States District Court, Northern Dis­
trict of Ohio, Case No. 5:17-cv-1426
Dear Ms. Alessio:
The undersigned law firm is in receipt of your
September 25, 2017 email communication directed to
United Airlines, Inc. (‘United”), in which you requested
a copy of your personnel file and medical file, which
you filed with the Court in the referenced matter as
ECF No. 19.

App.l81a

In response to your request, enclosed is a CD con­
taining a copy of your medical file, which has been
bates-labeled UNITED000001-202 for ease of reference.
Please note that neither Ohio nor Federal law re­
quires an employer to provide an employee a copy of
their personnel file. However, United will consider
your request for a copy of your personnel file as a
request for production of documents pursuant to Rule
34 of the Federal Rules of Civil Procedure in the refer­
enced matter, and will respond to that request if and
when discovery is permitted to proceed in the refer­
enced matter.

Very truly yours,
/s/ Heather M. Huffman
Heather M. Huffman

App.l82a
LETTER RESPONSE TO DEFENDANTS
LEGAL REPRESENTATIVE
(OCTOBER 25, 2017)
October 25, 2017
RE: Christina Alessio, v. United Airlines, Inc.
United States District Court, Northern District of
Ohio, Case 5'17-cv01426-SL.
Dear Ms. Huffman,
Good day to you.
This letter comes to you with care, concern and
kindness.
With respect, I received your letter and CD in the
mail on October 24, 2017.
Respectfully, I did request both my personal and
medical files. The CD was only my medical file. With
great respect, there is missing information in my med­
ical file of which I would like to note for the record:
Injury 5/19/2010, is noted on page UNITED000179
on your copy of my medical file CD. The pages that
follow are with great respect documents communicating
a safety concern. Please note some of these documents
provided, date back to the year 2006.
Hearing 6/29/2010, (Claim #10-824071) was in
regards to an aerosol spray air freshener used in the
aircraft cabin. I was without an attorney and comm­
unicated my concern of chemical use in the aircraft
cabin. The claim was disallowed, and the product was
removed for aircraft cabin use.
Injury 7/13/2010, is noted on pages UNITED
000001-UNITED000007 on your copy of my medical

App.l83a

file CD. This injury was due to a hard landing which
gave me 3 herniated discs. With respect, what was
present in your copy of my medical file CD, were
photographs of the Customer First Class, Coach and
Pilot seats.
With great respect what was not present and
missing on your copy of my medical file CD was the
photograph of the Flight Attendant Jump seat. With
respect, the most important seat due to the cause of
my injury. Respectfully, the booklet with photographs
I provided to my Manager, Janie DeVito, also included
the Flight Attendant Jump seat. Respectfully, the Flight
Attendant Jump seat is a retractable one inch metal
seat with very little padding.
Respectfully, I believe this information comm­
unicated to be of great important as to the contents of
my medical file of which you have provided.
I will be with great respect, submitting your CD
copy of my medical file to the Federal Court for further
transparency to my case.
Thank you.

Sincerely,
Is/ Christina Alessio
Christina Alessio

App.l84a

IMAGE OF MEDICAL CD

App.l85a
FEDEX RECORD OF DELIVERY OF CDS
(OCTOBER 25, 2017)

CD Ctfyr

0%B

Digital Files Enclosedu
Company Nam

m \ JfdsElMfrg

l

Contact Person:
Phone:.

Date;

File Maine:.

fedex.com 1.800.GoFed&t 1300.463.3339

4

Digital Files Enclosed: CD copy of USB
Company Name:
Christina Alessio v United Airlines Inc.
Company Person: Nurenberg Paris CD Copy from USB
Date Created: October 25, 2017
Filed: Case: 5:17-cv-01426-SL
Fedex.com 1.800.GoFedEx 1.800.463.3339

App.l86a

QKT GTv/)t,

FecOsx
Office

Digital Piles Enclosed
Company Name

Umd v

Contact Person:

Phone:.

Date:

File Nana:.

Date Created:

fedex.com imGoFedEx UOO.483^339

Digital Files Enclosed: Original USB
Company Name:
Christina Alessio v United Airlines Inc.
Company Person: Nurenberg Paris USB
Filed: October 25, 2017
Filed: Case: 5:17-cv-01426-SL
Fedex.com 1.800.GoFedEx 1.800.463.3339

H

App.l87a
PLAINTIFF FILING (DOCKET 22)
(NOVEMBER 3, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
CHRISTINA ALESSIO,
Plaintiff,
v.
UNITED AIRLINES,
Defendant.
Case No. 5:17-CV-01426
Before: Sara LIOI, Judge.,
Kathleen B. BURKE, Magistrate Judge.
Plaintiff respectfully submitting:
l). Respectful emails to my Inflight Management,
requesting a copy of my entire personal file,
beginning with date of hire-8/13/1998.
As per my Union: the Association of Flight
Attendants, I believe Flight Attendants are entitled
to a copy of their personal file. A first respectful
request was made for information in my personal
file before compliant filed: 7/7/2017. In specific,
2/24/2016, CPR Work Injury emails. Respectfully
requesting my entire personal file, for complete
transparency to the matters of my case.

App.l88a

/s/ Christina Alessio
Christina Alessio
1970 N. Cleveland Massillon Rd. #589
Bath, OH 44210
CERTIFICATE OF SERVICE
I do hereby certify that on November 3, 2017, the
following respectful emails were submitted and filed
at the Federal Courthouse, United States District
Court Northern District of Ohio, with the Clerk of
Courts.
- Respectful emails regarding the request for a
copy of my entire personal file, from date of hire
- 8/13/1998.
Respectfully, two copies were also served by
Certified Mail on November 3, 2017, to the nine
collective "Individual" Defendant's Attorneys:
Natalie M. Stevens (0079963)
Heather M. Huffman {0078362)
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
127 Public Square, Suite 4100
Cleveland, Ohio 44114
With respect and for reference, the list of nine
"Individual Defendants" are as followed:
United Airlines, Inc.
Mr. Oscar Munoz
Mr. Scott Kirby
Mr. Robert Milton
Mr. Brett Hart
Mr. Sam Risoli
Ms. Mary Sturchio

App.l89a

Ms. Janie OeVito
Ms. Kim Piszczek

/s/ Christina Alessio
Christina Alessio
Plaintiff and Pro Se

App.l90a
EMAILS INCLUDING:
INFLIGHT MANAGEMENT AND
CLEVELAND AFA UNION PRESIDENT
(NOVEMBER 3, 2017)
Re: Personal File
Alessio, Tina
Sent: Friday, October 27, 2017 1:53 PM
To: Piszczek, Kimberly
Cc: Devito, Janie; jjarell@unitedafa.org; Alessio, Tina
Dear Kim,
Good day to you.
With great respect, can you please request a copy
of my personal file from United’s Legal Representatives,
Ms. Heather Huffman and Ms. Natalie Stevens?
Respectfully, I have been patiently waiting for
many months now to receive a copy of my entire per­
sonal file, since date of hire 8/13/1998. With respect,
my 1st request was well before Ms. Huffman and Ms.
Stevens requested my personal file.
With respect, I believe our Association of Flight
Attendants Union Contract gives us the right to this
information.
Respectfully I am concerned, was a complete “copy”
or my “original” personal file given to Ms. Huffman
and Ms. Stevens?
With respect, has United Airlines retained my
original complete personal file? Respectfully, if so why
is my request to receive a copy taking so long?
Look forward to hearing from you soon.

App.l91a

Sincerely,

Tina
Sent from my iPhone

On Oct 25, 2017, at 1:22 PM, Piszczek, Kimberly
<kimberly.piszczek@united.com> wrote:
Hi Tina, Your personal File has not been returned
to CLE yet. I will be sure to watch for it and advise
you when it is received.
Kim

From: Alessio, Tina
Sent: Tuesday, October 24, 2017 9:26 PM
To: Piszczek, Kimberly
Cc: Devito, Janie; Jarrell, Jayson; Alessio, Tina
Subject: Personal File
RE: Request for my Personal File
October 24, 2017
Dear Kim,
With great respect, I received my medical file
from United’s Legal Representation.
Respectfully, I am requesting from my Supervisor
a copy of my personal file.

App.l92a

With great respect, I believe the Association of
Flight Attendants Union Contract states that we are
entitled to a copy of our personal file.
Thank you for your understanding.
Hope to hear from you soon.

Sincerely,

Tina
Sent from my iPhone

here’s both emails
jjarrell@unitedafa.org
Sent: Wednesday, November 01, 2017 4:25 PM
To: Alessio, Tina
—Original Message—
From: “Piszczek, Kimberly”
<kimberly.piszczek@united.com>
Sent: Wednesday, November 1, 2017 7:04am
To: “Jayson Jarrell” <jjarrell@unitedafa.org>
Subject: RE: Tina’s file
No I told her I would watch for it and let her know
when it gets here
—Original Message—
From: Jayson Jarrell [mailto:jiarrell@unitedafa.org]
Sent: Tuesday, October 31, 2017 6:29 PM
To: Piszczek, Kimberly
Subject: Tina’s file
Hey Kim-hope you are well

App.l93a

Do you have any idea when Tina’s file will be back
in base so she can get copies of what she needs?
Thanks for any info you may have to help Jayson
Jarrell AFA/CWA 63 Cleveland President

Re: PERSONAL FILE
Jarrell, Jayson
Sent: Wednesday, November 01, 2017 4:37 PM
To: Alessio, Tina
Hi Tina I sent you the email communication from
Kim about the file. As we spoke on the phone last
night you do have the option to file a grievance if you
feel there is a violation to your CBA.
To do so you can go to unitedafa.org
Go under forms and fill out a local council work­
sheet that will start the grievance process for you. I
know you said you didn’t want to go that route and
that’s fine but that is your right should you choose to.
Please also keep in mind I rarely and I mean rarely
check this box as it is a company email
Please use JJARRELL@unitedafa.org for any
union communication
Thank you

Jayson Jarrell
Sent from my iPhone

On Oct 31, 2017, at 10:45 AM, Alessio, Tina
<Tina.Alessio@united.com> wrote:

App.l94a

RE: Personal File
Dear Jayson,
Good day to you.
With great respect to you as our Union President
in Cleveland, Ohio, with the Association of Flight
Attendants for United Airlines, I would like to follow
up with you regarding my Personal File.
Respectfully, I have reached out to my Supervisor,
Ms. Kim Piszczek, requesting a copy of my Personal
File. With respect, her response was that my Personal
File had not been returned to CLE yet.
With respect, on Friday, October 27, 2017,1 replied
back with an email to my Supervisor, of which you
were respectfully added to the email for clarity.
With respect, I have made follow up phone calls to
you with respectful messages communicating the con­
cern of my request and have not heard back from you.
Respectfully, I believe our Joint Collective Bar­
gaining Agreement regarding PERSONAL FILES,
states that our Personal File is not to leave the base,
and that it is to be secured (Section 22, B.I.).
Will you please follow up with me?
Sincerely,
Tina
Sent from my iPhone

Personnel File

App.l95a

Alessio Tina
Sent: Wednesday, November 01, 2017 6:33 PM
To: JJARRELL@unitedafa.org
Cc: Devito, Janie; Piszczek, Kimberly; Alessio, Tina
Dear Jayson,
Thank you for your assistance.
With great respect, I received your communication
emails with my Supervisor, Ms. Kim Piszczek, regard­
ing my Personnel File.
Respectfully, it is disappointing that neither United
or the Association of Flight Attendants has access to
my original Personnel File. With respect, information
with my employment with United, since my hire date
in 1998.
With respect, I believe it has been a few months
now that my Personnel File has been offsite from the
Cleveland Flight Attendant’s Base.
With respect for reference, I believe our Association
of Flight Attendant’s Joint Collective Bargaining
Agreement with United, Section 22, B.I., states:
“The Company shall maintain a Flight Attend­
ant’s personnel file in the Flight Attendant’s
Base. Personnel files shall be maintained in
a secure manner.”
Respectfully, I am patiently waiting to hear back
from my Supervisor, as to when my Personnel File will
return back to the Cleveland Base.
Look forward to hearing from her soon.
With respect,

App.l96a

Tina
Sent from my iPhone

App.l97a

AMERICA THE JURY
FIRSTSEQUEL

With Great Respect, This Has Been
a True Life Experience

App.l98a
This Book Is Respectfully Being Dedicated to:
My Most Loving. Wise and Honored Mother and
Father. Who Always Taught Love One Another and
Lead by Example, with Very Simple Shared Life
Principles: It's Either Right or Wrong, and Follow
the Law.
My Familyand Friends. You Are Special.
My Employer. Co- Workers, and Customers. You Are
Family.
My Employer. Thank You for Providing Simple
Shared Guidelines for Working Together: to
Encourage Honest, Open and Direct Communica­
tion, with Respect and Dignity.
The Entire Global Air- Tra veling Public. You Are
Unique and Special to Me. Unique and Special, in
That We All Travel by Air in Our Incredible
Earth's Atmosphere. Amazing!
“Finally, brethren, whatsoever things are true,
whatsoever things are honest,
whatsoever things are just,
whatsoever things are pure,
whatsoever things are lovely,
whatsoever things are ofgood report,
if there be any virtue, and there be any praise,
think on these things. ”
Philippians 4'-8KJV

App.l99a

PREFACE:
The Hearing Process for a Claim - Review:
“Claim”: Stating Something Is True When Some People
May Say That It Is Not True.
“Pro Se”: A Person Defending Oneself, Without an
Attorney.
A New Word Added in First Sequel:
“Errata”: A List of Errors Discovered After Print, Such
as Misspellings.
As an Attorney Pro Se, I Have Learned There Are
Three Levels in Which a Claim Is Allowed to Be
Heard:
1.

District

2.

Staff

3.

Commission

With Great Respect, What You Are About to Read
and Witness, Are Both the District and Staff Hearings
Which Were Court Reported and of Public Record.
After Each Hearing, Record of Proceedings Either
Allows or Disallows the Claim.
Important Note: When Reading the Public Court
Report Records, It Is Highly Recommended to Make a
Mark from the “Errata”, on Each “Page by Line”,
Which State Respectfully, to Corrections (Example:
Misspelled Words) and Clarification.
With Great Respect, You Are Now Considered:

America, The Jury. . .

App.200a

CHAPTER ONE
DISTRICT HEARING — COURT REPORT
(APRIL 20, 2018)1
Ohio Industrial Commission
Notice of Hearing
Claim heard: #15-859117, #15-863145, #15-863147,
#16-816267, #16-816266
Oliver Ocasek Building
161 S. High Street Suite 301
Floor 3rd, Room 4
Akron, Ohio 44308
April 20, 2018 at L30 p.m.
Issues to Be Heard:
l) Injury or Occupational Disease Allowance

1 Errata in the original transcript have been noted in the body of
the text.

App.201a

BEFORE THE
INDUSTRIAL COMMISSION OF OHIO

CHRISTINA ALESSIO,
Claimant,
v.
UNITED AIRLINES, INC.
Employer.
Claim No. 15-859117, 15-863145,
15-863147, 16-816267, 16-816266,
BE IT REMEMBERED, that upon the hearing of the
above-entitled matter, held at the Akron Industrial
Commission, Oliver Ocasek Building. 161 South High
Street, 3rd Floor, Room 4, Akron, Ohio, before the Dis­
trict Hearing Officer T. Steele, Presiding, and commen­
cing on Friday, the 20th day of April, 2018, at L30
o’clock p.m., at which time the following proceedings
were had.
APPEARANCES:
On Behalf of the Claimant:
(Pro Se) Christina Alessio
(Redacted per the Claimant’s request.)
On Behalf of the Employer:

App.202a
VORYS, SATER, SEYMOUR AND PEASE, LLP
By: Margaret D. Everett, Attorney at Law
200 Public Square
Suite 1400
Cleveland, Ohio 44114
216/479-6102
Mdeverett@vory s .com
HEARING OFFICER: Good afternoon, Ms. Alessio.
MS. ALESSIO: Good afternoon, Your Honor Steele.
HEARING OFFICER: I am Mrs. Steele, the Hearing
Officer for today. And this is Ms. Everett. She is
here on behalf of your Employer. You know Ms.
Wheat.
So we will start with having Ms. Wheat swear you
in.

CHRISTINA ALESSIO
of lawful age, the Claimant herein, having been
first duly sworn, as hereinafter certified, and
testified as follows:
HEARING OFFICER: Okay. We are here on several
different claims today. Ms. Alessio, where would
you like to start?
MS. ALESSIO: Yes, ma’am. I have an opening state­
ment.
HEARING OFFICER: I am sorry. Can you speak up
just a little bit, please?
MS. ALESSIO: I am sorry?
HEARING OFFICER: A little louder, please.

App.203a

MS. ALESSIO: Yes, ma’am. I have an opening state­
ment.
{Thereupon, the following opening statement
was read by Ms. Alessio as follows^}
MS. ALESSIO: I would like to begin my Opening State­
ment by acknowledging the presence of our Great
American Flag in our hearing room today, by
standing with my right hand over my heart for
the love of our Country, and gratefully recite: ‘The
Pledge of Allegiance’. Please, feel welcome to join.”
I pledge allegiance to the flag of the United States
of America, and to the republic for which it
stands, one nation under God, indivisible, with
liberty and justice for all.
“With respect, I would also like to take this oppor­
tunity to thank the District Hearing Officer Steele,
my Employers Legal Representative, Ms.
Margaret Everett, and today’s hearing Court
Reporter Jerri Wheat.
“Thank you all for your time today.
“My Closing Statement will take less than one
minute. Therefore, my Opening Statement will
continue.”
HEARING OFFICER: Okay.
MS. ALESSIO: “In my introduction and with great
respect to my Employer, the following 8 individuals
whom I will refer to as my “Superiors”, have
always been welcome to my hearings as with
great respect this is about situational awareness
and communication regarding the Aircraft Cabin
Environment to avoid any and all injury/illness
with respect to Health, Welfare, Safety and

App.204a

Security, for First Responder Inflight Crew Mem­
bers, like myself and our very valuable Air-Travel­
ing Customers.
“YOUR HONOR and with respect, the list of my
‘Superiors’ are mentioned by Name and Job Title
in my last Public Court Reported Staff Hearing,
January 30, 2018, under Claim #’s: 15-859117,
15-863145, and 15-863147.
“Respectfully, the NOTICE OF HEARING heard
that day was with respect to and I quote: ‘SUB­
POENA-RECORDS’, and was denied.
“With great respect to my ‘Superiors’, I truly
believe and cannot express enough that this
hearing is about caring and sharing the truth,
about the Chemical Substance Environment in
the Aircraft Cabin to avoid any and all injury/
illness, whether it be a First Responder Inflight
Crew Member, like myself or our most valuable
Air-Traveling Customers.
“YOUR HONOR and with respect, todays District
Hearing is to communicate on the record with
Credible Medical Evidence, as well as Definition,
Facts and The Rule of Law, for 5 Work Injury
Claims which under oath, I believe have merit for
allowance, and to communicate a respectful
request for change. Respectfully, change for up­
dating outdated 1967 Chemical Substance Air
Fresheners and Chemical Substance Cleaning
Products, to be made 100 percent safe and 100
percent transparent with complete list of ingre­
dients, including fragrance, made available for a
healthful Aircraft Cabin Air Quality Environment.

App.205a
“With great respect, and no pun intended this is
about: ‘Healthcare in the Air’.
“NOTICE OF HEARING states the ISSUES TO
BE HEARD today:
l) Injury Or Occupational Disease Allowance.”
“To be clear and for the record, there have been
14 disallowed Work Injury Claims, heard to date.
“Respectfully, for today’s hearing all 14 Work Injury
Claims heard to date have been requested to be
‘heard with’, todays 5 Work Injury Claims, per my
Employers Legal Representative.
“To be clear and for the record, the ‘14th’ Work
Injury that was last heard is reference Claim:
#16-807292, date of injury February 24, 2016.
“Please note: This Work Injury last heard was not
due to Chemical Substances in the Aircraft Cabin
Environment, but to an injury of bilateral sprain
hands and wrists while performing to a new 2016
CPR validation testing performance expectation
required by my Employer, to remain qualified to
fly. Respectfully, both District and Staff Hearings
were Court Reported and are of Public Record.
Respectfully, my appeal to be heard at the Com­
mission level was reviewed, and refused. Claim
was disallowed.
“Of the 14 Work Injuries heard and disallowed,
13 are Environmental Health and Safety con­
cerns from Chemical Substance Air Fresheners
and Chemical Substance Cleaning Products used
inside the Aircraft Cabin, with no protective mea­
sures.

App.206a

“To be clear and for the record, the 5 Work Injury
Claims heard here today, 3 are injuries from 2015
and 2 injuries are from 2016, which were pre­
viously dismissed without prejudice to be heard
at a later date, within the 2 year statutory time
frame.
“With respect, the following 5 Work Injury Claim
numbers heard here today will be referred to by
Claim number and/or the number of order in
which I was injured due to Chemical Substances
in the Aircraft Cabin Environment that have,
Credible Medical Evidence, for reference.
“YOUR HONOR and with respect,
“The First of 5: Claim #15-859117 may also be
referred to as #14. The 14th time I was injured at
work by Chemical Substances used in the Aircraft
Cabin Environment with no protective measures,
supported by Credible Medical Evidence.
“The Second of 5: Claim #15-863145, is #15.
“Please note: Work Injuries #14 and #15 took place
on the same work trip.
“The Third of 5: Claim #15-863147, is #16.
“The Fourth of 5: Claim #16-816267, is #17.
“And the Fifth of 5: Claim #16-816266, is #18. The
18th time I was injured by Chemical Substances
used in the Aircraft Cabin Environment, with no
protective measures supported by Credible Medical
Evidence.
“Please note: Work Injuries #17 and #18 took place
on the same work trip.

App.207a
“With great respect to my ‘Superiors’, Product
Liability, Accountability and Transparency, relat­
ing to Environmental Work Injuries, from Aircraft
Cabin Chemical Substance Air Fresheners and
Chemical Substance Cleaning Products, are com­
municated from the Material Safety Data Sheets
which were Subpoenaed, December 4, 2015. The
Subpoena Response is respectfully under reference
Claim #15-855426, dated January 7, 2016. The
Environmental Health and Safety concern about
the following subpoenaed products were further
communicated under oath for transparency, on
January 30, 2018, in the Public Court Reported
Staff Hearing, under Work Injury Claims: #15859117, 15-863145 and 15-863147. Respectfully,
the NOTICE OF HEARING issue heard that day
was with respect to and I quote: ‘SUBPOENARECORDS’, unquote, and was denied.
“YOUR HONOR and with great respect, for today’s
District Hearing and the information provided on
the First Report of Injury, the following Sub­
poenaed Aircraft Cabin Environment products
will be referred to by number for reference and
summary:
“Chemical Substance Product #1, will be in refer­
ence to the Aircraft Cabin Environment Chemical
Flight Fresh Deodorant Disc Air Fresheners. Sub­
stance/Ingredients state ‘Not applicable’. This pro­
duct was discontinued in October of 2014. Purpose
of this Chemical Substance Product was to freshen
the air we breathe in the Aircraft Cabin Environ­
ment.
“Chemical Substance Product #2, will be in refer­
ence to the Aircraft Cabin Environment Chemical

App.208a
JetScent Pump Spray Air Freshener. Substance/
Ingredients state ‘Not applicable’. This product is
provided and required by my Employer. The pur­
pose of this Chemical Substance Product is to
freshen the air we breathe in the Aircraft Cabin
Lavatory.
“Chemical Substance Product #3, will be in refer­
ence to the Aircraft Cabin Environment Chemical
#3 Sanitizer Spray Cleaner. This product is pro­
vided by my Employer, and states a “2” health
hazard rating level on the product label. As I
understand, a level “2” is a moderate health
hazard. Purpose of this Chemical Substance Pro­
duct is to clean the Aircraft Cabin Environment.
“Chemical Substance Product #4, will be in refer­
ence to the Aircraft Cabin Environment Chemical
Fragrant Lavatory Hand Soaps. Substance/Ingre­
dients state ‘Not applicable’. Under Mixtures the
Ingredients state: ‘Triclosan’. This product is
provided by my Employer. The purpose of this
Chemical Substance Fragrant Hand Soap is for
Inflight Crew Member and Air-Traveling Customer
use, in the Aircraft Cabin Lavatory.
“With great respect to my ‘Superiors’, my Environ­
mental Work Injuries heard here today is a
hearing for ‘Healthcare in the Air’ for all Inflight
Crew Members and Air-Traveling Customers.
Respectfully, as a First Responder in the Air, this
is about the Health, Welfare, Safety and Security
in the Aircraft Cabin for the Whole Global AirTraveling Public.
“As a Commercial Airlines Flight Attendant, my
wonderful Career gives me the opportunity to

App.209a
truly care about People, especially in my work
environment. I take to heart the Flight Attendant
Safety Obligation, which is to ensure a safe and
comfortable Environment, for all onboard.
“As a loyal, dedicated and committed Flight Atten­
dant, I respect the decisions and opinions of my
‘Superiors’, follow their instructions and direc­
tions to the best of my ability, as well as the
Company Policies and Procedures. With dignity
and respect, I have been reporting and reaching
out to, and up through the leadership chain
promptly with my ‘Superiors’, to what I believe is
an Environmental Health and Safety concern in
the Aircraft Cabin.
“‘See Something, Say Something’.
“Respectfully, I believe verification and certification
is needed that the use of Chemical Substance Pro­
ducts in the Aircraft Cabin Environment is with
great respect, following The Rule of Law.
“The Rule of Law of which I am referring to is a
Federal Law. A law which states in part and I
quote: ‘Federal law forbids the carriage of haz­
ardous materials aboard aircraft, [sic “onboard
aircraft”] in your luggage or on your person. A
violation can result in 5 years imprisonment and
penalties of $250,000 or more (49 U.S.C. 5124).
Hazardous materials include, and I further quote
in part, ‘poisons’.
“FACT: Definition of the word ‘poison’:
“Poison is a substance that can cause harm or
injury to people.

App.210a
“With great respect to my ‘Superiors’, the Company
through the Safety Management System (SMS),
describe a hazard as an object or a condition with
the potential to cause harm.
“With great respect to my ‘Superiors’, I believe the
need to continue to communicate that the Chemical
Substance Air Fresheners and Chemical Sub­
stance Cleaning Products used in the, Aircraft
Cabin Environment, with no protective measures,
is not only a Safety concern but a Health, Welfare
and Security concern, for all Inflight Crew Mem­
bers and Air-Traveling Customers aboard.
“Respectfully, I believe you are a product of your
Environment.
“Respectfully, my ‘Superiors’ work on the ground
and not in the air. With great respect and due to
this distinct fact, I have reached out and invited
my ‘Superiors’ to please come fly with me.
“Respectfully, my ‘Superiors’ communicate the
responsibility and role for a Flight Attendant, is
to report hazards for corrective action to create a
Safe Environment.
‘With respect, my ‘Superiors’ also communicate in
our Safety Policy that the safety, welfare and
health of our Employees and Customers are very
important. With dignity and respect, we all share
in the responsibility of running a safe operation
and maintaining a safe and healthful workplace.
With respect, our Policies and Procedures Manual
further communicates Flight Attendants are
responsible to work safely and promptly report

App.211a
any concerns up the leadership chain, until
resolved.
“With respect, the introduction to my hearing here
today can be summarized and thoughtfully
communicated, through my ‘Superiors’, Safety
Management System (SMS), that there is no
value, more important than Safety.
“The Summary of my 5 Environmental Work
Injury Claims:
“Begins respectfully, on November 26, 2015, when
I unexpectedly was honored to meet acting Pre­
sident and CEO, at that time, and now presently
he is ‘Superior’, EVP Chief Administrative Officer
and General Counsel. My ‘Superior’ was present
in the Chicago’s Crew Room Cafeteria. Respect­
fully, I took the opportunity to walk up to him,
introduce myself and in shaking his hand,
communicate in utilizing our Working Together
Guidelines (to foster open, honest and direct
communication), what I believed to be a safety
concern. Respectfully, my conscience led me to
communicate our Aircraft Cabin Chemical Clean­
ing and Air-Freshening products. Our conversa­
tion was friendly and concluded respectfully, that
our Aircraft Cabin Air Quality matters. With great
respect, it was an honor to meet my ‘Superior’ and
grateful to be able to share this valuable safety
information with him that day.
“Respectfully, my experience with my ‘Superior’, is
documented in my Irregular Operations Report
(IOR) #32124, which has been respectfully sub­
mitted with the Ohio Industrial Commission.

App.212a
“My 5 Environmental Work Injury Claims heard
here today are the following:
“The First of 5, is Claim #15-859117 which is #14
Environmental Work Injury.
“Date of Injury, November 27, 2015.
“The First Report of Injury communicates when
boarding the Aircraft, the Chemical Substance
Product #1 (a 2000—2014 discontinued Air Fresh­
ener), [sic “Chemical Substance Product #1 (a
2014 discontinued Air Freshener)”] Chemical Sub­
stance Product #2 Air Freshener Spray (to freshen
the air we breathe in the Aircraft Cabin),
Chemical Substance Product #3 Cleaner (a health
hazard, per label), and Chemical Substance Pro­
duct #4 Triclosan Fragrant Hand Soap, were all
respectfully, aboard the aircraft.
The Second of 5, is Claim #15-863145 which is
#15 Environmental Work Injury.
“Date of Injury, November 28, 2015. Just one day
later.
“The First Report of Injury communicates when
boarding the Aircraft, the Chemical Substance
Product #1 (a 2014 discontinued Air Freshener),
and Chemical Substance Product #3 Cleaner (a
health hazard, per label), were aboard the aircraft.
“Please note: Both Work Injuries #14 and #15
occurred on the same work trip.
“THE CREDIBLE MEDICAL EVIDENCE:
“Is when with respect, on November 28, 2015 at 8
am, I went to the United Airlines Employee
Medical Facility at the Houston Airport, where

App.213a

the Exam notes state and I quote in part:
‘swelling and rash B hands and wrists due to ex­
posure to cleaning products/chemicals on aircraft’.
“I was discharged and sent home. The Employee
Status Form states and I quote: ‘Description of
Injury: Chemical contact dermatitis with RA
flare-up (B hands)’.
“Follow-up instructions were to see my Worker’s
Compensation Doctor in Ohio.
“The Worker’s Compensation Claim Information is
written by the Occupational Medicine Doctor,
dated December 1, 2015. MEDCO 14 Physician’s
Report of Work Ability form, notes state in part
and I quote: ‘Irritant contact dermatitis B hands’.
“B hands MPs, PIPs, and DIPS are swollen and
tender w/ weak grip’.
“Follow-up appointment was on December 8, 2015,
where I was released back to work, full duty.
“MEDCO 14 Physicians’ Report of Work Ability
form notes state in part and I quote: ‘Hands
improved. Full use’ and ‘No restriction full Duty’.
“The Third of 5, is Claim #15-863147 which is #16
Environmental Work Injury.
“Date of Injury, December 20, 2015.
“The First Report of Injury communicates when
boarding the Aircraft, the Chemical Substance
Product #2 Air Freshener Spray (to freshen the
air we breathe in the Aircraft Cabin) and Chemical
Substance Product #3 Cleaner (a health hazard,
per label) were aboard the aircraft.
“The CREDIBLE MEDICAL EVIDENCE:

App.214a

“Is when with respect, on December 20, 2015 at
7:42am, I went to the United Airlines Employee
Medical Facility at the Houston Airport, where I
communicated swelling with pain and redness in
both wrists and hands with resurfacing of rash on
both hands. I was discharged from my work trip
and sent home, again.
“The Worker’s Compensation Claim Information
written by the Occupational Medicine Doctor, is
dated December 21, 2015. MED CO 14 Physician’s
Report of Work Ability form notes state in part
and I quote: ‘Irritant Contact Derm’ and ‘Swelling
over MCPs, Tender w/ slight rash, poor strength
on squeeze/grip’.
“The Causality Statement in the notes reads, and
I quote:
‘“It is my opinion with a reasonable degree of
medical certainty that Ms. Alessio hands were
irritated by the presence of Number 3 sanitizer
sprayed preflight.’
“The Fourth of 5, is Claim #16-816267 which is
#17 Environmental Work Injury.
“Date of Injury, February 7, 2016. This was the
first day of a 4 day work trip.
“The First Report of Injury communicates when
boarding the Aircraft, the Chemical Substance
Product #2 Air Freshener Spray, was over sprayed
to freshen the air we breathe in the Aircraft
Cabin.
“The CREDIBLE MEDICAL EVIDENCE:

App.215a

“Is when with respect, on February 8, 2016 at
8:27 am, I went to the United Airlines Employee
Medical Facility at the Houston Airport, where I
communicated rash and swelling of both hands. I
was given 1 percent of Hydrocortisone Creme and
instructed to see my physician in 3 days for reevaluation. (February 11, 2016)
“The Fifth of 5, is Claim #16-816266 which is #18
Environmental Work Injury.
“Date of Injury was on February 10, 2016. This
was the last day of the 4 day work trip.
“The First Report of Injury communicates when
boarding the Aircraft, the Chemical Substance
Product #1 (a 2014 discontinued Air Freshener)
was aboard the Aircraft.
“The CREDIBLE MEDICAL EVIDENCE:
“Is when with respect, the next day after my 4 day
work trip, February 11, 2016, I went to visit 3
Doctors, 2 of which were unplanned.
“At 11:50 am, I saw my Primary Care Physician
Doctor and with the diagnosis of Dermatitis, the
Doctor provided a stronger, 2.5 percent Hydro­
cortisone Creme than the Houston Airport Medical
Clinic—Medical Facility, to treat the rash on my
hands.
“At 2:30 pm, I saw my Occupational Medicine
Doctor who respectfully states under the Causality
Statement, and I quote:
“‘It is my opinion with a reasonable degree of
medical certainty that Ms. Alessio had a skin
reaction to chemicals found in the workplace.’

App.216a
“At 4 pm, I saw my Hand Surgeon Doctor which
was a Pre-appointment made for February 11,
2016, to discuss hand surgery.
“However, due to the unexpected overexposure to
Chemical Substance Air Fresheners and Chemical
Substance Cleaning Products used in the Aircraft
Cabin over my 4 day work trip, February 7-10th,
my Work Injuries to both my hands were clearly
visually present to my Hand Surgeon Doctor. The
agreement and need of treatment was then given
during my appointment.
“Please note: Irregular Operation Reports (IOR’s),
were respectfully submitted to my ‘Superiors’, as
well as respectfully submitted with each Work
Injury Claim to the Ohio Industrial Commission.
“YOUR HONOR and with great respect, I would
like to give further Credible Medical Evidence for
thoughtful review. With great dignity and respect
for all Inflight Crew Members and Air-Traveling
Customers, the fact is that the First Aid protocol
when traveling by Air, is not an option to the
Chemical Substance Air Fresheners and Cleaning
Products used for the Aircraft Cabin Environ­
ment, which I believe makes this unfair and an
unhealthy Environment, to all on board. With
respect, unfair to our Health, unfair to our
Welfare, unfair to our Safety and unfair to our
Security, in the Air.
“With respect, my further Credible Medical Evi­
dence begins with a Red Flag:
“An Email dated: May 23, 2014, under reference
Claim #15-829647. The Dermatology Department
at University Hospital, emailed me regarding the

App.217a

Aircraft Cabin Chemical Substance products, the
ingredient list request for patch testing. The email
communicates that the manufacturer and
fragrance vendors are not willing to provide the
actual made up components that would be safe, to
apply for patch testing.
“YOUR HONOR and with respect: I have wondered
and given great thought about how to be the
defender in my case as a Flight Attendant with a
duty and responsibility to ensure a safe and
comfortable Environment for all onboard.
“With respect and under oath, I believe that using
Chemical Substance Air Fresheners and Chemical
Substance Cleaning Products in the Aircraft
Cabin Environment to be unsafe and a health
hazard which can cause injury/illness to People.
“YOUR HONOR and with great respect, my
Wonder Question #1:
“If the Aircraft Cabin Chemical Substances, the
actual made up and withheld components, are not
safe enough to apply for a patch test on the skin,
how can the ingredients be safe for us to breathe?
Respectfully, how can the Chemical Substances
be healthy and safe for all onboard to inhale and
breathe entering our bloodstreams and nervous
systems—nervous systems during the entire
flight in the air?
“With respect, I truly believe with common sense
and logic one would say: It’s not safe.
‘With respect, my Wonder Question #2:
“If the actual made up and withheld components
are not safe enough to apply for a patch test on

App.218a

the skin, with great respect why would the Global
Air-Traveling Public, think it’s okay to inhale or
breathe the actual made up withheld Chemical
Substance components in the Aircraft Cabin
Environment during the entire flight in the air?
“With respect, I truly believe with common sense
and logic one would say: Its not okay.
“Respectfully, I truly do not believe the Global AirTraveling Public knows, to know.
“Respectfully, I truly believe the Global AirTraveling Public believes the Airline Industry is
following Federal Law.
“With respect, my Wonder Question #3: Are all the
Chemical Substances used to Air-Freshen and
Clean the Aircraft Cabin Environment following
the Rule of Law?
“With respect, my Wonder Question #4: Why use
Chemical Substance Products with Trade Secret
Ingredients in the Aircraft Cabin Environment
for Inflight Crew Members and Air-Traveling
Customers to breathe while traveling in the Air?
“With respect, my Wonder Question #5: Are the
Chemical Substance Products used for the Aircraft
Cabin, Sanction Products? Respectfully, Interna­
tional Sanction Products?
“With respect, my Wonder Question #6:
What’s wrong with using our wonderful and living
Mother Earth’s Safe and Healthy resources, 100
percent safe and 100 percent transparent? Ex­
ample: Orange, Lemon, Lime and Lavender from
Mother Earth, Free of Chemical Substances.

App.219a
“Respectfully, the Worldly Air-Traveling Customers
and Inflight Crew Members are like Family in the
air and mean everything to the Airline Industry.
‘Respectfully, this is truly about ‘Healthcare in the
Air’. Our Public Health and Public Safety Environ­
ment when traveling by Air.
“Respectfully, I believe an opportunity for a
healthier Environmental change has arrived.
“A wonderful change for a Chemical-Free Aircraft
Cabin Environment for a more pleasant, healthier
and safe traveling experience for all Inflight Crew
Members and Air-Traveling Customers.
“With respect, Your Honor, I am a simple person
with simple life principles. I think in simple
common sense and logic terms and I truly believe,
with respect, that this unfair practice is wrong.
With respect, I believe it is a pure violation of
Federal Law in using Chemical Substances
(poisons) that can cause harm or injury to people
in the Aircraft Cabin. Respectfully, I believe in
the Golden Rule: ‘Do unto others as you would
have them do unto you’. In other words, treat
others like you would like to be treated.
‘With respect to my ‘Superiors’, the Chemical Sub­
stance (poisons) components are not only being
carried on the Aircraft, but utilized in the Aircraft
Cabin. Respectfully, thereafter, Inflight Crew Mem­
bers and Air-Traveling Customers board the
Aircraft and become unfairly subjected on the
ground and most importantly breathing chemical
substances in the air during the whole entire
flight, hurting and harming our health

App.220a

unnecessarily. Respectfully, who is this bene­
fiting?
“With respect to Inflight Crew Members and AirTraveling Customers aboard, chemicals used in
the Aircraft Cabin Environment are a Health
Hazard. Its just that simple.
“YOUR HONOR and with respect, I would hope
you would agree.
“The Credible Medical Evidence you are about to
hear is in fact, 3 Doctors written statements of a
reasonable degree of medical certainty, for the
record from my Work Environment Injury ex­
periences. All 3 letters have been respectfully
submitted to the Ohio Industrial Commission for
thoughtful review.
“First letter statement dated: June 17, 2014.
“Reference Claim #14-809315.
“The Immunologist/Allergist Doctors written report
from an Ambient Test performed at the Doctors
office to the Aircraft Cabin Products, states and I
quote: ‘I believe with a reasonable degree of med­
ical certainty that the rash which had appeared
on Ms. Alessio’s hands was caused by a contact
with some of the products presented during the
challenge. The dermatological condition would be
best described—best described as an ‘irritant con­
tact dermatitis.
“Second letter statement dated: October 14, 2014.
“Reference Claim #15-833915.
“The Rheumatologist Doctors written report states
in part and I quote: ‘I agree with the opinion that

App.221a
Christina M Alessio should avoid exposure to the
inflight deodorants named in Dr. Silver’s report
as, with a reasonable degree of medical certainty,
the deodorants tested by Dr. Silver cause a flare
of Christina M Alessio’s Rheumatoid Arthritis. By
avoiding exposure, Christina M Alessio is able to
perform her essential job functions.’
“Third letter statement dated: November 24, 2014.
“Reference Claim #15-833915.
“The Occupational Medicine Doctors written report
states in part and I quote: ‘It is correct that there
is no current evidence of substantial aggravation
once the offending substance (air freshener discs)
was removed from Ms. Alessio’s workplace. After
further review including the notes of Dr. Hong
(Rheumatology) it is my opinion, with a reasonable
degree medical certainty, that Ms. Alessio suffered
a substantial aggravation of her rheumatoid
arthritis when exposed to the air freshener discs
in the workplace resulting in her not working
from March 17, 2014 to September 10, 2014, and
working only intermittently from September 18,
2014 to November 6, 2014 due to presence of the
air freshener discs in the workplace. This opinion
is supported by photographs, ED visits, United
Airlines physician visits, Dr. Silver’s testing, and
the fact that Ms. Alessio was able to return to
work’—excuse me—‘able to return to full duty
and suffered no problems when the air freshener
discs were not present in the workplace.’
“With respect and for the record, I would also like
to quote an email from my ‘Superior’ Senior

App.222a

Inflight Manager, dated October 2, 2014, for
further insight, clarity and understanding.
“The email reads and I quote:
‘“Tina, Per our previous discussion, on October 1
United has begun replacing the lavatory disc with
a new enhanced foaming hand soap. Along with a
new formulated soap, we are also introducing a
new soap bottle that features a built-in air
freshener, which will eliminate the need for the
lavatory deodorant disks. This will be a soft
launch which means that these products will be
placed on board the aircraft as the old supplies
are depleted. This process may take up to 30
days.’
“‘I want you to be prepared as you begin your trip
today that your aircraft may or may not have
changed over to the new product.’
“YOUR HONOR and with respect, I would like to
provide the most recent Credible Medical
Evidence.
“A letter statement dated: January 2, 2018.
“Respectfully submitted March 22, 2018.
“Written from MetroHealth Medical Center stating
in part and I quote: ‘Christina Alessio (dob
10/7/1960) was a patient seen in our clinic by my
partner Dr. Raymond Hong. Her last appointment
was on 5/16/2016.’
“A letter statement dated: January 9, 2018.
“Respectfully submitted March 22, 2018.
“Written from my Primary Care Physician stating
in part an I quote: ‘There has been no evidence of

App.223a

progress of Ms. Alessio’s RA in the past two
years.’
“Please note: Both medical letters and my email
from my ‘Superior’, were respectfully submitted
to the Ohio Industrial Commission.
“YOUR HONOR and with respect, I would like to
further provide for you FACTS to my Environ­
mental Work Injury Claims that follow directly
inline with the Credible Medical Evidence, which
add and support credibility to my case, for
insight, clarity and understanding.
“With respect, 2014 is when my ‘Superiors’ inclu­
ded a Hazard Communication Module, required
by all Flight Attendants to acknowledge or not
qualified to fly.
“With respect, there are significant differences to
my annual income from one year over the next,
due to working in either a safe or not safe Work­
place Environment, resulting in 18 workplace
injuries, highly documented with Irregular Opera­
tion Reports (IOR’s) to my ‘Superiors’.
“In summary.
“In 2013, I made an increase of 1—$16,442 over
2012, because I was sealing the Chemical Sub­
stance Product #1 Air Freshener Discs aboard the
Aircraft Cabin to refrain from breathing Chemical
Substances in my Work Environment to avoid
work injury.”
To be clear, and for the record, that was in 2013.
I made an increase of $16,442 over 2012.

App.224a

“In 2014, I had a decrease of $27,434 over 2013,
because I was denied by my ‘Superiors’, respect­
fully, both Inflight Senior Manager and Senior
Manager of Human Resources and Employee
Relations, in a Mandatory Meeting March 6, 2014.
Respectfully, I was denied the ability to seal the
Chemical Substance Product #1 Air Freshener
discs aboard the Aircraft Cabin Environment.
Respectfully, my ‘Superior’ communicated to me
that I was not allowed to remove the air freshener
discs. With respect, I followed the instructions
and direction of my ‘Superior’. Respectfully, I
became injured at work due to my Work Environ­
ment from breathing Chemical Substance Air
Fresheners in the Aircraft Cabin with no
protective measures.
“YOUR HONOR and with respect, all Environ­
mental Work Injury Claims being ‘heard with’,
todays hearing have Irregular Operation Reports
(IOR’s) written for each Claim beginning in 2014,
which have all been respectfully submitted to the
Ohio Industrial Commission for insight, clarity
and understanding for a fair, right and just
hearing.
“In 2015,1 made an increase of $19,844 over 2014,
because Chemical Substance Product #1 Air
Freshener discs, were mostly discontinued in the
30 day period in October of 2014.
“In 2016, I had a decrease of $13,969 over 2015,
because I was respectfully, denied by my
‘Superior’, Inflight Senior Manager, to follow my
Doctors recommendation of an accommodation to
avoid injury, and instead was injured with
bilateral sprains of hands and wrists performing

App.225a
CPR on a new mannequin at the Flight Attendant
Training Center. With respect, my Work Injury
Claim was Court Reported and is of Public Record
and can be found for review under Claim number
#16-807292. With respect and for the record, the
Claim was disallowed.
“In 2017,1 made an increase of $28,341 over 2016,
because I have worked in a safer Work Environ­
ment and able to avoid injury.
“YOUR HONOR and with respect, though I have
not taken an oath at work to protect the people, I
believe I have a moral and ethical responsibility
and as an American Citizen, uphold our U.S. Con­
stitution, which is to Protect the People. With
respect to my ‘Superiors’, my duty and responsib­
ility as a Flight Attendant is to ensure a safe and
comfortable Environment in my Workplace, for all
onboard, in the Aircraft Cabin.
“YOUR HONOR and with respect, this is about
traveling in the air and being unnecessarily ex­
posed to a Chemical Substance Environment
which can cause injury and illness not just to
Inflight Crew Members like myself, but to AirTraveling—to the Air-Traveling Public.
“With the utmost respect to my ‘Superiors’ I wish
my respectful invitation to please come fly with me
would come true. With the utmost respect to my
‘Superiors’, they work on the ground and not in
the air and might have a better understanding of
the Safety and Health concern of utilizing
Chemical Substances in the Aircraft Cabin Envi­
ronment.

App.226a

“With respect, as I have communicated my concern
with my ‘Superiors’, and continued with due
diligence attending all of my hearings for a hope­
ful correction and change to a Healthy and Safe
Environment with Chemical-Free Aircraft Cabin
Products, I have also respectfully reached out to
my Government, for answers with the encourage­
ment of communicating: ‘See Something, Say
Something’.
“Respectfully, I have not received confirmation
from our Government as of this Hearing, that my
Employer is in fact 100 percent in compliance with
Federal Law 49 U.S.C. 5124, in specific to
‘poisons’. With respect, using Chemical Substances
in the Aircraft Cabin Environment.
“Communication documents with Government
Agencies regarding work Environment Injuries,
Hazards, Health and Safety, have been respectfully
submitted to the Ohio Industrial Commission for
thoughtful review.
‘With respect, the following Government Agencies
include:
“Federal Aviation Administration (FAA)
“Occupational Safety and Health Administration
(OSHA)—known as OSHA
“Equal Employment Opportunity Commission
(EEOC)
“Ohio Governor
“Ohio Congresswoman
“Ohio Senator

App.227a
“With great respect to my ‘Superiors’, I received a
response from the EEOC on April 18, 2017, in
which they could not certify that my Employer
was compliant with the statutes.
Therefore, on July 7, 2017, I had no other choice
by their response, than to respectfully file with
the Federal Court under the bases of the Courts
Jurisdiction 49 U.S.C. 5124.
“With respect to the truth, Case #5:17-cv-01426 is
presently at the U.S. District Court assigned to
the Honorable Judge Sara Lioi.” That is spelled
L-i-o-i. ‘With respect—with respectful Defendant
Attorneys: Ms. Heather Huffman and Ms. Natalie
Stevens, representing my ‘Superiors’.
“Respectfully my Amended Complaint was sub­
mitted on March 9th, and filed on March 12, 2018,
stating my respectful remedy for Airline Accommo­
dation Relief (in Capital Letters I wrote on the
cover page) and I quote: ‘SAFE AND TRANS­
PARENT PRODUCTS. WITH THE UTMOST
RESPECT TO ‘AIR-TRAVELER’S’ HEALTH
AND SAFETY, PRODUCTS USED TO CLEAN
AND AIR-FRESHEN THE AIRCRAFT CABIN
SHOULD BE MADE TRANSPARENT, NO
SECRETS, WITH COMPLETE LIST OF INGRE­
DIENTS MADE AVAILABLE, FOR A BETTER
AIR-QUALITY ENVIRONMENT, SO TO AVOID
ANY AND ALL INJURY/ILLNESS.’
“The response received back from my Amended
Complaint by my ‘Superiors’ Legal Team is dated
March 26, 2018. In conclusion and with great
respect I quote: ‘For the foregoing reasons, Defen­
dant respectfully requests that Plaintiffs Amended

App.228a

Complaint be dismissed with prejudice in its
entirety.’
“With great respect, on March 1, 2018, a respectful
letter, notarized and certified by mail, was sent to
5 of The President of the United States’ Cabinet
Members:
“Honorable Attorney General (AG), Mr. Jeff Ses­
sions.
“Honorable Director of the Federal Bureau of
Investigation (FBI), Mr. Christopher Wray.
“Honorable Administrator of the Environmental
Protection Agency (EPA), Mr. Scott Pruitt.
“Honorable Secretary of Transportation (DOT), Ms.
Elaine Chao.
“Honorable Secretary of Health and Human
Services (HHS), Mr. Alex Azar.
“Respectfully, reaching out in the letter with
questions, in search for answers. “Respectfully in
summary the letter
“Kindly requests and petitions for transparency to
the complete ingredient list to the Chemical Sub­
stance Air Fresheners and Chemical Substance
Cleaning Products used inside the Aircraft Cabin
Environment, for Safety and Health measures,
for the Global Air Traveling Public.
“Respectfully, is the use of Chemical Substances
in the Aircraft Cabin Environment, following
Federal Law?
“And with respect to the Global Air Traveling
Public, what is the reason for using Chemical

App.229a
Substances rather than Mother Earth’s trans­
parent pure and safe, healthy and harmless
resources in the Aircraft Cabin Environment?
“YOUR HONOR.
“My Work Injury Summary is with great respect
to my ‘Superiors’. Respectfully, to communicate
that I believe every one of these Work Injuries
could have been avoided and prevented, by not
using Chemical Substances in the Aircraft Cabin.
With respect, I believe the hazard with the
potential to cause hurt or harm, injury or illness
to people still exists with the Chemical Substance
products—product practice used inside the
Aircraft Cabin Environment, today.
‘Respectfully, I have reached out to my ‘Superiors’
in my written Irregular Operation Reports (IOR’s),
inviting them to please come fly with me, to help
provide the situational awareness and communica­
tion for a corrective action to a more safe, trans­
parent and friendly Aircraft Cabin Environment.
“IN CONCLUSION:
“YOUR HONOR,
“And with the utmost respect to my ‘Superiors’, I
believe the 5 following forms of evidence provide
the burden of proof for which my Environmental
Work Injuries should be granted, for Allowance:
“1. The Doctors Credible Medical Evidence State­
ments.
“2. The Fact—The Facts from the January 7,
2016, Subpoena Response, with respect to
the Material Safety Data Sheets pertaining

App.230a

to the Aircraft Cabin Chemical Substance
Air Fresheners and Chemical Substance
Cleaning Products.
“3.

The 2014 Hazard Communication Module
required by my Employer to acknowledge,
with respect to and regarding Chemical Sub­
stance Aircraft Cabin Products.

“4. The Rule of Law 49 U.S.C. 5124: A Federal
Law which forbids hazard materials aboard
the aircraft (poisons).
“5.

The Definition of Poison: A substance that
can cause harm or injury.

“YOUR HONOR,
“In closing with my Opening Statement, I believe
there is a true and sincere need for change. With
respect, change for a more healthful travel and
workplace Environment in the Aircraft Cabin.
With respect to my ‘Superiors’, I will continue to
pray for a Chemical Free Aircraft Cabin Environ­
ment with products made 100 percent safe and
100 percent transparent.
“Thank you for your time, Your Honor. And thank
you for your consideration.
“Sincerely, Tina.”
(Thereupon, the reading of the
opening statement was concluded.)
HEARING OFFICER: Ms. Everett?
MS. EVERETT: I just have a couple of questions for
Ms. Alessio.
CROSS-EXAMINATION

App.231a

BY MS. EVERETT:
Q.

These products, like the hand soap, I think you
call that number 4?

A.

Uh-hum.

Q.

So during the time of these claims from, say,
November of 2015, to February of 2016, did you
actually put that hand soap on your hands?

A.

No.

Q.

Okay.

A.

I report—

Q.

“No”? Just “yes” or “no.”
And then number 3, sanitizer spray cleaner, did
you actually apply any of that to your hands or
skin?

A.

No.

Q.

Okay. And then the JetScent Pump Spray, I think
you called that number 2, did you actually like
touch—

A.

No.

Q.

—the product?

A.

No.

Q.

Okay.

A.

Gloves are given for protective measures. That is
the only protective measures we have.

Q.

Okay.

A.

Ms. Everett—

App.232a

Q.

So the—I am not arguing with you. The discs,
number 1, in November of 2015, through February
of 2016, did you physically yourself touch the
discs?

A.

Never.

Q.

Okay. Thank you. That—
Oh, and do you continue to work at United?

A.

Yes, ma’am.

Q.

Okay. So you are still a flight attendant?

A.

Yes, ma’am.

Q.

And you still go on these aircraft with—

A.

Yes, ma’am.

Q.

—various and assorted cleaning products?

A.

Well, unfortunately, I have a responsibility. And—

Q.

So your answer is “yes”?

A.

Yes.

Q.

Okay. Thank you.

A.

Yes, ma’am.

MS. EVERETT: That is all the questions that I have.
Ms. Steele, you have all the information in the
previous claims. And I did pull in a couple of
orders and the reports from Dr. Eli Silver, so that
you could see that the testing had been done—
ambient air testing.
And I believe that was in Claim Number 14813107.
HEARING OFFICER: I am sorry. 813107?

App.233a

MS. EVERETT: Right. Altogether, there have been 17
claims filed basically alleging the same thing.
Two of them were withdrawn and never went to
hearing. Ten of them have been denied. And then
you have these five before you now.
On the—in the file, I always submit this Summary
of Claims. It is in your folder somewhere. It lists
all the different claim numbers. But basically it is
the Employer’ position that these claims are all
for the same thing.
Ms. Alessio is alleging airborne—the fact that she
can smell cleaning products as either causing or
aggravating her rheumatoid arthritis, or causing
a contact dermatitis condition, primarily on her
hands. And those claims have all been denied by
the Industrial Commission in the past.
In fact, a lot of the medical that she was reading
from are from the old claims. And those claims
were denied. So that evidence that she is reciting
here today, whether it is Dr. Silver, or some of
these other records from 2014 and ‘15, are all
records that have been submitted in the other
claims. And the Commission has found them to
not be credible. And I think it is because that
medical evidence does not support the allowance
of a claim.
Sitting here today, Ms. Alessio has not articulated
the medical condition that she claims has—well,
she was—where the—of a nature of her injury in
each of these five instances. I mean, there are dif­
ferent allegations about contact dermatitis, or
rheumatoid arthritis, aggravation of rheumatoid
arthritis. Which the Employer would argue that

App.234a

an aggravation of a preexisting disease is not
compensable.
But she hasn’t even established with medical evi­
dence that her theory of her case, if you will, that
breathing in cleaning products that are no differ­
ent than household cleaning products, would cause
a medical condition—any kind of medical condi­
tion.
Ms. Alessio continues to allege that these products
are hazardous and poison. However, Ms. Alessio
is not a scientist. She is not an expert. Those are
her opinions with regard to these products.
And one of the claims, I forget which one it was,
we submitted some MSDS sheets from regular
over-the-counter air freshening products, like a
Glade Air Spray—and I forget what the other one
was—and Purell, you know, that you use on your
hands.
And most of the cleaning products that are used
on the aircraft, because you have the MSDS
sheets for those also, are actually more benign—
things on the aircraft are more benign than
things that you can go to the Giant Eagle and get
and use in your home. Consumer—you know,
regular consumer cleaning and air freshening
products.
And yet it is her burden to establish that these
products scientifically—not just her opinion—are
hazardous, and she has never established that.
She has never brought a single piece of informa­
tion, other than her own opinion, that these pro­
ducts are hazardous. And it is because they are
not.

App.235a

She has contacted OSHA. She has contacted all of
these other agencies who have conducted their
own investigation; whether that is limited or ex­
panded, it has turned up nothing. There have
been no citations by OSHA about these products
on the aircraft at all.
And so there is no scientific evidence before the
Industrial Commission that these products are
hazardous. And there is no medical that supports
that airborne exposure to common cleaning pro­
ducts cause rheumatoid arthritis, aggravate
rheumatoid arthritis or cause contact dermatitis,
either in this case or generally.
So, you know, in a certain—to a certain extent, it
has always been the Employer’s position that all
of these continued filing of claims is res judicata.
This issue has already been decided. In fact, it has
already been decided ten times. And there is
nothing new here today. These are the same
allegations, just on a different day. They are the
same allegations with regard to the same products
on the aircraft. They are the same allegations
with regard to her physical response, or what she
has treated for. And there is still no medical
evidence that there is a compensable event.
And we would ask that you deny all five of these
claims for lack of medical causality.
HEARING OFFICER: Ms. Alessio, before I give you the
opportunity to respond, are you also alleging that
you lost time due to these claims?
MS. ALESSIO: Yes, ma’am. It was quoted in the
occupational medicine doctor’s letter, the dates

App.236a

that I had missed work for these chemical sub­
stances on board the aircraft.
HEARING OFFICER: So you are alleging lost time in
each of the five claims?
MS. ALESSIO: I was pulled off my work trip. So I
wasn’t able to finish my trip. So I lost income.
HEARING OFFICER: Seven or more consecutive days?
MS. ALESSIO: I would have to look at it, but I doubt
it, because our trips aren’t that long. But, I mean,
I had—I have definitely lost income from—
HEARING OFFICER: Okay.
MS. ALESSIO:—from showing up to work fit for duty,
getting in my work environment, and then being
pulled off my trip because I couldn’t finish my job.
HEARING OFFICER: Okay. Your response to Ms.
Everett?
MS. ALESSIO: With respect to my Employer’s legal
representative, I would like to let you know that
I agree with you. I am not an attorney and I
respect your profession.
HEARING OFFICER: Ms. Alessio, please address me,
not Ms. Everett.
MS. ALESSIO: I am so sorry. I am not an attorney.
That is what I am trying to—
HEARING OFFICER: Make your argument—make
your closing argument in response to that.
MS. ALESSIO: I am not a scientist. And I am not a
doctor. But I do take good care of myself. And I do
pay close attention to my health.

App.237a

And what I have come to realize, Your Honor
Steele, is that for life, you need three things. You
need food. You need water. And you need air. And
we eat and drink probably five to ten times, 20
times a day. But we breathe, as an average adult,
20,000 times a day. This is a much larger, sub­
stantial number that weighs more with respect to
what is going into our systems and becoming a
product of us—what we are.
And I would like to give you the definition of
rheumatoid arthritis, in general. A disease that
causes—
HEARING OFFICER: I am sorry, Ms. Alessio. Are you
alleging that this caused your rheumatoid
arthritis?
MS. ALESSIO: No.
HEARING OFFICER: Or substantially aggravated it?
MS. ALESSIO: Substantially aggravated it.
The definition I have here of RA is a disease that
causes the joints of the body to become swollen
and painful. Those are exactly the symptoms that
I had. I didn’t have them prior to boarding the
aircraft, getting in the aircraft.
And knowing that I had the Ambient Test with
my immunologist and it tested positive. Even the
chart with the meters of the circumference of my
joints—it has been submitted. They increased
within that period of time that I was in the room
with them.
HEARING OFFICER: So you are saying bilateral?

App.238a

MS. ALESSIO: Bilateral hands and wrists are affected.
I believe that because that is the weakest part of
my body in respect to my joints, because they are
so small and easier—I have to be frank when I
say, my hands are the barometer to my health.
When I am breathing, and something is probably
not healthy, because there are no indoor air
quality standards today. Not just the aircraft
cabin there is none, but anywhere, okay?
So when you get into an indoor environment and
you don’t feel well, the first thing that should
come to mind to someone is “What am I breath­
ing?” And if you can remove yourself, you probably
would start to feel better. But in an aircraft cabin,
you cannot remove yourself.
So this is why I believe it is violating Federal
Law, with great respect to my superiors, is
because the first aid procedures are to remove
yourself, and you can’t. So then you have to wait
until you have the opportunity to remove yourself
to then start feeling better.
And then that is why I would be released back to
work. Because if I wasn’t subjected to these
chemicals, Your Honor, I probably wouldn’t have
a health issue at work. That is why I said in my
opening statement, I don’t think any of these
injuries should have ever happened, had I not
been forced to breathe these chemical substances
with no protective measures.
And I am speaking with great respect to your
breathing. You know, with great respect to the
superiors’ legal representative, I have to say that
when she talks about airborne, if you can smell it,

App.239a

it is in the air. That means it is landing on your
skin, right? I mean, it is in the air. If it is going
up your nose, you can smell it, it is entering your
system. When you eat and drink, you have it
going in an entrance and out an exit. When you
breathe, not so much. It goes in and through your
bloodstreams and through your nervous systems.
It has no way out.
It then needs to get out, so I get this kind of like
logical theory, that your body will expand from it,
because it is trying to get out. And that is just my
thought. I am not a doctor. I am not a scientist.
And I am not a lawyer.
HEARING OFFICER: We need to stick to your
injuries.
MS. ALESSIO: Yes. So—
HEARING OFFICER: You are also alleging chemical
contact dermatitis?
MS. ALESSIO: Yes, absolutely, because I would have
rash. But getting back to what—
HEARING OFFICER: No. We need to stick—you need
to stick with me. And then I will let you have a
chance.
MS. ALESSIO: Okay.
HEARING OFFICER: I need to know everything—
every condition that you are alleging.
MS. ALESSIO: I mean, I would just say—
HEARING OFFICER: We went over—went over—
MS. ALESSIO: If you don’t have protection—

App.240a

HEARING OFFICER: Please let me speak and then I
will let you speak, okay?
MS. ALESSIO: I am sorry. Okay.
Yes, ma’am.
HEARING OFFICER: Because I want to make sure
that I get down exactly what you are requesting.
MS. ALESSIO: Yes, ma’am.
HEARING OFFICER: Substantial aggravation of
bilateral RA in your hands and wrists. Chemical
contact dermatitis. That is bilateral hands and
wrists, right?
MS. ALESSIO: Yes, ma’am.
HEARING OFFICER: And what else?
MS. ALESSIO: The rash was mostly on the hands. I
wouldn’t say they were on the wrists, okay? It was
just on the hands. It is the thinnest skin, if you
will. And so that is why, if chemicals are in the
air and they are landing on your skin—because
don’t forget that every single customer goes in
and uses the hand soap. So that chemical sub­
stance is building up in the aircraft cabin.
HEARING OFFICER: So bilateral rash on your hands?
MS. ALESSIO: No, I didn’t have rash on my hands.
HEARING OFFICER: On your wrists?
MS. ALESSIO: I mean, on my wrists. I only have it on
my hands. At the very beginning, in 2014, it was
even on my face. And so it is just—
HEARING OFFICER: All right. Any other conditions?

App.241a

MS. ALESSIO: Just the rash and the swelling. The
swelling of my joints in my hands and wrists.
When the occupational medicine doctor stated
“substantial aggravation,” that was due to swelling
and inflammation in the hands and in the wrists.
HEARING OFFICER: All right.
MS. ALESSIO: May I speak a little more here with
respect to what my superiors’ legal counsel—
HEARING OFFICER: Yeah, you need to respond to
Ms. Everett.
MS. ALESSIO: Okay. Thank you, ma’am. Thank you,
Your Honor.
So we realize that the airborne isn’t just touching
a chemical, because I would never do that. It is in
the air. It is—if you can smell it, it is landing on
any exposed skin and can irritate it.
I am claiming breathing—not the physical touch—
but the inhalation of these products that are
causing the harm. That it goes into the body
through our nose, mouth, ears and eyes. Not the
touch. Please let me make that 100 percent clear.
It is the four senses, not the fifth, that it is
entering.
With respect, I am alleging injury, not occupa­
tional. Because occupational, in my mind, would
be if I was in a healthy work environment, this
wouldn’t be happening. But I am walking into
this chemical environment, and I am getting
injured.
I wouldn’t probably have the joint—I don’t have
it when I am not working. It is literally, in my

App.242a

eyes—because I see it every day and I feel myself
and my hands every day. I feel whether my hands
are getting better or getting worse, day by day,
room by room, indoor/ outdoor, in every manner,
every moment. And I am realizing what benefits
and what doesn’t.
And so that would be my greatest hope, that this
would become a realization that, you know,
chemicals shouldn’t be in this environment due to
Federal Law because of the harm that it can
cause.
HEARING OFFICER: You do understand that Federal
Law has nothing to do with this hearing?
MS. ALESSIO: That is fine. I am just making a—
HEARING OFFICER: I have absolutely no jurisdic­
tion over—
MS. ALESSIO: I understand.
HEARING OFFICER:—your Employer’s practices.
MS. ALESSIO: I respect that. I respect that.
HEARING OFFICER: I can’t make them do or not do
certain things. We have to stick strictly to your
injuries versus your job duties and the causality
between the two.
MS. ALESSIO: I respect that. I just—thank you for
listening is really—if anything, in that regard,
because I do respect our Government 100 percent.
Also, in response, the household cleaning products
—I believe she said household. I wrote the word
“household.” That is actually one of the forbidden
products listed before you board the aircraft; that
is not allowed on board. So if it is a basic cleaning

App.243a

product, or household product, it needs to be 100
percent safe and 100 percent transparent. Today,
it is not.
And this is, I think, one reason why air sickness
and injuries do happen. Because of the fact that,
at home, you can remove yourself from it: Go out­
side, open the windows. You can use these house­
hold cleaning products anywhere on the ground,
but not in the air.
That is really why I believe, and truly, in my heart,
that it is a Federal Law, just in my mind. I know
I am not communicating that as to get a response.
The Material Safety Data Sheets, you cannot
follow the first aid procedures. So that right there
is really kind of harmful to the people in the
environment subjected to it, because you can’t
follow it. Oxygen would be what we would have to
put on, but we—as inflight crew members, we can’t
do that.
And then the only other thing that I would really
love to reach out to and ask for is—and I believe
what my superiors’ legal representative is saying,
unfortunately—I would like to see it. Where is the
certification and the verification that these pro­
ducts are not harmful?
I just—I just—you know, she is telling me I can’t
prove it, or I am not saying—you know, showing
that they are hazardous. Well, where is she
saying-how can she say that they are not? It goes
both ways, I think, with great respect.
I am a simple person, just trying to make a simple
living. I know that I love what I do for a living

App.244a

with all my heart. And, you know, I am supposed
to take every precautionary measure to not only
protect myself, but our coworkers, and of course
our most valuable customers. So I am really just
trying to do what I am supposed to do: Follow the
policies and procedures. Follow the instructions and
directions of my superiors. And I do it with love
in my heart, because I just—
I really do have a passion for people and a passion
for life. And I live in the present. And I really—I
really hope that it is given great consideration.
I have just one closing minute left, but I don’t
know if there is any more—
HEARING OFFICER: I think Ms. Everett is finished.
Right? Are you—
MS. EVERETT: I have just one—a couple of remarks,
but go ahead.
HEARING OFFICER: Well, let’s let you make your
closing remarks—
MS. EVERETT: Sure.
HEARING OFFICER:—and then I will let Ms. Alessio
have the final remarks.
MS. EVERETT: Sure. The one thing that I wanted to
point out was that the Employer disputes Ms.
Alessio’s characterization of Dr. Eli Silver’s reports
as being positive in supporting her position.
In fact, in—on the June 2, 2014, reports of Dr.
Silver, on the second page, he says—this is after
he is doing these Ambient Air Testing. He says,
“Overall, I was unable to confirm exacerbation of

App.245a

the arthritis with a 100 percent certainty. More­
over, as the science stands today, there is no
plausible mechanism to directly link the exposure
to fragrance and an autoimmunity of rheumatoid
arthritis.” And so he is—
HEARING OFFICER: Ms. Everett, do you know if
this—if it is in a particular claim that has been
disallowed?
MS. EVERETT: Yes. The claim was disallowed.
HEARING OFFICER: Okay. Just so I can find it.
MS. EVERETT: Oh, I pulled it into this hearing folder.
HEARING OFFICER: Oh, you did?
Okay.
MS. EVERETT: Yes. I think they go to the bottom,
because they are dated ‘14, but it is down there.
HEARING OFFICER: Okay.
MS. EVERETT: And all of his—I pulled all of Dr.
Silver’s reports in there. There is a couple of
them, just so that you could see them. And they
were considered in this one Claim 14-813107.
Although, they have always been there in all of
these subsequent claims, too. I mean, I guess,
that is just when it was argued, pro and con, most
vigorously in the record of those claims—of that
claim.
So, you know, from the Employer’s perspective,
that air testing was negative, not positive. Because
he couldn’t confirm anything, other than her sub­
jective complaints.

App.246a

And, you know, I don’t know how you can get con­
tact dermatitis if you don’t contact something, if
you don’t touch something. There is certainly no
medical evidence on file here about how somebody
can get contact dermatitis from smelling an air
freshening product.
And, also, none of the doctors have stated an opin­
ion that supports Ms. Alessio’s theory of her
injury that breathing in, whether it be a spray or
a soap smell or some kind of a fragrance,
aggravates rheumatoid arthritis or causes con­
tact dermatitis or a rash.
Not one of the doctors have expressed that medical
opinion, giving a causal link. And so, on that
basis, we would ask that the claims be denied.
HEARING OFFICER: Ms. Alessio, your closing re­
mark?
THE REPORTER: May I change my paper real fast?
HEARING OFFICER: Sure. Go ahead.
(Thereupon, the Reporter
changed her stenographic paper.)
HEARING OFFICER: Ms. Alessio, your closing re­
mark?
(Thereupon, the following closing statement
was read by Ms. Alessio as follows:)
MS. ALESSIO: “MY CLOSING STATEMENT:”
Your Honor Steele, “With great respect, I love
United Airlines and my Flight Attendant Career.

App.247a

“With great respect, I love the Global Air Traveling
Public, you are so very special to me you are
Family.
“With great respect, I love and believe in the
United States of America.
“With great respect, I believe and trust in GOD,
the Father Almighty, creator of Heaven and
Earth.
“With great respect, I believe in Faith, Hope and
Love.
“With great respect, I believe in our U.S. Consti­
tution to Protect the People.
‘With great respect, I believe with the dignity and
respect the Global Air Traveling Public deserves,
that pure and simple, safe and transparent,
Aircraft Cabin Air Quality products for a more
pleasant flying experience across America and
around the World, will one day prevail.
With respect to my Opening and Closing State­
ments, I will be respectfully submitting my
complete written report to the Ohio Industrial
Commission to provide insight, clarity and under­
standing for a fair, right and just hearing.
“Sincerely, Tina.”
(Thereupon, the reading of the closing
statement was concluded.)
HEARING OFFICER: Thank you very much. You are
familiar with the process, Ms. Alessio. My order
will go out sometime next week, okay, after I have
had a chance to review. And you will be sub­
mitting the transcript, as well, right?

App.248a

MS. ALESSIO: Yes, ma’am.
HEARING OFFICER: Okay. Thank you very much.
Thank you, Ms. Wheat.
MS. EVERETT: Thank you.
MS. ALESSIO: Thank you.
(Thereupon, the hearing was concluded at 2:43 p.m.)

App.249a

CHAPTER TWO
STAFF HEARING — COURT REPORT
(JULY 30, 2018)1
Claim No: #15-859117, #15-863145, (Errata)
#15-863147, #16-816267, #16-816266
Claim No. 16*807292
Oliver Ocasek Building
161 S. High Street Suite 301
Floor 3rd, Room 5
Akron, Ohio 44308
July 30, 2018 at 9:00 a.m.
Issues to Be Heard:
l) Injury or Occupational Disease Allowance

1 Errata in the original transcript have been noted in the body of
the text.

App.250a

BEFORE THE INDUSTRIAL COMMISSION
OF OHIO
CHRISTINA ALESSIO,
Claimant,
v.
UNITED AIRLINES, INC.
Employer.
Claim No. 16-807292
[ Sic 15-859117, 15-863145,
15-863147, 16-816267, 16-816266]
BE IT REMEMBERED, that upon the hearing of
the above-entitled matter, held at the Industrial
Commission, Akron, Ohio, before the Clement Rogers,
Hearing Officer, and commencing on Monday, the
30th day of July, 2018, at 9:00 o’clock a.m., at which
time the following proceedings were had.
APPEARANCES:
On Behalf of the Claimant:
Pro se
Christina Alessio
(Address and phone number redacted at
Claimant’s request.)

App.251a

On Behalf of the Employer:

VORYS, SATER, SEYMOUR AND PEASE, LLP
BY:
Margaret D. Everett, Attorney at Law
200 Public Square
Suite 1400
Cleveland, Ohio 44114
216/479-6102
Mdeverett@vorys.com
HEARING OFFICER: My name is Clement Rogers, I’m
the Hearing Officer today.
Ms. Everett is here on behalf of your employer.
Before we get started, there are two points of busi­
ness: You are to submit a copy of the transcript to
the file at your own expense. And second, since she
is the only witness, do you want to swear her in
now so that we can save time later on?
( Thereupon, the witness was
sworn in by the Reporter)
HEARING OFFICER: Okay. What we are going to do
here, I am going through each of these claims in
order. They are 11-27-15, 11-28-15, 12-20-15, 2-716 and 2-10-16, dates injury; we are going to do it
in order. So ma’am, this is your application so go
ahead.
MS. ALESSIO: I have an opening statement.
HEARING OFFICER: Okay.
MS. ALESSIO: I would like to begin my opening state­
ment by acknowledging the presence of our great
American Flag in our hearing room today, by
standing with my right hand over heart for the

App.252a
love of our country, and gratefully recite the
Pledge of Allegiance. Please feel welcome to join.
I pledge allegiance to the Flag of the United States
of America, and to the Republic for which it
stands, one Nation under God, indivisible, with
liberty and justice for all.
Thank you, Your Honor. With respect, I would also
like to take this opportunity to thank the Staff
Hearing Officer, Clement Rogers; my employer’s
legal representative, Ms. Margaret Everett; and
today’s hearing Court Reporter, Lena Duncan.
Thank you all for your time today.
My closing statement will take less than two
minutes. Therefore, my opening statement will
continue. Your Honor, and with respect, today’s
Staff Hearing is to communicate on the record
sufficient credible medical evidence, as well as the
definitions, facts and the rule of law regarding five
work injury claims, which, under oath, I believe
have merit for allowance and communicate a
respectful request for change.
Respectfully, change for updating outdated Aircraft
Cabin 1967 “chemical substance air fresheners”
and chemical substance cleaning products to be
made 100 percent safe and 100 percent trans­
parent. With great respect to American citizens’
civil rights to know what we are breathing. I
believe the global air traveling public has a right
to know for a healthful aircraft cabin air quality
environment.
Respectfully, the ability to verify compliance with
Federal law, including the complete list of the
chemical substance ingredients, should be readily

App.253a
accessible for air travelers, upon request. With
respect, Your Honor, as it stands today, that is
not the case. With respect, ingredients are with­
held, a trade secret, and considered classified
information.
With great respect to my employer, whom I will
refer to as my Superiors in today’s hearing, have
always been welcome to my hearings, as with
great respect, this is about situational awareness
and communication regarding the aircraft cabin
environment to avoid any and all injury/illness
with respect health, welfare, safety and security
for first responder in-flight cabin crew members,
like myself; and our most very valuable and pre­
cious global air traveling customers. Respectfully,
this is about “healthcare in the air.”
Notice of hearing states the issues to be heard
today, one, injury or occupational disease allow­
ance. to be clear and for the record, there have
been 14 denied and disallowed work injury claims
to date.
Respectfully, for today’s hearing, all 14 work injury
claims heard to date have been requested to be
“heard with” today’s five work injury claims, per
my Superior’s legal representative.
To be clear and for the record, number 14 work
injury claim was heard, court reported and is
available for public opinion. With respect, it is
Claim Number 16-807292; date of injury, February
24, 2016. The work injury was bilateral sprained
hands and sprained wrists conducting a new 2016
CPR validation testing performance expectation

App.254a
at my Superior’s training center, required by my
Superiors, or not qualified to fly.
Respectfully and for the record, and referenced in
the court reported hearing for Claim Number 16807292, it is clearly noted by the doctor’s written
statement that I have had no history of sprained
hands or wrists. Your Honor, and with great
respect, it is important to note and to state clearly
on the record that I have never sprained my
hands nor my wrists in my life, until February 24,
2016.
Respectfully, on February 24, 2016, it was the first
time and a work injury of bilateral sprained
hands and wrists that happened at my Superior’s
training center. Respectfully, the work injury was
denied and disallowed.
Your Honor, and with respect, it is also important
to note and state clearly on the record that for
today’s staff hearing the other 13 previously
heard work injury claims have been whereby I
have communicated, to the best of my ability, a
safety and health concern regarding “chemical
substance air fresheners” and chemical substance
cleaning products used inside the aircraft cabin
environment. Respectfully, all 13 work injury
claims previously heard, have also been denied
and disallowed.
Your Honor, and with respect, I believe this is
about product liability, accountability and trans­
parency relating to environmental work injuries
from “chemical substance air fresheners” and
chemical substance cleaning products. Respect­
fully, I have communicated the facts from the

App.255a

material safety data sheets, which were subpoe­
naed December 4, 2015.
The Subpoena response is, respectfully, under work
injury number 11, reference Claim Number 15855426, dated January 7, 2016. The environmental
safety and health concern about the following
subpoenaed products were further communicated,
under oath, for transparency on January 30,
2018, in the public court reported staff hearing
under number 15, number 16 and number 17
work injuries, which are being heard here today.
Respectfully, the notice of hearing heard that day
was with respect to, and I quote “Subpoena,
records,” and was denied. Your Honor, and with
great respect, the facts from the material safety
data sheets on the aircraft cabin products were
also communicated in the last court reported dis­
trict hearing, regarding the five claims heard
today.
Respectfully, please know I believe the facts are
the facts, and they should matter in a case such
as this. With great respect to my superiors, the
fact is that that first aid procedures are not an
option in the aircraft cabin with the onboard
chemical substances products.
With respect, if travelers were able to follow the
procedures, I truly do not believe there would be
injury or illness in the aircraft cabin. This is why
I question, with respect, and wonder if the
chemical substances are classified information
ingredients and are in violation of federal law.
With great respect to my Superiors, today’s staff
hearing will mark the fifth court reported hearing

App.256a
to communicate with the best of my ability, a
safety and health concern regarding the commer­
cial aircraft cabin environment.
Respectfully, to be clear and for the record, the four
previous court reported hearings are available for
public opinion, held on the following dates: April
19, 2016, district hearing, Claim Number 16807292. May 31, 2016, staff hearing, Claim Num­
ber 16-807292. January 30, 2018, staff hearing
(subpoena, reports); Claim Numbers 15-859117,
15-863145 and 15-863147. April 20, 2018, district
hearing, Claim Numbers 15-859117; 15-863145;
15-863147; 16-816266 and 16-816267.
Respectfully, the five claims just mentioned are
being heard today at the staff hearing level,
because the district hearing for these claims were
denied and disallowed. With great respect to the
District Hearing Officer, the conclusion, as I
understand it from the record of proceedings,
states in part, and I quote, “The Hearing Officer
finds that Claimant has failed to provide sufficient
medical evidence that causally relates her hand
issues to inhalation of chemicals.”
Your Honor, and with respect, I’ll be providing for
you sufficient medical evidence from results of an
ambient exposure challenge test taken in the
doctor’s office. My hope and prayer is with our my
Heavenly Father, up in Heaven, who I believe is
looking down upon all of us and watching every
move we make, would want us to do the right
thing, which is to protect the people.
With respect, protect, it is our United States Con­
stitution to protect the people. Respectfully, not

App.257a
just for the civil rights of American citizens in the
United States, but for every right reason with
respect to people traveling.
Respectfully, protecting the rights of all the people
who travel, would mean the whole global air
traveling public. With respect, this for the sake of
safety and security of all people across the globe
traveling by air.
Respectfully, a well needed change for the Amer­
ican citizens’ civil rights, human rights, in-flight
crew member rights and the global air traveling
customers’ rights. Respectfully, I believe the people
have the right to know. Respectfully, the right to
know what the ingredients are to the “chemical
substance air fresheners” we are breathing.
With great respect, I believe our government is
not above the law. Respectfully, and as I under­
stand our government, all the people working at
the pleasure of our most honorable President of
the United States, take an oath to, first and fore­
most, protect the United States American citizens
from any and all harm.
And with respect, I believe that second, would be
to help constituents uphold the United States
Constitution to protect the people, especially
communicating a safety and health concern.
Respectfully, help is needed for the American
Citizen to do their job.
With respect to our staff hearing today, with work
injuries heard, the case for help is needed to
ensure a safe environment for the whole global
air traveling public. With respect, 100 percent

App.258a
transparency and 100 percent compliance with
federal law.
With respect, I believe that is not the case we
have here today. With respect, “chemical sub­
stance air freshener” ingredients are not trans­
parent. In fact, they are withheld, a trade secret,
and could be considered classified information.
Respectfully, I ask, why the secret? What is going
on that the global air traveling public is not
allowed to know?
Respectfully, I have reached out to our government
and have been sadly disappointed. With respect,
for years I have communicated the aircraft cabin
health and safety concern. Respectfully, it’s either
no response, or I am referred to another govern­
ment department. And then when I am grateful
to receive a response, it is not about making it
right; a change for the right reasons for all the
people who travel by air.
Respectfully, I wish the government would allow
for change in the air from our corporate world of
today, who I believe have the authority, and
approve of using trade secret ingredients and
accept the use of not applicable “chemical sub­
stance air fresheners” and chemical substance
cleaning product ingredients, not allowing the
public the right to know what we are breathing.
Respectfully, does this mean that the chemical sub­
stance ingredients are, in fact, classified infor­
mation? Respectfully, what would be the reason
and for who? Respectfully, I believe Mother Earth
is our global home. We need to become 100 per­
cent safe and 100 percent transparent, especially

App.259a

in the aircraft cabin environment, for the pure
and simple sake of global humanity.
Respectfully, as it is today, the global traveling
public may begin to wonder, why withhold the
ingredients? Respectfully, the global air traveling
public may begin to wonder if the ingredients are
withheld, are the ingredients “classified
information?”
Respectfully, the global traveling public may then
begin to wonder, why would that be? And respect­
fully, to whom is this benefitting, not benefitting;
harming, not harming; protecting and not
protecting? The global public, at best, may then
begin to wonder and want to have answers.
With respect, the answers to who is this benefitting
and protecting? With respect, is the protection
solely for who is behind the sources, methods,
ways, means for its purpose and use? Respect­
fully, might the global traveling public figure out
that using “chemical substance air fresheners”
with ingredients that appear to be classified infor­
mation, is not for the global traveling public, who
become unfairly subjected to its exposure.
Respectfully, where is the protection? Respectfully,
where is the official government document?
Respectfully, where is the Certificate of Compliance
that states the onboard aircraft cabin chemical
substance air fresheners and cleaning products
are, in fact, following the rule of law?
Your Honor, and with respect, no one has been
able to provide me the certificate of verification
with the rule of law to this matter. Respectfully,

App.260a
I believe the information should be readily
accessible for verification of compliance.
Your Honor, and with respect, a perfect example
of a respectful change for the global family of
people traveling by air would be to transfer from
the use of “chemical” fragrant substances avoiding
injury, illness to our very living and breathing
Mother Earth’s known to be healthier, safe and
transparent resources. Especially for this, parti­
cular and unique environment, the aircraft cabin.
Respectfully, air traveling customers and in-flight
crew members are miles up in the air traveling
like mini astronauts, if you will, and not on the
ground, as we are in the hearing room today. Your
Honor, and with respect, this change will be pre­
venting unnecessary injury and illness.
Respectfully, we are not just what we eat and drink
every day. We are also what we breathe every day.
With respect, we are a product of our environ­
ment. This respectful change is about the dignity,
respect, safety and security for the sake of
humanity, the people of the global air traveling
public’s healthcare.
But first, in effort to provide a better under­
standing of why this significant healthcare trans­
formation change is truly needed—from chemical
substances to Mother Earth’s healthy resources—
I would like to provide for you a summary,
timeline and review of my environmental work
injury claims, going back to the very beginning.
My hope and prayer is that by sharing, it will
make simple, common logic sense to you, to allow
for “the global air travelers’ rights to healthcare

App.261a
in the air.” However, please forgive me in advance
for not being politically correct.
With great respect, I began my wonderful liveli­
hood career as a Flight Attendant with my Super­
iors in 1998, and in great health. With respect,
about five years later, I was diagnosed with
rheumatoid arthritis, also known as RA.
Respectfully, I began treatment for inflammation
and swelling that I experienced with RA. Unfor­
tunately, my condition did not get better and so I
was trying too find another solution; another
treatment medication. Another medication avail­
able, as I understood it, would be giving myself a
shot of medication every two weeks for the rest of
my life. Respectfully, I needed to make a decision.
And with great respect to medicine, it was my
deciding moment to personally take the long road.
The long road of discovery between cause and
effect. Using the process of elimination to simply
try and figure out why and how this disease was
taking over my life.
Could this unhealthy takeover be all my fault?
Could I be contributing to this awful disease and
not even know it? As I have heard before in the
past, for one’s good health, one must drink lots of
water, eat right, diet and exercise.
So for the next nine years, from 2003 to 2012, I
began taking fruit and vegetable capsule supple­
ments, eating foods that were beneficial to my
blood type with lots of water and exercise. And
most important to my journey, I made a daily
habit of paying attention to my symptoms and
monitored my health condition regularly. I was

App.262a

making only baby step progress until one day, I
decided to do an air sample of where I was living
with an indoor/outdoor comparison.
With respect, the results were unhealthy. So with
great respect, in my pursuit for good health, I
moved out of where I was living. Respectfully,
after moving out, I noticed a very positive and ex­
citing difference in my health condition. I per­
sonally was beginning to see less inflammation
and swelling.
A question I found myself wondering, who would
ever think or believe that the air you breathe
could be helping or harming your health? With
great respect to my Superiors, I was so happy to
have some of my freedom back in my life
regarding my health; however, it was then, when
I would come to work fit for duty and find myself
boarding the aircraft, that my symptoms would
begin
again
and
become
substantially
aggravated.
Respectfully, when this happened, I would take the
time and assess my conditions of what I was brea­
thing and noticed the scent of the “chemical sub­
stance air freshener” in the aircraft cabin. With
respect, I then took the precautionary measures
to ensure for a safe and healthy aircraft cabin
environment for all onboard and began, in 2013,
removing the “chemical substance air freshener”
and placing it in a wax lined sick bag on the
aircraft to prevent the chemical from emitting in
the cabin.
Respectfully, it is my duty and responsibility to
ensure a safe and comfortable environment in the

App.263a
aircraft cabin. I truly believe I was doing the right
thing for the right reasons for all the people
onboard the aircraft, with respect to safety and
health, from breathing “chemical substance air
fresheners” in the aircraft cabin environment.
Your Honor, and for the record, my very own
health results confirmed this precautionary action
was the right thing to do. With respect, a fact to
note was that in 2013,1 was able to stay at work
simply by performing this precautionary safety
measure and made $16,442 more than in 2012.
With respect, and I believe to be most important,
was having good health. Having good health was
as simple as paying attention to the air I was
breathing. It was astonishing.
With respect, as I understand, our Occupational
Safety and Health administration [sic "Adminis­
tration”] communicates, we have a right to know.
Respectfully, the right to know what it is so we
can protect ourselves because we have a right to
work in a safe and healthy environment. Respect­
fully, with the protective measures I was taking
to ensure a safe and comfortable environment, I
was able to simply stay at work in a safer and
healthier environment and make a simple living.
This was a prayer answered from Heaven up above
after so many years. Thank you, Heavenly Father,
you are my everything. Respectfully, and unfor­
tunately, a Heavenly prayer answered only too
soon to be taken away from me. With great
respect to my superiors, the freedom to protect
my health in my work environment was taken
away in 2014.

App.264a

In 2014, a new module was required by all Flight
Attendants to acknowledge, or not qualified to fly.
With great respect to my Superiors, it was a
Hazard Communication Module, which included
the “chemical substance air freshener” used
inside the aircraft cabin.
With respect, this one time only Hazard Commu­
nication Module required to acknowledge, or not
qualified to fly, did allow me the opportunity to
communicate the safety and health concerns with
my superiors.
Respectfully, due to the federal law Statute 49 U.S.
Code 5134, [sic “Respectfully, due to the federal
law Statute 49 U.S. Code 5124”] stating hazards
are forbidden the aircraft, having a Hazard
Communication Module regarding products used
in the aircraft cabin was concerning.
Respectfully, I simply asked my Superiors, ‘What
are the alternate protective measures provided as
the first aid procedures communicated are not an
option on the material safety data sheets for the
aircraft cabin products?” The response of which I
received was, with respect, a mandatory meeting
to be held with my Senior In-flight Manager.
Respectfully, on March 6, 2014,1 was present for
a meeting with my superior, Senior In-flight
Manager, superior, Senior Manager of Human
Resources and an Association of Flight Attendant
Union representative. With great respect, I
shared with my superiors my safety and health
concerns up to and including the protective pre­
cautionary measures I personally was taking for
the health and safety duties at work, which was

App.265a
sealing the “chemical substance air freshener” in
a wax lined sick bag in the aircraft cabin.
Your Honor, when I respectfully utilized my supe­
riors Working Together guidelines, communicating
in the mandatory meeting with open, honest and
direct communication, it was at that moment my
superior Senior In-flight Manager spoke directly to
me and said I was not allowed to remove the air
freshener disc.
When I respectfully asked her how was I supposed
to protect my health her response was, “I don’t
know; you need to do your research. It needs to
pass by management and get approved by
corporate.” Respectfully, I became lost for words.
Your Honor, when I was a child growing up, I was
always taught to respect your elders and people
you work for because it is the right thing to do.
Your Honor, and with great respect, I would like
to take a moment to honor my father and mother.
Thank you, my most beloved Mother and Daddy.
You have and always will be an inspiration in my
life. Thank you for your constant guidance to do
good and for your endless love. I miss you, I love
you, and I will forever honor you both dearly.
With great respect, it was only by following my
superior’s instructions and directions, with no
protective measures given to me on March 6,
2014, that the sufficient credible medical evidence
provided in each and every individual work injury
claim, a total of 17, from 2014 to 2016, should
yield the permission for allowance.
With great respect for my superiors, I arrive to
work fit for duty. And while entering my work

App.266a
environment to do my job, I noticed my health
would begin to deteriorate. I would have no choice
but to then visit an onsite airport employee health
clinic, only to be sent home. Where I would go
directly to the emergency room, only to be seen by
the occupational medicine doctor, who would,
respectfully, release me back to work because I
was fit for duty.
Your Honor, and with respect, as a sidenote for
reference, in the district hearing on April 20,
2018, page 28, lines 17 through 21, I would just
like to repeat whereby the occupational medicine
doctor’s letter states in part, and I quote, “It is my
opinion, with a reasonable degree of medical
certainty, that Ms. Alessio suffered a substantial
aggravation of her rheumatoid arthritis when ex­
posed to the air freshener discs in the workplace.”
Your Honor, and with great respect, I believe this
notation made from the occupational medicine
doctor is considered sufficient medical evidence.
Respectfully, I believe the words substantial aggra­
vation [sic “Respectfully, I believe the words “sub­
stantial aggravation”] qualifies for sufficient
medical evidence.
Your Honor, and with great respect, the fact is my
superiors have removed the “Chemical substance
air freshener” discs off the aircraft. And grate­
fully, there have been no further work related
injuries from 2017 to date. Respectfully, I believe
this to be the burden of proof.
Your Honor, and with respect, due to the District
Hearing Officer’s conclusion requiring sufficient
medical evidence, I respectfully reached out again

App.267a

to my doctors. Respectfully, the same letter went
to all four doctors. Respectfully, my primary care
physician, PCP, at Summa Health; my rheuma­
tologist at Metro Health; my dermatologist and
my immunologist/allergist at University Hospital.
These doctors were aware, and in some cases,
provided me treatment from 2014 to 2016. Allow
me to quote my letter to the doctors in part.
Respectfully, both my PCP and rheumatologist
responded. My PCP letter and rheumatologist, all
four, are written the same. “May 7, 2018. This
letter comes to you with care, concern and kind­
ness. I have received a record of proceedings with
respect to workplace injury.
‘Respectfully, I’m reaching out for ‘sufficient med­
ical evidence’ for the Hearing Officer. Your respect­
ful response will be communicated at the next
hearing, respectfully court reported for trans­
parency. Respectfully, this is about healthcare in
the air. Your degree of medical certainty is very
important.
“With respect to common sense and logic, the air­
craft cabin environment is very unique in that the
global air traveling public is unable to remove
themselves from this environment due to the fact
that we are traveling by air.
‘Respectfully, I believe utilizing chemical substa­
nces in the aircraft cabin is a violation of Federal
Law 49 U.S.C. 5124, with respect to poisons. A
dictionary definition of poison: ‘A harmful sub­
stance that can cause harm or injury to people.’
“Respectfully, the government agencies have not
yet responded to my March 1, 2018, letter asking

App.268a

if using chemical substances to clean and air
freshen the aircraft cabin is safe for all onboard
to breathe, without harming our health. With
respect, the government agency and honorable
names are mentioned in the public court report
dated April 20, 2018, for claims 15-859117, 15863145, 15-863147, 16-816266, 16-816267. With
respect to the record of proceedings, I am reaching
out for sufficient medical evidence to communicate
at my hearing.
“Respectfully, I hope you will provide your medical
opinion. Respectfully, I would like to know your
opinion on the following: One, If you are brea­
thing chemical substances in the aircraft cabin
with no protective measures, is it entering your
bloodstream and nervous system, harming the
internal bodily system?
“Two, if you are breathing chemical substances in
the aircraft cabin with no protective measures,
are the substances, therefore, considered in the
air and therefore also landing on any exposed
skin to irritate?
“Three, if you touch anything that has been cleaned
or air freshened with the chemical substances in
the aircraft cabin, is that contact and can irritate
the skin? Four; as a medical professional, do you
believe aircraft cabin products should be made
available, 100 percent transparent and 100 per­
cent safe to protect the health and safety of all in­
flight [sic “Inflight Crew”] crew members and air
traveling customers? Thank you for your time
and hopeful response to this time sensitive
matter.”

App.269a
With respect, my PCP response, May 9, 2018, “I
received your letter of May 7, 2018, in which you
posed four questions regarding the use of un­
specified chemical substances in the airline
industry. I cannot answer those questions for you.”
With respect, my rheumatologist responded on
May 29, 2018, and I quote “I am in receipt of your
request for a medical opinion on the topic, ‘health­
care in the air’ dated May 7, 2018. As relayed to
you by my medical staff on May 14, 2018, your
request for medical opinion is best rendered by a
different medical specialist. Please consider seek­
ing an opinion from a physician specializing in
occupational medicine.”
Your Honor, with respect, a referral was made to
see a physician specializing in occupational
medicine. The letter dated July 24, 2018, was
respectfully submitted to the Ohio Industrial
Commission and reads in part, and I quote “Thank
you for contacting our office in regards to your
injury from 2015. Unfortunately, our office does
not take on any old injury claims.
‘We recommend that you follow up with the
physician of record that is listed on your claim.”
Your Honor, and with respect, my occupational
medicine physician of record for my work injury
claims is, with respect, no longer available.
Respectfully, I did not get a response from the
dermatologist, immunologist/allergist. With res­
pect, I reached out to the President and CEO of
University Hospital in hopes for a response.
Respectfully I received no response.

App.270a

Your Honor, and with respect to the Dermatology
Department at University Hospital, I believe that
sufficient medical evidence was provided at my
last hearing. Please reference the district hearing
court report dated April 20, 2018, page 22, lines
13 through 21. It is with respect to an e-mail
communicates that the manufacturer and fra­
grance vendors are unwilling to prepare a patch
test with the substance or component ingredients
because it would be unsafe.
Your Honor, and with respect, if a procedure could
not be done to the toughest entrance to the body,
our skin, why or how would it be okay to inhale
and breathe the withheld chemical substance,
component ingredients, into the most sensitive
entrance into the body, through our nose? With
respect, this is a “chemical substance air freshener”
allowed by my superiors for use inside the aircraft
cabin.
Your Honor, and with great respect, on June 2,
2014, I arrived at my immunologist/allergist
doctor’s office at University Hospital for an am­
bient exposure challenge test. Respectfully, my
superiors delivered the onboard aircraft cabin pro­
ducts via courier to the doctor’s office for the test.
Doctor’s expectation and doctor’ findings letter
from the test can be found under number 2, work
injury Claim Number 14-809315, respectfully
submitted by my superior’s legal representative
on June 5, 2014. Respectfully, with her cover
letter it states, and I quote, “Please submit these
documents to the state file.”

App.271a
Please allow me to read just a simple notation
from the doctor’s expectation letter dated May 23,
2014. The simple notation before the test by the
doctor states in part, and I quote, “One would ex­
pect to see redness, swelling, increased circum­
ference of the joints.”
Please allow me to read just a simple notation
from the doctor’s findings letter dated June 2,
2014. The simple notation after the test made by
the doctor states in part, and I quote, “The joint
circumference did increase 0.25 to 0.75.”
Respectfully, the doctor’s findings are amended
June 11, 2014, and has been respectfully submit­
ted to the Ohio Industrial Commission today from
me. I don’t know if it was prior to because I had a
different attorney with some of these earlier cases;
but please allow me to read a simple notation
from the amended letter. The simple notation
made by the doctor states in part, and I quote,
“There is a strong possibility that exposure to
United Airlines onboard products contributes to
Ms. Alessio’s arthritis exacerbations.”
Respectfully, please allow me to read a follow-up
notation made by my rheumatologist with respect
to the test. Respectfully, on July 15, 2014, my
rheumatologist states in part, and I quote,
“Objectively demonstrated joint swelling in MCP
and PIP joints of fingers on both hands.”
With the utmost respect to all of my doctors, I am
grateful for the care you have provided. You are
all sincerely amazing medical professionals to me
and I thank you. Your Honor, and with respect, a

App.272a

definition of rheumatoid arthritis is: “Inflamma­
tion of the joints.” A definition of the word poison:
“A substance that can cause harm or injury to
people.”
See something, say something. With great respect
to my superiors, the company, through the Safety
Management System, SMS, describes a hazard as
“a condition with the potential to cause harm.”
Respectfully, my superiors communicate the
responsibility and role for a Flight Attendant is to
report hazards for corrective action to create a
safe environment.
Respectfully, my superiors work on the ground and
not in the air. With great respect, and due to this
distinct fact, I have reached out and invited my
superiors to please come fly with me. Respectfully,
my superiors have not accepted my invitation to
come fly with me.
With respect, our Policies and Procedures Manual
further communicates Flight Attendants are
responsible to work safely and promptly report
any concerns up the leadership chain until
resolved.
With respect, my superiors also communicate in
our safety policy that the safety, welfare and
health of our employees and customers are very
important. With dignity and respect, we all share
in the responsibility of running a safe operation
and maintaining a safe and healthful workplace.
With respect, the introduction to my hearing here
today can be summarized and thoughtfully commu-

App.273a

nicated through my superiors’ Safety Manage­
ment System, SMS, that there is no value more
important than safety.
Your Honor, and with respect, I believe and trust
that there is no value more important than safety.
Therefore, with great respect to my superiors and
to this staff hearing today, I have respectfully
requested the certification and verification that
the use of the onboard aircraft cabin chemical
substance products are in 100 percent compliance
with the rule of law [sic “products are in fact 100
percent compliance with the rule of law”].
The rule of law I’m referring to is a federal law.
With respect, Federal Law 49 U.S. Code 5124.
Respectfully, this federal law is in regards to
forbidden hazardous materials allowed on the
aircraft. With respect, I believe this rule of law
was passed to protect the people from harm while
traveling by air.
Respectfully, I have reached out to the following,
requesting a response to the certification or
verification of being in compliance with the rule
of law. Number one, March 1, 2018, a respectful
letter went to five honorable leaders of our great
country: Attorney General; Federal Bureau of
Investigation; Environmental Protection Agency;
Department of Transportation; Health and Human
Services.
Your Honor, and with respect, I am sorry. With
respect, I have received no response from my
letter, which was respectfully submitted to the
Ohio Industrial Commission.

App.274a
Number two, June 26, 2018, a respectful e-mail
was sent to my superior Senior In-flight Man­
ager. Your Honor, and with respect, I am sorry. I
have received no response, no documents confirm­
ing certification or verification from a federal
government agency of being 100 percent in compli­
ance with the rule of law, from my superior Senior
In-flight Manager to provide for you.
Number three, June 26, 2018, a respectful letter
was faxed to my superior’s legal representative.
Your Honor, and with respect, I am sorry. With
respect, I have received no response, [sic “with
respect, I have received no response, no docu­
ments”] do documents confirming certification or
verification from a federal government agency
being 100 percent in compliance with the rule of
law from my superior’s legal representative to
provide to you.
Number four, July 10, 2018, a respectful e-mail
was sent to the Congresswoman in my zip code
area, reaching out for oversight. Respectfully
requesting confirmation of the certification and
verification to rule of law and the chemical sub­
stances used for the aircraft cabin.
On July 12, 2018, I followed up with my e-mail
and was referred to the transportation and health
divisions. Respectfully, I e-mailed both depart­
ments on July 12, 2018, and have respectfully
received no response to provide for you.
Your Honor, and with respect, I have received no
response, no documents of certification and verifica­
tion that, in fact, the onboard “chemical substance
air freshener” and chemical substance cleaning

App.275a
products used for the aircraft cabin are 100 per­
cent in compliance with federal law.
Your Honor and with great respect, is there a docu­
ment from the federal government? Respectfully,
if so, where can I find the document? Respect­
fully, this is about the safety and health of the
global air traveling public. Your Honor, and with
great respect, I believe it is important to also note
and communicate on the record as well, that as of
today, my Federal Court Case 5:17 CV 014265, is
still pending. [s7c “my Federal Court Case 5:17cv-01426, is still pending”]
Respectfully, to help with the level of concern this
has taken on, a lot can be found and is available
on the Internet for the world to read. A few ex­
amples to search for understanding are one,
Flight Attendant health study; and two, Flight
Attendant cancer.
Respectfully, I believe there is an answer to cancer.
One answer to cancer might possibly be, with the
utmost respect, I want to believe with my heart,
that the Almighty God looking down upon us all,
designed our bodies for good health. Respectfully,
I have been taught to take precautionary
protective measures with chemical substances.
Respectfully, chemical substance air fragrances
could be a factor harming our health. Just a
thought. Respectfully, could the “chemical sub­
stance air fresheners” and chemical substance
cleaning products used in the aircraft cabin be
violating the United States Constitution by not

App.276a

providing protective measures to chemical sub­
stances used in the aircraft cabin and therefore,
not protecting the people?
Respectfully, are air travelers being neglected and
ignored with respect to chemical substances in
the aircraft cabin? Respectfully, I believe before
we have a healthcare plan for people, we need a
healthcare transformation plan for Mother Earth.
She’s hurting across our global home. Respect­
fully, from the top down to the bottom up, from
the long chem trails across the sky to the many
toxic landfills.
A simple cure to bring our global home back to
good health is a global recycling system. A simple
color coded depositing system everyone in the
world can participate in to make our God-gifted,
beautiful world of ours a better, happier and
healthier place to live. Example: Blue for paper,
red for plastic, green for aluminum and steel and
yellow for glass, across the entire globe.
Your Honor, and with respect, we are a product of
our environment. If we don’t care for our global
home, what is that saying about our own health?
Let’s reset to recycle, protecting Mother Earth
with a healthcare system where all of us can
begin to feel better.
With respect, just think about this: Mother Earth
might just have less hot flashes. This may inter­
est those with the concern out there about global
warming. If plastic and aluminum materials that
hold in heat are in waste landfills, wouldn’t that
overheat Mother Earth’s surface level?

App.277a

With respect, instead of removing plastic straws
from businesses—
HEARING OFFICER: Ma’am, we’ve got to focus—
MS. ALESSIO: Have a—
HEARING OFFICER: Ma’am, stop.
MS. ALESSIO: —red—
HEARING OFFICER: Ma’am.
MS. ALESSIO: This is my opening statement, Your
Honor.
HEARING OFFICER: I understand, but we are not
talking about plastic and straws—
MS. ALESSIO: Okay, I won’t talk about that. I will
talk about—
HEARING OFFICER: —we’re talking about your
claims. You understand—
MS. ALESSIO: I understand and it is very relative—
HEARING OFFICER: Excuse me, I’m running the
show here. Your opening statement has been going
on for 55 minutes. You are getting into a lot of
stuff that has nothing to do with what is in front
of us. Focus on the issue.
MS. ALESSIO: I am. With all of my heart, I am. It was
just a thought. My prayer is that indoors, aircraft
cabin
onboard
“chemical
substance
air
fresheners” and cleaning products are made 100
percent transparent, 100 percent safe, with a
certificate of verification from the federal govern­
ment, in fact, stating 100 percent compliance with
federal law, 49 U.S. Code 5124.

App.278a
With great respect to our government, I truly
believe that they should not be above the law and
provide a certificate of compliance to the global
commercial airlines.
Respectfully, today it is an open secret. Respect­
fully, by that I mean, anyone can call the airline
industry and ask what it is they use to clean and
air freshen the aircraft cabin and do their very
own opposition research. With respect, what is
the right thing to do for the global air traveling
public who doesn’t know to know?
With respect, I sincerely believe to ensure a safe
and comfortable environment, onboard aircraft
cabin products should become 100 percent trans­
parent, safe and in compliance with federal law.
In conclusion to my opening statement regarding
my work injury claims, Your Honor, and with the
utmost respect to my superiors, I believe the five
following forms of evidence provide the burden of
proof for which my environmental work injuries
should be granted for allowance.
One, rule of law 49 U.S. Code 5124 a federal law
which forbids hazardous materials onboard the
aircraft. Number two, with respect, my superiors
have only a one time “Hazard Communication
Module” required by Flight Attendants to ack­
nowledge, or not qualified to fly. With respect to
the “chemical substance air freshener,” providing no
protective measures.
Number three, doctor’s result to the onboard
chemical substance products provide sufficient
medical evidence. Number four, the “chemical
substance air freshener” given direction and

App.279a

instructions not to remove by my superiors, 17
work injury claims from 2014 to 2016, a two year
period; I had 17 work injuries.
With respect, the product was completely removed
across the mainline fleet from the aircraft cabin.
No work injuries have taken place from 2017 to
date. Number five, with respect to federal law, no
documents have been submitted stating from the
federal government certification or verification
that the onboard chemical substance products
used in the aircraft cabin are 100 percent in
compliance with 49 U.S. Code 5124.
Your Honor, in closing with my opening statement,
I believe there is a true and sincere need for
change. With respect, change for a more healthful
workplace, travel environment in the aircraft
cabin. With respect to my superiors, I will con­
tinue to pray for a chemical free aircraft cabin
environment with products made 100 percent
transparent, 100 percent safe and 100 percent in
compliance with federal law. Thank you for your
time and for your consideration. Sincerely, Tina.
HEARING OFFICER: Ms. Everett, do you want to say
something?
MS. EVERETT: I have one question for Ms. Alessio.
Are you still flying?
MS. ALESSIO: Yes, ma’am.
HEARING OFFICER: You say they don’t have the
products in the planes anymore?
MS. ALESSIO: Chemical substance product number
one has been removed.

App.280a

HEARING OFFICER: You are not having any issues
now; am I correct?
MS. ALESSIO: Not to the level and degree of which I
had.
HEARING OFFICER: Go ahead, Ms. Everett.
MS. EVERETT: Sure. There was testimony at the
DHO hearing that Ms. Alessio continues to work
and apparently also today, she continues to work
and fly in the aircraft. There was also testimony
at the DHO that she doesn’t touch any of these
products whether they are spray products or
cleaning products or—
HEARING OFFICER: Air fresheners and what have
you—
MS. EVERETT: She doesn’t physically touch any of
them and that testimony, I think, has been con­
sistent throughout all of her claims.
HEARING OFFICER: I say that.
MS. EVERETT: So the employer’s position is that
there is no evidence that the products used to
clean and freshen the air on the aircraft are
hazardous. You have the MSDS sheets, they were
submitted in response to the subpoena. Although,
Ms. Alessio has testified extensively that she
believes that they are hazardous, she is not really
qualified to render that sort of testimony and there
is no evidence that the cleaning products are
hazardous.
There is also no medical evidence on file that gives
the opinion of medical causation. As I understand
it, Ms. Alessio’s theory of her case is that smelling

App.281a

the products, not touching them, either causes a
rash or some sort of aggravation of her pre­
existing disease is not compensable, even if there
is medical evidence that provides a causal
relationship.
HEARING OFFICER: That would be for an occupa­
tional disease. You can have an injury for sub­
stantial aggravation of a preexisting disease.
MS. EVERETT: Right, if you have medical evidence.
HEARING OFFICER: That is Brody versus Mihm,
that is over a period of time.
MS. EVERETT: If there was medical evidence to
support that.
HEARING OFFICER: Right.
MS. EVERETT: Which there is not. Ms. Alessio spoke
of some of the information from Dr. Eli Silver,
because she did have an ambient air testing per­
formed by Dr. Silver in June of 2014. And there
are several reports from Dr. Silver on file. In the
opinion section of his report dated June 2, 2014,
he notes that she exhibited subjective pain and
limitation of movement in her joints affected by
her rheumatoid arthritis.
However, he concludes, “Overall I was unable to
confirm exacerbation of the arthritis with a 100
percent certainty. Moreover, as the science stands
today, there is no plausible mechanism to directly
link the exposure to fragrance and the auto­
immunity of rheumatoid arthritis.
You know, that report was considered by many
Hearing Officers in the previous claims as not

App.282a

being sufficient to allow a claim. Really there is
no other medical evidence on file that really even
addresses the issue.
She has filed 17 claims alleging 17 different dates
of injury. In fact, today she has not specifically
articulated the nature of her injuries over the five
claims that you are to address today, or the
medical evidence that supports each one of them
individually, or as a group, other than evidence
from Dr. Silver, which took place before any of
those incidents took place.
It is the employer’s position that there is no
evidence that the cleaning products present any
hazard, or are hazardous to Ms. Alessio or anyone
else. All the claims should remain denied and
that the decision of the District Hearing Officer
should be affirmed; and that no new medical
evidence has been submitted since the last
hearing that would support allowance of any of
these claims.
HEARING OFFICER: These medical that you sub­
mitted today, these are in the earlier claims from
2014?
MS. EVERETT: Well, not the letter from Ms. Fudge,
but the June 11, 2014 letter from Dr. Eli Silver
was reviewed in previous claims. Those are all on
file.
HEARING OFFICER: I’m looking at what I have here
and what she filed today. I think I just have—
MS. EVERETT: You know, the new letters 2018,
where the doctors indicate they can’t really

App.283a

provide an opinion, those are ne but they don’t
really support allowance.
HEARING OFFICER: You are talking the May 9th?
MS. EVERETT: Yes. And then the June 11, 2014, letter
from Dr. Silver says it is not possible to establish
the causation with 100 percent certainty; but he
says there is a strong possibility that exposure to
the products contributes to arthritis exacerba­
tion.
A possibility is not enough; he needs to indicate a
medical probability. And this report of June 11,
2014, was already considered by the Industrial
Commission in orders with regard to the prior
claims and found to be insufficient.
HEARING OFFICER: Is that all, Ms. Everett?
MS. EVERETT: That is all.
HEARING OFFICER: Ma’am, I hope I’m pronouncing
your last name right; is it Alessio?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Your response to Ms. Everett?
MS. ALESSIO: Yes, sir. Your Honor, I would like to
make a mention with her response to how can
smelling cause inflammation to the joints? And
two reasons I have to kind of give you that. I
would love for you to think about and provide
your opinion with your conclusion.
The ambient exposure challenge test was just going
into the room where these chemical air fresheners
were in and breathing; that is all you did. And he
notes that the joint circumference did increase in
his report.

App.284a

And the second reason would be a question you
would want to ask yourself: Why do we wear
protective measures when we are dealing with
chemicals? Because of the reason that would
harm us. It is going in the body with no way out.
I say that because when you eat and drink, you
have an entrance and exit; but what you are brea­
thing goes into your bloodstream and into your
nervous system. There is no way to get it out.
Your body is saying, “No, I don’t like it.” That is
the way your body is telling you—at least, it was
me. You know it; you feel it. More so you feel it
than anyone else, because you could go to the
doctor and he couldn’t tell you if you had a
headache; only you know. But for the visual and
the measurements that were taken, factually
stating that the joint measurement did increase.
I can’t make my joints increase.
That is because I’m inhaling the chemical sub­
stance, which is an air freshener of all things,
which doesn’t make sense to me, but that is why
my body would do that. And you know, as far as
my medical, for every claim here today, it was
communicated in specifics in the previous court
reports and I would love for you to refer back to
those.
HEARING OFFICER: You are talking about the trans­
cript from the prior hearings? I have that here.
MS. ALESSIO: You have two public court reports?
HEARING OFFICER: It makes my life easier having
a hard copy versus trying to read it on the
computer.

App.285a

MS. ALESSIO: Also in response, my superiors’ legal
representative stated that my superiors state
that the onboard products are not hazardous. I
did provide for you the Irregular Operations
Report that I submitted this year. This is actually
this year that I wrote it.
It is Irregular Operations Report 95644; it was
created on June 24, 2018, so it was recent. At the
time, I was asking for the certification and
verification to the rule of law that, in fact, my
superiors were in compliance. That is why I have
the Federal Court case, because the EEOC, Equal
Employment Opportunity Commission, couldn’t
say whether or not my superiors were in
compliance with the statute.
That is why my case is at the Federal Court, to
get that answer; are they or are they not? The
best way I know how. With great respect, I’m not
an attorney. I, you know, respect all attorneys for
the work that they do. And I’m not a doctor, and
I respect all the work that doctors do.
I’m a simple, simple person that is trying to go to
work and not have to worry about my health, as
well as not worrying about everybody else’s,
because they are breathing the same air I’m brea­
thing.
With respect, the Irregular Operation Report—may
I quote it for the moment here, the Irregular
Operation Report, sir?
HEARING OFFICER: Yeah.
MS. ALESSIO: So I had written, “With respect to
United Eco-Skies recycling paper, plastics and

App.286a

aluminum onboard the aircraft, protecting the
environment; is there a way we can protect our
health and use eco-friendly, non-toxic chemicalfree products?
“Respectfully, June is National Safety Month; see
something, say something. Respectfully, this is
about the safety of our customers’ health while
flying. Respectfully, can we be more transparent
with what we are breathing, the chemical sub­
stances?
“Respectfully, if not; may I please ask, why not?
Hope to hear from you. With respect to my in­
flight management, [sic “Inflight Management”]
I would love for you to come fly with me. Sincerely,
Tina.” Then it says, “Do you have suggested
resolution to the event?” [sic “Do you have a
suggested resolution to the event?”] on the report.
I wrote, “Respectfully, 100 percent safe and trans­
parent cleaning and air freshening products for
the aircraft cabin.”
This particular IOR, I received a response, and I
would like to read it and quote it. Under action
item Response, [sic “Action Item Response”] it
states, and I quote, “Thank you for your concern.
United strives to provide a safe and clean working
environment for all coworkers. All chemicals are
vetted by our engineering team, in-flight safety
and corporate safety teams, to ensure this is
maintained. All chemicals authorized for use
onboard United aircraft have been vetted through
this process.”
Your Honor, and with great respect, I guess the
most troubling and most concern when I read

App.287a

this, there is no federal law certification, is there?
That, in fact, my superiors are not above the law
and following 49 U.S. Code 5124. My hope and
prayer is that this is the case.
I don’t know if there is a document that says they
are compliant. Right here, when I read the
Irregular Operation Report, it leaves it wide open
for anyone to think that my superiors are
deciding what we are breathing. And with great
respect, I thought chemical substances—for ex­
ample, if somebody opens up nail polish on the
aircraft; you can’t do that. You can’t paint your
nails on an aircraft.
Well, what is the difference between that and
spraying a chemical through the cabin that is an
air freshener, or previously, with these hearings
present today that we are talking about, having
one that is emitting 24/7 on the aircraft? It didn’t
make sense then, it doesn’t now.
They removed the most offending, but there are
still chemicals that need to be certified by the
federal government, with great respect, and I just
don’t think there is one, a document. I don’t even
know what it would look like, or what it would
say. It needs to—if my superiors are the only ones
deciding what we are breathing onboard the
aircraft cabin, I don’t know if the federal govern­
ment knows if they are following federal law. I
would think they would want to look at that.
I’m trying to put everything together and have it
make sense as to why. They are not in this work
environment; they work on the ground, not in the
air. Respectfully, I don’t know why they didn’t

App.288a
want to [sic “why they don’t want to”] shadow me
and watch me do my job, which I love with all of
my heart. People are my passion; I love people.
You knew they are everything. We should love,
you know the fact that we are in this environment
that—we should be transparent with what we are
breathing; it shouldn’t be a secret. And at this
time today, it is.
I don’t know why that in my Equal Employment
Opportunity Commission, they redacted 12 pages
from my Freedom of Information Act adminis­
trative file. I communicated that in one of my court
reports; that is on the record for public opinion.
They mention something about their concern for
public scrutiny. It should be safe; it should be
transparent; it should be open: We shouldn’t have
any secrets, especially at 30,000 feet.
I don’t know; it just makes sense to me. I’m hoping
it makes sense to you when you review the infor­
mation. Like I said, I’m just a simple person
making a simple living. But I do have to say that
I know I did not take an oath for my job as a
Flight Attendant to protect the people. And that
is a U.S. Constitution, you know, obligation that
when you become part of the government world
where you are working at the pleasure of the Pre­
sident’s, that you do take an oath to protect the
people because that is our U.S. Constitution.
I’m just trying to be morally and ethically, you
know, like my conscience, you know, just doesn’t
sit right knowing this is going on. I can’t stop. I
have to go the full due process, wherever it takes
me and however long it takes me. Because I don’t
want customers and crew members to come up to

App.289a

me and say, “Why didn’t you do better, Tina? Why
did you just let go?” I can’t let go.
I need verification and certification that these
chemical substances, of which some ingredients
are withheld, which doesn’t make sense, are in
compliance with federal law. It just seems fair,
right and just. And my duty as a Flight Attendant,
my responsibility, Your Honor, and my duty as a
Flight Attendant is to ensure a safe and comfort­
able environment.
I can’t turn around and walk away. I don’t want
to either; I love my job. But we shouldn’t have to
go to work and worry about our health. I hope you
can see it, not only through my eyes, but through
the feet that I—and shoes that I walk in and what
I have experienced going through the last—well,
since 2014, years of my life. I thank you, Your
Honor, for listening.
HEARING OFFICER: I’m going to ask you a few ques­
tions because we have five claims here today.
They didn’t print out in order, so I made my own
little cheat sheet here. You are alleging on Novem­
ber 27, 2015, and the following day, November 28,
2015; is that correct?
MS. ALESSIO: That is correct.
HEARING OFFICER: Did you receive any treatment
for the November 27th incident, or was it all done
on the 28th?
MS. ALESSIO: It was all on the 28th, I believe. I
believe with my heart and I can look through if
you like.

App.290a

HEARING OFFICER: Do you recall seeing anything,
Ms. Everett, on the 27th?
MS. EVERETT: No.
MS. ALESSIO: I would have it in here. This is it and
it is dated on the 28 in my 27th file. The clinic at
Houston, I did not go through the Houston clinic
or anything I did not see a clinic, no. It was only
on the 28th. I addressed both because I have pic­
tures of both.
HEARING OFFICER: Okay. That is what I wanted to
verify. Let me just put this in my notes.
MS. ALESSIO: Here, you can see—I know it is a court
report, but still I am showing you the pictures.
This was on the 27th and I did not go to the clinic.
This was on the 28th and I did. I covered both
because it happened on the 27th; I didn’t want to
ignore that date. And I have the picture to show
the physician there at the clinic in Houston.
HEARING OFFICER: Like I said, I’m looking at my
notes here trying to verify. So we have today’s; 1127, 11-28, 12-20, these are all 2015. And the 2-7
and 2-10 are 2016 claims.
MS. ALESSIO: Correct.
HEARING OFFICER: Are there any other claims out
there?
MS. ALESSIO: There are only five that we are hearing
today, so you just mentioned three in T5—
HEARING OFFICER: There were some earlier ones
disallowed. Are there any others floating around
out there right now?
MS. EVERETT: Not currently.

App.291a

MS. ALESSIO: You mean that still have an oppor­
tunity to be heard?
HEARING OFFICER: Any claims that have been filed
that have not been processed yet.
MS. ALESSIO: There was one filed. It is Claim Num­
ber 16-113538, date of injury, 11-16-2016.
HEARING OFFICER: What was that again?
MS. ALESSIO: Yes, Your Honor, 16-113538.
HEARING OFFICER: All I needed to hear were the
first numbers. I’m looking at my fist here so that—
MS. ALESSIO: It is not here because it is way out
there. I, respectfully, for these five claims, dis­
missed without prejudice to be heard at a later
date.
HEARING OFFICER: Right.
MS. ALESSIO: When we get later to that point in
time, my hope and prayer is this will be resolved.
HEARING OFFICER: That is just what I wanted—so
there is another one out there and there is a
potential for that coming up for hearing. Right
now, we have the five; the others have been dis­
allowed, I believe. I have five as reference claims.
Am I correct? One 2010 claim and four 2014
claims.
MS. ALESSIO: Yes. The one in 2010 was to an aerosol
spray can.
HEARING OFFICER: Right. I was looking, trying to
go through these not having a physical file.
MS. ALESSIO: This is my best friend (indicating).

App.292a

HEARING OFFICER: Each one of these represents a
separate file, separate claim, it makes my life
easier. The transcript was the same for all the
files, so I printed that out. I have a lot of stuff that
you relied upon broken down by claim number
and date of injury. I have your application in each
file; I have a copy of the prior order. Everything
else in the files are essentially the same.
MS. ALESSIO: Yes.
HEARING OFFICER: I’m trying to think if I have any
other questions. It is Monday morning, so just
bear with me.
MS. ALESSIO: No problem. Correct in that all the
medical I was able to communicate, that I had
submitted to the Industrial Commission is in the
court reports—
HEARING OFFICER: Hang on a second. I need to—
what I want to do is get a Post-It note out. What
you filed here today, I want to make a note that
they are going to have to image this into each file,
since each file represents—
MS. ALESSIO: Yes, sir. I have that, it will be submit­
ted today, after the hearing. I put the claim num­
bers on them, the files.
HEARING OFFICER: This is actually going to have
to be imaged. The person that is going to do it, I
want them to know to image it in each file. What
will happen is they will put it in one and I want
all the files to have everything in them they are
supposed to have.
I’m going to look at each file individually. I’m kind
of old school; I start at the beginning. I’ll start at

App.293a

11-27 and progressively go forward. I have the
others here. I looked at a reference file. I have a
lot of work ahead of me.
MS. ALESSIO: Well, I appreciate every effort to see
righteousness.
HEARING OFFICER: I apologize for being rough on
you earlier, ma’am; but I had to a get you to stick
to the issue today. I’m not a bad guy or meany. I
have to do that; I have done it many, many times,
so you are not the first one.
MS. ALESSIO: It is okay; I understand.
HEARING OFFICER: I hope you understand that I
have to let things kind of focus on what we are
doing at the hearing and you started getting off
into recycling and what have you that was out of
the realm of what we are doing.
MS. ALESSIO: It was due to the fact, with great
respect, my superiors recycle. So it really, I
think—
HEARING OFFICER: I know, but it was kind of
getting out there and I had to bring you back in.
Again, I’m sorry but I had to for everyone’s
benefit. Anything else?
MS. ALESSIO: I do have a two minute closing state­
ment.
HEARING OFFICER: I’ll time you.
MS. ALESSIO: With great respect, Your Honor, I would
like to recite the American’s Creed. It is by
William Tyler Page, written in 1917 accepted by
the United States House of Representatives on
April 3, 1918.

App.294a
“I believe in the United States of America as a
government of the people, by the people, for the
people; whose just powers are derived from the
consent of the governed, a democracy in a repub­
lic, a sovereign Nation of many sovereign States;
[szb “a sovereign Nation of many sovereign States”]
a perfect union, one and inseparable; established
upon those principles of freedom, equality, justice
and humanity for which American patriots sacri­
ficed their lives and fortunes.
“I therefore believe it is my duty to my county [sic
“country”] to love it, to support its Constitution,
to obey its laws, to respect its flag, and to defend
it against all enemies.”
And With great respect, Your Honor, my closing
statement. With great respect I love United Air­
lines and my Flight Attendant Career. With great
respect, I love the global air traveling public, [sic
missing “you are so very special to me”], you are
family. With great respect, I love and believe in
the United States of America.
With great respect, I love, believe and trust in
God, the Father Almighty, creator of Heaven and
earth. With great respect, I believe in faith, hope
and love. With great respect, I believe in the U.S.
Constitution to protect the people.
With great respect, I believe with the dignity and
respect the global air traveling public deserves,
that pure and simple, safe and transparent
aircraft cabin air quality products for a more
pleasant flying experience across America and
around the world will one day prevail.

App.295a

With respect to my opening and closing statements
I will be respectfully submitting my complete
written report to the Ohio Industrial Commission
to provide insight, clarity and understanding for a
fair, right and just hearing. Sincerely, Tina.
Thank you Honor.
MS. EVERETT: Nothing further.
HEARING OFFICER: No statement?
MS. EVERETT: No, sir.
HEARING OFFICER: Let me do this: I’m going to take
the matters under advisement. I will consider
everything that was said here today and look at
the evidence on file, plus what you’ve submitted.
Everyone should get a copy of my decision in a
week or so.
(Thereupon, the proceedings were
concluded at 10:24 o’clock a.m.)

App.296a

Chapter Three
Conclusion
In Conclusion:
Previously In “America, The Jury”, Reference Claim
“Heard With” Claim #16-807292 Regarding Aircraft
Cabin Air-Quality Were Denied And Disallowed.
Aircraft Cabin Air-Quality Claims Heard
Denied And Disallowed (Not Court Reported)
From 2010 to 2015
2010 — One
2014 — Five
2015 — Seven
1. Claim: Aircraft Cabin Air-Quality
With. Respect, Record Of Proceedings Mailed
8/3/2018, States Claim Heard At The Staff Level,
Is Denied And Disallowed.
With Respect, On 8/8/2018,1 Appealed The Staff
Level Decision, And Respectfully Requested To
Be Heard At The Commission Level.
With Respect, Record Of Proceedings Mailed 8/22/
2018, Communicates 2 Staff Hearing Officers
Reviewed Appeal On Behalf Of The Commission
And Concurred With The Decision Of Appeal Be
Refused.
With Respect, Request for Reconsideration to be
heard at the Commission Level was filed on 8/23/
2018, and was once again denied, and mailed on
10/17/2018.

App.297a
Respectfully Submitted #15-859117, #15-863145,
#15-863147, #16-816267, #16-816266

Before

App.298a

During

App.299a

CHAPTER FOUR
The Question
With great respect, one question:
With the utmost respect to “air-traveler’s “health
AND SAFETY ~
DO YOU BELIEVE PRODUCTS USED TO CLEAN AND AIRFRESHEN THE AIRCRAFT CABIN SHOULD BE TRANSPARENT,
NO SECRETS, WITH COMPLETE LIST OF INGREDIENTS MADE
AVAILABLE, FOR A BETTER AIR-QUALITY ENVIRONMENT?

App.300a

CHAPTER FIVE
The Verdict

America., the Jury:
Your Verdict Is in...
When You Respectfully Contact:
United States ofAmerica
Airline Industry, and Inquire.

With Great Respect, That Is If You
Believe You Have the Right to Know...

App.301a

AMERICA, THE JURY
SECOND SEQUEL

With Great Respect, This Has Been a
True Life Experience

App.302a

CHAPTER ONE
DISTRICT HEARING — COURT REPORT
(FEBRUARY 7, 2019)1
BEFORE THE
INDUSTRIAL COMMISSION OF OHIO
CHRISTINA ALESSIO,
Claimant,
v.
UNITED AIRLINES, INC.,
Employer.
Claim No. 16-113538
BE IT REMEMBERED, that upon the hearing of
the above-entitled matter, held at the Cleveland
Industrial Commission, 615 West Superior Avenue,
5th Floor, Room 3, Cleveland, Ohio, before the District
Hearing Officer William Heine, Presiding, and commen­
cing on Thursday, the 7th day of February, 2019, at
9:00 o’clock a.m., at which time the following proceed­
ings were had.
APPEARANCES:
On Behalf of the Claimant:
(Pro Se) Christina Alessio
1 Errata in the original transcript have been noted in the body of
the text.

App.303a

(redacted per the Claimant’s request.)
On Behalf of the Employer:

VORYS, SATER, SEYMOUR AND PEASE, LLP
By: Margaret D. Everett, Attorney at Law
200 Public Square
Suite 1400
Cleveland, Ohio 44114
216/479-6102
Mdeverett@vorys.com
HEARING OFFICER: All right. Everybody ready?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: All right. Real good.
Okay. I will just do some introductory things, and
then we will get started.
We are here on Claim #16-113538. The Claimant’s
name is Christina Alessio. The Employer is United
Airlines, Incorporated.
Present are the Claimant, Ms. Alessio. She has a
court reporter present, as well.
Off the record for a second.
(Thereupon, a discussion was held off the record.)
HEARING OFFICER: Okay. Present are the Claimant,
Ms. Alessio. She has a court reporter present, as
well. Attorney Everett is here on behalf of United
Airlines. And the Hearing Officer is William Heine.
We are here today on the application filed by the
Claimant asking that — asking for a determination
regarding compensability of her claim.

App.304a

I will state, before we go further, that with the
court reporter present, I just ask everybody to
speak clearly so the court reporter can pick up
what we are all saying. The court reporter cannot
pick up nods of the head or hand gestures.
Before we proceed further, Ms. Alessio, I assume
you are going to testify today; is that correct?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Okay. So I would ask you to face
the court reporter. Raise your right hand. And
she will swear you in.
CHRISTINA ALESSIO of lawful age, the Claimant
herein, having been first duly sworn, as hereinafter
testified and said as follows:
HEARING OFFICER: Okay. Thank you. Also, the — I
just have to state the obvious. I see you do not
have an attorney today. And I see you have filed
applications before, so you are a little bit familiar
with this system.
Is it your intent to go forward without an attorney
today?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Okay. Very good.
Okay. Just so you know, you have a right to have
one. You can have one, if you want to. You don’t
have to have one. Thank you.
So you are in agreement, you are okay to go
forward?
MS. ALESSIO: Yes, sir.

App.305a

HEARING OFFICER: Okay. Very good. Okay. You
have already met, I think, Ms. Everett?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: So why don’t we proceed? Why
don’t you explain your application, and what you
would like to accomplish today.
MS. ALESSIO: I have a procedural issue, Your Honor.
I would like to confirm with you the ability for
more time to submit my transcript, due to my work
schedule.
HEARING OFFICER: I don’t really have control over
that. The — you know, I — your — I am confused
on what you are asking. You want—
MS. ALESSIO: A week from today is enough time for
me to submit my transcript of today’s hearing.
HEARING OFFICER: Okay. All right. Do you have
any problem with—
MS. EVERETT: No.
HEARING OFFICER: Okay. Well, I don’t — if the
Employer is not going to object, a self-insured
Employer, I don’t see any problem. And it is on
the record now that she has no objection.
And, quite frankly, I have never — I generally do
not get involved with the filing of the transcript,
because it is after my hearing. And then I lose any
authority over the claim, as a District Hearing
Officer. So I have never — I have never heard of
anybody on an allowance issue not being able to
file a transcript.

App.306a

So the Employer is not objecting, so I don’t see
any problem with you filing the objection, as long
as it is within a reasonable amount of time.
I assuming that no matter what I do here, this
might get appealed. There is the likelihood of an
appeal, and then another hearing, so you just want
to make sure you get it filed before the next
hearing.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: That is basically what you are
doing, is preserving the record.
MS. ALESSIO: Thank you.
HEARING OFFICER: I will be taking notes.
MS. ALESSIO: Thank you.
HEARING OFFICER: And just so you know, I will be
issuing an order. I am not going to wait for the
transcript. I will be taking notes today, listening
to the testimony and to the arguments, and I
will — I will get an order from there.
Also, Court Reporter, if — since there is three of us,
and we are all going to be talking probably in a
summary fashion, if you need us to slow down at
any point in time, just let us know.
THE REPORTER: Thank you.
HEARING OFFICER: Okay.
MS. ALESSIO: Your Honor, I have an opening state­
ment.
HEARING OFFICER: Yes.

App.307a

(Thereupon, the following Opening Statement
was read by Ms. Alessio as follows:)
MS. ALESSIO: “I would like to begin my Opening
Statement by acknowledging the presence of our
Great American Flag in our hearing room today,
by standing with my right hand over my heart for
the love of our Country, and gratefully recite:
“The Pledge of Allegiance”. Please, feel welcome
to join.”
I pledge allegiance to the Flag of the United States
of America, and to the Republic for which it
stands, one Nation under God, indivisible, with
liberty and justice for all.
Thank you, Your Honor.
HEARING OFFICER: You’re welcome.
MS. ALESSIO: “With respect, I would also like to take
this opportunity to thank the District Hearing
Officer, Mr. William Heine, my Employer’s Legal
Representative, Ms. Margaret Everett, and today’s
hearing Court Reporter, Jerri Wheat. Thank you
all for your time today.
“My Closing Statement will take less than two
minutes. Therefore, my Opening Statement will
continue.
‘TOUR HONOR and with great respect, today’s
District Hearing is about Life, Liberty and the
pursuit for Righteousness at 30,000 feet.
‘TOUR HONOR and with great respect, today’s
District Hearing is to demonstrate why Chemical
Substance Products used to clean and air-freshen
the Aircraft Cabin should be non-toxic, chemical-

App.308a

free, 100% safe, 100% transparent, no secrets,
with complete list of ingredients made available,
for a safe and healthier air-quality environment
for all Inflight Customers and Inflight Crew
Members traveling at 30,000 feet.
‘TOUR HONOR, with great respect to my Employ­
er, whom I will refer to as my “Superiors” in
today’s hearing, have always been welcome to my
hearings as with great respect this is about situ­
ational awareness and communication regarding
the Aircraft Cabin Environment to avoid any and
all injury/illness with respect to Health, Welfare,
Safety and Security, for First Responder Inflight
Crew Members, like myself, and our most very
valuable and precious Global Air-Traveling
Customers.
“With great respect to my “Superiors”, we are
taught that Safety is Top Priority. Respectfully, I
am here today to demonstrate why using Chemical
Substance Products in the Aircraft Cabin is
unsafe and harmful.
‘TOUR HONOR, to be clear and for the record,
today’s Claim #16-113538, will mark my 20th work
injury communicated to the Ohio Industrial Com­
mission, which under oath, I still believe all 20
work injury claims have merit for allowance.
“In summary, on June 29, 2010, almost 9 years
ago, I had my 1st hearing. It was my first District
Hearing due to work injury from Chemical
Substance Products used inside the Aircraft Cabin.
Respectfully, I represented myself that day and
communicated my illness due to a Chemical Sub­
stance aerosol spray air-freshener approved by

App.309a
my “Superiors” to air-freshen the Aircraft Cabin
used by ground personnel, respectfully. Claim was
disallowed, however, product was removed.
“YOUR HONOR and with great respect, it is
important to note for the record that the year
2014 was the first year all Flight Attendants were
required to acknowledge a Hazard Communication
Module or not qualified to fly. Respectfully, I
believe this was due to the fact that in March of
2014, Flight Attendants were finally given the
right to be protected under OSHA, the Occupational
Safety and Health Administration. OSHA stan­
dards communicate a right to work in a safe and
healthy environment.
“Just when I had high hopes and believed the Air­
craft Cabin was going to be reviewed for its air
quality standards of using Chemical Substance
Products in the Flight Attendant’s work environ­
ment, it was sadly just the opposite. From 2014 to
2016, I had 19 work injuries. 18 were all due to
over exposure of the Chemical Substance Products
approved by my “Superiors” used inside the Air­
craft Cabin.
“And then there was the 1 work injury in 2016
that was a new requirement by my “Superiors”.
With respect, that work injury was due to a new
CPR Validation Testing Performance Expectation:
Claim #16-807292, which was Court Reported and
forever available for Public Opinion.
“In summary, 5 work injuries in 2014, 10 work
injuries in 2015 and 4 work injuries in 2016. All
19 work injuries taking place from 2014 to 2016,

App.310a

were requested by my “Superiors” Legal Repre­
sentative to be “heard with”, due to the fact that
the same body part was injured, even though it
was a different injury condition. The 19 work
injuries in the course of 2 years were to both my
hands and wrists. All claims have been denied
and disallowed.
“Respectfully for today, the NOTICE OF HEAR­
ING letter for Claim #16-113538, states in part
and I quote: “YOU ARE URGED TO BE PRES­
ENT AND TO INTRODUCE ALL TESTIMONY
AND EVIDENCE PERTINENT TO YOUR POSI­
TION ON THIS MATTER.”
‘YOUR HONOR and with great respect, I must
introduce to you new evidence pertinent to my
position on this matter with my Claim #16-113538
and the use of Chemical Substance Products used
in the Aircraft Cabin.
“On February 4, 2019, I respectfully submitted by
Priority Mail, my APPELLANT’S BRIEF, includ­
ing documents, to the SIXTH CIRCUIT COURT
OF APPEALS.
“Case Number: 18-4251.
“Case Name: Christina Alessio v. United Airlines,
Inc.
“Respectfully, requesting a judicial review of the
lower Courts Judgement.
“MAY THE COURT BE PLEASED with answers
to 5 questions in the:
“PRO SE APPELLANT’S BRIEF.”

App.311a

And I quote, “Question #1: Did the District Court
incorrectly decide the facts?
“With respect, YES.
“If so, what facts?
“With respect,
“1. United States Equal Employment Opportunity
Commission (EEOC), “Notice of Rights” letter
dated April 18, 2017, was not addressed nor
answered, as to whether or not the Appellee is in
compliant with the statues [sic “statutes”]. With
respect, the EEOC letter needs to be addressed
where the ‘box is marked” and answered to the
fullest extent of the law. Please reference origin­
ating Complaint Case Number 5:17-cv-01426,
filed July 7, 2017. #5 Exhibit “D”, (l page).
“Question #2: Do you think the District Court
applied the wrong law?
“With respect, YES.
“If so, what law do you want applied?
“With respect,
“1. Federal Law 49 U.S. Code 5124.
“With respect, this Federal Law forbids the car­
riage of hazardous materials aboard the aircraft.
In specific: poisons. A definition of poison: A
harmful substance that can cause harm or injury
to people. Respectfully, is Appellee’s approval use
of “chemical air-fresheners in the Aircraft Cabin”
and other chemical substance products not only
carried on, but used inside the Aircraft Cabin in
compliance with the Rule of Law 49 U.S. Code

App.312a

5124? Respectfully, where is the transparency
with a “Certificate of Compliance”?
“Question #3: Do you believe that there are any
other reasons why the District Court’s judgement
was wrong?
“With respect, YES.
“If so, what are they?
“With respect,
“1. “STRICKEN” evidence demonstrating chemical
substance products use in the Aircraft Cabin is
harmful and unsafe.
“2. Further evidence was no longer allowed to be
submitted to the Federal Court, including 3 Public
Court Report Records.
“Question #4: What specific issues/concerns do you
wish to raise on appeal?
“With respect,
“1. United States Federal District Court did not
address my complaint. Respectfully, my com­
plaint and concern was about Safety and Health.
Safety and Health to all Inflight Customers and
Inflight Crew Members to avoid any and all illness
/injury, as I have personally experienced, due to
chemical air-fresheners and other chemical sub­
stance products being used inside the Aircraft
Cabin.
“2. There were 12 pages redacted from my Freedom
of Information Act (FOIA) file at the EEOC,
communicating “fearful of public scrutiny” with
no confirmation of certification with the statues
[sic “statutes”]. Please reference originating Case

App.313a
Number 5:17-cv-01426, Docket “20”, filed 9/26/
2017. Respectfully, where is the transparency
with a “Certificate of Compliance”?
“3. Why are there no indoor Aircraft Cabin airquality standards, with respect to Inflight Custom­
ers and Inflight Crew Members Safety and Health?
Please reference originating Case Number 5:17cv-01426, filed 7/7/2017, #7 Exhibit “F”, a letter
dated 9/19/2016, from the Occupational Safety and
Health Administration (OSHA). Please make ref­
erence to the 2nd paragraph, 5th line down, where
it states in part: “OSHA does not have a standard
that regulates general indoor air quality”.
“4. Is there “Congressional Oversight” with the
Rule of Law 49 U. S. Code 5124? Respectfully, look­
ing for Congressional Oversight with the Appel­
lee’s use of chemical substance products in the
Aircraft Cabin. With respect, if there are no
Aircraft Cabin air-quality standards are Inflight
Customers and Inflight Crew Members being
poisoned, by breathing chemical substance airfresheners and other chemical substance products
approved by the Appellee, used inside the Aircraft
Cabin? With respect, we are a product of our
environment.
“5. Is there a Government “Certificate of Comp­
liance” to all Appellee’s chemical substance pro­
ducts used in the Aircraft Cabin? Respectfully, this
would be a “Certificate of Compliance” stating all
Aircraft Cabin Products are 100% Safe and 100%
Transparent, in following with the Rule of Law.
Respectfully without compliance, would this be
an example of a double standard that Inflight
Customers and Inflight Crew Members must

App.314a

follow the Rule of Law, however, the Appellee may
not?
“6. Is the chemical substance product ingredient
list readily accessible and available to review for
the Public? Respectfully, why are full disclosure
of ingredients being withheld, especially in the
interest of Public Safety at 30,000 feet?
“Respectfully, Inflight Customers and Inflight
Crew Members in the Aircraft Cabin environment
have a Civil and Human “Right to Know”, a “Need
to Know”, all chemical substance product
ingredients we are breathing provided by the
Appellee. Respectfully, this is a matter of Safety
and Health with everyone abidding [sic Abiding”]
by the Rule of Law.
“7. Respectfully, is the Appellee’s practice of using
“chemical substance products for air freshening”
in the Aircraft Cabin an example of a Civil
Conspiracy, or an Intentional Tort, against our
very own people in our very own Country?
“Respectfully, against the people’s Health and
Safety, traveling and working in this particular
and unique environment? With respect, if so, for
what reason? Respectfully if for profit, I believe
would be a crime. Respectfully, why is the Appellee
subjecting their Inflight Customers and Inflight
Crew Members to this toxic chemical substance
product environment?
“8. Aircraft Cabins are “smoke-free” and prohibited
by Federal Law for our Safety and Health. With
respect, the same standard should apply for the
Appellee’s chemical substance products used

App.315a

inside the Aircraft Cabin, prohibited by Federal
Law, for our Safety and Health.
“With respect, the Aircraft Cabin products should
be “chemical-free”. Respectfully, “free of chemical
substance products” for Inflight Customers and
Inflight Crew Members Health and Safety. With
respect if not, would this be another example of a
double standard or a different set of rules for the
Appellee?
“9. Respectfully, I am not a Lawmaker, Attorney,
nor Doctor. Respectfully, I am a Flight Attendant
with a duty and obligation to ensure a safe
Aircraft Cabin environment. I am also a simple
person trying to make a simple living with a
moral and ethical responsibility to “See something,
Say something”. As a law abidding [sic Abiding”]
American Citizen, I also truly believe in our United
States Constitution, to Protect the People. With
respect and in good conscience, I have done my
research with the chemical substance products
and its relationship to Safety and Health in the
Aircraft Cabin. To the best of my ability I believe
with dignity, respect, common sense and logic, no
chemical use should be allowed in this particular
and unique environment for the pure and simple
sake of Safety and Health.
“Respectfully, in 2015,1 provided an “example” of
products safe, transparent with no harmful
chemicals or synthetic fragrances. With respect,
products made with Mother Earth’s resources.
“Chemical-Free”. With respect, my example was
not accepted well, by the Appellee. Respectfully, I
believe the Appellee’s practice of using chemical
substance products in the Aircraft Cabin is unsafe,

App.316a

a true violation of Civil, Health and Human Rights
and purely prohibited by Federal Law 49 U.S. Code
5124. With respect, that is unless there is a differ­
ent set of Standards, Rules and Laws to follow, for
the Appellee.
“With respect, I have reached out on many occa­
sions in Irregular Operation Reports (IOR’s), and
have invited the Appellee (respectfully, Corporate
and Inflight Management) to please come fly with
me. With respect, I must say sadly that in the
past 20 years I have been a Flight Attendant, I
have not experienced the privilege of having my
Inflight Manager or Inflight Supervisor be a part
of my working Inflight Crew, fly and evaluate my
work environment with me. Respectfully, I do not
understand the reasoning for not wanting to fly
with me, especially if safety is top priority. With
respect, people on the ground are making the
choice of chemical substance products, that the
people in the air are being forced to breathe
inflight, and the people on the ground will not
come fly inflight, when invited. With great respect,
this does not make sense and is very concerning.
Respectfully, how is this fair, right or just?
“10. Respectfully, one might wonder if when re­
viewing the (NOS), Nature of Suit Categories,
would ask if the practice of the Appellee’s use of
chemical substance products in the Aircraft Cabin
taking place, might also include:
“(895) Freedom of Information Act — Example:
Redacted information.

App.317a

“(893) Environmental Matters — Example: Violation
of Hazardous Material — use of chemical sub­
stance products in the Aircraft Cabin.
“(890) Other Statutory Actions: Consumer Protec­
tion, Regulatory, Tort, Civil Rights.
“(660) Occupational Safety/Health — Example: No
indoor air-quality standards.
“(650) Airplane Regulations — Example: Federal
Law 49 U.S. Code 5124.
“(365) Personal Injury, Product Liability, Consu­
mer Protection — Example: Exposure of chemical
substance air-fresheners in the Aircraft Cabinviolation of Health and Human Rights, illness/
injury.
“(315) Airplane Product Liability — Example: Using
chemical substance products for cleaning and airfreshening in the Aircraft Cabin contributing to
illness/injury.
“Question #5: What action/outcome do you want
the Court of Appeals to take in this case? “With
great respect,
“1. Congressional Oversight and Compliance with
Federal Law 49 U.S. Code 5124. New legislation,
if necessary. With respect, no use of “chemical airfresheners in the Aircraft Cabin”.
“2. Replace all present Aircraft Cabin chemical
substance products with Non-toxic, chemical-free
Aircraft Cabin Products. 100% Safe, 100% Trans­
parent with a “Certificate of Compliance” and full
access to all product ingredients. Therefore, not
only upholding Federal Law but also the United

App.318a

States Constitution, “Supreme Law of the Land”,
to Protect the People.
“3. Aircraft Cabins are “smoke-free”, therefore,
shouldn’t Aircraft Cabins be “chemical-free”?
Respectfully, would using “chemical air-fresheners”
inside the Aircraft Cabin at 30,000 feet, constitute
as involuntary “chemical substance abuse”?
“With great respect to the Appellee, I believe using
“chemical substance air-fresheners” inside the
Aircraft Cabin, a sincere physical assault on our
health. Respectfully, I believe this practice is not
helping but hurting, our unresolved plan for great
“Healthcare” in our great Country.
“4. On February 7, 2019, I will be respectfully
attending a District Hearing for my 20th work
injury, Claim #16-113538. A total of 19 work
injuries occurred within a 2 year period, from
2014 to 2016. And 19 out of the 20 were due to
chemical substance products used inside the Air­
craft Cabin, approved by the Appellee. The hearing
will be Court Reported. And with great respect to
the SIXTH CIRCUIT COURT OF APPEALS, my
Pro Se Appellant’s Brief will be read, for the truth
be told.
“5. I believe it is truly right and just for Life,
Liberty and the pursuit for Righteousness always
and everywhere, especially respectfully, at 30,000
feet, please.
“Respectfully, I certify that a copy of this brief was
sent to the opposing counsel via U. — Priority
Mail, on the 4th day of February, 2019.
“Sincerely, Christina Alessio.”

App.319a

“Today’s District Hearing Claim #16-113538.
“Date of injury [sic? “Injury”]: November 16, 2016.
“Description of injury [sic “Injury”]: Swollen
hands, stiffness, and rash after exposure from
discontinued product as of October, 2014.
“Chemical Substance #1 — 3 air freshener disks
onboard.
“Note: The following were also onboard and present
during my four day trip 11/15 to 11/17/2016.
“Chemical Substance #2 — air freshener spray.
“Chemical Substance #3 — sanitizer spray.
“Chemical Substance #4 — triclosan hand soap.
“YOUR HONOR and with great respect,
“I have further government updates supporting
and regarding my work injury Claim #16-113538,
to Chemical Substance Products used inside the
Aircraft Cabin.
‘YOUR HONOR, it is very relevant and of great
importance to note and demonstrate on the record,
the RULE of LAW, FACTS, EVIDENCE and
MEDICAL OPINION, honoring all claims “heard
with” today’s work injury Claim #16-113538,
bringing us up to this very date.
‘Respectfully, I have provided for you a quick refer­
ence, to review during my demonstration. The doc­
uments have already been submitted to the Ohio
Industrial Commission. What information I will
be submitting today, with respect, will be given a
copy to you and Ms. Everett.
“I begin with the RULE OF LAW:

App.320a
“1. Federal Law 49 U.S. Code 5124 — Forbids haz­
ard materials aboard the Aircraft.
“YOUR HONOR and with great respect, I will con­
tinue my demonstration with a combination and
short summary of “53” more FACTS, EVIDENCE
and MEDICAL OPINIONS, to provide the burden
of proof and grant allowance for Claim #16-113538.
“1. June 29, 2010 — Claim #110”—excuse me—
“10-824071. This was my 1st work injury/ illness
Hearing due to Chemical Substance Products used
in the Aircraft Cabin — with no OSHA protection
provided for Flight Attendants.
“2. December 13th” — excuse me — “In December
2013 — Irregular Operation Reports (IOR) became
a requirement by my “Superiors”.
“3. February 15, 2014 — Claim #14-809315. This
was my 2nd work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.
“4. March 2, 2014 — Claim #14-813103. This was
my 3rd work injury due to Chemical Substance
Products used in the Aircraft Cabin, IOR written.
“5. March 6, 2014 — Mandatory meeting with my
Inflight Manager and Human Resources Manager
“Superiors” — excuse me — ’’Superiors”, in addition
with respect, an Association of Flight Attendant
(AFA) Representative, whereby I was instructed
not to remove the Chemical Substance Product
#1 — air freshener disk.
“6. March 6” — excuse me —” March 17, 2014 —
Claim #14-813107. This was my 4th work injury

App.321a

due to Chemical Substance Products used in the
Aircraft Cabin, IOR written.
“7. March 26, 2014 — OSHA provides protection in
the Aircraft Cabin for Flight Attendants.
“8. April 2, 2014 — Letter from OSHA, communi­
cating that my allergic reaction and accommo­
dation request does not fall under the jurisdiction
of OSHA. My complaint was closed.
“9. May 23, 2014 — Allergist and Immunologist
communicated his expectations for the Ambient
Exposure Challenge to my “Superiors” Chemical
Substance Products used inside the Aircraft Cabin.
The letter states in part and I quote:
“One would expect to see redness, swelling and
increased circumference of the joints”
“10. June 11, 2014 — Amended Ambient Exposure
Challenge results. The report states in part and I
quote:
“The joint circumference had increased (0.25-0.75
mm)”
“11. July 15, 2014 — Rheumatologist’s medical
opinion. The letter states in part and I quote:
“June 11, 2014, Ambient Exposure Challenge that
objectively demonstrated joint swelling in MCP
and PIP joints of fingers on both hands”
“12. September 10, 2014 — Returned to work from
Leave of Absence, approximately six months no
pay. My “Superiors” with the Reasonable Accom­
modation Program denied me the ability to follow
Doctors recommendations stating “insufficient

App.322a

information”. Doctors recommendations were to
seal the air freshener disk during my flights.
“13. September 10-13, 2014 — Claim #14-871335.
This was my 5th work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.
“14. September 19, 2014 — Claim #14-853863.
This was my 6th work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.
“15. October 2, 2014 — Received an email from my
Inflight Manager “Superior” communicating the
air freshener disks were being removed and
replaced. That it would take up to 30 days.
“16. November 5, 2014 — With respect, was given
permission in an email to throw away the Chemical
Substance Product #1 — air freshener disk in the
Aircraft Cabin.
“17. November 24, 2014 — Occupational Medicine
Doctor’s medical opinion. The letter states in part
and I quote:”—
Do you see this document in front of you, Your
Honor?
HEARING OFFICER: I do.
MS. ALESSIO: I am going to read it where it is high­
lighted.
“It is my opinion, with a reasonable degree of med­
ical certainty, that Ms. Alessio suffered a substan­
tial aggravation of her rheumatoid arthritis when
exposed to the air freshener discs in the workplace
resulting in her not working from March 17, 2014 to

App.323a

September 10, 2014, and working only inter­
mittently from September 18, 2014 to November 6,
2014 due to presence of the air freshener discs in
the workplace.”
MS. EVERETT: I am sorry to interrupt you. But did
you give Mr. Heine a different packet than what
you just handed me?
MS. ALESSIO: No, ma’am. All of this has already been
submitted to the Ohio Industrial Commission in
previous documents under Claim # 16-113538.
MS. EVERETT: Okay. But he has colored copies. Where
did those come from?
MS. ALESSIO: Like I said, all of this is already sub­
mitted to the Industrial Commission.
MS. EVERETT: I know. But where did he get the
colored copies from today?
MS. ALESSIO: I am highlighting everybody’s, as I did
yours.
MS. EVERETT: But I only got this. (Indicating.) And
you are talking about the—
MS. ALESSIO: That is because the rest of my docu­
ments have been already submitted for you to
print and review for yourself.
MS. EVERETT: Okay. Just for the record, you handed
him a different set of documents than you handed
me. And the set of documents you handed him are
highlighted, and that is what you are talking
about?
MS. ALESSIO: No. Everything that is highlighted is
equal to everyone’s paperwork.

App.324a

In my introduction of my claim right here, I will
communicate again, it says, “Respectfully, I have
provided for you,” meaning the Honor William
Heine, District Hearing Officer listening today, “a
quick reference,” that is his, “to review during my
demonstration.”
Ms. Everett, that was everything that I have
already submitted that you have the ability to
print and—
MS. EVERETT: I understand that.
MS. ALESSIO: Okay.
MS. EVERETT: But what I am asking you is, when
you just handed Mr. Heine and I documents, you
handed me these documents, correct?
MS. ALESSIO: That is what I am submitting today.
MS. EVERETT: Okay. And did you also hand Mr. Heine
some additional documents which are the medical
records from your other claims?
MS. ALESSIO: Correct.
MS. EVERETT: And you did not submit those to me
today, correct?
MS. ALESSIO: That is because they have already
been submitted—
MS. EVERETT: I understand. So they—
MS. ALESSIO:—in the claims heard with, number
one.
MS. EVERETT: I understand.
MS. ALESSIO: You heard that letter before in that
Occupational—

App.325a

MS. EVERETT: Just answer my question. You handed
him some different—
HEARING OFFICER: Well, I think
MS. EVERETT: highlighted documents. I understand
they are online.
MS. ALESSIO: Your Honor, this is my opening state­
ment. May I continue?
HEARING OFFICER: All right. Well, she just had a
question. And I think that, for the record, just
— you submitted me a packet of documents today.
It is different than what you submitted Attorney
Everett. These documents are also available—
MS. EVERETT: I understand.
HEARING OFFICER:—on all of the other claim files.
MS. EVERETT: Okay. So what was the—
HEARING OFFICER: And they have previously been
submitted to Ms. Everett.
MS. EVERETT: So what was the last document? I am
sorry.
HEARING OFFICER: The last document is Dr. Kirschman, November 24, 2014.
MS. ALESSIO: You may look at this. I — I have read
it before and —
MS. EVERETT: I am just trying to follow along. And
I don’t have those in paper on the table at the
moment. So I will find them.
MS. ALESSIO: I apologize.
HEARING OFFICER: Thank you. You may proceed,
Ms. Alessio.

App.326a

MS. ALESSIO: “18. February 11, 2015 — With respect,
put on a Verbal Warning for suggesting an example
of a safe, transparent product for the Aircraft
Cabin.
“March 31, 2015”—this is #19—”With respect, put
on a Written Warning for communicating a Health
Hazard Rating Level 2, (moderate), for a product
the cleaner was spraying in the Aircraft Cabin.”
This was submitted just days ago to the Ohio
Industrial Commission. This is the product. You
have a picture of it, Your Honor?
HEARING OFFICER: I do. I have a picture of #3.
MS. ALESSIO: And do you see the next page where it
says, under the Health Rating, it states
#2 — Health #2?
HEARING OFFICER: I do see that, yes.
MS. ALESSIO: Which is moderate. This is the product
that they were spraying inside the Aircraft Cabin.
HEARING OFFICER: Which is moderating, you said?
MS. ALESSIO: Correct.
HEARING OFFICER: Moderating?
MS. ALESSIO: My understanding, Your Honor, is
that Health Hazard Ratings are from 0 to 5. “0”
being harmless and “5” being definitely a safety
concern and the most harm.
HEARING OFFICER: Yes.
MS. ALESSIO: This was a Health Hazard Rating Level
2.

App.327a

“20. June 4, 2015 — Claim #15-829647. This was
my 7th work injury due to Chemical Substance
Products used in the Aircraft Cabin, IOR written.
“21. June 6, 2015 — Claim #15-828854. This was
my 8th work injury due to Chemical Substance
Products used in the Aircraft Cabin, IOR written.
“22. July 4, 2015 — Claim #15-833915. This was
my 9th work injury due to Chemical Substance
Products used in the Aircraft Cabin, IOR written.
“23. July 22, 2015 — I received an email from the
Ohio Senator. Respectfully, the email states in
part and I quote: “Thank you for getting in touch
with my office regarding hazardous materials used
in cleaning supplies upon commercial flights. I
appreciate your bringing this issue to my attention.
I have passed your concerns along to the legislative
assistant in my office who monitors transportation
and health issues. I will keep your thoughts in
mind should this issue come before the Senate.”
“24. July 31, 2015 — I received an email from Ohio
Congresswoman. Respectfully, the email states in
part and I quote:
“Thank you for contacting me to concerning the
presence of hazardous materials on airlines.” “As
your Representative, rest assured, as legislation
related to hazardous materials on airlines is
considered by Congress I will be sure to keep your
thoughts in mind.”
The paragraph in the middle of this document that
was submitted — as you can see the stamp is here,
so it is available for you to have print — for legal
counsel to have printed it and be aware of it.

App.328a

I am — I am hesitant to communicate this middle
paragraph. I don’t think I have the liberty to in a
court reported public setting, because of the second
page it states, “This email may contain privileged
or confidential information.” [sic “PRIVILEGED
OR CONFIDENTIAL INFORMATION”] And I do
not know whether or not this information is
allowed to be for the public to read.
“25. September 23, 2015 — A respectful “Request
for Assistance” to the Ohio Senator.” My request
for assistance states, and I quote: “With great
respect, I am a Flight Attendant with a United
States Commercial Airliner.
“It is in the interest of Health and Safety, Federal
Law, the Aircraft Cabin and my personal health
experiences in my work environment, that I have
[sic “that I have” does not appear in original
letter] — that have me reaching out to you for
insight, clarity and understanding. With the
upmost respect to Commercial Airlines, my
Employer, the traveling Public and to our Health,
I look forward to hearing from you. Sincerely,
Tina, 9/23/15.”
“26. September 27, 2015 — Claim #15-847920.
This was my 10th work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.
“27. October 11, 2016 — 2015 — Claim #15-8554
26. This was my 11th work injury due to Chemical
Substance Products used in the Aircraft Cabin, IOR
written.

App.329a

“28. October 12, 2015 — Claim #15-850173. This
was my 12th work injury due to Chemical Sub­
stance Products used in the Aircraft Cabin, IOR
written.
“29. November 7, 2015 —Claim #15-855011. This
was my 13th work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.”
“30. November 27,2015 — Claim # 15-859117. This
was my 14th work injury due to Chemical Sub­
stance Products used in the Aircraft Cabin, IOR
written.
“31. November 28, 2015 — Claim # 15-863145.
This was my 15th work injury due to Chemical
Substance Products used in the Aircraft Cabin,
IOR written.
“32. December 4, 2015 — With respect, Subpoena
issued from Ohio Industrial Commission Hearing
Administrator to my “Superiors” for information
on the Chemical Substance Products used in the
Aircraft Cabin.
“33. December 20, 2015 — Claim # 15-863147. This
was my 16th work injury due to Chemical Sub­
stance Products used in the Aircraft Cabin, IOR
written.
[szb missing “34.”] January 7, 2016 — Response to
Subpoena by my “Superiors”. Please reference,
Your Honor, Claim #15-855426. Information
includes the Material Safety Data Sheets (SDS)
to the 4 Chemical Substance Products. Your Honor,
a review of the products are also communicated

App.330a

in the District Hearing Court Report, dated April
20, 2018.
“35. February 7, 2016 — Claim #16-816267. This
was my 17th work injury due to Chemical Sub­
stance Products used in the Aircraft Cabin, IOR
written.
“36. February 10, 2016 — Claim #16-816266. This
was my 18th work injury due to Chemical Sub­
stances used — Products used in the Aircraft Cabin,
IOR written.
“37. February 24, 2016 — This was my 19th work
injury due to sprained hands and sprained wrists
performing a new CPR Validation Testing Per­
formance Expectation required by my “Superiors”.
Please reference Claim #16-807292, April 19,
2016. Court Reported, Claim denied.
“38. July 15, 2016 — I returned to work from
sprained hands and sprained wrists work injury,
February 24, 2016. No pay from date of injury.
“39. Today’s hearing — November 16, 2016 —
Claim #16-113538. This work injury is my 20th
work injury, Your Honor, of medical record due to
Chemical Substance Products used in the Aircraft
Cabin. IOR written regarding 3 Chemical
Substance Product #1, onboard inside the Aircraft
Cabin.
“IOR #52191 communication, states in part and I
quote:
“Subject: Cabin-Air.
“November 16, 2016.
“Tampa to Newark.

App.331a

“Flight 1612.
“Respectfully, this product was to have been com­
pletely removed October, 2014.
“With respect, over two years ago.
“With respect, this air-freshener is undeniably a
health hazard to our environment, for all Co­
workers and Customers.
“With great respect, I am reaching out as I have
in the past in Irregular Operation Reports but been
denied, for Corporate and Inflight Management,
to please come fly with me.
“With respect, I am not sure why no one wants to
come fly with me in my work environment.
“Respectfully, is there any way the Aircraft Cabin
cleaning and air-freshening products can be made
transparent (like on the Customers ticket) for an
open, honest and direct, better Air-Quality
Environment, following our Eco-Skies mission?”
“Company asks:
“Do you have a suggested resolution to the event?”
“With respect, I respond in my IOR, and I quote:
“Transparency to all cleaning and air- freshening
products, for healthy air quality for all.”
“Company Action Items: “Completed.”
“With respect, no email response was provided,
from my suggested resolution by my “Superiors”.
“40. May 15, 2017 — I wrote an email to one of the
Ohio Senator’s Assistants, it states in part and I
quote: “With great respect, I am following up with

App.332a

my phone call, with 2 voicemails, on last Monday,
May 8, 2017.” “With respect, I questioned in my
voicemail, if the FBI, Federal Bureau of Investi­
gation, might be a better way, requesting assis­
tance”
“41. May 25, 2017 — I received a letter from the
Ohio Senator. Respectfully, the letter states in part
and I quote:
“Your concerns were forwarded to the Federal
Aviation Administration and the Occupational
Safety and Health Administration and both
agencies have responded.”
“42. June 2, 2016 — The Federal Aviation Admin­
istration communication letter regarding hazar­
dous materials aboard aircraft and work injuries
due to hazardous materials states in part and I
respectfully quote: “Unfortunately, this is not an
FAA issue.”
“43. September 19,2016 — The Occupational Safety
and Health Administration (OSHA), wrote a letter
to the Ohio Senator. Respectfully, OSHA’s letter
states in part and I quote:
“OSHA does not have a standard that regulates
general indoor air quality”
Do you see that?
HEARING OFFICER: I was going to ask you; what
date was that letter again?
MS. ALESSIO: September 19, 2016. I provided it in
your quick reference. It was submitted to the
Ohio Industrial Commission on, I believe, the 5th
of February.

App.333a

I have it punched marked here: February 5th, two
days ago. So I have that in your packet, quick
reference, September 19th. Do you have it in front
of you?
HEARING OFFICER: I am looking for that. I was
following you, up until that one.
MS. ALESSIO: That is all right.
HEARING OFFICER: September 19th, you said?
MS. ALESSIO: Yes. It looks like this. (Indicating.) It
has Exhibit F, because it was submitted already
to the Federal Court.
HEARING OFFICER: Yes.
MS. ALESSIO: Do you have that there?
HEARING OFFICER: I have it now.
MS. ALESSIO: Okay. So I am quoting that highlighted
area.
“OSHA does not have a standard that regulates
general indoor air quality.”
But on the next page, I would also like to quote in
part from this letter, “Ms. Alessio’s Employer,
United, remains responsible for providing a safe
and healthy working environment for its workers,
and the need to take responsible [sic Reasonable”]
steps to find safer alternative products if neces­
sary.”
Thank you.
HEARING OFFICER: Are you okay?
THE REPORTER: Yes. Thank you.

App.334a

MS. ALESSIO: It also quotes there in the OSHA letter
at the bottom, “OSHA will now consider this
matter closed. Thank you for your interest in
safety and health.”
“44. April 18, 2017 — Equal Employment Opportu­
nity Commission (EEOC), provided me with a
“Notice of Rights” letter, stating they could not
certify that the Respondent my “Superiors”, are
in compliant with the statues [sic “statutes”].”
And that would be this document here. (Indic­
ating.) Yes, sir. Excellent.
“45. July 7, 2017 — Respectfully, I filed with the
Ohio Northern District Federal Court on the bases
of requesting my “Superiors” Certificate of
Compliance with the Rule of Law. Respectfully,
asking if the Chemical Substance Products used
for cleaning and air freshening are following Fed­
eral Law 49 U.S. Code 5124.
“46. March 1, 2018 A respectful letter, notarized
and certified by mail was sent to 5 Leaders in our
Country, the United States of America, request­
ing if my “Superiors” were compliant with the
statutes. Respectfully, no response.
“47. August 22,2018 — A respectful email respond­
ing to my “Superiors”, requesting to share and
give feedback. With respect, I provided a suggestion
for our ECO-SKIES Program. Suggestion and
feedback states in part and I quote:
“Can we incorporate environmental friendly
Chemical-Free Cleaning and Air Freshening
Products for the Aircraft Cabin?” And “Respect­
fully, I believe Chemical Free Products would be

App.335a

a Healthy and Safe improvement, adding to our
Eco-Skies Program.”
“Respectfully, I received an automatic reply, thank­
ing me for taking the time to share feedback.”
That is on the second page. I never received a
personal response back from that suggestion for
the Eco-Skies Program.
[sib “48.”] “November 5, 2018 — Respectfully, I
received a letter from Ohio Congresswoman. The
letter states in part and I quote:
I received a reply from the agency in response to
my inquiry. I have enclosed the correspondence for
your review, and trust it will be self-explanatory.
“49. November 2, 2018 — Respectfully, the letter
Ohio Congresswoman forward to me, from OSHA
which states in part and I quote: — do you have
this document in front of you, Your Honor?
HEARING OFFICER: This —
MS. ALESSIO: Yes. I am reading the highlighted, pink
section that was submitted on February 5, 2019,
to the Ohio Industrial Commission.
“OSHA’s Hazard Communication Standard (HCS),
29 CFR 1910.1200, includes a provision that allows
a manufacturer or importer to indicate on the
safety data sheet (SDS) that the specific chemical
identity and/or the percentage of composition of a
hazardous ingredient is being withheld as a trade
secret.”
“50. November 13, 2018 — Respectfully another
letter, notarized and certified by mail was sent to
5 Leaders in our Country, the United States of

App.336a

America, requesting my “Superiors” — if my “Supe­
riors” were compliant with the statutes with a
“Certificate of Compliance”. Respectfully, no res­
ponse.”
Do you have that document in front of you?
Yes. Those were the honorable leaders of our great
Country, and I have not respectfully received a
response.
“51. December 18, 2018 — Respectfully, I filed a
Notice of Appeal, on the bases that the Federal
Court ruled judgement under the Americans with
Disabilities Act. With the utmost respect to the
Americans with Disabilities Act and the Federal
court, the ruling and judgment was addressing
my complaint will be wrong law.”
The law I was addressed on 49 U.S. Code 5124.
“52. January 18, 2018 [sic '2019”] — Respectfully
letter was addressed to the Secretary Department
of Transportation (DOT) and Administrator for
the Transportation Security Administration (TSA).”
Who I am so forever grateful for, especially
during these precious, most sensitive times. I
honor the TSA at this point in time during our
hearing. Thank you, TSA.
The letter to the DOT and the TSA was “requesting
permission to submit an Inflight Service Safety
Alert dated March 21, 2014, to the Ohio Industrial
Commission and the SIXTH CIRCUIT COURT
OF APPEALS. Respectfully, I have requested my
Inflight Supervior [sic 'Supervisor”] “Superior” to
please let me know if she receives a response from

App.337a

the DOT or TSA. With respect, I have not received
a response as of today’s District Hearing.”
This is the letter that I wrote, and both of my
Superiors, my Inflight Supervisor and Inflight
manager, received a copy of this letter.
And, the communication states that I would like
for the Honorable Secretary of the DOT and/or the
Administrator to the TSA to contact my Inflight
Supervisor, with her number in this letter, to give
me the permission to submit this important
Safety Alert that was given to all Flight
Attendants, but the public has no idea what it is
about.
And I believe since they are in the same envi­
ronment, they have a right to know what this
Safety Alert is about. And so because it had a
mention that it’s not allowed to be communicated
to anybody but on a, quote, “Need to know basis,”
[sic “Need to Know”] unquote, that it could be
safety — sensitive security information, I needed
to get permission.
So this letter, I still haven’t received a response
from. And I am looking and hoping to hear back
from my Inflight Supervisor on that respectfully.
“53” — last but not least — ’’February 4, 2019 —
Respectfully, I priority mailed my Pro Se Appel­
lant’s Brief to the SIXTH CIRCUIT COURT OF
APPEALS, for review. With respect, based on the
statute: 49 — Federal Law 49 U. S. Code 5124.
“YOUR HONOR, to the best of my ability, I have
summarized and demonstrated a combination of 53
[sic #34 of “53”] supporting FACTS, EVIDENCE

App.338a

and MEDICAL OPINION, that my Claim #16113538 should be granted allowance.
“Thank you for allowing me to finish my Opening
Statement.”
HEARING OFFICER: You’re welcome. Are you okay?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Okay. Are you okay to proceed
now, Ms. Alessio?
MS. ALESSIO: I am done with my Opening Statement,
Your Honor.
HEARING OFFICER: Thank you. All right. Ms.
Everett?
MS. EVERETT: Sure. I have a couple of questions for
Ms. Alessio.
HEARING OFFICER: You may proceed.
Cross-Examination
BY MS. EVERETT:
Q.

Have you been diagnosed with rheumatoid arth­
ritis?

A.

Yes, ma’am.

Q.

Okay. And when were you diagnosed with rheu­
matoid arthritis, roughly?

A.

February of 2003.

Q.

Okay. And you are being treated for rheumatoid
arthritis at this time?

A.

I am.

Q.

Okay. I want to talk about the cleaning products
that you raised with regard to November 16, 2016.

App.339a

And I am just looking at the First Report of Injury
that you authored.
You indicate that there were Flight Fresh Deo­
dorant Discs. Was there a Flight Fresh Deodorant
Disc on board the aircraft on November 16, 2016,
that you were on?
A.

Yes, ma’am. There were three.

Q.

And did you touch any of them?

A.

No, ma’am.

Q.

Okay. Your First Report of Injury also lists JetSent [sic “JetScent”] — I said that wrong—JetScent
Pump Spray. Was there the JetScent Pump Spray
on the aircraft when you were working on Novem­
ber 16, 2016?

A.

The JetScent Pump Spray was on board in the
aircraft cabin during my four-day trip.

Q.

Okay. And did you ever spray it?

A.

No.

Q.

Okay. Did you ever see anyone spray it? The
cleaners.

Q.

Okay. So did you personally touch this JetScent
Pump Spray during that November 16, 2016, series
of flights?

A.

No.

Q.

Okay. How about —

A.

They do provide us rubber gloves.

Q.

All right.

A.

And that would be my protective measure for
handling such a product.

App.340a

Q.

Okay. So the third one

HEARING OFFICER: If I may back up? As far as the
JetScent Pump Spray, you did not handle?
MS. ALESSIO: I did not ever touch the bottle during
that trip. And rubber gloves are provided for us.
And if ever I was going to touch the product,
rubber gloves would be worn.
HEARING OFFICER: Okay. Thank you.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: And then, basically, the cleaners
use that?
MS. ALESSIO: Correct. They come in and they spray
the lavatories with that, and then they leave.
HEARING OFFICER: Thank you.
MS. ALESSIO: Yes, sir.
BY MS. EVERETT:
Q.

And then the third item on this claim application
is Sanitizer Spray?

A.

Number 3, Sanitizer Spray.

Q.

Okay. All right. And do the cleaners use that?

A.

Yes.

Q.

Okay. So on these series of flights, on November
16, 2016, did you ever spray the Sanitizer Spray?

A.

Never.

Q.

Okay. And did you ever touch the Sanitizer Spray?

A.

The only time I have actually touched it was when
I was written up on a verbal, or — yeah, that was
the verbal — no, that was the written warning,

App.341a

because I was trying to communicate with the
cleaner
Q.

Okay.

A.

— who did not understand English.

Q.

Okay.

A.

I believe we had a language barrier. That on the
back of the label, there was the Health Hazard
Rating [sic Health Hazard Rating Level “2” label,
on the back of the product bottle (“2”= Moderate)],
that the product shouldn’t be sprayed in this
environment. But she did not understand what I
was trying to communicate with her.
So when she put the product down, I picked it up
and put it on top of the counter and took a picture.
And that is exactly the picture that you have
there of that #3 Sanitizer Spray.

Q.

But my question —

A.

But I never sprayed it.

Q.

But my question is: On November 16, 2016, did
you spray the #3 Sanitizer Spray?

A.

No. I have never sprayed that spray.

Q.

Okay. And on that same date, did you touch the
Sanitizer Spray?

A.

Not on that day.

Q.

Okay. And then the next one is the Triclosan, Tr-i-c-l-o-s — is that an “a-n”?

A.

(Witness nodding head up and down.)

Q.

Okay. That is a funny word. That is why I was
spelling it for her.

App.342a

Now, the Triclosan, is that a spray or —
A.

That, Ms. Everett, is in the hand soap.

Q.

Okay. So that is the Triclosan Hand Soap? Correct.

Q.

And was that on board the aircraft on November
16, 2016?

A.

Yes. It was through those — that four-day trip,
yes, ma’am.

Q.

Okay. And did you touch it?

A.

No.

Q.

Did you use that soap on your hands?

A.

No. I bring my own soap.

Q.

Okay. Thank you.
So it is my understanding from your testimony
today, and your previous testimony in other claims,
that you feel that your condition is caused by
breathing in these different fragrances and clean­
ing products; is that correct?

A.

Yes. We are a product of our environment. When
you inhale the air, it is entering your system. It is
landing on your skin.

Q.

So you are not claiming that these items are
coming into touch — into contact —

A.

Into contact, correct.

Q.

— with your hands or your face or anything?

A.

Correct. As I was saying before, like the physical
assault isn’t by someone touching me. It is the
product that is in the air that you are inhaling
going to — into your system.

App.343a

Q.

Okay.
It goes and it attacks my joints saying, “I want
out. I want out.” And that is where the inflam­
mation begins. The rash, anytime that would occur,
is because it is in the air. It is landing on our skin.

Q.

Okay.

A.

And —

Q.

My other question is, you would agree that the
aircraft needs to be cleaned in between the flights,
correct?

A.

100 percent.

Q.

All right.

A.

But with non-toxic, chemical-free products, yes,
ma’am.

HEARING OFFICER: If I might interrupt for a second?
You said the exposure was by inhaling it?
MS. ALESSIO: Inhaling, which would cause my rheu­
matoid arthritis to be substantially aggravated.
But as far as the air quality and the products that
were sprayed by the —
HEARING OFFICER: Okay. And that landed on your
hands?
MS. ALESSIO: Well, it is in the air, yes. Yes.
HEARING OFFICER: I understand. That is what I
am trying to clarify.
MS. ALESSIO: Due to the hand soap, you know, you
are going in and out of a lavatory. I don’t ever
really pretty much use the lavatory, unless it is

App.344a

on a sincere urgent basis during my flights any­
more. I try to stay away from this area as much
as possible.
But to be quite frank, the product had been
removed, as you know. All the — both the — the
Triclosan Hand Soap had been removed, the which
is the number — Chemical Substance #4.
The number Chemical Substance #1 has been
removed. Every now and then, you see the
Chemical Substance #2, which is what you have
been referring to as the JetScent Pump Spray,
or — yes, the JetScent Pump Spray. And I take a
bottle of spray of water to just dilute the air,
because I don’t want to be breathing this.
HEARING OFFICER: Okay.
MS. ALESSIO: The same thing I do with my protective
measures, when the #3 Sanitizer Spray, with the
Health Hazard Rating Level is used, {sic Health
Hazard Rating Level “2” label, on the back of the
product bottle (“2”= Moderate)] I take my water
bottle spray and I spray it in the air to dilute the
chemical substance, but we shouldn’t have to do
this.
We should have 100 percent transparency with the
products that they are 100 percent, in fact, safe.
BY MS. EVERETT:
Q.

Okay. I just wanted to focus on the items that —

A.

Yes, ma’am.

Q.

— are listed on the First Report of Injury.

A.

Okay.

App.345a

HEARING OFFICER: So just to clarify, so breathing
in and then the — because it is in the air, it comes
in contact with your body?
MS. ALESSIO: Correct.
HEARING OFFICER: With your hands and —
MS. ALESSIO: You know, just think about it. Every­
body that uses that hand soap, including crew,
touch things. And then I have to open and close
things that the crew members touch, right?
I mean, you know, if you are touching this table
and there is something on it that they cleaned
with — you know what I am saying?
HEARING OFFICER: I just needed clarification from
you. That is all.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Thank you. Thank you for that.
MS. EVERETT: Okay. I think that is all the questions
that I had for Ms. Alessio.
Just really quickly, there has been some references
to a Federal Court case. And you have got some
documents. I am not involved in that case. United
is a Defendant. I can only see what is on the Court
docket. And it would indicate that Ms. Alessio’s
complaint has been dismissed by the Court.
And I get the feeling — I get the sense that she
has filed an appeal. And I don’t think anything in
that case has any relevance to this case.
It is the Employer’s position that there is no med­
ical evidence in support of the claim allowance. In
fact, I am not really sure what she is asking for

App.346a

on this claim application, because the description
of the injury is swollen hands, painful; which
appears to be a symptom, and then a rash. A rash
related to air quality it says.
And there is no medical evidence in this claim file
that causally relates a rash, or an aggravation of
her rheumatoid arthritis, to airborne exposures to
these products.
It is also United’s position that the medical caus­
ation issue that is raised in this case has already
been decided 17 or 18 times by the Industrial
Commission.
All of the medical evidence that Ms. Alessio read
to you today is from the prior claims. And it was
all rejected by a large number of different Indus­
trial Commission Hearing Officers, because it does
not state what Ms. Alessio believes that it states.
It does not state that airborne exposure to general
cleaning products like this cause a rash, or cause
an exacerbation of rheumatoid arthritis.
HEARING OFFICER: If I may interrupt you for a
second, Ms. Everett. I am sorry to interrupt your
statement.
Just so you are aware and all of us are on the
same page, Ms. Alessio, you and I, as far as what
has been presented, in the packet I received today,
there was a medical record from February 5, 2019.
Just so you are aware of that.
MS. EVERETT: I am not sure I have seen that. Oh,
wait. Here it is.
She has been treated for her rheumatoid arthritis
by Dr. Kirschman, by Dr. Hong. You know, there

App.347a

are other doctors — Dr. Eli Silver did some testing.
I think he is an allergist at UH. And you have all
those reports in the file.
HEARING OFFICER: Yes. Yes.
MS. EVERETT: And there is nothing new in that
record from February of this year. There is no
expression of medical causation in this note
from — is this the Clinic? Dr. Hong.
There is the expression by Ms. Alessio to her
doctors that she thinks this is what is causing the
problem, but there is no expression of a medical
opinion of causation by the doctors, over now,
some five years, Mr. Heine, in any of these claims,
that supports her theory of her case.
Ms. Alessio continually describes these cleaning
and air freshening products as hazardous. That is
her opinion. There is no scientific evidence ever
been submitted to the Industrial Commission that
these cleaning and air freshening products are
hazardous.
You have the MSDS sheets, for what they are
worth. But in order to demonstrate that a partic­
ular item is hazardous, you would need to have
some sort of an opinion from a professional, who
has the educational background to say that it is
hazardous.
I realize that Ms. Alessio feels and believes that
it is hazardous, but her opinion is not a scientific
opinion. It is based upon her personal beliefs, as
opposed to science.
And at one point, we had submitted some MSDS
sheets for regular household products that you

App.348a

can, you know, buy in the grocery store. And they
are no different — like a Glade Air Spray kind of
thing. Just the regular kind of things that you
would find in your home, or in any residential
setting.
And the MSDS sheets, they are available online
for any kind of product, if you just Google it. The
MSDS sheets for those household products are no
different than the MSDS sheets for these four
products listed in her FROI.
In fact, the hazard levels are even more benign
for these products that are on the aircraft
than — I submitted an MSDS sheet for a Glade Air
Spray, air freshening thing.
I mean, this has all been, you know, addressed in
previous hearings. And there is nothing new
about this. There is nothing new about the medical
condition she is relaying. There is nothing new
about her symptoms. There is nothing new about
her theory of her case.
And there is no medical in this case that gives an
opinion of medical causation consistent with her
theory of her case.
And so the Employer would respectfully request
that you deny this claim for lack of medical evi­
dence, and for lack of any objective scientific evi­
dence that these benign cleaning and air fresh­
ening products are hazardous. Thank you.
HEARING OFFICER: Thank you. Ms. Alessio?
MS. ALESSIO: Yes, Your Honor. With great respect, if
we could please reference, again, November 24th’s
letter, where the Occupational Medicine — Chief

App.349a
Occupational Medicine states, “It is my opinion
with a reasonable degree of medical certainty,
that Ms. Alessio suffered a substantial aggravation
of her rheumatoid arthritis when exposed to the
air freshener discs in the workplace, resulting in
her not working from March 17, 2014 to Septem­
ber 10, 2014, and only working — and working
only intermittently from September 18, 2014 to
November 6, 2014, due to presence of the air
freshener discs in the workplace.”
That is, I believe, not a personal opinion, but a
medical opinion of substantial aggravation to the
Chemical Substance Product used inside the
Aircraft Cabin.
I would also like to note with reference to my
doctors’ appointments that I have given to you
today, that I am now seeing only my rheumato­
logist every six months, because these products
have been removed off the aircraft, the most
offending.
And with great respect to medicine and our choice
in what we decide to take to relieve our pain, I
have chosen the one week bursts of Prednisone
every six months. It gets me, you know, the comfort
that I need. Because I know what I need to do to
protect my health from my arthritis being sub­
stantially aggravated.
And that would be, I would think, communicating
a safety concern with respect to using chemicals
inside the Aircraft Cabin. I understand my Em­
ployer, you know, doesn’t know what I am asking
for.

App.350a

Well, just in this letter alone, time off work for
that period of time, I would be grateful for. And
in one of my other injuries of spraining my hands
and wrists where I was off work six months — or
five months, no pay, that time frame. I am not
asking for a whole lot. Just — I should have never
been injured. And I should have never been off
work, no pay.
As far as my diagnosis of rheumatoid arthritis in
2003, I believe this does not qualify me for a
preexisting condition, because I was hired in
1998.1 was diagnosed in 2003. Therefore, I believe,
if I understand it correctly, I am not a preexisting
condition person. I developed this over the course
of my employment.
And I believe these products contributed substan­
tially to my health, one way or another. But the
Occupational Medicine Doctor is stating it as
clear as day, in that letter that I just read to you,
November 24, 2014.
Also, the Federal case that is at the Sixth Circuit
Court of Appeals, it is 100 percent relevant,
because it is — I am breathing the same air
everybody else on board the Aircraft Cabin is
breathing. There is no Certificate of Compliance
with the Rule of Law. Respectfully, I even asked
for it by my Employer, by Ms. Everett, by even
Congress.
No one seems to be able to provide a, quote,
“Certificate of Compliance” that, in fact, Your
Honor, these products have been reviewed and
have a Certificate of Compliance that they are

App.351a
100 percent safe and 100 percent transparent with
the Rule of Law.
I believe that if my Employer, respectfully, my
Superiors, would come fly with me, maybe they
would understand it better. But I — that way we
could talk, but I don’t know why they won’t come
fly with me. I still don’t get an answer as to why,
but it would be wonderful if they could.
When you look at this other form that I have pro­
vided for you, it is an Allergen Information Sheet
that my Superiors provide. It says, “Must be
boarded on all flights departing, Cleveland.” I am
not sure why this is obviously 100 percent
important. [sic I am not sure why (this states spe­
cifically Cleveland). This is obviously 100 percent
important.] But with great respect, this is because
of the air. Allergies are due to air.
In other words, we are a product of our products
that we are breathing; whether it is peanuts or
whether it is chemical substances. It is inhaling
the chemicals, or it is inhaling the peanut dust
that you are actually having an allergic reaction
to.
Well, if food is, you know, related as being qualified
not allowed on board the aircraft, or given
accommodation for, why wouldn’t the chemicals
that are used to clean and air freshen the Aircraft
Cabin be reviewed and overseen by those that are
large and in charge? Respectfully, I say that to
my, quote, “Superiors,” unquote.
And the vetting process was communicated in the
last public court report’s record, where it goes
through Engineering Teams, Inflight Safety and

App.352a
Corporate Safety, but there is no government
oversight. It makes no sense to me.
I believe, you know, we need to be in the know of
all, you know, things. But I also believe that know
how — quote, “know how” is very important to
our health. [sic I believe we need to be in the know
of all things. Quote, “know-how” is very impor­
tant to our health.] Know what we are breathing
in and how it reacts to our bodies. It is all avail­
able on the internet for research.
Research Number 1, chemical fragrances and
second-hand smoke. Research Number 2, toxic
synthetic fragrances. Short-term side effects in­
clude allergies, respiratory, headaches, dizziness,
nausea. Long-term side effects include cancer,
kidney damage, asthma.
This is where we are at 30,000 feet being in an
environment that chemical substances have been
used. On the ground, you are okay. You can decide
to leave this room, if you would like, if we are
having a problem of some kind.
But where I work — and I have provided a won­
derful picture of aircrafts up in the air for you, to
give you a visual that this is where we are. We
are not on the ground. We are in the air. And my
Superiors, respectfully, just won’t come fly with
me. Maybe they don’t want to know. I don’t know.
But I say that with great respect. Because I love
my Employer with all of my heart, my Superiors
with all of my heart. But I love my customers and
my crew members with all of my heart.
I work with them and I take care of them. And if
I am being injured, I am like the canary in the

App.353a

mine. I have a duty and obligation to communicate
this to the best of my ability, with all due respect.
And I thank you, Your Honor.
HEARING OFFICER: Thank you.
Ms. Everett, just to clarify, because I did reference some
— a medical record from February 5, 2019, from
Dr. Hong, H-o-n-g.
There was also just submitted — or submitted in
this packet that I received, perhaps also recently
submitted to the claim file, there is a medical
record from Dr. Hong dated 8/2/2018, just so you
are aware. Just so we are all on the same page.
MS. ALESSIO: Yes, Your Honor. And if you take a look
at that, I haven’t been to the rheumatologist just
but twice in a year. Where I used to see him
during that 2014 to 2016 ongoing, along with an
occupational medicine doctor and PCP’s and
allergists and immunologists.
And I am grateful that a couple of the products
have been removed. But let’s just not go halfway
with this. Let’s go all the way with this and really
give the customers that are inflight and the crew
members that are inflight the full dignity and
respect that they deserve, that all these products
are transparent and safe. That actually the web
site of the products listed with their ingredients
is posted and placarded right next to the Federal
law that is at every single gate, at every single
podium before you board an aircraft, [sic That a
web site is provided to review the choice of
chemical substance products used in the Aircraft
Cabin with the full list of ingredients made avail­
able including the synthetic chemical fragrances,

App.354a

posted and placarded next to the “Federal Law
49 U.S. Code 5124”] placard, at every single gate/
podium before you board an aircraft, for trans­
parency.
It is just my hope and prayer.
HEARING OFFICER: Thank you. Ms. Everett?
MS. EVERETT: I just wanted to address this 11/24/14
report of Dr. Jeff Kirschman —
HEARING OFFICER: Uh-hum.
MS. EVERETT: — that Ms. Alessio has read from. That
report was previously rejected by the Industrial
Commission in Claim #14-853863, among others,
because it is contradictory to other things that Dr.
Kirschman has written in this claim.
In fact, he cites his previous report where he says,
“There is no substantial aggravation.” And then
he goes on to try to correct himself. So his report
was rejected by the Industrial Commission.
That particular report also predates this date of
injury by about two years. And so I fail to see how
it is relevant.
In addition, that same report relies upon some
testing that was done by Dr. Silver. But if you
look at Dr. Silver’s June 2nd report, which was in
Claim # — I will give you the claim number in a
minute. It states—
MS. ALESSIO: This document here. (Indicating.) You
have it.
HEARING OFFICER: Okay.

App.355a

MS. EVERETT: It states, “Overall, I was unable to
confirm exacerbation of arthritis with a 100 percent
certainty. Moreover, as the science stands today,
there is no plausible mechanism to directly link
the exposure to fragrance and autoimmunity of
rheumatoid disease.”
And then he says, “It is possible that it causes her
problems.” So “possible” is not a medical opinion
of reasonable certainty, which is required by the
Industrial Commission and in any — any legal
case.
We are not here to talk about possibilities. We are
here to talk about medical probabilities. And
clearly Dr. Silver has expressed his opinion that
as the science stands today, there is no plausible
mechanism to basically support Ms. Alessio’s
theory of her case.
And it is really based upon Dr. Silver’s reports
that, you know, all of these previous claims have
been denied. And so I think you have all of that
information. I think we have gone over it.
So I just wanted to point out those two things.
And let’s see. Dr. Silver’s report is in Claim #14813107. But I think that, from what I can see, it
has been pulled into your hearing folder in this
case, so —
HEARING OFFICER: Thank you.
MS. EVERETT: Uh-hum.
MS. ALESSIO: Your Honor?
HEARING OFFICER: Yes, Ms. Alessio.

App.356a

MS. ALESSIO: With great respect, to the previous
claims that were heard in this letter have been
read in the past and denied.
With great respect, due to the fact that this is a
new work injury that has never been heard to the
District Hearing Officer for support of medical
evidence. These claims are all heard with. There­
fore, you have the opportunity to actually look at
this and re-evaluate substantial aggravation as
being the legal term for allowance, with respect to
work injury.
Also, the facts are the facts. I believe that the
facts overrule opinions, even if they are medical
opinions. The facts are the facts.
And if you look at the June 11, 2014’s handout
that I gave you, it has the chart of when I began
my Ambient Exposure Challenge test in the
doctor’s office room, exposed to the air freshener;
that the fact states — remember, the facts are the
facts. And the fact states, and I quote, “The joint
circumference had increased.”
So if you — I don’t — I can’t sit here and make my
hands swell. I can’t do that. It takes something to
aggravate my hands. And the facts are the facts.
And it is written right here.
So I would like for you to review the facts over the
opinions, and prevail with facts with your deci­
sion-making over opinions, whether they be med­
ical or personal by any of us.
Thank you, Your Honor.
HEARING OFFICER: Thank you.

App.357a

And just to clarify a little bit, the previous claims
that you have filed and have been ruled on, or
adjudicated at the Industrial Commission, they
are what is called “reference claim files.”
So those determinations, you know, all are admin­
istratively final. And I will review those claims.
MS. ALESSIO: Because, Your Honor —
HEARING OFFICER: And I have begun — I have been
in every one of those claim files to review them. I
will review them some more.
Just so you know, it is called a reference claim
file. They are not heard with in the sense that — I
am only adjudicating today your application that
is pending in Claim #16-113538.
MS. ALESSIO: Yes, sir. But —
HEARING OFFICER: I do have, as reference files,
those other claims.
MS. ALESSIO: Will you please make it very — you
know, a conscientious effort to note that when you
are looking at this particular and unique work
injury, 16-113538, today —
HEARING OFFICER: Yes.
MS. ALESSIO: — that this Ambient Exposure Challenge
Test, and the doctor’s note here, also from the
Occupational Medicine doctor, that that product
that they are talking about, the air freshener disc,
is the exact product that is being relayed in this
work injury. It is not anything new and different.
It is those products that were used back then, that
I was subjected to with all these claims. I haven’t

App.358a

been removed off of a work trip since November
16, 2016.
Since this work injury claim, I have not been
removed off of a trip. I have been able to stay at
work and make a living. This is important. But
please make note that there are still chemical use
of substances, you know, by the, you know,
respectful Superiors, that are inside the Aircraft
Cabin.
And so that is why I go forward at the Sixth
Circuit Court of Appeals. But for today’s hearing— I
have gone to every one of my hearings, because I
have to do this. This isn’t something that I can
just turn my back and walk away from. I can’t go
find another job. I love what I do for a living.
I want to be able to come to work and not have to
worry about my health or anybody else’s. Because
they are breathing the same air I am breathing.
So this is about justice, rightness for everyone
involved in this environment.
So I do thank you for your time. And I just wanted
to make sure that you knew that my work injury
today, and those products that are mentioned on
the First Report of Injury, are related to these
documents that I have clearly quoted today — in
today’s hearing.
HEARING OFFICER: I will review all of the claim
files and the documents.
And just to clarify, the exposure you are alleging
in this claim is November 16, 2016?
MS. ALESSIO: Correct. To the air freshener disc that —

App.359a

HEARING OFFICER: The four listed on your applica­
tion? I am sorry to interrupt you.
MS. ALESSIO: No. I am sorry.
HEARING OFFICER: No. You are fine. You had started
to reiterate the four exposures. You were saying
the disc — the Flight Fresh Deodorant Disc, the
JetScent Pump Spray, the cleaning spray, and then
the Triclosan Hand Soap?
MS. ALESSIO: That is correct. All four products. The
first day was when three of the air freshener discs
were on board the aircraft. The rest of the trip, of
the four-day trip, yes, the products were all on
board the aircraft and used. And not by me.
HEARING OFFICER: Okay. Was that flight 1612 is
what you are saying?
MS. ALESSIO: Yes.
HEARING OFFICER: That was the flight 1612?
MS. ALESSIO: Yes. It is written in my Irregular Oper­
ations Report, from Tampa to Newark.
HEARING OFFICER: Thank you.
MS. ALESSIO: Thank you.
HEARING OFFICER: Ms. Everett, anything else?
MS. EVERETT: No.
HEARING OFFICER: I am just looking at the court
reporter. She is still sitting there typing away.
All right. Unless there are any other comments,
the hearing is concluded.
MS. ALESSIO: I would like to do a Closing Statement.
HEARING OFFICER: You may.

App.360a

MS. ALESSIO: ‘TOUR HONOR and with great respect,
I would like to recite The AMERICAN’S CREED. It
is by William Tyler Page and written in 1917,
accepted by the United States House of Repre­
sentatives on April 3, 1918.”
I quote, “I believe in the United States of America
as a government of the people, by the people, for
the people; whose just powers are derived from
the consent of the governed, a democracy in a
republic, a sovereign Nation of many sovereign
States; a perfect union, one and inseparable; estab­
lished upon those principles of freedom, equality,
justice, and humanity for which American patriots
sacrificed their lives and fortunes.
“I therefore believe it is my duty to my country to
love it, to support its Constitution, to obey its
laws, to respect its flag, and to defend it against
all enemies.”
“WITH GREAT RESPECT, YOUR HONOR,
“MY CLOSING STATEMENT:
‘With great respect, I love United Airlines and my
Flight Attendant Career.
With great respect, I love the Global Air Traveling
Public, you are so very special to me, you are
Family.
“With great respect, I love and believe in the
United States of America.
“With great respect, I love, believe and trust in
GOD, the Father Almighty, creator of Heaven and
Earth.

App.361a

“With great respect, I believe in Faith, Hope and
Love.
“With great respect, I believe in our U.S. Consti­
tution to Protect the People.
“With great respect, I believe with the dignity and
respect the Global Air Traveling Public deserves,
that pure and simple, safe and transparent,
Aircraft Cabin Air Quality products for a more
pleasant flying experience across America and
around the World, will prevail one day.
“With respect to my Opening Statement and Clo­
sing Statement, I will be respectfully submitting
them both, and complete, to the Ohio Industrial
Commission to provide insight, clarity and under­
standing for a fair, right and just hearing.
“Sincerely, Tina.”
HEARING OFFICER: Thank you. Just to clarify, you
said you are going to submit your outline, too?
MS. ALESSIO: I am. I am going to submit my Opening
Statement, my Closing Statement and my brief
that I have read today.
HEARING OFFICER: Very good. You can do that at
the front desk.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Make sure the claim numbers
are on it.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: You probably already have them
on there, your name and claim number.
Ms. Everett, anything else?

App.362a

MS. EVERETT: No.
HEARING OFFICER: All right. Anything else, Ms.
Alessio?
MS. ALESSIO: No. Thank you for listening.
HEARING OFFICER: You’re welcome.
All right. This hearing is concluded. What I will
do is I will review what has been presented and
argued today. I will review the reference claim
files, as well as this pending claim file. I might
take it under advisement.
But, in the meantime, I will get the order out as
soon as I can, after I review everything further
and consider everything that has been argued.
Any questions?
MS. ALESSIO: No.
MS. EVERETT: Nope. Thank you.
HEARING OFFICER: Thank you.
MS. ALESSIO: Thank you.
HEARING OFFICER: All right. The hearing is conclu­
ded. Thank you, Court Reporter.
(Thereupon, the hearing was
concluded at 10:51 a. m.)

App.363a

CHAPTER TWO
STAFF HEARING — COURT REPORT
(MARCH 27, 2019) l
Notice of Hearing
Claim heard: 16-113538
Frank J. Lausche/State Office Bldg.
Cleveland Industrial Commission
615 West Superior Avenue
Room 2, Floor 5th
Cleveland, Ohio 44113
3/27/2019 at 9:00am
Issue to be Heard:
l) Injury or Occupational Disease Allowance

1 Errata in the original transcript have been noted in the body of
the text.

App.364a

BEFORE THE
INDUSTRIAL COMMISSION OF OHIO

CHRISTINA ALESSIO,
Claimant,
v.
UNITED AIRLINES, INC.,
Employer.
Claim No. 16-113538
BE IT REMEMBERED, that upon the hearing of the
above-entitled matter, held at the Cleveland Indus­
trial Commission, Frank J. Lausche/State Office Build­
ing, 615 West Superior Avenue, 5th Floor, Room 2,
Cleveland, Ohio, before the Staff Hearing Officer Oleh
Mahlay, Presiding, and commencing on Wednesday,
the 27th day of March, 2019, at 9:02 o’clock a.m., at
which time the following proceedings were had.
APPEARANCES:
On Behalf of the Claimant:
(Pro Se) Christina Alessio
(redacted per the Claimant’s request.)
On Behalf of the Employer:

VORYS, SATER, SEYMOUR AND PEASE, LLP

App.365a

By: Margaret D. Everett, Attorney at Law
200 Public Square
Suite 1400
Cleveland, Ohio 44114
216/479-6102
Mdeverett@vory s .com
HEARING OFFICER: Okay. Good morning. My name
is Mr. Mahlay. I am the Hearing Officer. I will be
making the decision on this issue.
We have a court reporter here. So present we have
the injured worker, Ms. Alessio. And on behalf of the
Employer, we have their counsel, Ms. Everett.
And before we get started, just a couple of pre­
liminary things, just some housekeeping issues. I
saw that there was a subpoena request. And that
was denied by the Hearing Administrator. So I do
not have jurisdiction to re-address that, or
address that, so I note — I want to note that.
There was a — I think MSDS sheets that were put
in — that is Material Safety Data Sheets — that
were put in a few days ago. Ms. Everett, I don’t
know if you saw that.
That was, I think — Ms. Alessio, you supplied
those, correct?
MS. ALESSIO: Yes, sir.
HEARING OFFICER: I don’t know if you saw that, Ms.
Everett?
MS. EVERETT: I did.
HEARING OFFICER: Okay. And anything else? Any­
thing additional? Any new evidence that you are
supplying, Ms. Alessio? Anything else?

App.366a

MS. ALESSIO: I have a procedural issue I would like
to request.
HEARING OFFICER: Okay. We will get to that in a
second.
Let me just ask Ms. Everett, do you have anything?
MS. EVERETT: Documents?
HEARING OFFICER: Yes. Any new documents or
anything —
MS. EVERETT: Nuh-hum.
HEARING OFFICER: Just so we are on the same page
on that.
And before we get started, let’s just — since you
are going to be testifying, let’s just have you be
sworn in. And then you can go ahead with your
procedural issue.
CHRISTINA ALESSIO of lawful age, the Claimant
herein, having been first duly sworn, as hereinafter
testified and said as follows:
HEARING OFFICER: Ms. Alessio, why don’t you go
ahead? You said you have a procedural issue?
MS. ALESSIO: Your Honor, and with great respect, I
am respectfully requesting a Motion for Continu­
ance. Here is a copy of my doctor’s appointment
scheduled April 2, 2019.
This appointment was made as a follow-up with
respect to the District Hearing Officer’s conclusion
of insufficient evidence. The appointment is to
provide a health care review from 2014 history-

App.367a

to-date with my rheumatologist. Substantial cir­
cumstances have taken place, of which I would
like to demonstrate in my hearing.
May I have your permission to attend my doctor’s
appointment on April 2nd before the Staff Hearing?
HEARING OFFICER: Well, I saw that. This continu­
ance request was made by the Hearing — to the
Hearing Administrator — let me just take a look at
this again. I think you made it last week, maybe?
Does that sound right? There was a request for a
continuance —
MS. ALESSIO: March 14th I believe it was.
HEARING OFFICER: Yes. Sorry. March 14th. And the
Hearing Administrator denied it for the same
reason. My hands are tied. When the Hearing
Administrator decides that I, regrettably, cannot
reverse that. So I have to deny that, because the
Hearing Administrator has ruled on that based
on that specific request, because of that medical
appointment that you have next week. So I am
going to have to deny that request, ma’am.
MS. ALESSIO: Your Honor, may I have permission to
submit today’s Staff Hearing transcript within one
week due to my work schedule?
HEARING OFFICER: Sure. Yes, that is pursuant to
the Commission policy. That is fine. You have
seven days, so that is not an issue.
MS. ALESSIO: Okay. I have an Opening Statement.
HEARING OFFICER: Go ahead.
(Thereupon, the following Opening Statement
was read by Ms. Alessio as follows:)

App.368a

MS. ALESSIO: “I would like to begin my Opening
Statement by acknowledging the presence of our
Great American Flag in our hearing room today,
by standing with my right hand over my heart for
the love of our Country, and gratefully recite:
“The Pledge of Allegiance”. Please, feel welcome
to join.”
I pledge allegiance to the Flag of the United States
of America, and to the Republic for which it
stands, one Nation under God, indivisible, with
liberty and justice for all.
Thank you, Your Honor.
HEARING OFFICER: Thank you.
MS. ALESSIO: “With respect, I would also like to take
this opportunity to thank the Staff Hearing
Officer Oleh Mahlay, —”
HEARING OFFICER: Uh-hum.
MS. ALESSIO: “ — my Employers Legal Representative,
Ms. Margaret Everett, and today’s hearing Court
Reporter Ms. Jerri Wheat.
“Thank you all for your time today.
“My Closing statement will take less than five
minutes. Therefore, my Opening Statement will
continue.
“With respect, District Hearing held February 7,
2019, for Claim # 16-113538, has been denied and
disallowed, due to lack of sufficient evidence.
“YOUR HONOR and with great respect,
“To the best of my ability, I summarized and
demonstrated a combination of 53 [szb #34 of “53”]

App.369a
supporting FACTS, EVIDENCE and MEDICAL
OPINION, in my District Hearing held February
7, 2019, in support that my Claim # 16-113538
should be granted allowance.
“With respect, today’s Staff Hearing will be to
demonstrate to the best of my ability that the use
of “Chemical Substance Products” in the Aircraft
Cabin should be against the law. Certain
chemicals are not safe, unhealthy and can cause
harm resulting in injury and/or illness, in this
rather unique and particular environment.
‘YOUR HONOR
‘With great respect to my Employer, whom I will
refer to as my “Superiors” in todays hearing, have
always been welcome to my hearings as with great
respect this is about situational awareness and
communication regarding the Aircraft Cabin
Environment to avoid any and all injury/illness
with respect to Health, Welfare, Safety and Secu­
rity, for First Responder Inflight Crew Members,
like myself, and our most very valuable and
precious Global Air-Traveling Customers.
‘With respect, my first and foremost work duty
and job responsibility description, is Safety.
Safety of our Inflight Customers and Inflight
Crew Members in the Aircraft Cabin.
“Respectfully, I have followed my “Superiors” Pol­
icies and Procedures communicating a Safety con­
cern with Chemical Substance Products used in
the Aircraft Cabin.

App.370a
“With great respect to my “Superiors”, Chemical
Substance Products have been approved by my
“Superiors”, for use in the Aircraft Cabin.
“YOUR HONOR and with great respect,
“Federal Law 49 U.S. Code 5124, forbids hazard
materials onboard the Aircraft.
“YOUR HONOR and with great respect,
“The NOTICE OF HEARING letter for Claim #
16-113538, states in part and I quote: “YOU ARE
URGED TO BE PRESENT AND TO INTRODUCE
ALL TESTIMONY AND EVIDENCE PERTIN­
ENT TO YOUR POSITION ON THIS MATTER.”
“YOUR HONOR and with great respect,
“Therefore, I must introduce to you new evidence
pertinent to my position on this matter with
respect to Claim # 16-113538 and my “Superiors”
approval use of Chemical Substance Products used
in the Aircraft Cabin.
“On February 6, 2019, my PRO SE APPELLANT
BRIEF was entered at the SIXTH CIRCUIT
COURT OF APPEALS.
“Case Number: 18-4251
“Please note: my PRO SE APPELLANT BRIEF
was read at the District Hearing for Claim #16113538, on February 7, 2019, which was Court
Reported and available for Public opinion.
“March 11, 2019, Legal Counsel for my “Superiors”
entered their APPELLEE BRIEF at the SIXTH
CIRCUIT COURT OF APPEALS.

App.371a

“March 22, 2019, my PRO SE APPELLANT RES­
PONSE BRIEF was entered at the SIXTH
CIRCUIT COURT OF APPEALS.
“And with great respect, it reads,
“Respectfully, requesting a judicial review of the
lower Courts Judgement. MAY THE COURT BE
PLEASED with the PRO SE APPELLANT’S
RESPONSE BRIEF
‘YOUR HONOR and with great respect:
“This case is about LIFE, LIBERTY and the
pursuit for RIGHTEOUSNESS at 30,000 feet.
“The APPELLANT’S “Notice of Appeal”: filed
12/18/2019, at the FEDERAL DISTRICT COURT,
respectfully communicates that the wrong law was
applied.
“For reasons respectfully written in the APPEL­
LANT’S BRIEF filed February 6, 2019 (Document
8, pages 1-16), APPELLANT is respectfully
requesting the ability for all Evidence and Facts be
affirmed and reviewed at the SIXTH CIRCUIT
COURT OF APPEALS, applying the correct law,
for simple Human Rights and valid Civil Rights.
‘YOUR HONOR and with great respect: “APPEL­
LANT’S BRIEF, and “Notice of Appeal” correct
law is based on a Federal Law.
“A Federal Law which forbids harmful, hazard
materials aboard Commercial Aircraft encom­
passing, for the Safety, Health and Security of the
Global Air-Traveling Public. A pure and simple
summary, stated with dignity and respect.

App.372a

“Federal Law 49 U.S. Code 5124, is the correct
Rule of Law whereby the APPELLANT is res­
pectfully seeking affirmation from the Court, with
a verification of compliance and transparency from
the APPELLEE, to avoid any and all illness/injury
in this unique and particular environment.
“YOUR HONOR and with great respect: “100%
Compliance and 100% Transparency is paramount
for the Safety, Health and Security of the Global
Air-Traveling Public.
“With respect, APPELLANT’S #1 Work Duty and
responsibility is to ensure a Safe environment for
the sake of the Air-Traveling Public.
“Respectfully, APPELLANT has provided insight
and clarity for this case:
“1. Evidence — Written Medical Documents of
Work illness/injury experiences.
“2. Facts — Written Documents, supporting the
need for Congressional Oversight with the Federal
Rule of Law — 49 United States Code 5124.
“APPELLANT’S BRIEF respectful action/outcome
requests for the SIXTH CIRCUIT COURT OF
APPEALS was to affirm and review this case, and
respond with the following to what the APPEL­
LANT believes to be fair, right and just under and
accordance with the Rule of Law:
“1. Congressional Oversight and Compliance with
Federal Law 49 U.S. Code 5124. New legislation,
if necessary. With respect, no use of “chemical airfresheners in the Aircraft Cabin”.

App.373a

“2. Aircraft Cabin Products must be made Non­
toxic, Chemical-Free, 100% Safe, 100% Trans­
parent with a “Certificate of Compliance” and full
access to all product ingredients. Appellant
believes sincerely, this is a Civil and Human
“Right to Know”.
“Therefore, not only upholding the Federal Law,
but also the United States Constitution, “Supreme
Law of the Land”, to Protect the People.
“3. Aircraft Cabins are “Smoke-Free” by Federal
Law, shouldn’t and wouldn’t then Aircraft Cabins
be “Chemical-Free” following Federal Law? Appel­
lant believes smoking and chemical air-fresheners
to be one in the same and can harm the AirTraveling Public’s Safety, Health and Security.
“Respectfully, would using “Chemical Air-Freshe­
ners” inside the Aircraft Cabin at 30,000 feet,
constitute as involuntary “Chemical Substance
Abuse”?
“With great respect to the Appellee, I believe using
“chemical substance air-fresheners” inside the
Aircraft Cabin, a sincere physical assault on our
health. Respectfully, I believe this practice is not
helping but hurting, our unresolved plan for great
“Healthcare” in our great Country.
“YOUR HONOR and with great respect:
“The APPELLEE’S RESPONSE BRIEF “CON­
CLUSION” filed March 11, 2019, understood at
“PRO SE” best, is requesting the Court to dismiss
APPELLANT’S case in its entirety.
“Dismiss with prejudice the Appellant’s Complaint,
Amended Complaint, including “STRICKENED”

App.374a

information and denied Public Court Report
Records, while applying the wrong law respectfully
submitted to the Federal District Court.
“Appellee also requesting a Motion to Strike Appel­
lant’s Brief, Appendix, Sealed Appendix, and
Addendum, to be heard at the Sixth Circuit Court
of Appeals, based on the wrong law.
“To the best of the PRO SE ability, APPELLANT
believes this to be true.
“RESPECTFUL ARGUMENT #1
“APPELLEE’S RESPONSE BRIEF: filed on March
11, 2019, is applying the wrong law, respectfully.
“APPELLANT’S originating “Complaint” filed 7/
7/2017, Case # 5:17-cv-01426, ends with a “Notice
of Appeal” filed 12/18/2018 at the FEDERAL DIS­
TRICT COURT, based on the wrong law applied,
respectfully.
“APPELLANT’S BRIEF (Document 8, pages 1-16),
filed February 6, 2019, was respectfully submitted
for the opportunity for Evidence and Facts be
affirmed and reviewed at the SIXTH CIRCUIT
COURT OF APPEALS, based on the correct law,
Federal Law 49 U.S. Code 5124.
“APPELLEE’S RESPONSE BRIEF (Document 13,
pages l-3l), respectfully, states the wrong law up
to 26 times.
“APPELLEE’S RESPONSE BRIEF applies the
American’s with Disabilities Act (ADA), and can
be found on pages:
“Table of Contents (ii), 1, 2, 4, 5, 6, 9, 10, 11, 12,
13, 14, 15, 16.

App.375a

“APPELLANT is respectfully requesting the Court,
where American’s with Disabilities Act (ADA) is
stated and applied in APPELLEE’S RESPONSE
BRIEF, be respectfully dismissed, without preju­
dice as this is the wrong law applied, with respect
to this case.
“RESPECTFUL ARGUMENT #2
“With great respect, point in case from the
APPELLEE’S RESPONSE BRIEF is the reference
“TABLE OF AUTHORITIES”, (Document 13, page
4-5) Table of Contents (page iii), listing up to 28
Reference Cases.
“APPELLANT believes merit is necessary for
Reference Cases, with respect to this case.
“Respectfully, in order to have merit with respect
to this case, the Reference Case must consist of 2
factors for a true comparison.
“1. FEDERAL LAW:
“Respectfully, Reference Cases must not be Local
or State Law, rather Federal Law and relating
only to Federal Law 49 U.S. Code 5124, due to the
particular and unique environment location.
“2. LOCATION OF ENVIRONMENT:
“Respectfully, Reference Cases of incident, accident
and/or illness, injury must have same location
environment. Location — Inflight. With respect,
this is due to the fact that APPELLANT’S work
environment is not on the ground, but in the air.
Hence, Federal Law, respectfully.
“Respectfully, APPELLANT requests for any Case
Reference in the APPELLEE’S RESPONSE

App.376a

BRIEF, that does not provide Federal Law 49 U.S.
Code 5124 and Location — Inflight Factors men­
tioned above, may the Court rule the Reference
Case be dismissed without prejudice for a fair,
true, right and just comparison.
“RESPECTFUL ARGUMENT #3
“With great respect, point in case from the
APPELLEE’S RESPONSE BRIEF is the reference,
titled:
“DESIGNATION OF RELEVANT DISTRICT
COURT DOCUMENTS”, (Document 13, page 31),
listing the following:
“Record Entry Number: 1-35.
“Date: 7/7/2017 to 12/18/2018.
“Description: History of Complaint filed 7/7/2017
to Notice of Appeal filed 12/18/2018. Evidence and
Facts the APPELLANT respectfully submitted, at
the FEDERAL DISTRICT COURT.
“Respectfully, the FEDERAL DISTRICT COURT’S
ORDER was based on American’s with Disabilities
Act (ADA), which was the wrong law applied with
respect to the APPELLANT’S case.
“Therefore, APPELLANT is respectfully requesting
Case File #5:17-CV-01426, in its entirety be
affirmed as having good cause and valid merit for
review at the SIXTH CIRCUIT COURT OF
APPEALS, based on the correct law: Federal Law
49 U.S. Code 5124.
“RESPECTFUL ARGUMENT #4
“APPELLEE’S RESPONSE BRIEF (Document 13,
page 7, paragraph 2), references, APPELLANT’S

App.377a
appeal with respect to APPELLEE’S use of “chem­
ical air-fresheners and other chemical products
inside the aircraft cabin.”
“With respect, the APPELLEE has not clearly and
distinctly stated that in fact the Onboard Aircraft
Cabin Chemical Substance Products are in
compliance with Federal Law 49 U.S. Code 5124.
“With great respect, maybe because APPELLEE
might be unaware and/or unable to provide assu­
rance with the Rule of Law?
“RESPECTFUL ARGUMENT #5
‘With great respect, point in case, APPELLEE’S
RESPONSE BRIEF has written nowhere, that the
APPELLEE is in fact, in compliance with Federal
Law 49 U.S. Code 5124, using Onboard Chemical
Air-Fresheners and other Chemical Substance
Products in the Aircraft Cabin for all Inflight
Crew Members and Inflight Customers to breathe
during the whole flight.
“Respectfully as of today, Onboard Aircraft Cabin
Products are not an open — are an open secret, not
all visible and insight. With respect, however,
some Onboard Aircraft Cabin Product Ingredients
are withheld and may have Classified Informa­
tion. With great respect to the APPELLEE, may
the APPELLANT ask why the hidden ingredients,
and for the APPELLEE to answer? With respect
and in specific, why not be 100% Transparent?
“BUILDING TRUST with the Global Air-Traveling
Public is paramount.
“Respectfully, APPELLANT believes full disclosure
is necessary, from the APPELLEE to the Global

App.378a
Air-Traveling Public. With respect, communicating
all Onboard Aircraft Cabin Products are in
compliance with the Rule of Law, 100% Safe, 100%
Transparent, for Inflight Crew Members to Inflight
Customers, Safety, Health and Security.
“APPELLANT believes this is a proper and rea­
sonable request for the APPELLEE.
“100% TRANSPARENCY = TRUST.
“Respectfully, APPELLANT’S duty and responsib­
ility is to ensure a Safe Environment.
“100% Transparency, in this particular and unique
case for all Air-Travelers, is the answer.
“Respectfully, the “Right to Know” is simply
becoming transparent with nothing to hide from
the Air-Traveller’s perspective, especially when it
revolves around Safety, Health and Security of
the Aircraft Cabin Air Quality.
“APPELLANT’S hope and prayer is APPELLEE
will be forthright wanting to provide a Certificate
of Compliance with the Rule of Law to the Onboard
Aircraft Cabin Products. Communicating 100%
Safe, 100% Transparency, simply because, it is
the right thing to do.
“IN CONCLUSION:
“APPELLANT, is respectfully requesting a com­
plete review of all Evidence and Facts respectfully
submitted to the Courts, applying the correct law:
Federal Law 49 U.S. Code 5124.
‘YOUR HONOR and with great respect:
“May the COURT be PLEASED with APPEL­
LANT’S request, that the SIXTH CIRCUIT COURT

App.379a

OF APPEALS, affirms and reviews all Evidence
and Facts in its entirety on the bases that, with
respect, the wrong law was applied.
“1. FEDERAL DISTRICT COURT
“Originating Case #5:17-cv-01426
“Filed 7/7/2017
“*Please reference APPELLEE’S RESPONSE
BRIEF (Document 13, page 31)
“DESIGNATION OF RELEVANT DISTRICT
COURT
DOCUMENTS”, which include:
“COMPLAINT
“AMENDED COMPLAINT
“STRICKENED DOCUMENTS
“NOTICE OF APPEAL
“Hereby, allowing all Evidence and Facts applying
the correct law: Federal Law 49 U.S. Code 5124,
for a fair, right and just order.
“May the COURT be PLEASED with APPEL­
LANT’S request, that the SIXTH CIRCUIT COURT
OF APPEALS, affirms and reviews all Evidence
and Facts in its entirety with the correct law
applied:
“Federal Law 49 U.S. Code 5124.
“2. SIXTH CIRCUIT COURT OF APPEALS
“Case: #18-4251
“Filed: 2/6/2019
“Documents include:

App.380a

“APPELLANT’S BRIEF
“COMPONENTS OF BRIEF (Appendix, Sealed
Appendix and Addendum)
“APPELLANT’S RESPONSE BRIEF
“Hereby, allowing the Evidence and Facts applying
the correct law: Federal Law 49 U.S. Code 5124,
for 100% Safe, 100% Transparent with Onboard
Aircraft Cabin Products, verification and certifi­
cation of compliance with the Rule of Law, for a
fair, right and just order.
“SPECIAL REQUEST
“In the foregoing days, APPELLANT will be
respectfully attending a Staff Hearing for a 20th
work injury, Claim #16-113538. Respectfully,
awaiting the approval of a Subpoena Request for
the Material Safety Data Sheets, to any update
Onboard Aircraft Cabin Products.
“A total of 19 work injuries occurred within a 2
year period, from 2014 to 2016. And 19 out of the
20 were due to chemical substance products used
inside the Aircraft Cabin, approved by the
APPELLEE.
“With great respect to the SIXTH CIRCUIT
COURT OF APPEALS, the PRO SE APPEL­
LANT’S RESPONSE BRIEF, will be read at the
Staff Hearing. The hearing will be Court Reported
and available for Public Opinion for the truth be
told.
“APPELLANT’S BRIEF RESPONSE CLOSING
“YOUR HONOR and with great respect:

App.381a
“APPELLANT believes it is truly fair, right and
just for LIFE, LIBERTY and the pursuit for
RIGHTEOUSNESS always and everywhere,
especially respectfully, at 30,000 feet, please.
“Respectfully, I certify that a copy of Appellant’s
Response Brief was sent to opposing counsel via
Priority Mail, on the 21th [sic '21st”] day of March,
2019.
“Sincerely, Christina Alessio.”
“PLEASE NOTE:
“With respect to Case #18-4251 at the SIXTH
CIRCUIT COURT OF APPEALS, a correction for
the record: March 11, 2019, electronically entered,
I believe was the “APPELLEE BRIEF’. The
“APPELLEE RESPONSE BRIEF” has not been
submitted as of this hearing.
“CLAIM #16-113538
‘YOUR HONOR and with great respect, in today’s
Staff Hearing it is important to note for the record
that all 19 previous hand and wrist work injury
Claims, were requested by my “Superiors” Legal
Representative to be “heard with”, due to the fact
that the same body part was injured. All 19
claims have been denied and disallowed, as it is
my understanding, denied and disallowed due to
lack of evidence.
“In summary and with respect, the total of 20 Work
Injury Claims have all been provided with Medi­
cal Documentation respectfully submitted for
insight, clarity and understanding to prove that
the use of “Chemical Substance Products” in the
Aircraft Cabin should be against the law.

App.382a

“2010, 1st Work Injury Claim, due to a Chemical
Aerosol Air-Freshener Spray, approved by my
“Superiors” and used in the Aircraft Cabin. Out­
come — product was Removed
“2014, 5 more Work Injury Claims, due to Chemical
Air-Freshener Disks, Chemical Air-Freshener
Pump Spray, Chemical Sanitizer Spray and a
Chemical No Rinse Hand Soap, all approved by my
“Superiors” and used in the Aircraft Cabin.
Outcome — Chemical Air-Freshener Disk, Discon­
tinued and Removed — in October 2014
“2015, 10 more Work Injury Claims, due to
Chemical Air-Freshener Spray, Chemical Sanitizer
Spray, Chemical Hand Soap and the reoccurring
of the 2014 Discontinued and Removed Chemical
Air-Freshener Disk, used in the Aircraft Cabin.
“2016, 1 Work Injury Claim — due to performing
CPR at my “Superiors” Training Facility. Sprained
both hands and wrists. Claim was disallowed.
Legal Representative for my “Superiors” commu­
nicated that I came to work injured.”
Claim 16-807292, District Hearing April 19, 2016.
Please note, on page 44, line 6 through 9, it states
from my “Superiors” Legal Representative,” It is
the “Employer’s position that she came to work
injured for that testing, and then proceeded to
attempt the testing and she was unable to com­
plete it.”
The same page 44, line 17 through 19, “So it is the
Employer’s position that an injury did not take
place. That she has this prior problem.”

App.383a
“Respectfully, Rheumatoid Arthritis (RA)” — is
my problem and — ”is not an injury, but a disease.
With respect and for the record, I came to work
with RA, and resulted in sprained hands and
wrists performing CPR at my “Superiors” Training
Facility. Never have I ever sprained my hands or
wrists before until that day in training. Claim
#16-807292 was Court Reported and of Public
Record for your reference,” Your Honor.
“2016, 3 more Work Injury Claims (including
todays claim) — due to exposure to Chemical AirFreshener Spray, Chemical Sanitizer Spray, Chem­
ical Hand Soap, and the reoccurring 2014 Discon­
tinued and Removed Chemical Air-Freshener Disk,
used in the Aircraft Cabin.
“Respectfully, if only my “Superiors” would choose
not to approve “Chemical Substance Products” for
use in the Aircraft Cabin. If only that were the
case, I believe there would have been zero work
injuries in the Aircraft Cabin.
“FACTS, EVIDENCE and MEDICAL OPINION,
have all been respectfully submitted and demon­
strated to the best of my ability.
‘TOUR HONOR, and with great respect,
“To try and further demonstrate the RULE of
LAW, with respect to all 19 Work Injury Claims,
including todays 20th Work Injury Claim #16113538, circumstances will be in accordance and
with reference to 49 United States Code 5124.
“With great respect and as of this hearing today,
I believe there is no Congressional Oversight with
Rule of Law 49 U.S. Code 5124.1 truly believe there

App.384a

is no “Certificate of Compliance” with this Rule of
Law and my “Superiors” approval use of “Chem­
ical Substance Products” in the Aircraft Cabin.
“The simple reason I believe this to be true, is that
I have not been able to receive a response as to
whether or not my “Superiors” approval use of
“Chemical Substance Products” in the Aircraft
Cabin is in fact, 100% in compliance with Rule of
Law, 49 U.S. Code 5124.
“Respectfully, no response.
“YOUR HONOR and with great respect, if there
is no “Certificate of Compliance”, isn’t this enough
burden of proof?
“With respect, wouldn’t the lack of a “Certificate
of Compliance” be sufficient evidence?
“In search for the truth and transparency, here
are more respectful further facts and evidence for
the record, however, facts and evidence requested
to only be denied, or no response.
“With respect, pure denial of the facts and evi­
dence, or denied the facts and the evidence due to
no response, is sufficient evidence for allowance.
May the truth be told.
“I begin with RULE OF LAW:
“l) 49 U.S. Code 5124 — a Federal Law — Forbids
hazard materials aboard the Aircraft. “Date of
Injury: November 16, 2016 “Description of Injury:
Swollen hands, stiffness, and a rash
HEARING OFFICER: For the record, the Injured
Worker showed a photograph, that is in the file,
showing her hands.

App.385a

MS. ALESSIO: A picture of my hands at home, in my
normal arthritic state. And my picture at work,
with substantial aggravation, to my problem.
MS. EVERETT: And what is the date of the photos?
HEARING OFFICER: What are the dates of the photos,
ma’am?
MS. ALESSIO: July 4, 2015, and June 8, 2015.
HEARING OFFICER: And just so we know, did you
take those pictures, or did somebody else?
MS. ALESSIO: I personally took these pictures at
home and at work, with a digital camera on an
SD card.
HEARING OFFICER: Okay. Thank you.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Continue, ma’am.
MS. ALESSIO: “3” Chemical Air-Freshener Disks were
onboard November 16, 2016. This “product was
discontinued and removed in October 2014
“Note: The following were also onboard and present
during my four day trip 11/15 to 11/17/2016.
“Chemical Air-Freshener Spray
“Chemical #3 Sanitizer Spray
“Chemical Triclosan Hand Soap
‘YOUR HONOR and with respect, here are further
facts and evidence requested, but have been denied
or no response.
“2) A request to the Ohio Industrial Commission,
letter reads:

App.386a

“In part and I quote:
“March 14, 2019
“RE: Respectful “Motion for Continuance” provid­
ing Doctors Confirmation Appointment
“With respect, I have provided for you a confirm­
ation of my Doctors appointment scheduled on April
2, 2019. This appointment was the earliest I could
consult with my Doctor regarding my District
Hearing claim being denied and disallowed.
Respectfully, my claim was denied and disallowed
due to the District Hearing Officers conclusion,
having lack of sufficient evidence. With respect, I
would like my Doctors most present medical
opinion of my work injury, history to date. I
believe my Doctors present medical opinion and
review, history to date, to be pertinent evidence in
support to my work injury claim being allowed and
approved.
‘RE: Respectful “Subpoena Request” for submission
as pertinent evidence and discovery for Staff
Hearing.
“Respectfully, I have been unsuccessful with my
request to my Employer to introduce and provide
evidence and discovery pertinent to my work injury
due to chemical overexposure in the Aircraft Cabin.
“With respect, I am providing for you # 1” — the
e-mails I actually submitted to the Industrial
Commission. That is to be noted. Everything that
I am going over right now.
“1. Requested and denied the permission to sub­
mit my Employers response which included PDF
attachments communicating the Material Safety

App.387a
Data Sheets (MSDS) information and further
Confidential Information.” Why isn’t this avail­
able, transparent is concerning. [sic‘Why isn’t this
available and transparent? This is Concerning.”]
“Respectfully requesting the 3 PDF attachments
including Confidential Information and MSDS
information given to me by my Employer from
Irregular Operation Reports (IOR):#95261 and
#102354.”
With request to the beginning of this hearing, my
subpoena request has been denied. So this informa­
tion that I am going through right now is not
going to be available for myself or for the Hearing
Officer to review, or for that matter the Global AirTraveling Public, as this is a Court Reported
Public Record Hearing.
“2. Inflight Service Weekly, Policies and Proce­
dures dated February 20, 2019, requested and
denied by my Employer, the permission to submit
the instructions and directions given by my
Employer to a chemical substance product used in
the Aircraft Cabin.”
“I wrote a comment to my “Superiors” regarding
the instructions and directions to the new onboard
product.” It has been submitted respectfully to
the Industrial Commission. And I will read it
respectfully.
“With respect, internet communicates chemical
fragrance is the next second hand smoke. I believe
the Material Safety Data Sheet states the fra­
grance is a trade secret and withheld. Respectfully,
if the citrus fragrance is a chemical fragrance,

App.388a

would that be appropriate in our unique enviro­
nment? What about Mother Earth’s healthy and
transparent fragrances?”
“Respectfully, requesting the Inflight Weekly,
Policies and Procedures, dated February 20, 2019,
regarding the scented Lavatory Hand Soap.”
Subpoena request has been denied as of today.
“3. Flight Attendant Staffing and Sick Calls,
Monthly Statistics were provided in the past in
my Employers Monthly Operational Update
(MOU). With respect, I have provided for you a
few MOU’s from the past where it demonstrates
a very high sick call statistic per munt — per
month.”
This has been submitted to the Industrial Com­
mission respectfully.
“2010, April Inflight Staffing, 9,387. April Sick
Calls, 4,371.
“May Inflight Staffing, 9,372. Sick calls, 440 —
4,442.
“June Inflight Staffing, 9,348. June Sick Calls,
5,078.
“2011 MOU states January Inflight Staffing, 9,518.
January Sick Calls were 6,256.”
I would like to communicate this in specific due
to the fact that I believe my Employer’s Legal
Representative had stated in my previous hearings
in the past that were not Court Reported and of
Public Record that no one else is having an issue.
The percentage of Sick Calls with respect to the
percentage of Inflight Staffing is substantial.

App.389a

And with respect, when requested in this letter,
to continue to quote, “Respectfully, requesting up­
dated Flight Attendant Staffing and Sick Calls,
Monthly Statistics for the timeframe period of
2010 to 2019.”
This is to get a world of information as to are
these products, in fact, hurting, harming while in
flight.
HEARING OFFICER: Are you saying all of these — are
you alleging that all of these sick calls are due to
the chemicals on board?
MS. ALESSIO: I am not. It is a statistic —
HEARING OFFICER: Or you are — so what is the
correlation?
MS. ALESSIO: It is a statistic — excuse me. It is a
statistic to review for insight that maybe, which I
have in one of my other facts of evidence that I am
going to communicate, should there be a health
survey possibly to kind of know if these products
are having an issue? [sic “if these products are
causing an issue”] That this is, you know, a
number high enough that we should look into this?
It would raise a red flag for me if I was responsible
for, you know, the care of the Global Air-Traveling
Public in this environment, Inflight, exposed to
these products. Just a concerning fact to point.
HEARING OFFICER: Okay.
MS. ALESSIO: The letter ends up reading on March
14th, to the Ohio Industrial Commission: “With
great respect to my Employer, I believe that the

App.390a

information requested will provide pertinent evi­
dence and discovery that the Aircraft Cabin
Airworthiness Environment really and truly does
matter, to avoid any and all work injury — ill­
nesses and work injuries.”
“Respectfully,” as of today, the request for “the
Motion for Continuance was denied,” in the letter
to the Ohio Industrial Commission.
And with great respect, the subpoena request, as
well, has been denied.
“YOUR HONOR and with respect,
“3) [sic“4)”] Please allow me to read in part, an email
I wrote to Corporate Safety in search for answers
to concerning questions.
“In part and I quote:
“March 5, 2019
“SUBJECT: Internal Evaluation Assessment
“Thank you for the ability to allow me to commu­
nicate and “Safe to Say” a Safety and Health con­
cern, utilizing our Working Together Guidelines:
fostering open, honest and direct communication
with dignity and respect.
“Respectfully, I hope by providing you with the
Safety Data Sheet (SOS), to the Chemical
Substance Product used in the Aircraft Cabin
lavatories with trade secret ingredients, may be
reviewed and reconsidered due to our particular
and unique environment.
“With great respect to our Eco-Skies Program,
Global Inflight Crews and Inflight Customers
Safety and Health, it would be wonderful if there

App.391a

was New Legislation with a “Certificate of Com­
pliance” from our United States of America, 116th
Congress House Committees, showing that all
Commercial Aircraft Cabin Products have been
reviewed and approved 100% safe and 100%
transparent with complete list of ingredients
made available by request, including fragrances,
for a safer and healthier air-traveling environ­
ment.
“Respectfully, because I too, believe Safety is Top
Priority.”
“Respectfully” — that is unquote. “Respectfully, I
have received no further response from Corporate
Safety, nor any other department” with respect to
this email. Other than the response was at first
that he was going on vacation, to who it was
addressed to, and that he forwarded it to another
department. No one else has communicated back.
So he hasn’t since he has been back from vaca­
tion. I think he was getting back on the 18th of
this month, nor has any other department, for the
record, respectfully, [s/c missing “4) of the Record
of Facts and Evidence”]
“3) YOUR HONOR and with respect,
“Please allow me to read inpart [sic In part”], an
email I wrote to the President of the Association
of Flight Attendants, in search for concern­
ing — in search for answers to concerning
questions.
“SUBJECT: Update to 2017 email.

App.392a

“Respectfully, an email was first written on March
11, 2019 and electronically mailed to the AFA
President on March 12, 2019.
“March 22, 2019
“SUBJECT: Update to 2017 email follow-up. “This
letter comes to you with care, concern and kind­
ness.
“With great respect, I am following up with my
email sent to you March 11, 2019.
“In brief, the email was reaching out for updated
information regarding the Flight Attendant work­
place.
“With great respect and at your earliest conveni­
ence, can you please provide a response for insight,
clarity and understanding to three questions of
interest?
“With respect,
“1. Should there be an updated Hazard Commu­
nication Module to new Onboard Aircraft Cabin
Products used in our work environment?
“2. Are the new Onboard Aircraft Cabin Products
verified in compliance with the Rule of Law 49
U.S. Code 5124?
“3. Is there the ability, the Flight Attendant Asso­
ciation (AFA), can provide a Health Survey for
insight, clarity and understanding into our work
environment for possible improvements?
“Thank you for your time, interest and support in
assuring the very best, for so many thousands of
Flight Attendants flying the skies worldwide.

App.393a

“Sincerely, Tina”
“Respectfully, I have received no response from the
President of the Flight Attendants Association
(AFA), as of my emails, in March of 2019.
“YOUR HONOR and with respect,
“5) Please allow me to read a letter written from
my 2014 Occupational Doctor for the record, dated
11/10/2014, which will be respectfully submitted
today.”
I think it has already been submitted, but let me
know if it hasn’t.
HEARING OFFICER: Can you identify that again,
just for the record?
MS. ALESSIO: Yes. The Occupational Medicine Doctor
letter is dated November 10, 2014.
HEARING OFFICER: Okay.
MS. ALESSIO: And it is “Re: — ” I am going to quote
— ’’Allergic Reaction of March 17, 2014 Due to
exposure to air freshener aboard United aircraft.”
“To All Interested Parties:
“I have reviewed the medical information avail­
able from Ms. Alessio in regards to her exposure
to the air freshener discs installed in the United
aircraft lavatories while performing her usual
duties as a flight attendant. The information
reviewed includes Ms. Alessio’s HealthSpan chart,
along with:
“The medical notes and return-to-work statement
of Dr. Vieweg on 3/19/2014 recommending avoid­
ance of exposure to offending chemicals.

App.394a

“Ambient Testing by Dr. Silver done on June 11,
2014 demonstrating swelling of the hand joints as
a result of exposure to Flight Fresh Deodorant
disks.
“Pictures demonstrating Ms. Alessio’s hand joints
swelling following exposure to deoderant disks
while working in the united aircraft.
“Given this information, it is my opinion, with a
reasonable degree of medical certainty, that Ms.
Alessio developed a work-related allergic reaction
upon exposure to the air freshener discs. This
information is further supported by the evidence
that upon re-exposure to the discs when Ms.
Alessio returned to work on September 19, 2014,
Ms. Alessio had a similar documented allergic reac­
tion, and that by avoiding exposure, Ms. Alessio
did not have a similar allergic reaction.”
MS. EVERETT: And who is the doctor? What is the
doctor’s name?
MS. ALESSIO: Dr. Kirschman. “Unquote” of his letter.
HEARING OFFICER: And we are just going to take a
little break. I see you are stretching.
THE REPORTER: Oh, I am good. Thank you. I just
needed a little — I am good. Thank you.
HEARING OFFICER: Okay. Ms. Alessio, go ahead,
please.
MS. ALESSIO: “Please note: My Occupational Doctor
is no longer available for me to see. And Physi­
cians of Record are the only Doctors who can pro­
vide medical opinion from 2014 history to date
with regards to my Claims.

App.395a

“6)Please allow me to read the notes written from
my PCP for the record, of which I will be respect­
fully submitting today, office visit dated March
25, 2019. “
I will give that to you now. I will be submitting
this today.
“The Doctors Progress Notes/Advice Only, regard­
ing the rheumatoid arthritis in hands.”
And I quote: “Patient has hx seronegative RA
involving hands and wrists, followed by Rheu­
matology Dr. Hong q 6 months approximately.
She has been prescribed prednisone for PRN use
for hand sx, which she takes rarely. Patient does
not wish DMARDs.
“Last IP injections by ortho February 2016.
“Patient notes air freshener disc exposure at her
work exacerbated her hand swelling. She notes
improvement in her symptoms since the discs are
no longer on board her flights as she works shifts
as an airline attendant. Patient notes she is able
to perform CPR and is not requiring injections and
not experiencing her previous level of hand
symptoms since she has not been exposed to “JonDon Matrix Sanitizer/Cleaner #3 Super Concen­
trate.”
And that is the Doctor’s progress notes and advice
only.
“Unquote:”
“RECORD OF PROCEEDINGS
“7) Please allow me to communicate the District
Hearing Officer’s response as to the reasons

App.396a
Claim #16-113538 was denied and disallowed,
including a respectful reply:
“1. Claimant alleges that she sustained a compen­
sable diagnosis on 11/16/2016, while working as a
Flight Attendant on flight 1612.
“My reply: That is correct. I came to work fit for
duty, no aggravation to my hands or wrists until
I boarded the Aircraft and there were 3 Chemical
Air-Freshener Disks onboard.
“2. She stated on her application and at hearing
that she was exposed to chemicals associated with
air freshener deodorant discs, jet scent lavatory
spray, sanitizer spray, triclosan and hand soap.
“My reply: First Report of Injury (FROI), indicates
a total of 4 Chemical Substance Products in the
Aircraft Cabin. That is correct. Triclosan is the
FDA banned ingredient in the Hand Soap.
“3. Her application states she suffered swollen
hands and rash.
‘My reply: First Report of Injury (FROI), is where
I state swollen hands — painful. Rash present.
“4. She stated at hearing that she was hired in
1998 by the Employer and in 2003 she was
diagnosed with rheumatoid arthritis.
My reply: That is correct. I believe the inhalation
of the Chemical Substance Products in the
Aircraft Cabin caused substantial inflammation
and injury to the arthritis existing in my hands
and wrists. No protective measures are provided
by the Employer from inhaling Chemical AirFresheners inflight.

App.397a

“5. The Claimant stated at hearing in support of
her current application that her contact with the
chemicals was due to the presence of these
chemicals in the air of the aircraft.
“My reply: My First Report of Injury communicates
Air Quality. That is correct. Example: Cigarette,
2nd hand smoke. You don’t have to smoke a
cigarette yourself to have your clothes and your
hair smell like smoke. It’s in the air and your
clothes, skin and body absorbs what’s in the air.
You become apart of the “Air” that surrounds you
in your environment. Inhalation is the most
sensitive entrance into the body, of which Chemical
Sprays or Chemical Air-Fresheners, sprayed or
emitting in the “Air”, can be inhaled causing
injury and illness.
“6. She states that she did not handle any of the
chemicals directly.
“My reply: That is correct. Rubber gloves are pro­
vided for protective measures from handling
Chemical hazards. However, there are no pro­
tective measures for breathing Chemical AirFresheners sprayed or emitting in the Aircraft
Cabin for Flight Attendants,” as well as the
Global Air-Traveling Public.
“7. She stated she breathed the air containing the
chemicals and that the chemicals in the air would
settle on her.
“My reply: That is correct. You are a product of
your environment. You are the product of the
products you are breathing. The “Air” around you,
surrounds and encompasses you completely. You
are apart of the “Air” that surrounds you.

App.398a

“8. She argued at the hearing that this exposure
in November of 2016 caused a compensable med­
ical diagnosis.
“My reply: The inhalation of Chemical Substance
Products in the Aircraft Cabin, caused injury of
substantial aggravation, inflammation and swell­
ing to my hands and wrists.”
Respectfully.
“9. Most recent medical in the claim file from
MetroHealth dated 2/5/2018 and 8/2/2018 and
record of Employee Medical Facility dated
11/17/2016 fail to provide sufficient proof of a new
and acute compensable injury and/or compen­
sable diagnosis due to exposure of chemicals on
11/16/2016.
‘My reply: Motion for Continuance to receive more
current evidence 2014 history to date, with my
Rheumatologist Doctors appointment April 2,
2019, was denied today. How can I provide suffi­
cient evidence if my request to see my Doctor is
being denied before the hearing?
“10. Of note, there are up to eighteen references” —
excuse me. “Of note, there are up to eighteen
reference claim files that reflect applications
made due to the Claimant’s allegation of chemical
exposures while serving as a flight attendant.
“My reply: That is correct. Nineteen is today’s
hearing due to inhalation of the Chemical Sub­
stance Products used in the Aircraft Cabin. The
one Work Injury Claim to equal 20 Work Injuries

App.399a

was hand and wrist sprains performed — per­
forming CPR on a manniquin [s/c mannequin] at
the Employers Training Facility.
“11. The symptoms of swollen hands, rheumatoid
arthritis and/or aggravation of same, rashes, pain
and/or other physical reactions all have been
alleged to have existed and caused by the
exposure in every one but one of the reference
claim files with pre-injury dates to this claim.
“My reply: To be clear, 19 Work Injuries due to
Chemical Substance Products in the Aircraft
Cabin. And 1 Work Injury which was not a pre­
injury, but rheumatoid arthritis. The injury was
both hands and wrists sprained. I did not come to
work injured with hand and wrist sprains,” for
the record to be clear. “I came to work with
arthritis, when I was then physically” at work
“injured due to a CPR performance expectation at
the Employers Training Facility.
“12. None of these claims have been allowed.
“My reply: That is correct.
“13. Further, the medical reports submitted to the
claim file in the year 2014, have been previously
considered and rejected by the Industrial Com­
mission as not being persuasive evidence to sup­
port a compensable claim. None of these reports
address the most recent assertion of exposure on
Flight 1216.
“My reply: Respectfully, I have been denied the
ability to provide further HealthCare Medical
Review, history to date, with my Rheumatologist

App.400a

Doctor 2014 to date, appointment scheduled April
2,2019. A Motion for Continuance has been denied.”
I would have loved to have provided his medical
opinion, respectfully.
“14. The reference claim files document allegations
of chemical exposure for years while serving as a
flight attendant.
“My reply: That is correct. Since my hire date of
1998, the Employer has used Chemical Substance
Products for the Aircraft Cabin.” And I was
diagnosed with rheumatoid arthritis in 2003. In
other words, I was hired prior to being diagnosed
of RA.
“15. These files support a conclusion that the issue
of chemical exposure and a physical compen­
sable diagnosis has not been proven for the dates
of exposure alleged in those files and that the
current physical complaints are not new.
“My reply: Rule of Law 49 U.S. Code 5124. With
respect, I believe chemical exposure in the Aircraft
Cabin is against the law.
“YOUR HONOR and with great respect, in addi­
tion to the summary of the “53” FACTS, EVI­
DENCE and MEDICAL OPINIONS, in the Dis­
trict Hearing, may the Staff Hearing Officer,”
Your Honor, “be pleased with the sufficient facts
and evidence including further medical docu­
mentation, with the inability to provide further
evidence, demonstrated in today’s Staff Hearing
to conclude a new and compensable diagnosis
occurred due to chemical exposure on the date of
injury, November 16, 2016.

App.401a

“The Injured Worker respectfully requests the
approval allowance for Claim #16-113538.
“To the very best of my ability, I believe the infor­
mation in my Opening Statement to be accurate
and true.
“Thank you for allowing me to finish my Opening
Statement.”
I have — I believe it is ten after nine — or ten.
HEARING OFFICER: Yes, ma’am.
MS. ALESSIO: Okay. So I still have —
HEARING OFFICER: You will have time.
MS. ALESSIO: — time for a Closing Statement?
HEARING OFFICER: I believe so.
MS. ALESSIO: Thank you.
HEARING OFFICER: It depends on how long Ms.
Everett takes, but we will accommodate as much
as we can.
MS. ALESSIO: Thank you very much.
HEARING OFFICER: Anything else at this point, Ms.
Alessio? Have you presented everything that you
wanted?
MS. ALESSIO: Thank you, Your Honor, for your
patience, your time, your care, concern and kind­
ness. This means so much to so many.
HEARING OFFICER: Ma’am, I just — there are two
more documents you have there.
MS. ALESSIO: Yes, sir.

App.402a

HEARING OFFICER: Just they are out there. I just
wanted to make note of that. What is that for the
record, just so we —
MS. ALESSIO: Yes, sir. In addition to my hands at
home, and at work, showing the difference of my
arthritis and what I believe is injury in the
workplace, there is a document that I have plac­
arded here. It states the “Federal Law 49 U.S.
Code 5124, “in quotes.
HEARING OFFICER: Can you just read that title at
the top there into the record?
MS. ALESSIO: Yes, sir. In quotes, “Federal Law
forbids the carriage of hazardous materials aboard
aircraft, in your luggage or on your person,”
unquote.
With great respect to that statement, I think that
when ground personnel comes on board the
aircraft and sprays these products, that is not
following the law, in my opinion. I don’t know.
There is no Certificate of Compliance with the
Rule of Law. That is why I am reaching for
answers to concerning questions.
And on your person, you know, you can’t use it in
the plane. It’s — you can’t — nobody can polish
their nails on an aircraft. So for a chemical airfreshener to be constantly emitting inside the
Aircraft Cabin, I just find that to be wrong. And
that there are safe, harmless products that could
be used inside the Aircraft Cabin that I believe
truly would be in accordance with the Rule of Law.
And then this placard is a picture of my work
environment. And that is a display of an aircraft

App.403a
at 30,000 feet where, unfortunately, the first aid
procedures that states on the Material Safety
Data Sheets are not an option.
HEARING OFFICER: Okay. Thank you, ma’am.
Ms. Everett, the Employer’s presentation?
MS. EVERETT: Sure. I am going to summarize some
of the testimony that was taken at the DHO,
because you have a — you have a transcript.
And beginning at page 49 of the transcript from
the DHO hearing, just by way of summary, Ms.
Alessio has consistently testified that she was
diagnosed with rheumatoid arthritis in 2003.
She has consistently testified at these hearings
that she doesn’t actually touch these different
cleaning products. She doesn’t spray the sprays.
She doesn’t use the hand soaps on her skin. She
is not responsible for cleaning the aircraft. The
folks on the ground clean the aircraft. And she
doesn’t touch these discs that are in the lavatories;
these air-freshening discs.
And she has also consistently testified that her
theory of her case is that her being able to smell
the fragrances from these different cleaning
and/or air-freshening products is what causes
either a rash on her hands, or her hands to swell.
So just to be clear, she has never testified that she
actually touches these products with her own bare
hands. And the reason that is important is because
there has never been any medical evidence that
supports that theory of her case.

App.404a

She has seen Dr. Kirschman. She has seen Dr.
Hong. She has seen — she was evaluated in 2014
by an allergist, a Dr. Eli Silver, who was sent
these different products, and he did testing that
was inconclusive.
In fact, all of these reports and records from these
doctors that Ms. Alessio has consulted with have
previously been determined insufficient to sup­
port a claim. There is nothing new about this
claim: It is the same theory of the case; it is the
same product she is claiming she was exposed to.
It is just a different day that she had — that she
claims this reaction.
So the — just, briefly, with regard to her continu­
ance request; you have on file an office note from
Dr. Hong. That is H-o-n-g. He is her rheumato­
logist. She saw him on August 2, 2018, and also
on February 5, 2019. And those office notes are in
the file. They were in the file for the DHO
hearing.
They don’t express an opinion of medical causa­
tion, Mr. Mahlay. They just recite what the
patient tells the doctor. And then he either
prescribes some Prednisone, or makes some re­
commendations to her about her symptoms. He
never gives a causal statement of medical causa­
tion that supports her theory that airborne
exposure to cleaning products causes either an
aggravation of preexisting rheumatoid arthritis
or a rash on her hands.
The Employer’s position is that these products are
not hazardous. And the Employer’s position is
that Ms. Alessio has never submitted appropriate

App.405a

expert statements that these documents — or,
excuse me, that these cleaning products are haz­
ardous.
You have the MSDS sheets. Those were provided
in previous claims, as well. Other Hearing Officers
have looked at them. The MSDS sheets, without
an appropriate scientific analysis, or person who
is qualified to express an opinion about what they
mean, are not evidence. I mean, a layperson
cannot interpret the meaning of data and infor­
mation on a Material Safety Data Sheet.
Similarly, in one of the previous claims, I got on
the internet and just ran some searches for MSDS
sheets for household cleaning products, just to
look at them. And just to let a Hearing Officer look
at what a general household cleaning product
would be.
And so I pulled that into the hearing folder today;
some of the ones from a different claim about a
Plugins Scented Gel Air-Freshener, and some
type of a Glade Tough Odor Air Sanitizer.
And, you know, it is the Employer’s position that
the products that are used on the aircraft are
nothing more than household cleaning and airfreshening products. And there has been no
demonstration or true evidence that they are any
different.
And so the Employer’s position is that Ms. Alessio
has not sustained her burden that these cleaning
products and air-freshening products are hazar­
dous. She keeps saying that they are hazardous,
but just saying it doesn’t make it so.

App.406a
I mean, hundreds and thousands of people come
on board these aircrafts every day. And there is
no evidence submitted on behalf of her case that
other people have similar reactions to these
products, other than herself. So that is the
exposure information.
The medical information, I think we have ad­
dressed. This note from Dr. Armao, Joseph Armao,
dated March 25, 2019, that she just submitted
today, also contains no medical opinion of causa­
tion that causally relates airborne exposure to
cleaning products as being the result of either a
rash or aggravation of her arthritis.
And of course this is from 2019. And we really
need to focus on November of 2016. What evidence
is there around that time about-that would support
a causal link. And there isn’t any.
Even the photographs that she has are from 2015,
she tells us today, which is the previous year. And,
of course, all of this has been submitted in her
other claims, as well.
Just — let’s see if there is anything else.
This claim has been pending for two and a half
years from her date of injury. She withdrew the
claim at one point, and then refiled it. She has
had ample time to gather her medical evidence,
or any evidence that she wanted to submit. She
knows how to submit evidence. She has submit­
ted a lot of evidence.
She sees Dr. Hong periodically. She has seen him
at least back to 2014, that I am aware of, in her
other claims. And he is — that is the person who

App.407a

she has an appointment with next week. He has
never expressed an opinion that supports Ms.
Alessio’s theory of her case.
And so the Employer requests that you affirm the
decision of the District Hearing Officer and deny
this claim for lack of evidence that would correlate
an occupational injury.
HEARING OFFICER: Thank you. Ms. Alessio, any
rebuttal, and then your Closing Statement, as
well?
MS. ALESSIO: Yes, sir. The theory of my case, with
respect to my Employer’s Legal Representative, I
will give you an example. If you smell anything, it
is entering your body internally. Just like if you
were to drink something, it is entering your
system. It is going in, because you are inhaling it.
So if it is a fragrance, especially a specific chemical
fragrance, it is going to enter your body and do
harm if it is not a safe product, unless you wear
protective measures.
The example of smelling a fragrance in respect
with the air fresheners onboard the aircraft, too
much of it in your body, you are going to get dizzy,
nausea, vomiting, headaches. These are some of
the symptoms that customers even have onboard
the aircraft, okay?
If you were to drink too much liquor, your body is
not going to like it. You will probably vomit.
Well, if you inhale too many fragrances of a
chemical in an enclosed environment, your body
is going to react. And my body did. And I am here
to prove it and show it to the best of my ability.

App.408a

When we see something, we are supposed to saysomething. And it is supposed to just make
common logic sense, with dignity and respect, due
to the fact that we are in the air and not on the
ground.
Ms. Everett communicates household products.
You know the difference between household
products and the products that we are using
— any product, for that matter; the difference is
the first aid procedures.
I would like to provide for you the — reference, you
know, if you would, the Material Safety Data
Sheet. And if you could just look at the product
name, that is the #3, what does it state under the
“Hazard Identification” on the first page, under
“Health”?
What does it say, if you don’t mind me asking for
you, sir, to state?
HEARING OFFICER: Well, I don’t — you don’t get to
ask the Hearing Officer questions, but you can
enter it into the record. You are talking about
page 1, Section 3 —
MS. ALESSIO: Yes.
HEARING OFFICER: — Hazard Identification. Go on.
MS. ALESSIO: It states “2,” which is moderate. If you
turn the —
HEARING OFFICER: Is it — for the record, this is the
HMIS ratings for the Matrix Sanitizer/Cleaner #3.
Go ahead.
MS. ALESSIO: That is the spray that they use inside
the cabin; an enclosed environment of which we

App.409a

are not able to — what is under Section 4, the second
page, “First aid measures: Inhalation” — what does
it state there? “Remove from exposure.” This is
why it is a Federal Law.
You cannot, in flight, do such a thing. This is the
difference between being on the ground and using
these products that — it is not a manufacture crisis
on the ground. Anybody can use anything,
because your first aid procedures are you remove
yourself.
But it is a Federal Law and a manufacture crisis
in the air, because chemicals are not permitted
inside the Aircraft Cabin at anytime, anyplace,
anywhere, from how I understand it, under 49
U.S. Code 5124.
The Rule of Law is to protect the people from
harm and injury. And I say that with great love
and in my heart.
If you go to page 132 of the MSDS, this was the
Hand Soap. Under “Component Information,” the
ingredient is Triclosan. That ingredient has been
banned from the FDA. There should be none of
that.
And with great respect to my Employer, I don’t
know why they just didn’t at that time it was, you
know, banned from being used, that my Employer
just didn’t remove all product immediately and
replace it with something.
The first aid procedures under “Inhalation,” it
states “Not applicable.” If it has any smell to it, it
is in the air. You are inhaling it. So for them to
state that there is no —”n/a,” not applicable, it

App.410a

doesn’t make sense for this particular product.
Under “Regulatory Information, Workplace Class­
ification,” under “OSHA: Not OSHA regulated.”
Under “Transportation: Not regulated by DOT.”
If you go to page 139, the same thing for
the — another product that they use. This is just
going through the products. The Air-Freshener
Disc Material Safety Data Sheet, that is on page
140.
By the way, these products’ Material Safety Data
Sheets were subpoenaed. And they were allowed.
So for the fact that I requested and subpoenaed
for the Material Safety Data Sheet to the new
product that is inside the Aircraft Cabin, makes
you kind of wonder why. What is there to hide?
I don’t know why we wouldn’t want to be 100
percent in full disclosure here at this hearing,
because I am breathing the same air that
everybody else is breathing. None of us have the
ability to remove ourselves. And that is what
makes this such a substantial hearing; with
regard to my work injury and seeing something
and saying something.
Under the “Flight Fresh Deodorant Disc,” it states
that it is a freshener and deodorizer. And under
“Components,” Section 3, under “Substances,” it
states “Not applicable.” We do not have the right
to know what we are breathing today, in most
cases.
Now, this particular product has been removed.
But in this particular work injury heard today, it
had been discontinued and removed. But guess

App.411a

what? There were three onboard my flight 2016,
November 16. That is concerning.
First aid measures for the Material Safety Data
Sheet for the Flight Fresh Disc, “Seek fresh air.”
Your Honor, and with great respect, I don’t believe
we have the ability to do that onboard the aircraft
inflight. And I say that with great respect and
love in my heart. We do not have this ability.
Hence, the Federal Law. It needs to be abided not
just by Customers and Inflight Crew Members,
but by Corporate. They need to be following the
law, as well. No one is above the law.
And with great respect to my Employer, they have
not been able to provide me a Certificate of
Compliance; this is concerning. And, hopefully,
our 116th Congress Committees — House Com­
mittees will look at this and take action with
respect to providing all products 100 percent
transparent and safe, and respectfully providing
a Certificate of Compliance.
In addition to the first aid procedures, it also states
in “(Overexposure is most likely to occur dealing
with large quantities in an enclosed space with
inadequate ventilation.)” This is a perfect des­
cription of the aircraft. And this is why I would
come to work and my hands would turn to this.
(Indicating.) And I would go home and it would
return back to this — that. (Indicating.) This is in
the aircraft, and that is back at home.
With the JetScent Pump Spray that is still used
inside the Aircraft Cabin as an Air-Freshener, I
personally believe it is the liquid to the solid of

App.412a

the Flight Fresh Deodorant Disc that was removed
and discontinued.
Under Section 3 “Components, Substances, Not
Applicable.” A second Chemical Substance Product
that we don’t have a right to know the full list of
ingredients. This is concerning and needs
addressed, respectfully.
Section 4, “First aid measures after inhalation:
Remove to fresh air.” Can’t do that.
I say this with great love in my heart, because I
don’t want, like, for example, this company to
think that I am, you know, pointing them out. It
is okay on the ground. It is just the most inappro­
priate place to be using it, specifically in our rare,
unique, particular environment. That is all.
We need to be transparent. You can use every
single one of these products on the ground and
have no problem. Because, number one, you
might want to use protective measures. Or,
number two, you don’t like it, you leave it.
But this is not the case where I work; my environ­
ment is unique. And it needs to be treated as such.
And I think by just simply following the Federal
Law, we would be doing that.
So I am requesting thatffhese products be made
transparent and safe with a Certificate of
Compliance.
With great respect to my Ambient Exposure Chal­
lenge Test held on June 2, 2014, where the
amended response by Dr. Silver on June 11, 2014
— so the test is done, as you can see the date,
June 2, 2014. This is before I went in. The date

App.413a

and time are located at 11:35 and 36 a.m. I took a
picture of my left hand. I took a picture of my
right hand.
They took measurements of my joints before I went
in. And during the three hour Ambient Exposure
Challenge Test, they took measurements ongoing
through that three hour period. At the end of that
three hour period — this was during, okay?
You have the left and the right hand during the
Ambient Exposure Challenge Test. This is taken
at 3:05; the very end of the three hour test. So
3:01 and 3:00, okay? In less than a half an hour,
when I leave the room, in less than a half an hour,
I am going to show you what happens. A picture
of my left, and a picture of my right hand. Time
and date, 3:24 and 3:24.1 did that one within the
one minute circumference time frame.
A substantial difference with respect to during the
Ambient Exposure Challenge Test and after.
And of course with great respect, I will be sub­
mitting these pictures today, you know, for the
hearing. I believe it was already submitted. I
don’t know if the 2014 injury claims that — I had
legal representation at that time, for a period of a
number of claims in 2014. I had some represent­
ation legally, but they were all denied.
But this is a substantial difference that I know that
the public can’t see in this Court Reported Record.
But maybe at another date and time, they might
be able to. Somehow, a possibility there.
My doctor’s opinion, when I saw him just
recently — I see my rheumatologist every six

App.414a

months. I didn’t know the District Hearing
Officer’s conclusion when I went to see my doctor.
Had I known, of course I would have asked him
for an opinion from history to date, but I didn’t
know he was going to deny it.
It was only until I received the information, and I
believe it was online that I knew, and so I called
that day. But it wasn’t until I got it in the mail
that I filed the Motion for the Continuance, so
that I could provide this medical documentation. So
that is kind of unfair to me, thinking that I am
going on an every six month basis, to see my
doctor for follow-up; and then I go to my hearing,
District Hearing, and it is denied.
So then, of course, I need more evidence. I am
going to go back to the doctor I have and say,
“Listen, what we are going to need is the 2000 [sic
2014] to date. Just a healthcare overview; what is
going on before and what is going on now kind of
thing.” But that has been denied.
So I am not sure I am able to state, even under
oath right here, right now, looking at you into
your eyes, that I was able to tell the whole truth.
And that is not fair to me. It is not fair to those in
my work environment who are being subjected to
these products as I am. Because we are all
breathing the same air. It is just not fair.
So if the Employer’s position, I say this respect­
fully, they believe these products are not hazar­
dous; I can agree with you 100 percent on their
position on the ground — on the ground. But in the
air, not so much, not so much. You cannot seek

App.415a

fresh air. You cannot remove yourself from expo­
sure.
And ironically enough, and I say this with great
love in my heart and with great respect to my
“Superiors,” I have begged them to “Please come
fly with me.” I have begged them. And no one has,
from my Supervisor up to the CEO.
And, respectfully, I just met the CEO March 18th,
because we are having this yearly event that all
Flight Attendants are going to be attending. I had
the opportunity to ask him and invite him to
“Please come fly with me,” and that I had a con­
cern.
And when I mentioned 49 U.S. Code 5124, he di­
rected me to someone else, of whom their name is
Nathan. I did not get his last name. He took my
Employee number and he said he would get back
in touch with me. I have not heard back. That was
March 18th that I had the honorable opportunity
to meet the CEO and share this loving concern
that I have, that I just want transparency; that
I just would love to see the Certificate of
Compliance; that I would just love to see the list
of ingredients.
But they won’t come fly with me. They won’t
provide the Certificate of Compliance, because I
don’t believe that there is one. And they won’t pro­
vide the list of ingredients, because the manu­
facturer states it is not applicable. And they have
a disclaimer on the products. So it is not their
fault. It goes into the hand of who is allowing
these products and approving these products to be

App.416a

used. Product liability. Call it what you may. I
believe that is the case.
Because no one should be using something that
you can’t have 100 percent verification of what it
is, especially in this unique and particular envi­
ronment. This is a, quote, “Right to know,”
unquote. A Civil and Human Rights to know. And
we are being denied. Not just myself, the whole
Global Air-Traveling Public.
Anyone can call and ask what I have called and
asked for, and researched. And when they get
what I got, I don’t know if they are going to like
it. I don’t know if they are going to be happy with
the fact that what they thought and believed
— because they don’t want [sic don’t know to
know] to know if these products are, in fact,
following the Rule of Law.
So when you say that I am saying that it isn’t so,
I am saying it isn’t so because I am showing you
by a visual work injury that it is so; that these
products are harmful to us; that they should not
be used due to their hazardous materials inside
the ingredients that are withheld.
And just to bring back some of — another quick
note, when I had the dermatologist ask the
manufacturer’s chief chemist, and this is all in
corporate reports in the past that are in the
record, and evidence has been submitted respect­
fully to the Industrial Commission; that she
wanted to do a patch test on me just to see what
I am allergic to, she wasn’t allowed to get the full
list of ingredients. It was submitted to me in an
email, that the Dermatology Department stated

App.417a

that it was too unsafe to put in a patch test, the
ingredients.
So if it is too harmful to put on our skin, the most
toughest part of our body, how is it okay to be
inhaling it in an enclosed environment? On the
ground, no problemo, easy breezy. But in the air,
against the law, in my opinion, and should be full
transparency.
HEARING OFFICER: Did you want to get to your
Closing Statement, ma’am? You had a Closing
Statement?
MS. ALESSIO: I do. And thank you, because I could
carry on, and I apologize. But I have a passion
and a love in my heart, not just for my personal
self, but for my work environment that I love to
do for a living.
I don’t want to change what I am doing to change
this debacle, respectfully, [sic “I don’t want to
change what I am doing for a living, looking for a
positive change in this debacle, respectfully”]
Everybody else is subjected to this. So I don’t
want anyone to get sick or ill onboard the
Aircraft. And if we are transparent, I think you
would see less of that.
“YOUR HONOR, In Conclusion:
‘TOUR HONOR, and with great respect, “Thank you
for allowing me the opportunity to communicate
what I strongly believe to be a Public Safety and
Health concern, when using Chemical Substance
Products in the Aircraft Cabin for cleaning and
air-freshening, including chemical fragrances.

App.418a

“With respect, I have demonstrated this Safety and
Health concern to the best of my ability through
my very own true life work injury experiences.
With great respect to my “Superiors”, I believe
everyone of my work injuries could have been
avoid [sic Avoided”] and prevented if, First Aid
Procedures were available or protective measures
were provided in the Aircraft Cabin. Respectfully,
if only my “Superiors” desire was to require none
the less and use 100% Safe and 100% Trans­
parent, non-toxic, chemical free Aircraft Cabin
Products, the environment would be Safer and
Healthier for all Air-Travelers, this would mean
the whole Global Air-Traveling Public.
“Respectfully, who doesn’t want to be Safer and
Healthier?
“Respectfully, I have demonstrated and provided
pertinent evidence believing that it was sufficient
evidence for allowance, to the best of my ability
including the following:
“1. The Rule of Law which forbids hazardous use
in the Aircraft Cabin environment.
“2. The Chemical Substance Product Material
Safety Data Sheets, which even included the
Health Hazard Rating Level written on the Label
of the Product used in the Aircraft Cabin.
“3. The First Aid Procedures to the Aircraft Cabin
Chemical Substance Products which are not an
option inflight. Thereby, the Rule of Law.
“4. Many different Doctor’s Medical written opin­
ions. With each work injury claim, including:
Airport Clinic Medical Notes, Emergency Room

App.419a

Medical Notes, the Occupational Medicine Notes/
Opinion and Specialist Doctors Medical Notes/
Opinions.
“In this Great Country, we are taught to love one
another and take care of one another. We are
taught to support the United States of America
Constitution to “Protect the People”, and follow
the Rule of Law. We are taught if you “See Some­
thing, Say Something”.
“With great respect, where is my Government?
‘With the upmost respect, letters to many different
Government Departments and Agencies, respect­
fully reaching out for help and for protection
regarding Peoples Safety and Health with a “Top
Priority” being Air-Worthiness of the Commercial
Aircraft Cabin.
“Respectfully, and to this very day there has been
no response as to whether or not my “Superiors”
are in fact following the Rule of Law, with regards
to Chemical Substance Products in the Aircraft
Cabin. With respect, Ingredients seem to be a
“Top Secret”.
“Respectfully, People on the ground are deciding
what the People in the air are breathing. With
great respect to humanity, what is wrong for
being forthright and transparent?
‘My continued hope and prayer is that maybe more
People will come to know and understand the
truth and meaning about “cause and effect”, and
the traveling word “air-sickness”.
“Maybe, with the ability to read Public Court
Report Records, People can conclude with their

App.420a

very own opinion of what they believe to be fair,
right and just in this extraordinary, particular
and unique environment. And if enough People
come to know, become aware, educated and under­
stand, maybe just maybe, more People will decide
together the verdict for Public Safety and Health,
in the Aircraft Cabin. Maybe, just maybe, when
our Public becomes: AMERICA, THE JURY.
‘YOUR HONOR and with great respect,
“Just one question to answer for yourself:
“Do you believe products used to clean and airfreshen the Aircraft Cabin should be made trans­
parent, no secrets, with complete list of ingredients
made available, for a better air-quality environ­
ment?”
I respect no comment.
“In Closing:
“I would like to recite the AMERICAN’S CREED.
“It is by William Tyler Page and written in 1917,
accepted by the United States House of Repre­
sentatives on April 3, 1918. “
And I quote, “I believe in the United States of
America as a government of the people, by the
people, for the people; whose just powers are
derived from the consent of the governed, a
democracy in a republic, a sovereign Nation of
many sovereign States; a perfect union, one and
inseparable; established upon those principles of
freedom, equality, justice, and humanity for which
American patriots sacrificed their lives and
fortunes.

App.421a

“I therefore believe it is my duty to my country to
love it, to support its Constitution, to obey its
laws, to respect its flag, and to defend it against
all enemies.”
“WITH GREAT RESPECT, YOUR HONOR
“I love United Airlines and my Flight Attendant
Career.
“With great respect, I love the Global Air Traveling
Public, you are so very special to me, you are
Family.
“With great respect, I love and believe in the
United States of America.
“With great respect, I love, believe and trust in
GOD, the Father Almighty, creator of Heaven
and Earth.
“With great respect, I believe in Faith, Hope and
Love.
“With great respect, I believe in our U.S. Consti­
tution to Protect the People.
‘With great respect, I believe with the dignity and
respect the Global Air Traveling Public deserves,
that pure and simple, safe and transparent,
Aircraft Cabin Air Quality products for a more
pleasant flying experience across America and
around the World, will one day prevail.
“With respect to my Opening and Closing
Statements, I will be respectfully submitting my
complete written report to the Ohio Industrial
Commission to provide insight, clarity and under­
standing for a fair, right and just hearing.
“Sincerely, Tina.”

App.422a

I thank you, Your Honor.
HEARING OFFICER: Thank you, ma’am. Ms. Everett,
anything else you want to add? Any rebuttal or
closing?
MS. EVERETT: I just want you to be aware of the fact
that Ms. Alessio is still working as a Flight
Attendant for United Airlines, notwithstanding
all of her concerns expressed here today.
Obviously the aircraft has to be cleaned between
each flight for hygienic purposes. And she has
never disputed that. But she does continue to
work. I don’t know what products are used on the
aircraft today to clean them and to provide fresh
scents, if you will.
But, you know, it is still the Employer’s position
that Ms. Alessio is not a medical expert. She is
not a toxicology expert. She is not an expert on
hazardous material, nor is she an expert on Fed­
eral Law. And it is the Employer’s position that
she is entitled to her opinion, but this doesn’t
make it evidence. And the Industrial Commission
needs evidence to allow a claim.
And it is United’s position that Ms. Alessio has
not sustained her burden of proof to document she
has a compensable event with an expert and
technical evidence. And we ask that you deny the
claim.
HEARING OFFICER: Okay. Thank you. Before I for­
get, this was submitted. I will put this in the
claim file. And then also — and this is the — oh, I
don’t know about the 30 pages — this is just for the

App.423a

record — MSDS sheets. I don’t know if these are
the same ones.
MS. ALESSIO: You may have it. It has been submit­
ted, but you may have it.
HEARING OFFICER: Let me see if these are the same
ones.
MS. ALESSIO: They were submitted in a previous
claim for reference.
HEARING OFFICER: Yes, they were submitted on
March 25th of 2019. So March 25th of 2019 — I
think these are the same. Let me — I just want to
double-check while everyone is still here.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: Yes, I do have this. I am going
to give this back to you.
MS. ALESSIO: This is the original, if you want it?
HEARING OFFICER: It is in the claim file.
MS. ALESSIO: Yes, sir.
HEARING OFFICER: And, also, you will be submitting
this, because this is the 3/25/2019 office record of
Dr. Armao, A-r-m-a-o. And that you have, that I
believe was not in the claim file. You will submit
that?
MS. ALESSIO: Yes, sir. And I will be submitting those
photographs, as well, today.
HEARING OFFICER: Okay. Thank you very much. I
will probably take this matter under advisement. I
will get an advisement order first, so I can review
all of the evidence. And then probably seven to

App.424a

ten days, you can expect my final order. Thank
you.
MS. EVERETT: Okay. Thank you.
MS. ALESSIO: Thank you very much.
HEARING OFFICER: Thank you.
Thereupon, the hearing was
concluded at 10:50 a.m.

App.425a

CHAPTER THREE
CONCLUSION
In Conclusion:
Previously In “America, The Jury”, Reference Claim
“Heard With” Claim #16-807292 Regarding Aircraft
Cabin Air-Quality Were Denied And Disallowed.
Aircraft Cabin Air-Quality Claims Heard
Denied And Disallowed (Not Court Reported)
From 2010 to 2015
2010 — One
2014 — Five
2015 — Seven
Previously In “America, The Jury”, — First Sequel
Reference Claims “heard with” Regarding Air-craft
Cabin Air-Quality were denied and disallowed
1. Claim: Aircraft Cabin Air-Quality
With Respect, Record Of Proceedings Mailed
4/6/2019, States Claim Heard At The Staff Level,
Is Denied And Disallowed.
With Respect, On 4/12/2019, I Appealed The Staff
Level Decision, And Respectfully Requested To Be
Heard At The Commission Level.
With Respect, Record Of Proceedings Mailed 4/25/
2019, Communicates 2 Staff Hearing Officers
Reviewed Appeal On Behalf Of The Commission
And Concurred With The Decision Of Appeal Be
Refused.

App.426a
Respectfully Submitted #16-113538

At Home
•***« V
5»*

j

,'4

.»*#!**

^

r
i

App.427a

At Work

App.428a

CHAPTER FOUR
THE QUESTION
With great respect, one question:
With the utmost respect to “air-traveler’s “health
AND SAFETY ~
DO YOU BELIEVE PRODUCTS USED TO CLEAN AND AIRFRESHEN THE AIRCRAFT CABIN SHOULD BE TRANSPAR­
ENT, NO SECRETS, WITH COMPLETE LIST OF INGREDIENTS
MADE AVAILABLE, FOR A BETTER AIR-QUALITY ENVIRON­
MENT?

App.429a

CHAPTER FIVE
THE VERDICT

America. the Jury:
Your Verdict Is in...
When You Respectfully Contact:
United States ofAmerica
Airline Industry, and Inquire.

With Great Respect, That Is If You
Believe You Have the Right to Know...

SUPREM E COURT
Press

